<html>
<title> - S. 2165, S. 2716, S. 2912, S. 3019, S. 3044, S. 3099, AND S. 3100</title>
<body><pre>[Senate Hearing 116-338]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 116-338

   S. 2165, S. 2716, S. 2912, S. 3019, S. 3044, S. 3099, AND S. 3100

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 24, 2020

                               __________

         Printed for the use of the Committee on Indian Affairs
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
42-357 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------

                      COMMITTEE ON INDIAN AFFAIRS

                  JOHN HOEVEN, North Dakota, Chairman
                  TOM UDALL, New Mexico, Vice Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska               JON TESTER, Montana,
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                CATHERINE CORTEZ MASTO, Nevada
MARTHA McSALLY, Arizona              TINA SMITH, Minnesota
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Jennifer Romero, Minority Staff Director and Chief Counsel
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 24, 2020....................................     1
Statement of Senator Cantwell....................................     8
Statement of Senator Cortez Masto................................    11
Statement of Senator Daines......................................     4
Statement of Senator Heinrich....................................     6
Statement of Senator Hoeven......................................     1
Statement of Senator McSally.....................................     9
Statement of Senator Murkowski...................................     7
Statement of Senator Tester......................................    10
Statement of Senator Udall.......................................     3

                               Witnesses

Lacounte, Darryl, Director, Bureau of Indian Affairs, U.S. 
  Department of the Interior.....................................    11
    Prepared statement...........................................    12
Petty, Hon. Timothy R., Ph.D., Assistant Secretary, Water and 
  Science, United States Department of the Interior..............    14
    Prepared statement...........................................    15

                                Appendix

Association on American Indian Affairs, prepared statement.......    43
Beeter, Evelyn, Mt. Sanford Tribal Consortium, prepared statement    40
Bovee, Deana M., Tribal Chairwoman, Susanville Indian Rancheria, 
  prepared statement.............................................    32
Chavarria, J. Michael, Chairman, All Pueblo Council of Governors, 
  prepared statement.............................................    37
Confederated Tribes of Warm Springs, prepared statement..........    44
Echohawk, John E., Executive Director, Native American Rights 
  Fund, prepared statement.......................................    36
Edmondson, Paul, President/CEO, National Trust for Historic 
  Preservation, prepared statement...............................    35
Feller, Susan, President & CEO, Association of Tribal Archives, 
  Libraries and Museums, prepared statement......................    46
Friend, Hon. Billy, Chief, Wyandotte Nation, prepared statement..    29
Harris, Hon. William, Chief, Catawba Indian Nation, prepared 
  statement......................................................    31
Kitka, Julie, President, Alaska Federation of Natives, prepared 
  statement......................................................    42
Korthuis, Vivian, CEO, Association of Village Council Presidents, 
  prepared statement.............................................    30
Letters and resolutions submitted for the record 


Martindale, Kim, President, Authentic Tribal Art Dealers 
  Association (ATADA), prepared statement........................    54
McKeown, C. Timothy, Ph.D, Repatriation Advisor, National 
  Association of Tribal Historic Preservation Officers, prepared 
  statement......................................................    39
Mora, Sr., Hon. Robert A., Governor, Pueblo of Tesuque, prepared 
  statement......................................................    47
Payment, Aaron, President, Midwest Alliance of Sovereign Tribes, 
  prepared statement.............................................    50
Response to written questions submitted to Hon. Timothy R. Petty, 
  Ph.D. by:
    Hon. Steve Daines............................................   131
    Hon. Tom Udall...............................................   128
Sealaska Heritage Institute: Tlingit, Haida, and Tsimshian, 
  prepared statement.............................................    33
Swenson, Ray, Chairman, Mission Irrigation District, Federal 
  Flathead Irrigation and Power, prepared statement..............    65
Timm, Lt. Col. Glenn, (USAF(ret), Polson, MT, prepared statement.    64
U.S. Environmental Protection Agency, prepared statement.........    51
Vallo, Hon. Brian D., Governor, Pueblo of Acoma1, prepared 
  statement......................................................    59
Weahkee, RADM Michael D., Director, Indian Health Service, U.S. 
  Department of Health and Human Services, prepared statement....    48

 
   S. 2165, S. 2716, S. 2912, S. 3019, S. 3044, S. 3099, AND S. 3100

                              ----------                              


                        WEDNESDAY, JUNE 24, 2020


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
562, Dirksen Senate Office Building, Hon. John Hoeven, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. Good afternoon. I will call this legislative 
hearing to order.
    Before we begin, I want to remind those members who are 
connecting with us remotely to please mute your microphone. 
This will cut down on the static feedback in the hearing room.
    In addition to the Senators in the room right now, also 
attending remotely are Senators McSally, Tester, Cortez Masto, 
and Murkowski.
    Today the Committee will receive testimony on seven bills, 
S. 2165, the Safeguard Tribal Objects of Patrimony Act of 2019; 
S. 2716, A Bill to Amend the Grand Ronde Reservation Act, and 
for other purposes; S. 2912, the Blackwater Trading Post Land 
Transfer Act; S. 3019, the Montana Water Rights Protection Act; 
S. 3044, the Western Tribal Water Infrastructure Act of 2019; 
S. 3099, the Southeast Alaska Regional Health Consortium Land 
Transfer Act of 2019; and S. 3100, the Alaska Native Tribal 
Health Consortium Land Transfer Act of 2019.
    On July 18th, 2019, Senator Henrich introduced S. 2165, the 
Safeguard Tribal Acts of Patrimony Act. This legislation is 
centered on providing additional legal protection to Native 
American tribal artifacts and sacred objects, by creating an 
explicit prohibition on exporting cultural heritage obtained in 
violation of the Native American Graves Protection and 
Repatriation Act, Archeological Resources Protection Act, or 
the Antiquities Act.
    The bill also sets forth an exporter certification system 
to accompany this export prohibition. Such a prohibition makes 
it possible for tribes to utilize other countries' domestic 
laws and law enforcement mechanisms to regain their cultural 
heritage.
    The STOP Act confirms the President's authority to enter 
into agreements under a 1970 international treaty in order to 
request the return of tribal cultural heritage from other 
countries. The authorization of such agreements, paired with 
the export prohibition and export certification system, will 
ensure the United States has the tools necessary to utilize 
this treaty.
    The STOP Act also creates a Federal framework to support 
the voluntary return of Native American tangible cultural 
heritage. This includes establishing a referral program at the 
Department of Interior that will assist individuals in finding 
a tribe with a cultural affiliation to tangible cultural 
heritage for the purposes of proper return. Lastly, S. 2165 
creates a Federal working group to ensure coordination between 
Federal agencies and a tribal working group to make 
recommendations and request agency action to assist in 
returning cultural items to the tribe.
    As part of the record for this bill, I have asked the 
Department of State and the Department of Justice to send their 
testimony on this bill by July 1st. In addition, my staff has 
also been in touch with the Department of Homeland Security to 
also secure testimony for the record on this bill.
    We have also received testimony from the Authentic Tribal 
Art Dealers Association, as well as from tribal leaders for the 
Department of Interior's testimony on the bill today.
    On October 28, 2019, Senators Merkley and Wyden introduced 
S. 2716, A Bill to Amend the Grand Ronde Reservation Act and 
For Other Purposes. S. 2716 amends the Grand Ronde Reservation 
Act and is intended to resolve an error created by an 1871 land 
survey and later 1994 amendment to the Grand Ronde Reservation 
Act. The land survey left out 84 acres of the original tribe's 
reservation. This land became known as the Thompson Strip. The 
1994 amendment included broader language that restricted 
compensation for any future land claims made by the tribe.
    The bill will allow for the Confederated Tribes of Grand 
Ronde to relinquish its claims only to the Thompson Strip 
located in Oregon rather than all land claims, as the 1994 
amendment made.
    On November 20, 2019, Senators McSally and Sinema 
introduced S. 2912, the Blackwater Trading Post Land Transfer 
Act. This bill will authorize the Secretary of the Interior to 
take 55.3 acres of land located in Pinal County, Arizona, into 
trust for the benefit of the Gila River Indian Community. Under 
this bill, there is a prohibition on Class II and Class III 
Indian gaming on the land taken into trust.
    On December 11, 2019, Senator Daines introduced S. 3019, 
the Montana Water Rights Protection Act. Senator Tester is an 
original co-sponsor. The Montana Water Rights Protection Act 
would approve and ratify the Confederated Salish and Kootenai 
Tribes of the Flathead Indian Reservation, or CSKT water claims 
in the State of Montana.
    Additionally, the bill authorizes the transfer of the 
National Bison Range to be held in trust by the United States 
for the benefit of the tribes and rehabilitates and modernizes 
the Flathead Indian Irrigation Project. This bill also settles 
many other water-related issues between the State of Montana 
and CSKT. This Indian water settlement would be the largest in 
American history.
    On December 12, 2019, Senator Wyden introduced S. 3044, the 
Western Tribal Water Infrastructure Act of 2019, which would 
expand Section 2001 of the America's Water Infrastructure Act 
so that it includes the Columbia River Basin Project. This bill 
also extends and authorizes $10 million each year for such 
projects.
    For this bill, I have asked the EPA to send in their 
testimony for the record.
    On December 18, 2019, Senators Murkowski and Sullivan 
introduced S. 3099, the Southeast Alaska Regional Health 
Consortium Land Transfer Act of 2019. S. 3099 directs the 
Secretary of the Department of Health and Human Services to 
convey 10.87 acres of land located in Sitka, Alaska, to the 
Southeast Alaska Regional Health Consortium. The land is 
intended to continue to be used for providing health and social 
services to the local area, including the 18 Native communities 
in the area.
    On December 18, 2019, Senators Murkowski and Sullivan 
introduced S. 3100, the Alaska Native Tribal Health Consortium 
Land Transfer Act of 2019. S. 3100 directs the Secretary of the 
Department of Health and Human Services to convey two parcels 
of land located in Anchorage, Alaska, to the Alaska Native 
Tribal Health Consortium. The land will be used to provide 
health and social services through the consortium.
    Both S. 3099 and S. 3100 are similar to other bills that 
this Committee has approved, previously passed and have been 
signed into law in 2013, 2015, and 2018. Therefore, I have 
asked IHS to send in their testimony for the record instead of 
appearing today.
    With that, I would turn to Vice Chairman Udall for his 
opening statement.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Mr. Chairman, and thank you for 
scheduling today's hearing.
    Before I turn to the bills before us today, I want to 
acknowledge the ongoing toll of the Covid-19 pandemic and the 
impact and what it has done and the impact it has had on tribal 
communities across the Country. Over the past months, it has 
been devastating to hear that Covid-19 has disproportionately 
impacted the most vulnerable. In my home State of New Mexico 
and across the Country, tribal communities have been on the 
front lines fighting this pandemic, all while bearing the 
weight of historic funding gaps for health care infrastructure 
and economic resources.
    So it is a dereliction of duty, it is unconscionable how 
long it took this Administration to allocate the $8 billion in 
relief funding set aside for tribal governments under the CARES 
Act.
    But this is a topic our Committee will be delving into 
further next month. Today we will hear testimony on seven bills 
that broadly focus on protecting and advancing tribal 
sovereignty. Collectively, these bills aim to protect cultural 
patrimony, protect tribal interests and land, and fulfill the 
Federal trust responsibility to tribes by settling claims to 
water rights and authorizing substantial investments in water 
infrastructure.
    Two of these bills, the Montana Water Rights Project Act, 
and the Western Tribal Water Infrastructure Act of 2019 aim to 
remedy decades of Federal neglect of water infrastructure 
serving tribal communities. Covid-19 has exposed the 
consequences of this Federal neglect. The need to frequently 
wash hands is hampered when communities lack running water. 
Social distancing is challenging when individuals must travel 
long distances to common water systems and haul water back to 
their homes.
    Water and wastewater infrastructure in tribal communities 
is critical to responding to this pandemic, and Congress must 
consider that fact when moving to any future Covid-19 emergency 
response legislation.
    As for the Montana Water Rights Project Act, formerly known 
as the Kalish Kootenai Water Rights Settlement Act, I am 
pleased to hear that the tribe has made significant progress 
with the Administration in negotiating this settlement. Indian 
water rights settlements are critical to all our western water 
users, providing certainty, resolving longstanding conflicts, 
and fulfilling the Federal Government's trust responsibility.
    But without a dependable source of funding, settlements 
like this one cannot be formally implemented. This Committee 
agreed when it unanimously approved a ten-year extension to the 
Reclamation Water Settlement Fund earlier this Congress. So I 
ask that this Committee once again come together to support the 
extension of the fund so that tribes can count on funding to 
fully implement their water rights settlements now and well 
into the future.
    Turning to the STOP Act, this bill would prohibit the 
exportation of sacred, cultural patrimony and increase 
penalties for stealing and illegally trafficking these items. 
This is an important piece of legislation that I strongly 
support. It will provide tribes and Native Hawaiian 
organizations with the tools to prevent theft, sale, and export 
of their cultural patrimony.
    I would like to thank my New Mexico colleague, Senator 
Heinrich, who is here with us today, for his leadership on this 
bill and for being a strong advocate for getting this through 
the Senate. I want to thank you, Mr. Chairman, for calling this 
hearing. I look forward to the testimony from our witnesses 
today.
    Thank you.
    The Chairman. Thank you, Vice Chairman Udall.
    Before going to our witnesses, are there other opening 
statements members wish to make? Senator Daines?

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Thank you, Mr. Chairman.
    In Montana, we have a saying, whiskey is for drinking, 
water is for fighting. Settling the century-old Confederated 
Salish and Kootenai Tribe, or the CSKT water dispute, has been 
no different. For years, this has been a polarizing issue in 
Montana. That is why I have been working in the U.S. Senate to 
resolve this dispute, negotiating with the tribe, local 
leaders, farmers and ranchers, State legislators, county 
commissioners, the Administration, and other key stakeholders, 
to find a solution, one that permanently settles the CSKT water 
dispute, protects the water rights of all Montanans, and avoids 
costly litigation.
    In November of last year, a Federal circuit court found 
that the senior water rights of the tribes and their treaties 
to protect fisheries are paramount. In fact, the farmers and 
the ranchers in Oregon and northern California went through 18 
years of costly litigation. After all that time and money and 
uncertainty, the court sided with the tribes in a three-way 
decision, a unanimous decision.
    In fact, just yesterday, the United States Supreme Court 
denied hearing an appeal to this case, and effectively upheld 
the lower court's opinion that in-stream flow rights to protect 
fisheries are covered under the Winters Doctrine. That decision 
provides additional context as to why we are here today. We 
have a constitutional duty to bring resolution to the CSKT 
water dispute, helping the tribe quantify and realize the water 
they are entitled to under the Hellgate Treaty as well as 100 
years of Federal court precedence.
    We must also provide a practical solution to resolve the 
significant liability for the United States to protect 
Montana's agricultural economy, and as I mentioned earlier, 
protect the water rights of all Montanans. Let me provide some 
perspective on this. In 2015, the CSKT and the Federal 
Government on the tribes' behalf filed over 10,000 claims in 
the Montana Water Court, placing over 1.85 million acres, or 70 
percent of Montana's irrigated land, at risk for losing its 
water.
    This past January, the Montana Water Court's stay on 
thousands of these water rights claims, there were five on the 
CSKT and the reservation, was set to expire. If that stay 
expired, those claims could have been enforced immediately 
until a water court judge completes the adjudication of the 
claims, which would take decades and jeopardize the vast 
majority of the irrigated land in Montana, and casting 
uncertainty on landowners' property values for decades.
    As a fifth generation Montanan who cares greatly about the 
ag economy and water rights of all Montanans, this is a risk I 
would not let Montana families and farmers take. With the 
introduction of this Federal legislation, the water court judge 
agreed to extend that stay for three more years. Both Secretary 
of the Interior David Bernhardt and Attorney General Bill Barr 
stated the legislation is the best course of action and that 
they support legislation versus litigation, which is what this 
bill does.
    Importantly, this bill protects the water rights of all 
Montanans, permanently settles the water rights dispute, and 
reduces the cost to the taxpayer, and it creates jobs. A study 
has shown that this bill would create thousands of jobs by 
injecting $1.9 billion to rehabilitate the Flathead Indian 
Irrigation Project, and reserves $10 million specifically for 
Lake and Sanders Counties for related road maintenance. In 
addition to resolving this longstanding dispute, this is a jobs 
and infrastructure bill.
    Without this legislation, the Flathead Irrigation Project 
could be decommissioned due to Federal statute, water quality 
and Endangered Species Act violations, which would cost 
taxpayers billions of dollars and would devastate the economies 
of Lake and Sanders Counties.
    Finally, I also work to ensure there is increased 
transparency and accountability for the Federal dollars spent 
on this legislation. The Montana Water Rights Protection Act 
protects Montana's sovereignty, and reaffirms Montana's State 
constitution, stating that Montana owns all of the water within 
State boundaries, and it prohibits the sale of water outside 
the State of Montana.
    This legislation is a product of working for years with 
stakeholders from all sides, and a compromise that can move 
forward and one that can be signed into law.
    With that, Mr. Chairman, I look forward to hearing the 
important testimony on this legislation.
    The Chairman. Thank you.
    Senator Heinrich.

              STATEMENT OF HON. MARTIN HEINRICH, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Heinrich. Thank you, Chairman Hoeven, and Vice 
Chairman Udall, for holding this hearing on my legislation, the 
Safeguarding Tribal Objects of Patrimony, or STOP Act. This 
bill's strong bipartisan support gives me hope that we can 
solve this problem for the tribal communities that we represent 
in the very near future.
    The need for this legislation is straightforward. We all 
recognize the incredible beauty of American Indian art. 
Especially when you live in a State like New Mexico, you can 
explore and admire the remnants of ancient cultures in places 
like Chaco Canyon and the Gila Cliff Dwellings. You can 
discover both traditional and modern art masterpieces created 
by Native artists today.
    But we can also recognize a clear difference between 
supporting tribal artists as opposed to dealing or exporting 
items that tribes have identified as essential and sacred 
pieces of their cultural heritage. This issue came to 
international attention in 2016, when Kurt Riley, then the 
governor of the Pueblo of Acoma, learned that a scared 
ceremonial shield had been stolen and was about to be sold to 
the highest bidder at an auction house in Paris. When Governor 
Riley informed me about this robbery of the Pueblo's cultural 
patrimony, I called on the State Department to take all 
possible action to halt the auction.
    Thankfully, intense public outcry and diplomatic pressure 
were enough to halt the illegal sale of the tribe's cultural 
patrimony. Finally, in November of 2019, more than three years 
after the shield was put on the auction block, it was 
voluntarily returned to the Pueblo. However, this only happened 
through the cooperation of the individual who put the shield up 
for auction in the first place.
    There is still no Federal law prohibiting the export of 
items like the shield and requiring the cooperation of foreign 
governments in recovering them. And in many other cases, tribes 
in New Mexico and across the Nation have been forced to 
effectively pay a ransom or have to stand by and watch the sale 
of their priceless religious and cultural items in 
international markets.
    Under current Federal law, it is a crime to sell these 
types of protected Native American cultural objects in the 
United States. Unfortunately, however, the penalties in the 
Archeological Resources Protection Act and the Native American 
Graves Protection and Repatriation Act are not nearly as high 
as other similar statutes, like the National Stolen Property 
Act. Prosecutions are far too infrequent to deter criminals 
from smuggling and selling these objects.
    In addition, there is no explicit ban on exporting these 
items to foreign countries where they might be sold at auction, 
a fact that was cited repeatedly by the French government when 
the initially declined to stop the auction of the Acoma shield. 
That is why I introduced the Safeguard Tribal Objects of 
Patrimony Act, or the STOP Act. The STOP Act increases 
penalties for illegally trafficking tribal cultural patrimony 
and it also explicitly prohibits the exportation of these 
objects and creates an export certification system which will 
protect sacred objects under international law.
    It also encourages the voluntary return of sacred objects 
held in private collections, because the highest priority of 
everyone involved in this issue is to see these sacred items 
returned home to where they belong.
    I appreciate the collaboration and support that we have had 
with New Mexico's Pueblos, the Jicarilla and Mescalero Apache 
Nations, the Navajo Nation, and tribes across Indian Country, 
to craft the STOP Act. I am proud that the STOP Act has the 
support of the National Congress of American Indians, the All 
Indian Pueblo Council, the United South and Eastern Tribes 
Sovereignty Protection Fund, the Great Plains Tribal Chairmen's 
Association, the Midwest Alliance of Sovereign Tribes, and many 
more individual tribes across the Country. The widespread 
support for the STOP Act across Indian Country is unfortunate 
evidence of how widespread theft and illegal sales of tribal 
patrimony have been.
    When I first introduced the Act in 2016, I met with high 
school students from the Santa Fe Indian School's Leadership 
Institute, who had come to Capitol Hill to advocate for 
important issues in their communities. These students shared 
with me a position paper they had prepared on the STOP Act and 
they also shared personal stories about how important 
protecting cultural items is to their generation.
    Listening to what these incredible young people had to say 
reinforced the urgency with which we must act. We need to take 
all possible action to repatriate stolen culturally significant 
items to their rightful owners. Again, I am grateful for your 
holding this hearing, Chairman Hoeven and Vice Chairman Udall. 
I hope that we will work together to pass the STOP Act in the 
full Senate as soon as possible.
    Thank you.
    The Chairman. Thank you.
    Senator Murkowski.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman, and to Senator 
Udall, for holding this hearing.
    We have two Alaska-related bills on the table here, the 
Southeast Alaska Regional Health Consortium Land Transfer Act, 
as well as the Alaska Native Tribal Health Consortium Land 
Transfer Act.
    I also want to thank and acknowledge the leadership of 
Senator Heinrich on the STOP Act, the Safeguard Tribal Objects 
of Patrimony Act of 2019. I am lead co-sponsor of that. As he 
has pointed out, there is a great deal of support for that, 
certainly including many of the tribes in Alaska.
    As to the two land transfers, I do appreciate the 
Committee's time and consideration of these bills. These are 
necessary to ensure that Alaska's lands and health care 
resources are used in the best possible way.
    I am reminded when I look at the bills, and one is 
transferring 10 acres of land down in Sitka, so that SEARHC can 
improve the health care provided within the southeast Alaska 
region, and at the Mount Edgecumbe Medical Center campus there 
in Sitka. SEARHC services an area over 42,000 square miles of 
the southeast Alaska panhandle. There are no roads connecting 
most of the rural communities that they serve. So what SEARHC 
is seeking to do is construct a hospital that is able to meet 
the needs, to improve the patient care and help deliver the 
best possible care for generations.
    We also recognize that when you have lousy facilities, it 
is really tough to get good providers to be recruited. So an 
exchange of 10 acres is actually going to help.
    As it relates to the ANTHC, again, that is a simple 
transfer between HHS and IHS in order to facilitate, again, 
better access to care. So this is a transfer of two parcels of 
HHS land to the ANTHC. Again, pretty simple, straightforward.
    As to the STOP Act, I want to speak very briefly to this. 
Senator Heinrich has addressed what the bill does by creating 
this certification system that requires exporters of items that 
qualify as Native American cultural items or archeological 
resources to apply for a certificate, so that we are ensuring 
that only legally obtained items are eligible for removal to 
other countries.
    In Alaska, I have heard on numerous occasions from one of 
our strong Native cultural leaders, Dr. Rosita Worl, of the 
Sealaska Heritage Institute, she tells the story time and time 
again how her people have attempted to repatriate their at.oow, 
these are the sacred objects that are held by entities 
overseas. And the same situation, they are basically auctioned 
off to the highest bidder.
    These sacred objects, of course, are very personal to the 
Native people, believed to hold or host the spirits of their 
ancestors. But then when you see these objects sold to 
individuals, oftentimes sold to folk who will place them in 
private holdings, further alienating them from the communities 
where they belong, it is yet further injustice.
    So I think the STOP Act, if we are able to advance this, 
will be a step in the right direction, provide the tools to 
stop this loss, and really the sorrow, the cultural sorry that 
arises with it. So I am pleased to be able to support Senator 
Heinrich in this effort.
    Thank you for the assistance with these two land transfers.
    The Chairman. Thank you.
    Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. I will try to be 
brief if I can. We are having important testimony today on 
bills that provide tribes water rights and increase the access 
to safe drinking water. I would be remiss if I didn't talk 
about the need for more resources on these issues, and 
providing tribes with clean and safe water infrastructure.
    Many tribes throughout the west suffer with inadequate 
water infrastructure and lack the ability to improve water 
quality. In the State of Washington, clean water has long been 
a treaty right for our tribes. Access to clean water is a 
crucial aspect of health, culture, and economy of the tribes in 
Washington State.
    However, most of the tribes still grapple with toxins in 
the water and struggle with building the infrastructure 
required for safe drinking water. I believe we need to provide 
more Federal resources and significantly improve Federal 
programs that exist, so tribes do not have to worry about how 
to keep their individual members safe. So we will be asking or 
submitting questions for Mr. Petty and Mr. LaCounte on how do 
we help tribes in this area.
    Also, I wanted to mention that the CARES Act did provide a 
significant level of assistance to tribes to promote issues 
during the pandemic, including funds, at least $10 million, 
through IHS, to help meet potable water needs in Indian 
Country. However, we need to make sure the money is actually 
getting to the tribes so they have access to potable water 
during the pandemic.
    So I think there is a lot more we should be doing here to 
make sure that they have access. I do want to also bring up, as 
people may be aware, this spring, the Kalispell Tribe in my 
State sued the Federal Government and several corporations over 
the contamination in drinking water sources with the chemical 
PFAS. This is a very important issue, as my colleagues know. A 
recent study by the area's CDC Agency for Toxic Substances and 
Disease Registry found that individuals in the same area have 
levels of certain PFAS chemicals far higher than the national 
average.
    So these dangerous chemicals have been found in drinking 
water throughout the area. We need to help tribal reservations 
make sure that they can take action on these issues. We need to 
do everything we can to make sure that we aren't just assuming 
the tribal reservations are going to just be dealing with 
potable water in the future.
    So I know that any time, as you have already said with 
several of my colleagues, water, very big issues. But with 
Indian Country also, very big issues.
    Thank you.
    The Chairman. Thank you.
    We have several members who would like to make opening 
statements who will do so remotely. We will start with Senator 
McSally.

               STATEMENT OF HON. MARTHA McSALLY, 
                   U.S. SENATOR FROM ARIZONA

    Senator McSally. Thank you, Chairman Hoeven and Vice 
Chairman Udall. Thanks for holding the legislative hearing 
today on S. 2912, the Blackwater Trading Post Land Transfer 
Act.
    This legislation, while simple, is very important to the 
Gila River Indian Community from Arizona. The legislation 
authorizes the Secretary of the Interior to take 55.3 acres of 
land into trust for the Gila River Indian Community. The parcel 
is bordered by the reservation on three sides and is 
contiguous, but exterior to the current reservation boundaries.
    Normally, such a land in trust acquisition would be a 
simple administrative action by the Department of Interior that 
wouldn't need Congressional consideration and action. But the 
community's 2004 water settlement included a provision that 
requires Indian land in trust exterior to the reservation 
boundaries to go through Congress.
    The land that will be taken into trust has historically and 
culturally been important to the community. The Blackwater 
Trading Post existed on this land in one form or another since 
at least 1926. The trading post is similar to those found 
throughout Indian Country, where tribal members would go for 
groceries and other goods. When a tribal member couldn't pay, 
they would trade baskets, pottery, and other items for those 
goods.
    By the time the tribe purchased the land and the trading 
post backed from the Ellis family in 2010, there were over 
1,000 items, including baskets, pottery, and other artifacts 
that are no housed in the community's heritage center. The 
lands already owned by the tribe and putting the land into 
trust will ensure this important parcel will be acknowledged as 
an important piece of the community's history, and can be put 
to good use for the entire community, and especially the tribal 
members in District One where the parcel is located.
    The legislation is bipartisan, has no opposition, has the 
support of the entire Arizona delegation, and has no cost. But 
it literally takes an act of Congress to get this done. So I 
want to thank the Department for their support of this 
legislation and the Committee for the hearing. I look forward 
to working with all of you to pass this legislation into law 
this year.
    Thank you.
    The Chairman. Thank you, Senator McSally.
    Also, for another statement remotely, Senator Tester.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Chairman Hoeven and Ranking 
Member Udall. I appreciate your having this hearing on a number 
of very, very important bills.
    I am just going to address one of them, the CSKT water 
settlement. I am very pleased that this is once again in front 
of the Committee . This moment has been decades in the making. 
I will be brief and just say this: it does great things for 
growing infrastructure, both inside the reservation and 
outside. It does great things for providing surety in towns and 
water owners across Montana, especially the western half of 
Montana.
    And you know this, Chairman Hoeven, particularly, there is 
a saying in water settlements, first in time, first in line. It 
is hard to get ahead of Native Americans as far as being first 
in time.
    Consequently, we need this. We need this water settlement 
for Montana. We need it for predictability. We need it for 
certainty. We need to be able to continue to grow our economy.
    Another statement that has always been said is water is 
life. That's how important it is because it literally is life.
    I appreciate the Committee hearing this today. I appreciate 
the Administration supporting this water compact, and I look 
forward to a positive vote and getting this water compact to 
the Floor.
    Thank you, Mr. Chairman and Ranking Member Udall.
    The Chairman. Thank you, Senator Tester.
    And also providing a statement remotely will be Senator 
Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you, Chairman. I am actually 
read to get on with the hearing if everyone else is. Thank you.
    The Chairman. Thank you.
    Today we passed 22 bills through the full Senate. So bills 
that have come through this Committee , we have passed 22 bills 
through the Senate. Six of those have been signed into law. So 
there are 16 pending in the House. We need to remember to 
continue to reach out to our friends in the House and try to 
get them to move on those 16 bills that we have pending. We 
have bipartisan support, I believe, all of them have bipartisan 
support, do they not?
    And we have seven more here we would like to pass as well. 
So I would just remind you that we have been able to move bills 
in a bipartisan bill. We want to continue to do that. And we 
want to reach out to our House counterparts to get them to move 
some of these bills that we have been able to move through the 
full Senate, again, on a bipartisan basis.
    With that, we will turn to our witnesses. Today we will 
hear from the Honorable Tim Petty, Assistant Secretary, Office 
of Water and Science at the U.S. Department of the Interior 
here in Washington, D.C. And then from Mr. Darryl LaCounte, who 
is Director of the Bureau of Indian Affairs, again based here 
in D.C.
    I want to remind the witnesses, your full testimony will be 
made part of the official record. So if you would keep your 
opening statement to five minutes, and then we will go to 
questioning.
    With that, I will turn first to Director LaCounte.

   STATEMENT OF DARRYL LACOUNTE, DIRECTOR, BUREAU OF INDIAN 
            AFFAIRS, U.S. DEPARTMENT OF THE INTERIOR

    Mr. LaCounte. Good afternoon, Chairman Hoeven, Vice 
Chairman Udall, and members of the Committee .
    My name is Darryl LaCounte. I am the Director of the Bureau 
of Indian Affairs at the Department of the Interior.
    Thank you for the opportunity to provide testimony on 
behalf of the Department regarding S. 2716, a bill to amend the 
Grand Ronde Reservation Act; and S. 2912, the Blackwater 
Trading Post Land Transfer Act.
    In 1954, the Confederated Tribes of the Grand Ronde 
Community was congressionally terminated pursuant to P.L. 83-
588. Twenty-nine years later, Congress restored the Tribe's 
Federal recognition, rights, and privileges with the Grand 
Ronde Restoration Act, pursuant to P.L. 98-165.
    In 1988, Congress established a 9,811-acre reservation for 
the Tribe, pursuant to P.L. 100-425, and through subsequent 
amendments, the Tribe's reservation grew to 9,879 acres. In 
1994, the reservation acreage total grew to 10,120 acres, 
pursuant to P.L. 103-435, also called the 1994 Act.
    After Congress re-established a reservation for the Tribe, 
the Tribe learned that an 1871 survey used to define the 
Tribe's original reservation boundaries contained an error, and 
that an 84-acre parcel known as the Thompson Strip was excluded 
from its reservation. To resolve this exclusion, the BLM and 
the Tribe entered into a land claim settlement wherein the BLM 
exchanged a 240-acre parcel for the Tribe's Thompson Strip.
    The 1994 Act made that 240-acre parcel part of the Tribe's 
reservation and extinguished all of the Tribe's land claims in 
the State of Oregon. S. 2716 redefines the claims extinguished 
in the 1994 Act, turning the statewide extinguishment of the 
Tribe's land claims into a limited extinguishment for the 
Thompson Strip, pursuant to S. 2716, which also makes land 
obtained by the Tribe as part of a land claim settlement 
approved by the United States ineligible for class II and class 
III gaming under the Indian Gaming Regulatory Act, which is 25 
U.S.C.   2701.
    In general, the Department would not be supportive of 
measures that might result in additional Federal liability for 
previously extinguished land claims. While the legislative 
history does not directly address the statewide claims 
extinguishment section of the 1994 Act, the Tribe had the 
opportunity to oppose that provision on the record. The 
Department encourages the Committee to pursue further 
investigation of the land claim settlement which resulted in 
P.L. 103-435 to determine if S. 2716 would be appropriate.
    Moving to S. 2912, the Blackwater Trading Post Land 
Transfer Act. S. 2912, the Blackwater Trading Post Land 
Transfer Act, directs the Secretary of the Interior to take 
approximately 55.3 acres of land located in Pinal County, 
Arizona into trust for the benefit of the Gila River Indian 
Community. S. 2912 also prohibits Class II and III gaming under 
the Indian Gaming Regulatory Act on the land taken into trust 
for the Gila River Indian Community pursuant to this bill.
    Administering trust lands is an important responsibility 
that the United States undertakes on behalf of Indian tribes. 
Through its plenary authority over Indian Affairs, Congress can 
direct the Department to accept and administer lands to be held 
in trust as it does in S. 2912. The Department supports S. 
2912.
    Mr. Chairman, thank you for this opportunity to testify 
today. Mr. Vice Chairman, thank you. I am glad to answer any 
questions the Committee may have.
    [The prepared statement of Mr. LaCounte follows:]

   Prepared Statement of Darryl Lacounte, Director, Bureau of Indian 
                Affairs, U.S. Department of the Interior
    Good afternoon Chairman Hoeven, Vice Chairman Udall, and Members of 
the Committee. My name is Darryl LaCounte and I am the Director of the 
Bureau of Indian Affairs (BIA) at the Department of the Interior 
(Department).
    Thank you for the opportunity to provide testimony on behalf of the 
Department regarding S. 2716, a bill to amend the Grand Ronde 
Reservation Act; S. 2912, the Blackwater Trading Post Land Transfer 
Act; and S. 2165, the Safeguard Tribal Objects of Patrimony Act of 
2019.
S. 2716, a bill to amend the Grand Ronde Reservation Act
    In 1954, the Confederated Tribes of the Grand Ronde Community 
(Tribe) was congressionally terminated, P.L. 83-588. Twenty-nine years 
later, Congress restored the Tribe's federal recognition, rights, and 
privileges with the Grand Ronde Restoration Act, P.L. 98-165. In 1988, 
Congress established a 9,811-acre reservation for the Tribe, P.L. 100-
425, and through subsequent amendments, the Tribe's reservation grew to 
9,879 acres. In 1994, the reservation acreage total grew to 10,120 
acres, P.L. 103-435 (1994 Act).
    After Congress re-established a reservation for the Tribe, the 
Tribe learned that an 1871 survey used to define the Tribe's original 
reservation boundaries contained an error, and that an 84-acre parcel 
known as the ``Thompson Strip'' was excluded from its reservation. To 
resolve this exclusion, the Department's Bureau of Land Management 
(BLM) and Tribe entered into a land claim settlement wherein the BLM 
exchanged a 240-acre parcel for the Tribe's Thompson Strip. The 1994 
Act made that 240-acre parcel part of the Tribe's reservation and 
extinguished all of the Tribe's land claims in the State of Oregon.
    S. 2716 redefines the claims extinguished in the 1994 Act, turning 
the statewide extinguishment of the Tribe's land claims into a limited 
extinguishment for the Thompson Strip. S. 2716 also makes land obtained 
by the Tribe as part of a land claim settlement approved by the United 
States ineligible for class II and class III gaming under the Indian 
Gaming Regulatory Act (25 U.S.C.   2701 et seq.).
    In general, the Department would not be supportive of measures that 
might result in additional federal liability for previously 
extinguished land claims. While the legislative history does not 
directly address the statewide claims extinguishment section of the 
1994 Act, the Tribe had the opportunity to oppose that provision on the 
record. The Department encourages the Committee to pursue further 
investigation of the land claim settlement which resulted in P.L. 103-
435 to determine if S. 2716 would be appropriate.
S. 2912, the Blackwater Trading Post Land Transfer Act
    S. 2912, the Blackwater Trading Post Land Transfer Act, directs the 
Secretary of Interior to take approximately 55.3 acres of land located 
in Pinal County, Arizona into trust for the benefit of the Gila River 
Indian Community (Community). S. 2912 also prohibits class II and class 
III gaming under the Indian Gaming Regulatory Act (25 U.S.C.   2701 et 
seq.) on the land taken into trust for the Community pursuant to this 
bill. Administering trust lands is an important responsibility that the 
United States undertakes on behalf of Indian tribes. Through its 
plenary authority over Indian Affairs, Congress can direct the 
Department to accept and administer lands to be held in trust as it 
does in S. 2912. The Department supports S. 2912.
S. 2165, the Safeguard Tribal Objects of Patrimony Act of 2019
    The purpose of S. 2165 is to prevent the export of wrongfully 
acquired items of Native American cultural heritage--including sacred 
items and items of cultural patrimony--and to encourage repatriation of 
these items both domestically and abroad. The Department appreciates 
that S. 2165 is intended to strengthen the legal framework to achieve 
those ends. The Department has worked with multiple Interior bureaus 
and offices, as well as the State Department, to provide such support 
in recent cases that resulted in a successful repatriation from Germany 
in 2018, New Zealand in 2019, and England in 2020. The Department 
supports the spirit of S. 2165 and looks forward to working with the 
Committee on the important issue of preventing the export of wrongfully 
acquired items of Native American cultural heritage. We have technical 
concerns regarding certain provisions of S. 2165, as discussed in my 
September 19, 2019 testimony on the companion bill, H.R. 3846, before 
the House Natural Resources Committee Subcommittee for Indigenous 
Peoples of the United States. We welcome the opportunity to work with 
the Committee to provide technical assistance.
Conclusion
    Mr. Chairman, thank you for the opportunity to testify today. I am 
happy to answer any questions from the Committee.

    The Chairman. Thank you, Director LaCounte.
    I will turn to Assistant Secretary Petty.

STATEMENT OF HON. TIMOTHY R. PETTY, Ph.D., ASSISTANT SECRETARY, 
               WATER AND SCIENCE, UNITED STATES 
                   DEPARTMENT OF THE INTERIOR

    Mr. Petty. Thank you, Chairman Hoeven, Vice Chairman Udall, 
members, both present and virtual. Thank you for allowing me to 
come today.
    My name is Tim Petty. I am the Assistant Secretary for 
Water and Science at the Department of Interior. I am pleased 
to appear before you today to provide the Department's position 
on S. 3019, the Montana Water Rights Protection Act. The 
Department supports the goals of S. 3019, and if consensus 
language of a substitute bill that the Department and the 
Confederated Salish and Kootenai Tribes have agreed upon were 
to adopted, the Department could fully support the bill.
    Before I begin discussing this settlement, I want to note 
that the Department supports the policy that negotiating Indian 
water rights settlements are preferred to protracted and 
divisive litigation. We have a strong track record of trying to 
support all the settlements. We are grateful to the Committee 
for holding this hearing today.
    I also would like to recognize that the tribes and the 
States brought significant leadership qualities to negotiating 
the CSKT Compact approved by the Montana legislature in 2015 
that both Senators Tester and Daines have specifically talked 
about. And the Department commends them for the substantial 
efforts they have made in negotiating a solution of the Tribes' 
water right claims, which have been among the most contentious 
and challenging to be addressed in tribal water settlements.
    S. 3019 would authorize, ratify, and confirm the Compact, 
and provide funding for its implementation. The bill would 
provide $1.9 billion to be used for a number of purposes, 
including rehabilitation and modernization of the Flathead 
Indian Irrigation Project, also known as FIIP; mitigation of 
damages to natural resources; constructing water and wastewater 
facilities on the Reservation is just to name a few.
    In exchange for the benefits of S. 3019, the Tribes would 
waive and release all water rights claims and claims against 
the United States related to water rights, natural resource 
damages, operation, and maintenance of the FIIP, and other 
potential claims. S. 3019 provides significant and important 
benefits to the economy of not only the Reservation but also to 
the State of Montana. If enacted, the Department notes that 
almost 600 permanent jobs will be added to the economy, as well 
as almost 5,000 temporary construction and restoration jobs 
through rehabilitation and modernization of the irrigation 
system, and restoring natural resources damaged by those 
operations.
    The Department supports the level of funding provided in S. 
3019, in large part because the Department recognize the 
substantial costs associated with rehabilitating and 
modernizing the irrigation system in a way that preserves and 
increases in-stream flows while still maintaining the status 
quo for FIIP irrigators and preserving the agricultural economy 
in this region of the State of Montana.
    While the Department has concerns with S. 3019 as 
introduced, principally that the bill lacks necessary 
assurances that settlement funds will be spent and sent to 
sufficiently rehabilitate and modernize the system and project, 
we have worked diligently with the tribes to address these 
concerns.
    In conclusion, S. 3019 and the underlying compact are the 
product of a great deal of effort by many parties and reflect a 
desire by the people of Montana, Indian and non-Indian, to 
settle their differences through negotiation rather than 
litigation. This Administration shares that goal and is 
committed to finalizing this settlement after many years of 
hard work between the Tribes, the State, and the Montana 
congressional delegation to reach a final and fair settlement 
of the Tribes' water rights claims set forth.
    Again, thank you, and am happy to answer any questions.
    [The prepared statement of Mr. Petty follows:]

     Prepared Statement of Hon. Timothy R. Petty, Ph.D., Assistant 
 Secretary, Water and Science, United States Department of the Interior
    Chairman Hoeven, Vice Chairman Udall and members of the Committee. 
My name is Tim Petty, and I am the Assistant Secretary for Water and 
Science at the Department of the Interior (Department). I am pleased to 
appear before you today to provide the Department's position on S. 
3019, the Montana Water Rights Protection Act. The Department supports 
the goals of S. 3019, but has concerns about the bill as introduced. We 
have reached agreement with the Confederated Salish and Kootenai Tribes 
(Tribes) on a redline amendment for the underlying bill. If that 
language were to be adopted, the Department could support the bill.
I. Introduction
    Before I begin discussing this settlement, I want to note that the 
Department supports the policy that negotiated Indian water rights 
settlements are preferable to protracted and divisive litigation. 
Indian water rights settlements have the potential to resolve long-
standing claims to water, provide certainty to water users, foster 
cooperation among water users within a watershed, allow for the 
development of water infrastructure, promote tribal sovereignty and 
self-sufficiency, and improve environmental and health conditions on 
Indian reservations.
    The framework the Department follows to guide the negotiation of 
Indian water rights settlements, and the support for legislation to 
authorize these settlements, includes four general principles set forth 
in the Criteria and Procedures, 55 Fed. Reg. 9223 (Mar. 12, 1990). 
First, settlements must be consistent with the United States' trust 
responsibilities. Second, Indian tribes must receive equivalent 
benefits in exchange for the rights they, and the United States as 
trustee, release as part of a settlement. Third, Indian tribes must 
obtain the ability to realize value from confirmed water rights. 
Fourth, settlements must contain an appropriate cost-share by all 
parties benefiting from the settlement.
    The Tribes have long been leaders in water and natural resources 
management. They have restored the ecosystem function of miles of 
streams; with the State of Montana, they co-manage the fishery on 
Flathead Lake, the largest freshwater body west of the Continental 
Divide; and they also operate the Selis Ksanka Qlispe Dam at Flathead 
Lake under a Federal license for producing hydroelectric power.
    The Tribes and the State brought significant leadership qualities 
to negotiating the Confederated Salish and Kootenai-Montana Compact 
(Compact) approved by the Montana legislature in 2015. The Department 
commends them for the substantial efforts they have made in negotiating 
a resolution of the Tribes' water right claims, which have been among 
the most contentious to be addressed in a tribal water settlement.
II. Historical Context \1\
---------------------------------------------------------------------------
    \1\ For a more complete statement about the Tribes' history, please 
see the Department's 2016 testimony on S. 3013, Salish and Kootenai 
Water Rights Settlement Act of 2016, available at: https://www.doi.gov/
ocl/s-3013.
---------------------------------------------------------------------------
    The aboriginal homeland of the Tribes is located in present-day 
western Montana, northern Idaho, and north into Canada. In 1855, the 
Tribes and the United States entered into the Hellgate Treaty. Under 
the Treaty, the Tribes ceded to the United States a significant portion 
of their aboriginal territory and reserved to themselves the Flathead 
Indian Reservation (Reservation) in northwestern Montana. The Hellgate 
Treaty expressly reserved to the Tribes rights of hunting, fishing, and 
gathering both on- and off-Reservation. In addition, the Treaty 
recognized the Tribes' right to an agrarian lifestyle based on the 
extensive lands within the Reservation that are economically viable 
agricultural lands.
    For over a century, there have been extensive and bitter disputes 
over the Tribes' water rights and resources. The root of many of these 
conflicts is the 1904 Flathead Allotment Act and subsequent amendments 
in 1908. The 1904 Act, over objections from the Tribes, directed the 
allotment of Reservation lands to individual Indians and authorized the 
disposal of ``surplus'' unallotted land for non-Indian homestead entry. 
The 1908 amendment authorized the construction of a greatly expanded 
irrigation system to serve irrigable lands on the Reservation owned by 
both Indians and non-Indians. This irrigation system became known as 
the Flathead Indian Irrigation Project (FIIP). Over the next few 
decades, FIIP was constructed to irrigate approximately 130,000 acres 
and currently serves 132,077 acres. By the 1930s, most of the lands 
allotted to individual Tribal members within FIIP were no longer in 
Indian ownership. Currently, nearly 90 percent of the lands irrigated 
by FIIP are owned by non-Indians. The Bureau of Indian Affairs (BIA) 
owns and operates FIIP.
    Much of the irrigation water supply used by FIIP is diverted 
directly from several streams that also support the Tribes' reserved 
fisheries, which has created serious conflicts. In a series of 
interrelated lawsuits in the 1980s, courts conclusively confirmed that 
the Tribes are entitled to instream flow water rights sufficient to 
support fishery resources and the Tribes' treaty-reserved fishing 
rights. The courts further found that these reserved instream flow 
rights have a priority date of time immemorial and thus are senior to 
the irrigation water rights for FIIP. Since the 1980s, there has been 
an impasse on the Reservation between the need for instream flows for 
fishery purposes and irrigation demands. The BIA continues to operate 
FIIP, information developed over many years indicates that the existing 
minimum flow protections are not adequate. Population growth on and 
near the Reservation over the past few decades has also increased the 
demand for water resources, further exacerbating these conflicts. The 
Tribes and the United States also asserted numerous senior water rights 
claims off the Reservation that create uncertainty about current and 
future water uses across a large section of Montana.
III. Salish and Kootenai Water Rights Compact and Proposed Legislation
A. Negotiations
    Seeking to avoid costly litigation, provide certainty for all water 
users, and meet the needs of all parties, the State of Montana, the 
Tribes, and the United States have engaged in decades of negotiations. 
These negotiations resulted in the Compact, which was approved by the 
Montana legislature in 2015. The Compact is a comprehensive resolution 
of all the Tribes' water right claims and includes irrigation, 
domestic, instream flow, and other water rights to meet the Tribes' 
current and future needs on the Reservation. Off-reservation water 
right claims are also resolved as discussed below.
B. S. 3019
    S. 3019 would authorize, ratify, and confirm the Compact, and 
provide funding for its implementation. The bill would provide $1.9 
billion to be used for a number of purposes, including: rehabilitation 
and modernization of the FIIP; mitigation of damages to natural 
resources; administration and implementation of the Tribal water 
rights; construction of livestock fencing; installation of devices to 
prevent fish entrainment; construction and maintenance of community 
water distribution and wastewater facilities; and repair and 
replacement of certain culverts, bridges and roads. It would ratify the 
Tribal water right and, in conformance with the Compact, would direct 
the Secretary to allocate to the Tribes 90,000 acre-feet per year of 
storage water from Hungry Horse Reservoir ``for use by the Tribes for 
any beneficial purpose on or off the Reservation.'' The Compact also 
provides a unique and carefully crafted framework for the 
administration of water rights on the Reservation through the Unitary 
Administration and Management Ordinance (or Law of Administration), 
which proscribes the process to (1) register existing uses of water; 
(2) change water rights; and (3) provide for new water development. In 
a November 18, 2019 letter to Senator Daines, Secretary of the Interior 
David L. Bernhardt set out the conclusions of the Department that the 
Compact would appropriately resolve the FIIP water supply and the 
Tribes' water right claims and that the Unitary Administration and 
Management Ordinance is protective of the rights of both non-Indian and 
Indian water right holders on the Reservation.
    In exchange for the benefits of S.3019, the Tribes would waive and 
release all their water rights claims and claims against the United 
States related to water rights, natural resource damages, operation and 
maintenance of the FIIP, and other potential claims.
    S. 3019 provides significant and important benefits to the economy 
of the Reservation and the State of Montana. Significantly, by 
ratifying the Compact, S. 3019 protects valid existing non-Indian water 
uses and commits to meet ``Historic Farm Deliveries'' for irrigators 
served by FIIP. In so doing, the bill provides substantial benefits to 
non-Indian irrigators by keeping them ``whole.'' The United States and 
the Tribe have filed extensive water claims in the general stream 
adjudication underlying this settlement. Absent settlement of those 
claims, the amount of water available to FIIP irrigators may be reduced 
so substantially as to render FIIP nonviable. It is expected that loss 
of water would result in a conversion of irrigated agriculture to 
lower-valued dryland agriculture on the Reservation. This conversion 
could result in a reduction of net returns to farming of approximately 
$356 million in present value terms over 50 years.
    The United States will not be able to simply walk away from a 
nonviable FIIP but would likely have to decommission it in order to 
protect lives and property. FIIP delivers water through nearly 1,300 
miles of canals and laterals. There are about 10,000 structures, which 
include 17 dams and storage reservoirs. The reservoirs have a combined 
capacity of approximately 160,500 acre-feet. There are three major 
pumping facilities that help to supplement water supplies in portions 
of FIIP. FIIP consists of four management divisions: the Jocko Division 
(about 11,000 irrigated acres), the Camas Division (about 13,000 
irrigated acres), the North Division (about 52,000 irrigated acres), 
and the South Division (about 52,000 irrigated acres). Estimates of the 
cost for the United States to decommission FIIP exceed a billion 
dollars.
    The benefits of S. 3019 are not limited to on-Reservation farming. 
Nearly all of these claims recognized in the Compact are being 
relinquished by the Tribe under the terms of the bill. The Tribe and 
the United States also filed water rights claims in off-Reservation 
streams in western and parts of eastern Montana. If successfully 
litigated, these claims could result in reduced water deliveries to 
irrigators in these areas, resulting in an estimated reduction in off-
Reservation irrigator net income of $146 million in present value over 
50 years.
    In addition to avoiding losses in farm net income, S. 3019 supports 
positive economic activity associated with continued irrigated 
agriculture (on- and off-Reservation), and economic activity expected 
to occur as a result of the funding provided to the Tribes in the bill. 
The waiver of water claims contained in S.3019 will allow continued 
irrigation on-Reservation, with an estimated economic contribution of 
approximately $34 million in total annual labor income impacts 
(including direct farm income mentioned above, and indirect, and 
induced impacts); representing $910 million in present value. As for 
off-Reservation impacts, continued irrigation in eastern and western 
Montana supports total annual labor income impacts estimated at 
approximately $372 million in present value. In total, across all 
regions of the state, S. 3019 preserves agricultural economic activity 
that supports total labor income (including direct farm income from 
above and indirect, and induced impacts) of approximately $47 million 
annually or $1.3 billion in present value over 50 years.
    The Trust Fund created by S. 3019 provides funding for programs 
that would create economic activity in the regional economy: 
modernization of FIIP infrastructure (to increase the water use 
efficiency of the system), restoration of stream channels and return 
flow sites to enhance fish habitat, and construction of community water 
systems. These activities support direct, indirect, and induced jobs. 
Cumulatively, S. 3019 is expected to support approximately 520 
permanent jobs on or near the Reservation (of which approximately half 
are seasonal), and approximately 4,650 temporary construction and 
restoration jobs through rehabilitating and modernizing FIIP and 
restoring natural resources damaged by FIIP operations.
IV. Department of the Interior Positions on S. 3019
    While the Department has a record of strong support for Indian 
water rights settlements and supports many elements of the Compact, the 
Department has concerns with S. 3019 as introduced. The Department 
supports the level of funding provided in S. 3019, in large part 
because the Department recognizes that rehabilitating and modernizing 
FIIP in a way that preserves and increases instream flows while still 
maintaining the status quo for FIIP irrigators requires substantial 
costs. However, the Department is concerned that the introduced version 
of the bill lacks necessary assurances that settlement funds will be 
spent to sufficiently rehabilitate and modernize FIIP. Given that FIIP 
will remain in Federal ownership, the Department needs mechanisms in 
the legislation ensuring that settlement funds will be used for these 
intended purposes. We believe the negotiated redline addresses this 
concern.
    Another issue of significant concern is the omission in S. 3109 of 
a prohibition on per capita distribution of settlement funds. The 
Criteria and Procedures that guide the Administration's participation 
in Indian water rights specifically disapprove of per capita 
distributions. Virtually all of the 32 enacted Indian water rights 
settlements include provisions prohibiting per capita distribution. In 
this settlement, per capita distribution of funds to individual Tribal 
members would threaten the ability of the Tribes to carry out the 
essential purposes of the settlement, including rehabilitation and 
modernization of the FIIP; restoration of damages to natural resources; 
installation of devices to prevent fish entrainment; and construction 
and maintenance of community water distribution and wastewater 
facilities.
    S. 3019 as introduced requires several technical corrections to 
clarify certain provisions and to aid in its implementation. The 
negotiated redline includes those technical corrections and the 
Department supports its adoption.
V. Conclusion
    S. 3019 and the underlying Compact are the products of a great deal 
of effort by many parties and reflect a desire by the people of 
Montana--Indian and non-Indian--to settle their differences through 
negotiation rather than litigation. This Administration shares that 
goal and is committed to finalizing this settlement after many years of 
hard work between the Tribes, the State, and the Montana congressional 
delegation to reach a final and fair settlement of the Tribes' water 
rights claims.
    Mr. Chairman, this concludes my written statement. I would be 
pleased to answer any questions the Committee may have.

    The Chairman. Thank you. We will now proceed to questions, 
five-minute rounds. I will start with a question for you, 
Secretary Petty. The bill, S. 3019, Montana Water Rights 
Protection act, would allow additional acquisition improvements 
and additions of rehabilitating the Flathead Indian Irrigation 
Project.
    How many additional projects will be entered into the 
Flathead Indian Irrigation Project? What can Congress do to 
make sure all BIA-owned irrigation systems are adequately 
addressed?
    Mr. Petty. Chairman, thank you for that question. That is a 
pretty extensive overview, and I really appreciated Senator 
Daines' opening comments of all the different claimants that 
are involved. So the overall number is part of even the red 
line items that we are working on.
    And how those will break out, I don't actually have the 
exact numbers for you. But that is going to be part of the 
language set forth. So I will look forward to getting you that 
specific answer here in the near future.
    The Chairman. Director LaCounte, according to the testimony 
provided by the Interior and Confederated Tribes of Grand 
Ronde, an error was made in the 1871 land survey, it left out 
84 acres, leading to the 1994 Act that included negotiated land 
claims settlement over the Thompson Strip. The settlement 
included 240 acres, to become part of the tribe's reservation, 
and extinguished the tribe's right to bring any further land 
claims in Oregon.
    So has the tribe and your department exhausted all possible 
negotiated solutions prior to the legislation?
    Mr. LaCounte. To the best of my knowledge, yes. I haven't 
been personally involved in any of those negotiations, but to 
the best of my knowledge, yes.
    The Chairman. All right. In Section 3 of S. 2912, there is 
language that requires the Secretary of the Interior to take 
the Blackwater Trading Post land into trust for the benefit of 
the Gila River Indian Community after the tribe meets four 
requirements. And each of these four actions that the tribe 
must meet relates to land being taken into trust.
    Are these requirements needed to be explicitly included in 
the bill? If so, are there other requirements the Committee 
should consider adding?
    Mr. LaCounte. Thank you for that question. I believe that 
Congress can act without any input from the department when it 
comes to Congressionally-manded fee to trust, for lack of a 
better word, land into trust. So I don't think that anything 
would be needed unless you, as a Congress, determine it to be 
needed.
    I have had extensive experience with fee to trust, and I 
have actually enjoyed processing mandatory acquisitions, 
because I didn't have to jump through every hoop. So I would 
say, anything additional, absolutely not. Again, that is your 
authority.
    The Chairman. So does anything in section 2 of the bill 
prohibit in any way the Secretary of Interior taking the land 
into trust, even if the tribe meets the four requirements? In 
other words, if they meet the four requirements, they are good 
to go?
    Mr. LaCounte. Yes.
    The Chairman. Okay, those are my questions. With that, I 
would turn to Vice Chairman Udall.
    Senator Udall. Thank you very much, Mr. Chairman. Let me 
start with a question to Mr. Petty.
    Mr. Petty, the CSKT settlement includes a Federal cost 
share of $1.9 billion, the largest figure associated with 
Indian water rights settlement in history. This cost must be 
viewed in the context of over $30 billion in purported Federal 
liability. Last summer, this Committee unanimously approved by 
my bill to extend the Reclamation Water Settlement Fund for an 
additional 10 years. This extension would provide a reliable 
funding source for future settlements, including CSKT 
settlement.
    Would the Reclamation Water Settlement Fund be a useful 
resource to fund Indian water rights settlements, and why would 
extending the fund benefit all water users?
    Mr. Petty. Senator, that is a great question, and thank you 
for asking. I think the Indian Water Rights at Department of 
Interior is a set structure, because it is a partnership for so 
many of the different bureaus within the Department of 
Interior. Just as I am here with a colleague from Interior, 
within the Bureau of Indian Affairs, it is a partnership with 
the Bureau of Indian Affairs, with Fish and Wildlife Service, 
with even obviously Bureau of Reclamation. We have different 
aspects with the Bureau of Land Management, and even Park 
Service components.
    So having it within that Indian Water Rights Settlement 
would really be a useful tool for the Secretary to utilize with 
the different bureaus who have those specific interests with 
how that gets engaged.
    Senator Udall. You have heard from many members, Democrats 
and Republicans, on this Committee how important these water 
rights settlements are to both Indian Country and off-
reservation. We want to try to continue to have a healthy fund 
there.
    Mr. Petty. Yes.
    Senator Udall. Mr. Petty, several tribes have expressed 
concerns that Interior is insisting that it will only support 
fund-based settlements. While a fund-based settlement may suit 
the particular needs of CSKT, it may not work for all tribes.
    Can you clarify whether Interior will insist that ongoing 
and future Indian water rights settlements must be fund-based?
    Mr. Petty. Yes, thank you, Senator, another really good 
question.
    The idea, for all the members, and the one on the audience, 
the idea of fund-based and project-based, one of the big parts 
is after many years there can be an increase in actual cost of 
tools, work, efforts. So the idea of fund-based versus project-
based is always going to be a challenge, because by the time we 
get to a lot of those projects, many of those projects are 
estimated.
    So when we get to the reality of what those costs are, if 
we put them in a certain category of a fund-based, we are 
trying to actually get done, and we only get halfway. It is 
kind of like it doesn't do us any good to build a bridge 
halfway.
    So those are part of the issues that we are working on. We 
would love to interact more with you and the members to 
continue to work through that.
    Senator Udall. But you are not going to insist that all 
settlements be fund-based?
    Mr. Petty. Right. Yes.
    Senator Udall. And as you know, not just with Indian water 
rights settlements, with all sorts of other settlements and 
project, I am very familiar on the Appropriations Committee 
with the Defense Department.
    Mr. Petty. Yes.
    Senator Udall. When you get into a big project that is 
multi-year, sometimes you have increases. And a lot of times, 
it is at the front end on failing to estimate exactly what is 
going to happen over the years. Sometimes it is hard to 
estimate.
    Mr. Petty. Yes, sir.
    Senator Udall. This is for Mr. LaCounte. The Covid-19 
pandemic has been a stark reminder that basic water and 
sanitation services are often lacking in far too many rural 
tribal communities. On the Navajo Nation, 30 percent of the 
population lacks running water. In Oregon, the Confederated 
Tribes of Warm Springs experienced numerous boil water 
advisories last year, highlighting the serious infrastructure 
deficiencies on their reservation. Water and sanitation 
services are critical for basic preventive measures, including 
social distancing and hand washing.
    Mr. LaCounte, can you talk about the importance of water 
and sanitation as a public health issue, particularly in light 
of the Covid-19 pandemic?
    Mr. LaCounte. Thank you, Senator, yes, I can. I was 
previously the Regional Director of the Rocky Mountain Region, 
in Billings, Montana. That was for the States of Montana and 
Wyoming. Within the Bureau of Indian Affairs, there are two 
water treatment plants in the entire Bureau of Indian Affairs, 
for 574 different tribes. Unfortunately, I had both of them. 
Oftentimes, we had problem. Outside of child protection, that 
was my biggest worry, was that something would go awry in those 
systems and people get very sick or even die.
    I took a trip to the Hopi Reservation a couple of years 
ago, and I couldn't understand for the life of me why there 
were so many little villages here and there. Then it came to 
me, it was a water source, period. Like you said earlier, they 
had to all go to the same source, haul their water. It is the 
way they choose to live, but it was kind of sad to look at.
    So yes, in light of what is happening right now, yes, it 
has magnified the issue. But it has always been a very 
difficult issue. I hope that answers your question.
    Senator Udall. It does answer the question. Obviously, 
water, like you say, Native Americans were here first. They 
went, and communities settle all the time around water. So it 
is really important that we make sure that water sources are 
good for everyone, and in particular, for the tribes who have 
been underfunded in so many areas, so that when we hit this 
pandemic, they can take care of themselves.
    Thank you very much, to both of you, for being here and 
your answers. We appreciate it.
    The Chairman. Senator Daines.
    Senator Daines. Thank you, Chairman Hoeven, Ranking Member 
Udall.
    Secretary Petty, in your testimony you stated that the 
Department of Interior supports legislative action on the 
settlement as ap referred path forward to resolve the CSKT 
water rights claims. The Winters Doctrine lays out the 
constitutional responsibility to reserve the water necessary to 
fulfill the reservation's purpose.
    Does this settlement comply with the Winters Doctrine?
    Mr. Petty. Yes, absolutely.
    Senator Daines. And does the Winters Doctrine change at all 
when considering settlements for tribes with the Stevens 
Treaty?
    Mr. Petty. No, it does not. It doesn't change any at all.
    Senator Daines. So since this legislation fulfills the 
constitutional requirement, would you explain the process that 
water users go through to adjudicate their claims if Congress 
did not act?
    Mr. Petty. Yes, Senator. The adjudication would take place 
in Montana's water courts. Claim is prima facie evidence until 
successfully contested. That means that every water right can 
be called by CSKT during that adjudication process.
    Senator Daines. Now, this settlement authorizes $1.9 
billion, as Ranking Member Udall just stated, it would be the 
most expensive settlement in water settlement history for the 
Federal Government, and it authorizes this large amount of 
money to help rehabilitate the Flathead Indian Irrigation 
Project, also known as FIIP.
    I note your statement of support for this funding level. My 
question is this. What would happen to FIIP if this compact is 
not passed?
    Mr. Petty. Well, Senator, the continued operation of FIIP 
as is raises significant ESA compliance issues right off the 
bat, issues that the Department will actually have to address. 
Water users will need to fund rehabilitation with FIIP 100 
percent, which means huge increases on O&M fees, as well as 
increased costs to fund the ESA compliance, just to start 
naming a few issues. But significant.
    Senator Daines. On the economic side, what economic impacts 
do you estimate my legislation would have on agriculture, on 
jobs, and infrastructure in Montana?
    Mr. Petty. Senator, we have done quite a bit of work 
economically. The legislation protects the Montana ag economy 
from at least, in our estimation, of a $1.3 billion hit alone. 
Additionally, this settlement will support approximately over 
500 jobs, permanent jobs, as well as almost 5,000 temporary 
construction jobs that will be set forth by this legislation.
    Senator Daines. In your testimony, you mentioned need for 
increased assurances that the settlement funds will be spent to 
rehabilitate and to modernize FIIP. After meeting with our 
county commissioners in Montana, local legislators, and other 
key stakeholders, I have heard a lot of concerns, similar 
concerns that you mentioned in your testimony.
    That is why I plan to amend my bill to reflect the language 
that has been negotiated by Interior to strengthen the 
oversight of this very important settlement. The question is 
this. As this bill is implemented, would you explain what 
safeguards would be in place to maintain fiscal integrity and 
how would they operate?
    Mr. Perry. Senator, that is a great question. Thank you for 
that support of the redline, that will be a huge part of the 
work that we have spent years with your help working on, which 
provides the Federal oversight through that. With your 
question, is the Indian Self-Determination and Education Act 
includes annual funding reports as well as funding requests in 
that process. So there is a high accountability there.
    Senator Daines. Who monitors that spending? Who ensures the 
tribe actually adheres to their spending plan?
    Mr. Perry. That is through the Bureau of Indian Affairs 
region. In the case of the Northwest Region specifically, it 
will be the coordination office as well as the Office of Trust 
Services that have experts in oversight.
    Senator Daines. There is concern about potential waste, 
fraud, abuse and so forth. What happens if, for instance, a 
waste, fraud, or abuse of these funds occurs?
    Mr. Perry. Another good question, Senator.
    So in that case, the waste, fraud, and abuse are found in 
the review of the statutory requirements that we have included 
in the legislation, the financial reports, the single audit, 
information reviewed by the Office of Self-Governance, as well 
as general oversight by the region. And the Office of Trust 
Services within Indian Affairs would work with the tribes on 
any corrective action plans to bring them in compliance within 
the settlement. That is a yearly work that is being done.
    Senator Daines. An annual process, then?
    Mr. Petty. Yes.
    Senator Daines. My legislation includes language that 
allows the Secretary to acquire some easements and rights-of-
way that receive service from the Flathead Indian Irrigation 
Project in order to facilitate the rehabilitation work 
authorized by this bill. This language is consistent with other 
settlements that we have had in Montana. I think about the 
Blackfeet settlement, the Crow settlement. We want to maintain 
consistency there, where there are Federal projects involved.
    There is local concern, I have heard it on the ground there 
in Montana, that between awarding tribal water rights and the 
ability of the tribe to potentially acquire land, that the tax 
base of Lake County and Sanders County will erode. Would you 
respond to some of those concerns that I am hearing back from 
especially those two counties that are most directly impacted?
    Mr. Perry. Yes, Senator, that is a good question. It is 
really common practice in Indian water rights settlements and 
elsewhere to require project beneficiaries to contribute the 
right-of-way needed for a project. So that bill is not 
different than what has been ongoing right now. The legislation 
provides direct aspects and compensation, both to Lake County 
as well as Sanders County. The tribes cannot use settlement 
dollars to simply buy land.
    Senator Daines. But is there anything in the bill that 
would force an unwilling landowner to give up property for an 
easement or a right-of-way to the tribe or the Federal 
Government?
    Mr. Petty. No. The bill includes language prohibiting 
condemnation of land.
    Senator Daines. This legislation says if a tribe retains 
all claims related to ``activities affecting the quality of 
water, including any claims under CERCLA, the Safe Drinking 
Water Act and the Federal Water Pollution Act,'' my question 
is, does this language negate the tribe's relinquishing of 
claims with prejudice in Section 10?
    Mr. Petty. The Administration went through an extensive 
process in this to make sure that that does not happen.
    Senator Daines. So Section 12(i) in that bill authorizes 
the Secretary to establish a process to consolidate land on the 
CSKT Reservation exchanged for the same acreage of Federal land 
returned to State ownership. A question is this. What would 
these land exchange negotiations look like?
    Mr. Petty. Senator, we would follow the existing protocols 
in negotiating with the State, which is a high priority for us.
    Senator Daines. Would you confirm that the State landlord 
would be required to approve any land exchange?
    Mr. Petty. Yes.
    Senator Daines. So the State would have ultimate authority 
in saying whether the exchange occurs or not?
    Mr. Petty. Yes, sir.
    Senator Daines. My legislation restores the National Bison 
Range to tribal trust for the CSKT.
    The Chairman. Senator, you probably need to check on your 
timeline.
    Senator Daines. My last question.
    The Chairman. Go ahead.
    Senator Daines. Thanks, Mr. Chairman. Thanks for a little 
extra time here. Appreciate it.
    My legislation restores the National Bison Range to tribal 
trust for the CSKT. For the first time, we are codifying public 
access to the National Bison Range, while protecting refuge 
revenue payments for Lake and for Sanders County. You mentioned 
in your testimony that tribes have been long leaders in natural 
resource management.
    My question is this. What level of confidence does the 
Administration have in the tribes' ability to manage the bison 
range effectively?
    Mr. Petty. Yes, sir, we do have high confidence. Right now, 
actually, the current director is a CSKT tribal member. And 
that is the confidence within that structure and teamwork to 
really be able to be assured that we have the upmost confidence 
that the tribe can manage that.
    Senator Daines. And would you confirm that my legislation 
would annually save approximately $1 million in appropriated 
taxpayer money to run the bison range?
    Mr. Petty. Yes, sir. Yes.
    Senator Daines. Thank you, Secretary Petty. Mr. Chairman, 
thanks for a little extra grace here, for time here. It is a 
very important issue for Montana.
    The Chairman. Certainly. Absolutely understand.
    Let's turn to Senator Tester.
    Senator Tester. Thank you, Mr. Chairman. I appreciate it.
    Mr. Petty, as long as you have the vocal cords warmed up, 
we will just keep right on going with you.
    As far as the Flathead Indian Irrigation Project goes, I 
think that Reclamation estimated about $1.6 billion necessary 
for decommissioning. I think Ranking Member Udall said it was 
about $30 billion. Could you shed a little light on what the 
real cost of decommissioning FIIP would be?
    Mr. Petty. Yes. FIIP estimates are somewhere between $1.3 
billion to $1.4 billion, is what our estimates are at this 
point for decommissioning that.
    Senator Tester. Okay. So there is a technical services 
center, is that in your agency?
    Mr. Petty. It is. It is part of the Bureau of Reclamation 
out of the Denver, Colorado--that is our very [indiscernible] 
group.
    Senator Tester. Are you familiar with any estimates they 
may have put forth?
    Mr. Petty. That team has been part of this work that we 
have done with the Indian Water Rights Office within the 
Department of Interior. So they have been partnering and 
working closely side by side on some of these estimates.
    Senator Tester. So the fact that I read where their 
estimates are five to ten times, I heard that $1.6 billion has 
been rolled back.
    Mr. Petty. Yes, as always, estimates are how much time do 
you keep putting into it. But yes, sir, I would concur with 
your discussion.
    Senator Tester. Needless to say, $1.3 billion or $1.6 
billion isn't exactly small spuds.
    Mr. Petty. Yes, sir.
    Senator Tester. Four years ago, Interior testified before 
this Committee on this bill, on the CSKT water bill that I had, 
that they wanted to see additional analyses on the State, to 
support the Federal cost share. In the intervening years, has 
Interior completed that additional analysis to support Federal 
cost share?
    Mr. Petty. Yes. These last number of years has really been 
a cooperative agreement and cooperative work with both 
Reclamation and with multiple meetings and getting together as 
well as the Indian water rights settlement team.
    Senator Tester. Okay, so based on that analysis, and 
Interior's negotiations with CSKT on this bill that we have in 
front of us today, do you support the Federal cost share in 
this bill?
    Mr. Petty. Yes, sir. We have been able to confirm that.
    Senator Tester. And do you believe that it is beneficial 
for all parties involved?
    Mr. Petty. Yes, sir, both Department as well as the 
Administration concurs that it is the best path forward.
    Senator Tester. You have already addressed the question 
about economic liabilities with potentially 10,000 water rights 
claims. So I just want to thank you very much for your work.
    I have a quick question for Director LaCounte. It is only 
because you have already referenced that you were Rocky 
Mountain Regional Director in Billings. I know CSKT is not part 
of that region, but I know you are intimately familiar, 
Director LaCounte, with CSKT. Can you give me, through what you 
have seen on CSKT lands, can you give me your view of what 
kinds of issues will be addressed if we get this water compact 
passed?
    Mr. LaCounte. Certainly, as both Senator Daines and 
yourself have stated, it has been a contentious issue in the 
State of Montana for a long time. If any of you have ever been 
there, it is the most beautiful place in the world, I think. 
Just getting this done and behind everyone would resolve a lot 
of issues in the State of Montana, simply because it would be 
resolved. And it wouldn't be laying on the table to fight over.
    As Senator Daines earlier said, that is what water is about 
in Montana, is fighting over. Well, once you end the fight, the 
fight is over, everybody can get their lives in order and go 
about business as they know it is going to be. The Department 
significantly supports turning the National Bison Range back to 
where it started, with members of the Salish Kootenai Tribes.
    Senator Tester. Last question. The State of Montana is 
setting aside $55 million in contributions to the settlement. 
How would you describe the State of Montana's commitment, 
seeing that this has already been pointed out as the biggest 
water settlement ever?
    Mr. LaCounte. Well, good for them, but that is some of my 
tax dollars, too. So I am happy to contribute, if that is going 
to make things better in the State.
    [Laughter.]
    Senator Tester. Okay. But it is adequate, is what you are 
saying? It is adequate in the overall settlement?
    Mr. LaCounte. Yes.
    Senator Tester. Okay, thanks guys. I appreciate it. Thank 
you, Mr. Chairman.
    The Chairman. Thanks, Senator Tester. And I will concur, it 
is one beautiful spot, no doubt about it. It is a beautiful 
place.
    Senator Cortez Masto.
    Senator Cortez Masto. Thank you, Mr. Chairman, Ranking 
Member. And thank you to the witnesses who are participating 
today.
    As you can hear from all my colleagues, we all recognize, 
hopefully you do as well, the importance of water rights 
settlements to those of us in the west. I want to take a moment 
to talk about one that is not on the agenda today, but I 
introduced, it is S. 3754. It makes technical corrections to 
the Shoshone-Paiute Tribes of the Duck Valley Reservation Water 
Rights Settlement Act of 2009. I am grateful that my 
colleagues, Senators Crapo, Risch and Rosen have joined me as 
co-sponsors. The tribe's reservation crosses between our two 
States.
    The 2009 Settlement Act resolved decades of tension over 
water rights between the tribes and non-Indian neighbors. It 
legislated agreement and gave certainty to farmers and ranchers 
regarding water allocations available to them for crops and 
grazing. The tribes were provided economic benefits to the 
reservation and assistance with their municipal water supply.
    However, prior to the Act becoming effective in 2016, the 
funds were set aside toward the implementation of this 
agreement. Those funds were invested and the proceeds that were 
derived from these investments went into the general treasury, 
and not toward the benefit of the tribe.
    The bill that I have introduced authorizes the amount of 
money that the trust funds could have earned during the period 
before the settlement agreement became effective in 2016 to be 
put back toward its intended use for the tribe's water 
settlement agreement. My bill essentially fulfills the promise 
made by the 2009 agreement.
    I hope I can have commitment from the Interior Department 
to work with me in rectifying this matter. I look forward to 
working, Mr. Chairman and Ranking Member, on including this 
bill on a future agenda for a legislative hearing as well. So I 
just wanted to put that out there.
    I also did not hear, for the panelists, with respect to the 
STOP Act, S. 2165, I am a co-sponsor of that as well, it is an 
important piece of legislation, I didn't hear if there was 
support for it or not. So to the panelists, can you let me know 
whether you support S. 2165?
    Mr. LaCounte. Thank you, Senator. Yes. We are very 
supportive of it. I believe I have testified in front of this 
Committee on it before, supporting it. That could have been the 
House; I am getting old and I lose my train of thought 
sometimes.
    [Laughter.]
    Mr. LaCounte. There was a blurb that I chose not to read 
for the interest of time, but the Department is very supportive 
of it.
    Senator Cortez Masto. Thank you. I appreciate that. And Mr. 
LaCounte, I know you are also part of the Department, but do 
you have any concerns with the bill, the legislation?
    Mr. LaCounte. I do not.
    Senator Cortez Masto. Oh, I am sorry, Mr. Petty. I can't 
hear you.
    Mr. Petty. No, I do not. Thank you.
    Senator Cortez Masto. Thank you. You made it very easy for 
me. Thank you very much. Thanks for joining us.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cortez Masto.
    With that, unless, Senator Udall, you have other questions?
    Senator Udall. I am in good shape here. Thank you, Mr. 
Chairman.
    The Chairman. Very good. Again, I would like to thank both 
of our witnesses.
    At this point, we will conclude the hearing. The record 
will be open for two weeks. I would ask that if there are 
questions submitted for the record, that you follow up in a 
timely way.
    Again, I want to thank both of the witnesses for being 
here. With that, we are adjourned.
    [Whereupon, at 3:51 p.m., the hearing was adjourned.]

                            A P P E N D I X

    Prepared Statement of Hon. Billy Friend, Chief, Wyandotte Nation
    Thank you Chairman Hoeven, Vice Chairman Udall, and Members of the 
Committee for the oppo1iunity to submit testimony on S. 2165, the 
Safeguard Tribal Objects of Patrimony (STOP) Act of2019. The Wyandotte 
Nation strongly supports swift passage of the STOP Act.
    My name is Billy Friend and I am the Chief of the Wyandotte Nation. 
The struggle to protect tribal cultural heritage from illegal 
trafficking is a tragically common challenge for communities across 
Indian Country. The Wyandotte Nation is no exception. International 
markets have become a safe harbor for trafficking federally protected 
tribal cultural heritage items, and they will remain this way until 
Congress enacts federal law to address this issue. We firmly believe 
the STOP Act will make tremendous strides in preventing international 
trafficking of federally protected tribal cultural heritage items and 
securing their return home to their tribal communities.
I. The Wyandotte Nation Has Fought to Protect Our Tribal Cultural 
        Heritage
    Items of tribal cultural heritage are as unique as the tribal 
nations to whom they belong. These items share the common 
characteristics of being of deep intangible and tangible significance 
to a tribal nation. Many people view our cultural heritage as beautiful 
works of art, as talismans of a past culture they would like to own, or 
as items to trade for profit. Whatever intrinsic beauty these items 
possess, that is not their intended purpose.
    Our items of cultural heritage have significant roles to play 
within our cultures, our traditional calendars. our families, and our 
ways of life. Our cultural heritage also helps us honor and uphold our 
values and teach those values to our community members, particularly 
our young people. So important are these items of cultural heritage 
that they belong to the community as a whole--as our shared inheritance 
and as our shared responsibility to honor and protect for present and 
future generations.
    The Wyandotte Nation has first-hand experience in fighting to 
prevent the loss of our cultural heritage due to theft, trafficking, 
and illegal sales. Many of our tribal artifacts are now in museums 
abroad or in private collections outside the jurisdiction of the United 
States, due to fact that we for many years did not have the financial 
means or the ability to track down and acquire the items that were 
historically ours.
II. Support for the STOP Act to Close Gaps in Existing Federal Law
    The Wyandotte Nation fully supports the passage of the Safeguard 
Tribal Objects of Patrimony (STOP) Act of 2019, S. 2165. Gaps in 
existing federal law have enabled dealers and collectors to operate in 
the shadows when it comes to items of tribal cultural 
heritageespecially once exported abroad. The STOP Act illuminates these 
dark corners.
    There is an already-existing international mechanism through which 
countries can request the return of cultural property from other 
countries. The Convention on the Means of Prohibiting and Preventing 
the Illicit Import, Export and Transfer of Ownership of Cultural 
Property is a 1970 international treaty that the United States signed. 
France, now a safe harbor for those seeking to sell federally protected 
tribal cultural heritage items, is also a signatory. When a signatory 
prohibits export of particular cultural patrimony items and introduces 
an accompanying export certificate, that signatory can call on other 
signatories to control imports of those items and help with 
repatriation. The United States has not explicitly prohibited export of 
tribal cultural heritage items otherwise protected under federal laws 
like the Native American Graves Protection and Repatriation Act 
(NAGPRA) and the Archaeological Resources Protection Act (ARP A). 
Instead, when we try to regain our sacred items from an auction block 
abroad, we are told these gaps in United States law prevent government 
action to facilitate return.
    The STOP Act places an emphasis on facilitating the return of 
protected cultural heritage items trafficked internationally. The STOP 
Act sets out to accomplish the two main goals of: (1) stopping the 
export and facilitating the international repatriation of tribal 
cultural heritage items already prohibited from being trafficked under 
federal law; and (2) facilitating coordination among federal agencies 
in protecting and repatriating such items and in aiding the voluntary 
return of tribal tangible cultural heritage more broadly.
    The STOP Act is designed to meet these very narrow goals. But NAGRA 
and ARPA have other serious limitations that make even their domestic 
implementation difficult, including restrictive provenance 
requirements. While the STOP Act works to prevent the export of items 
already protected under NAGPRA and ARPA and to secure their return, we 
hope to see larger changes to NAGPRA and ARP A in the future meant to 
resolve these other limitations.
    We understand the STOP Act has been developed with significant 
expert feedback, including from seasoned agency officials. We welcome 
this expert feedback to strengthen the STOP Act so that it best meets 
its goals.
    We need the STOP Act now. Without it, we will continue to see our 
tribal cultural heritage trafficked just out of our reach and in front 
of our very eyes. The Wyandotte Nation urges you to act swiftly to 
enact the STOP Act into law.
                                 ______
                                 
  Prepared Statement of Vivian Korthuis, CEO, Association of Village 
                           Council Presidents
    Thank you Chairman Hoeven, Vice Chairman Udall, and Members of the 
Committee for the opportunity to submit testimony on S. 2165, the 
Safeguard Tribal Objects of Patrimony (STOP) Act of 2019. The 
Association of Village Council Presidents strongly supports swift 
passage of the STOP Act.
    My name is Vivian Korthuis and I am the Chief Executive Officer of 
the Association of Village Council Presidents (AVCP). AVCP is a Native 
non-profit corporation and the largest tribal consortium in the United 
States with 56 federally recognized tribes as members. The Yukon-
Kuskokwim Delta (YKDelta), where we are located, spans approximately 
55,000 square miles and is roughly the size of the State of New York. 
In our region there are 48 villages spread along the Yukon River, 
Kuskokwim River, and the Bering Sea Coast with a population of 
approximately 25,000. Our mission is to provide community development, 
education, social services, culturally relevant programs, and advocacy 
for the people and tribes of the YK-Delta.
    The struggle to protect tribal cultural heritage from illegal 
trafficking is a tragically common challenge for communities across 
Indian Country. The AVCP tribes are no exception. International markets 
have become a safe harbor for trafficking federally protected tribal 
cultural heritage items, and they will remain this way until Congress 
enacts federal law to address this issue. We firmly believe the STOP 
Act will make tremendous strides in preventing international 
trafficking of federally protected tribal cultural heritage items and 
securing their return home to their tribal communities.
I. AVCP Tribes Have Fought to Protect Our Tribal Cultural Heritage
    Items of tribal cultural heritage are as unique as the tribes to 
whom they belong. These items share the common characteristics of being 
of deep intangible and tangible significance to a tribe. Many people 
view our cultural heritage as beautiful works of art, as talismans of a 
past culture they would like to own, or as items to trade for profit. 
Whatever intrinsic beauty these items possess, that is not their 
intended purpose.
    Our items of cultural heritage have significant roles to play 
within our cultures, our traditional calendars, our families, and our 
ways of life. Our cultural heritage also helps us honor and uphold our 
values and teach those values to our community members, particularly 
our young people. So important are these items of cultural heritage 
that they belong to the community as a whole-as our shared inheritance 
and as our shared responsibility to honor and protect for present and 
future generations.
II. Support for the STOP Act to Close Gaps in Existing Federal Law
    AVCP fully supports the passage of the Safeguard Tribal Objects of 
Patrimony (STOP) Act of 2019, S. 2165. Gaps in existing federal law 
have enabled dealers and collectors to operate in the shadows when it 
comes to items of tribal cultural heritage-especially once exported 
abroad. The STOP Act illuminates these dark corners.
    There is an already-existing international mechanism through which 
countries can request the return of cultural property from other 
countries. The Convention on the Means of Prohibiting and Preventing 
the Illicit Import, Export and Transfer of Ownership of Cultural 
Property is a 1970 international treaty that the United States signed. 
France, now a safe harbor for those seeking to sell federally protected 
tribal cultural heritage items, is also a signatory. When a signatory 
prohibits export of particular cultural patrimony items and introduces 
an accompanying export certificate, that signatory can call on other 
signatories to control imports of those items and help with 
repatriation. The United States has not explicitly prohibited export of 
tribal cultural heritage items otherwise protected under federal laws 
like the Native American Graves Protection and Repatriation Act 
(NAGPRA) and the Archaeological Resources Protection Act (ARPA). 
Instead, when we try to regain our sacred items from an auction block 
abroad, we are told these gaps in United States law prevent government 
action to facilitate return.
    The STOP Act places an emphasis on facilitating the return of 
protected cultural heritage items trafficked internationally. The STOP 
Act sets out to accomplish the two main goals of: (1) stopping the 
export and facilitating the international repatriation of tribal 
cultural heritage items already prohibited from being trafficked under 
federal law; and (2) facilitating coordination among federal agencies 
in protecting and repatriating such items and in aiding the voluntary 
return of tribal tangible cultural heritage more broadly.
    The STOP Act is designed to meet these very narrow goals. But NAGRA 
and ARPA have other serious limitations that make even their domestic 
implementation difficult, including restrictive provenance 
requirements. While the STOP Act works to prevent the export of items 
already protected under NAGPRA and ARPA and to secure their return, we 
hope to see larger changes to NAGPRA and ARPA in the future meant to 
resolve these other limitations.
    We understand the STOP Act has been developed with significant 
expert feedback, including from seasoned agency officials. We welcome 
this expert feedback to strengthen the STOP Act so that it best meets 
its goals.
    We need the STOP Act now. Without it, we will continue to see our 
tribal cultural heritage trafficked just out of our reach and in front 
of our very eyes. AVCP urges you to act swiftly to enact the STOP Act 
into law.
    Thank you for your dedication, commitment, and conscientious work 
on behalf of Indian Country.
                                 ______
                                 
Prepared Statement of Hon. William Harris, Chief, Catawba Indian Nation
    Thank you Chairman Hoeven, Vice Chairman Udall, and Members of the 
Committee for the opportunity to submit testimony on S. 2165, the 
Safeguard Tribal Objects of Patrimony (STOP) Act of 2019. The Catawba 
Indian Nation strongly supports swift passage of the STOP Act.
    My name is William Harris, and I am the Chief of the Catawba Indian 
Nation. The struggle to protect tribal cultural heritage from illegal 
trafficking is a tragically common challenge for communities across 
Indian Country. The Catawba Indian Nation is no exception. 
International markets have become a safe harbor for trafficking 
federally protected tribal cultural heritage items, and they will 
remain this way until Congress enacts federal law to address this 
issue. We firmly believe the STOP Act will make tremendous strides in 
preventing international trafficking of federally protected tribal 
cultural heritage items and securing their return home to their tribal 
communities.
I. The Catawba Indian Nation Has Fought to Protect Our Tribal Cultural 
        Heritage
    Items of tribal cultural heritage are as unique as the tribal 
nations to whom they belong. These items share the common 
characteristics of being of deep intangible and tangible significance 
to a tribal nation. Many people view our cultural heritage as beautiful 
works of art, as talismans of a past culture they would like to own, or 
as items to trade for profit. Whatever intrinsic beauty these items 
possess, that is not their intended purpose.
    Our items of cultural heritage have significant roles to play 
within our cultures, our traditional calendars, our families, and our 
ways of life. Our cultural heritage also helps us honor and uphold our 
values and teach those values to our community members, particularly 
our young people. So important are these items of cultural heritage 
that they belong to the community as a whole--as our shared inheritance 
and as our shared responsibility to honor and protect for present and 
future generations.
    Before contact with the Europeans, the Catawba people inhabited 
most of the Piedmont area of South Carolina, North Carolina and parts 
of Virginia. By the late 17th century, trade began having a major 
impact on the Catawba society. Catawba villages became a major hub in 
the trade system between the Virginia traders and the Carolina traders. 
We have long recognized the importance of the voluntary trading and 
selling our traditional arts. In fact, this was the lifeblood of our 
economy and helped our people survive the Great Depression. However, 
there must be better protections to prohibit the illicit trade of 
tribes' sacred and cultural items that are illegally taken from 
indigenous people.
    Despite protections in current law, the illicit trade in tribes' 
tangible cultural heritage continues to pose a grave threat to our 
cultural survival. Our sacred and cultural items are illegally taken 
from our people, threatening the maintenance of our cultures and 
traditions and depriving us of the cultural legacy we seek to leave our 
future generations. Meanwhile, a lucrative black market in our cultural 
heritage thrives, and without explicit export restrictions many of our 
sacred and cultural items end up abroad. Once abroad, we have had very 
little success in efforts to bring them home. For this reason, the 
Catawba Indian Nation supports the STOP Act's goal of making it more 
difficult to export and easier for tribes to regain their cultural 
heritage from abroad.
II. Support for the STOP Act to Close Gaps in Existing Federal Law
    The Catawba Indian Nation fully supports the passage of the 
Safeguard Tribal Objects of Patrimony (STOP) Act of 2019, S. 2165. Gaps 
in existing federal law have enabled dealers and collectors to operate 
in the shadows when it comes to items of tribal cultural heritage--
especially once exported abroad. The STOP Act illuminates these dark 
corners.
    There is an already-existing international mechanism through which 
countries can request the return of cultural property from other 
countries. The Convention on the Means of Prohibiting and Preventing 
the Illicit Import, Export and Transfer of Ownership of Cultural 
Property is a 1970 international treaty that the United States signed. 
France, now a safe harbor for those seeking to sell federally protected 
tribal cultural heritage items, is also a signatory. When a signatory 
prohibits export of particular cultural patrimony items and introduces 
an accompanying export certificate, that signatory can call on other 
signatories to control imports of those items and help with 
repatriation. The United States has not explicitly prohibited export of 
tribal cultural heritage items otherwise protected under federal laws 
like the Native American Graves Protection and Repatriation Act 
(NAGPRA) and the Archaeological Resources Protection Act (ARPA). 
Instead, when we try to regain our sacred items from an auction block 
abroad, we are told these gaps in United States law prevent government 
action to facilitate return.
    The STOP Act places an emphasis on facilitating the return of 
protected cultural heritage items trafficked internationally. The STOP 
Act sets out to accomplish the two main goals of: (1) stopping the 
export and facilitating the international repatriation of tribal 
cultural heritage items already prohibited from being trafficked under 
federal law; and (2) facilitating coordination among federal agencies 
in protecting and repatriating such items and in aiding the voluntary 
return of tribal tangible cultural heritage more broadly.
    The STOP Act is designed to meet these very narrow goals. But NAGRA 
and ARPA have other serious limitations that make even their domestic 
implementation difficult, including restrictive provenance 
requirements. While the STOP Act works to prevent the export of items 
already protected under NAGPRA and ARPA and to secure their return, we 
hope to see larger changes to NAGPRA and ARPA in the future meant to 
resolve these other limitations.
    We understand the STOP Act has been developed with significant 
expert feedback, including from seasoned agency officials. We welcome 
this expert feedback to strengthen the STOP Act so that it best meets 
its goals.
    We need the STOP Act now. Without it, we will continue to see our 
tribal cultural heritage trafficked just out of our reach and in front 
of our very eyes. The Catawba Indian Nation urges you to act swiftly to 
enact the STOP Act into law.
                                 ______
                                 
  Prepared Statement of Deana M. Bovee, Tribal Chairwoman, Susanville 
                            Indian Rancheria
    My name is Deana M. Bovee and I am the Tribal Chairwoman of the 
Susanville Indian Rancheria. The struggle to protect tribal cultural 
heritage from illegal trafficking is a tragically common challenge for 
communities across Indian Country. The Susanville Indian Rancheria is 
no exception. International markets have become a safe harbor for 
trafficking federally protected tribal cultural heritage items, and 
they will remain this way until Congress enacts federal law to address 
this issue. We firmly believe the STOP Act will make tremendous strides 
in preventing international trafficking of federally protected tribal 
cultural heritage items and securing their return home to their tribal 
communities.
I. The Susanville Indian Rancheria Has Fought to Protect Our Tribal 
        Cultural Heritage
    Items of tribal cultural heritage are as unique as the tribal 
nations to whom they belong. These items share the common 
characteristics of being of deep intangible and tangible significance 
to a tribal nation. Many people view our cultural heritage as beautiful 
works of art, as talismans of a past culture they would like to own, or 
as items to trade for profit. Whatever intrinsic beauty these items 
possess, that is not their intended purpose.
    Our items of cultural heritage have significant roles to play 
within our cultures, our traditional calendars, our families, and our 
ways of life. Our cultural heritage also helps us honor and uphold our 
values and teach those values to our community members, particularly 
our young people. So important are these items of cultural heritage 
that they belong to the community as a whole--as our shared inheritance 
and as our shared responsibility to honor and protect for present and 
future generations.
II. Support for the STOP Act to Close Gaps in Existing Federal Law
    The Susanville Indian Rancheria fully supports the passage of the 
Safeguard Tribal Objects of Patrimony (STOP) Act of 2019, S. 2165. Gaps 
in existing federal law have enabled dealers and collectors to operate 
in the shadows when it comes to items of tribal cultural heritage- 
especially once exported abroad. The STOP Act illuminates these dark 
corners.
    There is an already-existing international mechanism through which 
countries can request the return of cultural property from other 
countries. The Convention on the Means of Prohibiting and Preventing 
the Illicit Import, Export and Transfer of Ownership of Cultural 
Property is a 1970 international treaty that the United States signed. 
France, now a safe harbor for those seeking to sell federally protected 
tribal cultural heritage items, is also a signatory. When a signatory 
prohibits export of particular cultural patrimony items and introduces 
an accompanying export certificate, that signatory can call on other 
signatories to control imports of those items and help with 
repatriation. The United States has not explicitly prohibited export of 
tribal cultural heritage items otherwise protected under federal laws 
like the Native American Graves Protection and Repatriation Act 
(NAGPRA) and the Archaeological Resources Protection Act (ARPA). 
Instead, when we try to regain our sacred items from an auction block 
abroad, we are told these gaps in United States law prevent government 
action to facilitate return.
    The STOP Act places an emphasis on facilitating the return of 
protected cultural heritage items trafficked internationally. The STOP 
Act sets out to accomplish the two main goals of: (1) stopping the 
export and facilitating the international repatriation of tribal 
cultural heritage items already prohibited from being trafficked under 
federal law; and (2) facilitating coordination among federal agencies 
in protecting and repatriating such items and in aiding the voluntary 
return of tribal tangible cultural heritage more broadly.
    The STOP Act is designed to meet these very narrow goals. But NAGRA 
and ARPA have other serious limitations that make even their domestic 
implementation difficult, including restrictive provenance 
requirements. While the STOP Act works to prevent the export of items 
already protected under NAGPRA and ARPA and to secure their return, we 
hope to see larger changes to NAGPRA and ARPA in the future meant to 
resolve these other limitations.
    We understand the STOP Act has been developed with significant 
expert feedback, including from seasoned agency officials. We welcome 
this expert feedback to strengthen the STOP Act so that it best meets 
its goals.
    We need the STOP Act now. Without it, we will continue to see our 
tribal cultural heritage trafficked just out of our reach and in front 
of our very eyes. The Susanville Indian Rancheria urges you to act 
swiftly to enact the STOP Act into law.
                                 ______
                                 
Prepared Statement of Sealaska Heritage Institute: Tlingit, Haida, and 
                               Tsimshian
    Thank you Chairman Hoeven, Vice Chairman Udall, and Members of the 
Committee for the opportunity to submit testimony on S. 2165, the 
Safeguard Tribal Objects of Patrimony (STOP) Act of 2019. Sealaska 
Heritage Institute (SHI), a Native nonprofit serving the Tlingit, 
Haida, and Tsimshian people of Southeast Alaska, strongly supports 
swift passage of the STOP Act.
    My name is Rosita Worl and I am the president of SHI. The struggle 
to protect tribal cultural heritage from illegal trafficking is a 
tragically common challenge for communities across Indian Country. 
International markets have become a safe harbor for trafficking 
federally protected tribal cultural heritage items, and they will 
remain this way until Congress enacts federal law to address this 
issue. We firmly believe the STOP Act will make tremendous strides in 
preventing international trafficking of federally protected tribal 
cultural heritage items and securing their return home to their tribal 
communities.
I. Sealaska Heritage Institute] Has Fought to Protect Our Tribal 
        Cultural Heritage
    Items of tribal cultural heritage are as unique as the tribal 
nations to whom they belong. These items share the common 
characteristics of being of deep intangible and tangible significance 
to a tribal nation. Many people view our cultural heritage as beautiful 
works of art, as talismans of a past culture they would like to own, or 
as items to trade for profit. Whatever intrinsic beauty these items 
possess, that is not their intended purpose.
    Our items of cultural heritage have significant roles to play 
within our cultures, our traditional calendars, our ceremonies, and our 
ways of life. Our cultural heritage also helps us honor and uphold our 
values and teach those values to our community members, particularly 
our young people. Many of our cultural objects are clan at. centsowu 
(sacred objects). They are used in ceremonies to evoke the spirits of 
our ancestors. Under our Native laws, at. centsowu cannot be alienated 
from the clans to which they belong, and yet, we see our sacred objects 
across the world separated from their clans and being sold to the 
highest bidder.
    We have found it to be near impossible to repatriate items sold 
internationally or even in the United States by private collectors.
    In 2016, Sealaska Heritage protested a Paris auction orchestrated 
by the company Eve, which put up for sale 10 Tlingit and Haida sacred 
objects, including a Tlingit Ixt' (Shaman's) rattle. The auction house 
ignored our pleas to stop the sale and the Tlingit people who appeared 
in Paris to protest the event. The United Nations' Universal 
Declaration of Human Rights has provisions to protect cultural 
property, but it is weak on enforcement, so the objects, which we 
believe are imbued with the spirits of our ancestors, were sold to the 
highest bidder.
    In 2017, the auction house ``The Cobbs'' in New Hampshire attempted 
to sell a Tlingit Ixt' (Shaman) amulet. Native people would never 
alienate such a thing, so it probably was removed from a sacred space 
in the woods, a fate suffered by so many of our sacred objects in the 
past. Sealaska Heritage posted a plea for donations on Facebook so that 
we could bid on the amulet and possibly repatriate it to the tribes. 
The post reached more than 22,000 people and generated almost 800 
reactions and nearly 60 comments. Clearly it hit a nerve.
    As it turned out, none of the offers for the amulet, including 
SHI's bid, met the minimum price set for the object, so the amulet did 
not sell. It was at that point SHI reached out to the seller through 
the auction house to try to negotiate a lower price and get it back. 
Unfortunately, we were not able to negotiate a deal with the seller.
    To address the latter problem, SHI is advocating through the Alaska 
congressional delegation to enact a federal law allowing tax credits to 
private collectors who give cultural objects back to tribes.
II. Support for the STOP Act to Close Gaps in Existing Federal Law
    SHI fully supports the passage of the Safeguard Tribal Objects of 
Patrimony (STOP) Act of 2019, S. 2165. Gaps in existing federal law 
have enabled dealers and collectors to operate in the shadows when it 
comes to items of tribal cultural heritage-especially once exported 
abroad. The STOP Act illuminates these dark corners.
    There is an already-existing international mechanism through which 
countries can request the return of cultural property from other 
countries. The Convention on the Means of Prohibiting and Preventing 
the Illicit Import, Export and Transfer of Ownership of Cultural 
Property is a 1970 international treaty that the United States signed. 
France, now a safe harbor for those seeking to sell federally protected 
tribal cultural heritage items, is also a signatory. When a signatory 
prohibits export of particular cultural patrimony items and introduces 
an accompanying export certificate, that signatory can call on other 
signatories to control imports of those items and help with 
repatriation. The United States has not explicitly prohibited export of 
tribal cultural heritage items otherwise protected under federal laws 
like the Native American Graves Protection and Repatriation Act 
(NAGPRA) and the Archaeological Resources Protection Act (ARPA). 
Instead, when we try to regain our sacred items from an auction block 
abroad, we are told these gaps in United States law prevent government 
action to facilitate return.
    The STOP Act places an emphasis on facilitating the return of 
protected cultural heritage items trafficked internationally. The STOP 
Act sets out to accomplish the two main goals of: (1) stopping the 
export and facilitating the international repatriation of tribal 
cultural heritage items already prohibited from being trafficked under 
federal law; and (2) facilitating coordination among federal agencies 
in protecting and repatriating such items and in aiding the voluntary 
return of tribal tangible cultural heritage more broadly.
    The STOP Act is designed to meet these very narrow goals. But NAGRA 
and ARPA have other serious limitations that make even their domestic 
implementation difficult, including restrictive provenance 
requirements. While the STOP Act works to prevent the export of items 
already protected under NAGPRA and ARPA and to secure their return, we 
hope to see larger changes to NAGPRA and ARPA in the future meant to 
resolve these other limitations.
    We understand the STOP Act has been developed with significant 
expert feedback, including from seasoned agency officials. We welcome 
this expert feedback to strengthen the STOP Act so that it best meets 
its goals.
    We need the STOP Act now. Without it, we will continue to see our 
tribal cultural heritage trafficked just out of our reach and in front 
of our very eyes. I urge you to act swiftly to enact the STOP Act into 
law.
                                 ______
                                 
Prepared Statement of Paul Edmondson, President/CEO, National Trust for 
                         Historic Preservation
    Chairman Hoeven, Vice Chairman Udall, and members of the Committee, 
thank you for holding this hearing on the Safeguard Tribal Objects of 
Patrimony Act of 2019 (S. 2165). My name is Paul Edmondson, and I am 
the President and CEO of the National Trust for Historic Preservation. 
I appreciate this opportunity to voice the National Trust's support for 
this bipartisan bill to strengthen laws aimed at preventing trafficking 
in Native American cultural items and facilitating the voluntary return 
of sacred and cultural items.
    Congress chartered the National Trust in 1949 to ``facilitate 
public participation in historic preservation'' and further the 
purposes of federal historic preservation laws. With headquarters in 
Washington, D.C., 28 historic sites, more than one million members and 
supporters, and a national network of partners in states, territories, 
and the District of Columbia, the National Trust works to save 
America's historic places and advocates for historic preservation as a 
fundamental value in programs and policies at all levels of government.
    Continued sales of cultural items at overseas auctions highlight 
shortcomings in existing law that have been exploited for far too long. 
Currently, no law explicitly prohibits exporting items obtained 
illegally under the Antiquities Act of 1906, the Archaeological 
Resource Protection Act (ARPA), or the Native American Graves 
Protection and Repatriation Act (NAGPRA).
    The lack of export prohibitions presents significant challenges to 
tribes' ability to work with foreign governments to stop sales and 
repatriate important cultural items. This Committee has heard extensive 
testimony from the Pueblo of Acoma, which is included in the portfolio 
of National Trust Historic Sites, and others about how efforts to 
recover sacred items are significantly hampered by the inadequate 
federal framework for protecting and recovering cultural items. Even 
successful repatriation, as in the recent case of the ceremonial Acoma 
Shield, can take years and require extensive coordination.
    The STOP Act addresses this deficiency in existing law by expressly 
prohibiting export of illegally obtained cultural items and creating a 
certification system for items obtained lawfully. The bill's 
strengthened penalties under NAGPRA will also provide greater 
deterrence against illegal trafficking. Importantly, the STOP Act also 
facilitates voluntary return of cultural items to provide new 
opportunities to restore tangible cultural heritage.
    The National Trust strongly supports the STOP Act, which we believe 
will enhance our nation's commitment to respecting and protecting the 
tangible cultural heritage of tribes. We encourage the Committee to act 
favorably and expeditiously on this bill. If you have any questions 
concerning these issues, please do not hesitate to communicate with me.
                                 ______
                                 
  Prepared Statement of John E. Echohawk, Executive Director, Native 
                          American Rights Fund
    Thank you Chairman Hoeven, Vice Chairman Udall, and Members of the 
Committee for the opportunity to submit testimony on S. 2165, the 
Safeguard Tribal Objects of Patrimony (STOP) Act of 2019. The Native 
American Rights Fund (NARF) strongly supports swift passage of the STOP 
Act.
    My name is John Echohawk and I am the Executive Director of NARF. 
The struggle to protect tribal objects of cultural heritage from 
illegal trafficking is a tragically common challenge for communities 
across Indian Country. International markets have become a safe harbor 
for trafficking federally protected tribal cultural heritage items, and 
they will remain this way until Congress enacts federal law to address 
the issue. We firmly believe that, if appropriately funded, the STOP 
Act will make tremendous strides in preventing international 
trafficking of federally protected tribal cultural heritage items and 
securing their return home to their tribal communities.
I. NARF Has Fought to Protect Tribal Cultural Heritage Throughout 
        Indian Country
    Items of tribal cultural heritage are as unique as the tribal 
nations to whom they belong. These items share the common 
characteristics of being of deep significance, tangibly and intangibly, 
to a tribal nation. Many non-tribal people view tribal cultural 
heritage as beautiful works of art, as talismans of a past culture they 
would like to own, or as items to trade for profit. Whatever intrinsic 
beauty these items possess, that is not their intended purpose. They 
are important for the health of ongoing, living cultures.
    Tribal items of cultural heritage have significant roles to play 
within tribal cultures, traditional ceremonial obligations, tribal 
families, and ways of life. Tribal cultural heritage also helps tribal 
members honor and uphold their values and teach those values to their 
community members, particularly young people. So important are these 
items of cultural heritage that they are generally seen as belonging to 
the community as a whole-as tribal people's shared inheritance and as 
their shared responsibility to honor and protect for present and future 
generations.
    NARF has a long track record in fighting to prevent the loss of 
tribal cultural heritage due to theft, trafficking, and illegal sales. 
As experts in the field, NARF attorneys have represented many tribes in 
all matters of national and international scope for over 50 years. 
Specifically, NARF has advocated for tribal protections related to the 
repatriation of tribal cultural heritage items and reburial of Native 
American bodies. Our attorneys were among those who pioneered the 
development and implementation of the Native American Graves Protection 
and Repatriation Act (NAGPRA). Former NARF Attorney Walter Echohawk 
continued to advocate for changes in legislation to fill gaps left by 
language of NAGPRA to extend protections to all tribal nations equally. 
In furthering the pursuit of this cause, NARF remains involved in the 
representation of numerous tribes on NAGPRA claims.
II. Support for the STOP Act to Close Gaps in Existing Federal Law
    NARF fully supports the passage of the Safeguard Tribal Objects of 
Patrimony (STOP) Act of 2019, S. 2165. Gaps in existing federal law 
have enabled dealers and collectors to operate in the shadows when it 
comes to items of tribal cultural heritage-especially once exported 
abroad. The STOP Act illuminates these dark corners.
    There is an already-existing international mechanism through which 
countries can request the return of cultural property from other 
countries. The Convention on the Means of Prohibiting and Preventing 
the Illicit Import, Export and Transfer of Ownership of Cultural 
Property is a 1970 international treaty that the United States signed. 
France, now a safe harbor for those seeking to sell federally protected 
tribal cultural heritage items, is also a signatory. When a signatory 
prohibits export of particular cultural patrimony items and introduces 
an accompanying export certificate, that signatory can call on other 
signatories to control imports of those items and help with 
repatriation. The United States has not explicitly prohibited export of 
tribal cultural heritage items otherwise protected under federal laws 
like NAGPRA and the Archaeological Resources Protection Act (ARPA). 
Instead, when tribes try to regain their sacred items from an auction 
block abroad, they are told these gaps in United States law prevent 
government action to facilitate return.
    The STOP Act places an emphasis on facilitating the return of 
protected cultural heritage items trafficked internationally. The STOP 
Act sets out to accomplish the two main goals of: (1) stopping the 
export and facilitating the international repatriation of tribal 
cultural heritage items already prohibited from being trafficked under 
federal law; and (2) facilitating coordination among federal agencies 
in protecting and repatriating such items and in aiding the voluntary 
return of tribal tangible cultural heritage more broadly.
    The STOP Act is designed to meet these very narrow goals. But 
NAGPRA and ARPA have other serious limitations that make even their 
domestic implementation difficult, including restrictive provenance 
requirements. While the STOP Act works to prevent the export of items 
already protected under NAGPRA and ARPA and to secure their return, we 
hope to see larger changes to NAGPRA and ARPA in the future meant to 
resolve these other limitations.
    We understand the STOP Act has been developed with significant 
expert feedback, including from seasoned agency officials. We welcome 
this expert feedback to strengthen the STOP Act so that it best meets 
its goals. Technical matters should be addressed in a manner that does 
not delay passage, and funding authority should be clear as well, to 
allow meaningful near-term impact.
    As part of what we assume will be worked out to help the STOP Act 
best meet its goals, we note two issues we believe will need further 
attention. First, caselaw has revealed that the definition of ``Native 
American'' in NAGPRA is in need of clarification, and that same 
clarification would be beneficial here. To best accomplish the purposes 
of the STOP Act, the definition of Native American that currently 
refers to the NAGPRA definition should be amended to read, ``'Native 
American' means of, or relating to, a tribe, people, or culture that is 
or was indigenous to any geographic area that is now located within the 
boundaries of the United States''.
    Second, Section 6, providing for voluntary return of tangible 
cultural heritage, in subsection (e) allows the Secretary to provide 
tax documentation for a charitable gift to an Indian tribe. The 
implications of this process are concerning and conflate the human 
rights purposes of this legislation with financial or property issues. 
Items should be returned because as tangible cultural heritage or 
cultural patrimony, they are by definition not properly subject of 
valuation. Providing tax documentation will effectively monetize the 
items of tangible cultural heritage and cultural patrimony. 
Regrettably, such a valuation will likely set a floor value for all 
similar items on the international black market. The opening bid for 
similar items will likely be the value set by the Secretary on a 
voluntarily returned similar item. It would be best simply to delete 
Section 6,
    Subsection (e) in the STOP Act, and any other provision that 
attaches a monetary value to tangible cultural heritage or patrimony.
    These difficulties should be resolved and should not delay passage 
of the Act. We need the STOP Act now. Without it, we will continue to 
see tribal cultural heritage trafficked just out of our reach and in 
front of our very eyes. NARF urges you to act swiftly to enact the STOP 
Act into law.
                                 ______
                                 
   Prepared Statement of J. Michael Chavarria, Chairman, All Pueblo 
                          Council of Governors
    Thank you Chairman Hoeven, Vice Chairman Udall, and Members of the 
Committee for the opportunity to submit testimony on S. 2165, the 
Safeguard Tribal Objects of Patrimony (STOP) Act of 2019. The All 
Pueblo Council of Governors strongly supports swift passage of the STOP 
Act.
    My name is J. Michael Chavarria and I am the Chairman of the All 
Pueblo Council of Governors. The struggle to protect tribal cultural 
heritage from illegal trafficking is a tragically common challenge for 
communities across Indian Country. The All Pueblo Council of Governors 
is no exception. International markets have become a safe harbor for 
trafficking federally protected tribal cultural heritage items, and 
they will remain this way until Congress enacts federal law to address 
this issue. We firmly believe the STOP Act will make tremendous strides 
in preventing international trafficking of federally protected tribal 
cultural heritage items and securing their return home to their tribal 
communities.
I. The All Pueblo Council of Governors Has Fought to Protect Our Tribal 
        Cultural Heritage
    Items of tribal cultural heritage are as unique as the tribal 
nations to whom they belong. These items share the common 
characteristics of being of deep intangible and tangible significance 
to a tribal nation. Many people view our cultural heritage as beautiful 
works of art, as talismans of a past culture they would like to own, or 
as items to trade for profit. Whatever intrinsic beauty these items 
possess, that is not their intended purpose.
    Our items of cultural heritage have significant roles to play 
within our cultures, our traditional calendars, our families, and our 
ways of life. Our cultural heritage also helps us honor and uphold our 
values and teach those values to our community members, particularly 
our young people. So important are these items of cultural heritage 
that they belong to the community as a whole--as our shared inheritance 
and as our shared responsibility to honor and protect for present and 
future generations.
    The All Pueblo Council of Governors adopted Resolutions Nos. 2015-
12 and 2015-13 in recognition that our Pueblo nations have been 
disproportionately affected by illegal trafficking in tribal cultural 
heritage, and they called upon the United States to address 
international repatriation and take affirmative actions to stop the 
theft and illegal sale of tribal cultural heritage both domestically 
and abroad. Despite protections in current law, the illicit trade in 
tangible cultural heritage continues to pose a grave threat to the 
cultural survival of our Pueblo nations. Sacred and cultural items from 
the Pueblos are highly sought after and often illegally trafficked 
through lucrative black markets. Without explicit export restrictions, 
many of our Pueblos' sacred and cultural items end up abroad, making it 
very difficult to bring them home. This illegal trafficking threatens 
the maintenance of our cultures and traditions, depriving us of the 
legacy we seek to leave our future generations.
II. Support for the STOP Act to Close Gaps in Existing Federal Law
    The All Pueblo Council of Governors fully supports the passage of 
the Safeguard Tribal Objects of Patrimony (STOP) Act of 2019, S. 2165. 
Gaps in existing federal law have enabled dealers and collectors to 
operate in the shadows when it comes to items of tribal cultural 
heritage--especially once exported abroad. The STOP Act illuminates 
these dark corners.
    There is an already-existing international mechanism through which 
countries can request the return of cultural property from other 
countries. The Convention on the Means of Prohibiting and Preventing 
the Illicit Import, Export and Transfer of Ownership of Cultural 
Property is a 1970 international treaty that the United States signed. 
France, now a safe harbor for those seeking to sell federally protected 
tribal cultural heritage items, is also a signatory. When a signatory 
prohibits export of particular cultural patrimony items and introduces 
an accompanying export certificate, that signatory can call on other 
signatories to control imports of those items and help with 
repatriation. The United States has not explicitly prohibited export of 
tribal cultural heritage items otherwise protected under federal laws 
like the Native American Graves Protection and Repatriation Act 
(NAGPRA) and the Archaeological Resources Protection Act (ARPA). 
Instead, when we try to regain our sacred items from an auction block 
abroad, we are told these gaps in United States law prevent government 
action to facilitate return.
    The STOP Act places an emphasis on facilitating the return of 
protected cultural heritage items trafficked internationally. The STOP 
Act sets out to accomplish the two main goals of: (1) stopping the 
export and facilitating the international repatriation of tribal 
cultural heritage items already prohibited from being trafficked under 
federal law; and (2) facilitating coordination among federal agencies 
in protecting and repatriating such items and in aiding the voluntary 
return of tribal tangible cultural heritage more broadly.
    The STOP Act is designed to meet these very narrow goals. But NAGRA 
and ARPA have other serious limitations that make even their domestic 
implementation difficult, including restrictive provenance 
requirements. While the STOP Act works to prevent the export of items 
already protected under NAGPRA and ARPA and to secure their return, we 
hope to see larger changes to NAGPRA and ARPA in the future meant to 
resolve these other limitations.
    We understand the STOP Act has been developed with significant 
expert feedback, including from seasoned agency officials. We welcome 
this expert feedback to strengthen the STOP Act so that it best meets 
its goals.
    We need the STOP Act now. Without it, we will continue to see our 
tribal cultural heritage trafficked just out of our reach and in front 
of our very eyes. The All Pueblo Council of Governors urges you to act 
swiftly to enact the STOP Act into law.
    Additional statement
    The Pueblo of Santa Clara strongly supports prompt passage of the 
STOP Act.
    My name is Michael Chavarria and I am the duly elected Governor of 
the Pueblo of Santa Clara, a federally recognized Indian tribe. Santa 
Clara Pueblo, like many tribal communities, struggles to protect its 
cultural heritage items from illegal trafficking. That struggle is 
compounded by a gap in federal law that has made international markets 
a safe haven for federally protected tribal cultural heritage items. 
The STOP Act will plug that gap by preventing international trafficking 
of federally protected tribal cultural heritage items and securing 
their return home to their tribal communities.
I. Items of Tribal Cultural Heritage are not Trinkets
    While many non-Pueblo people admire our items of cultural heritage 
for their beauty, those items are not trinkets. The Pueblo' s items of 
cultural heritage are central to the Pueblo's cohesion and way of life. 
These items tell us who we are and where we come from, and they direct 
our paths into the future. We would not be Santa Clara Pueblo people 
without our items of cultural heritage.
    Because of the central and critical role of such items to our 
culture, they do not and cannot belong to any individual tribal 
member--instead, they belong to the Santa Clara Pueblo community as a 
whole. Each member of the Pueblo has a shared obligation to protect 
them, in order to protect the existence of the community as Santa Clara 
Pueblo. So when an item of cultural heritage is separated from the 
Santa Clara Pueblo people, we suffer direct and immediate harm. As 
explained below, the STOP Act would go a long way to alleviating such 
harm.
II. The STOP Act Would Close Gaps in Federal Law
    The STOP Act would close existing gaps in federal law that have 
enabled dealers and collectors to operate with impunity with regard to 
items of tribal cultural heritage-particularly once such items are 
exported abroad.
    For example, the Convention on the Means of Prohibiting and 
Preventing the Illicit Import, Export and Transfer of Ownership of 
Cultural Property, a 1970 treaty to which the United States is a 
signatory, allows signatory countries to request the return of cultural 
property from other signatory countries, and to call on other signatory 
countries to control imports of those items and help with repatriation. 
Yet, those provisions only apply to items that are specifically 
prohibited from export by a requesting signatory country. Because the 
United States has not explicitly prohibited exports of tribal cultural 
heritage items otherwise protected under federal laws like the Native 
American Graves Protection and Repatriation Act (NAGPRA) and the 
Archaeological Resources Protection Act (ARP A), the federal government 
cannot act to facilitate return of such items from another signatory 
country. Tribal nations are left on their own to seek the return of 
their cultural heritage items. Many tribes lack the resources to do 
that.
    If it were enacted, the STOP Act would plug this gap by (1) 
prohibiting the export of tribal cultural heritage items already 
prohibited from being trafficked under federal law and facilitating the 
international repatriation of such items; and (2) facilitating 
coordination among federal agencies to protect and repatriate such 
items and to aid the voluntary return of tribal tangible cultural 
heritage property more broadly.
    While the STOP Act is built upon NAGPRA and ARPA, we must note that 
NAGPRA and ARP A have serious limitations that make even their domestic 
implementation difficult, including restrictive provenance 
requirements. We urge Congress to enact the STOP Act, but we also 
encourage Congress to address the limitations of NAGPRA and ARPA in the 
very near future.
    Please understand that unless the STOP Act is enacted, tribal 
communities will continue to see our tribal cultural heritage property 
treated like secular objects of art, which deeply damages tribal 
communities. The Pueblo of Santa Clara urges you to act promptly to 
enact the STOP Act into law.
                                 ______
                                 
 Prepared Statement of C. Timothy McKeown, Ph.D, Repatriation Advisor, 
     National Association of Tribal Historic Preservation Officers
    Thank you for the opportunity to provide a statement on behalf of 
the National Association of Tribal Historic Preservation Officers 
(NATHPO) regarding S. 2165, the Safeguard Tribal Objects of Patrimony 
Act of 2019.
    The purpose of S. 2165 is to carry out the United States' trust 
responsibility to Indian tribes by: (1) enhancing existing prohibition 
to the trafficking of Native American cultural items; (2) stopping the 
export and facilitating the international repatriation of tribal 
cultural heritage items already protected under federal law; and (3) 
facilitating coordination among federal agencies in protecting and 
repatriating such items and in aiding the voluntary return of Native 
American tangible cultural heritage more broadly. NATHPO strongly 
supports the bill but recommends several changes to enhance its overall 
effectiveness.
Sec. 4 Enhancement of NAGPRA Penalties
    This section amends Section 1170 of title 18, United States Code by 
striking ``5 years'' each place it appears and inserting ``10 years.''
    NATHPO supports this change, but does not believe that simply 
increasing the period of possible incarceration for illegal trafficking 
of Native American cultural items will significantly increase the 
effectiveness of this criminal statute. Data provided by the Executive 
Office of the United States Attorneys indicates that since 1990, 31 
individuals (one was convicted twice) and one entity have been 
convicted of illegal trafficking of Native American cultural items. 
Most pled guilty or were convicted of misdemeanor offenses. The length 
of the potential penalty amount does not appear to have had any 
significant impact on the number of successful prosecutions since few 
of those who were convicted received any period of incarceration 
whatsoever.
    Two external factors do appear to have had a significant impact on 
the number of successful prosecutions for illegal trafficking of Native 
American cultural items. First, with a positive impact, was 
establishment of the interagency ARPA task force in 1991 to 1995 to 
reduce the destruction of cultural sites on lands under the management 
of the United States in New Mexico, Arizona, Utah, and Colorado by 
identification, prosecution and conviction of looters, dealers and, 
collectors who trafficked in artifacts taken in violation of federal 
laws and regulations. Members of the ARPA Task Force aggressively 
investigated NAGPRA trafficking cases, including use of undercover 
agents, with the result that 14 of the convictions for illegal 
trafficking of Native American sacred objects or objects of cultural 
patrimony under 18 U.S.C. 1170 (b) occurred in New Mexico, Arizona, and 
Utah. NATHPO encourages Congress to appropriate funding specifically to 
reconstitute an interagency task force to identify, prosecute, and 
convict looters, dealers, and collectors who traffic in Native American 
cultural items and other artifacts taken in violation of federal laws 
and regulations.
    The second factor that has significantly and negatively impacted 
the number of successful prosecutions for illegal trafficking of Native 
American cultural items was the 9th Circuit Court of Appeals 2004 
opinion in Bonnichsen v. U.S. (367 F.3d 864) in which the Court 
interpreted the statutory definition of ``Native American'' to require 
a ``significant relationship'' between a cultural item and a claiming 
Indian tribe. While the Bonnichsen opinion applies only to the 9th 
Circuit, it has created ambiguity which, in at least one case, has led 
to an acquittal in a NAGPRA trafficking case. Significantly, the number 
of NAGPRA convictions has decreased dramatically nationwide since 2004. 
In order to address this issue, NATHPO recommends that the Congress 
amends NAGPRA's definition of ``Native American'' as follows:

        Definition of Native American

         Section 2 (9) of the Native American Graves Protection and 
        Repatriation Act (25 U.S.C. 3001(9)) is amended--

         (1) by inserting ``or was'' after ``is''; and

         (2) by inserting after ``indigenous to'' the following: ``any 
        geographic area that is now located within the boundaries of''

NMAIA Judicial Jurisdiction and Enforcement
    An additional issue you may wish to consider relates to processes 
for the return of Native American sacred objects and objects of 
cultural patrimony from the Smithsonian Institution. At least one group 
of Indian tribes has unsuccessfully tried to recover such items from 
the National Museum of Natural History and has exhausted their 
administrative appeals, despite a unanimous recommendation to 
repatriate from the Smithsonian's own repatriation advisory committee. 
In such a situation under NAGPRA, an Indian tribe is authorized to 
appeal to the Federal District Court for equitable remedy (25 U.S.C. 
2013). However, the National Museum of the American Indian Act does not 
include a similar authorization. NATHPO recommends amending the NMAI 
Act to include the following provision.
    20 U.S.C. 80-q is amended by inserting the following: ``16. 
Judicial Jurisdiction and Enforcement. The United States district 
courts shall have jurisdiction over any action brought by any person 
alleging a violation of this Act and shall have the authority to issue 
such orders as may be necessary to enforce the provisions of this 
Act.''
                                 ______
                                 
   Prepared Statement of Evelyn Beeter, Mt. Sanford Tribal Consortium
    Thank you Chairman Hoeven, Vice Chairman Udall, and Members of the 
Committee for the opportunity to submit testimony on S. 2165, the 
Safeguard Tribal Objects of Patrimony (STOP) Act of 2019. The Mt. 
Sanford Tribal Consortium strongly supports swift passage of the STOP 
Act.
    My name is Evelyn Beeter and I am the President/CEO of Mt. Sanford 
Tribal Consortium. The struggle to protect tribal cultural heritage 
from illegal trafficking is a tragically common challenge for 
communities across Indian Country. The Mt. Sanford Tribal Consortium is 
no exception. International markets have become a safe harbor for 
trafficking federally protected tribal cultural heritage items, and 
they will remain this way until Congress enacts federal law to address 
this issue. We firmly believe the STOP Act will make tremendous strides 
in preventing international trafficking of federally protected tribal 
cultural heritage items and securing their return home to their tribal 
communities.
I. The Mt. Sanford Tribal Consortium Has Fought to Protect Our Tribal 
        Cultural Heritage
    Items of tribal cultural heritage are as unique as the tribal 
nations to whom they belong. These items share the common 
characteristics of being of deep intangible and tangible significance 
to a tribal nation. Many people view our cultural heritage as beautiful 
works of art, as talismans of a past culture they would like to own, or 
as items to trade for profit. Whatever intrinsic beauty these items 
possess, that is not their intended purpose.
    Our items of cultural heritage have significant roles to play 
within our cultures, our traditional calendars, our families, and our 
ways of life. Our cultural heritage also helps us honor and uphold our 
values and teach those values to our community members, particularly 
our young people. So important are these items of cultural heritage 
that they belong to the community as a whole--as our shared inheritance 
and as our shared responsibility to honor and protect for present and 
future generations.
    The Mt. Sanford Tribal Consortium has first-hand experience in 
fighting to prevent the loss of our cultural heritage due to theft, 
trafficking, and illegal sales.
II. Support for the STOP Act to Close Gaps in Existing Federal Law
    The Mt. Sanford Tribal Consortium fully supports the passage of the 
Safeguard Tribal Objects of Patrimony (STOP) Act of 2019, S. 2165. Gaps 
in existing federal law have enabled dealers and collectors to operate 
in the shadows when it comes to items of tribal cultural heritage--
especially once exported abroad. The STOP Act illuminates these dark 
comers.
    There is an already-existing international mechanism through which 
countries can request the return of cultural property from other 
countries. The Convention on the Means of Prohibiting and Preventing 
the Illicit Import, Export and Transfer of Ownership of Cultural 
Property is a 1970 international treaty that the United States signed. 
France, now a safe harbor for those seeking to sell federally protected 
tribal cultural heritage items, is also a signatory. When a signatory 
prohibits export of particular cultural patrimony items and introduces 
an accompanying export certificate, that signatory can call on other 
signatories to control imports of those items and help with 
repatriation. The United States has not explicitly prohibited export of 
tribal cultural heritage items otherwise protected under federal laws 
like the Native American Graves Protection and Repatriation Act 
(NAGPRA) and the Archaeological Resources Protection Act (ARP A). 
Instead, when we try to regain our sacred items from an auction block 
abroad, we are told these gaps in United States law prevent government 
action to facilitate return.
    The STOP Act places an emphasis on facilitating the return of 
protected cultural heritage items trafficked internationally. The STOP 
Act sets out to accomplish the two main goals of: (1) stopping the 
export and facilitating the international repatriation of tribal 
cultural heritage items already prohibited from being trafficked under 
federal law; and (2) facilitating coordination among federal agencies 
in protecting and repatriating such items and in aiding the voluntary 
return of tribal tangible cultural heritage more broadly.
    The STOP Act is designed to meet these very narrow goals. But NAGRA 
and ARPA have other serious limitations that make even their domestic 
implementation difficult, including restrictive provenance 
requirements. While the STOP Act works to prevent the export of items 
already protected under NAGPRA and ARPA and to secure their return, we 
hope to see larger changes to NAGPRA and ARP A in the future meant to 
resolve these other limitations.
    We understand the STOP Act has been developed with significant 
expert feedback, including from seasoned agency officials. We welcome 
this expert feedback to strengthen the STOP Act so that it best meets 
its goals.
    We need the STOP Act now. Without it, we will continue to see our 
tribal cultural heritage trafficked just out of our reach and in front 
of our very eyes. The Mt. Sanford Tribal Consortium urges you to act 
swiftly to enact the STOP Act into law.
                                 ______
                                 
  Prepared Statement of Julie Kitka, President, Alaska Federation of 
                                Natives
    Thank you Chairman Hoeven, Vice Chairman Udall, and Members of the 
Committee for the opportunity to submit testimony on S. 2165, the 
Safeguard Tribal Objects of Patrimony (STOP) Act of 2019. The Alaska 
Federation of Natives (AFN) strongly supports swift passage of the STOP 
Act.
    My name is Julie Kitka and I am the President of AFN. The struggle 
to protect tribal cultural heritage from illegal trafficking is a 
tragically common challenge for communities across Indian Country. 
Alaska Native cultures is no exception. International markets have 
become a safe harbor for trafficking federally protected tribal 
cultural heritage items, and they will remain this way until Congress 
enacts federal law to address this issue. We firmly believe the STOP 
Act will make tremendous strides in preventing international 
trafficking of federally protected tribal cultural heritage items and 
securing their return home to their tribal communities.
I. AFN as Fought to Protect Our Tribal Cultural Heritage
    Items of tribal cultural heritage are as unique as the tribal 
nations to whom they belong. These items share the common 
characteristics of being of deep intangible and tangible significance 
to a tribal nation. Many people view our cultural heritage as beautiful 
works of art, as talismans of a past culture they would like to own, or 
as items to trade for profit. Whatever intrinsic beauty these items 
possess, that is not their intended purpose.
    Our items of cultural heritage have significant roles to play 
within our cultures, our traditional calendars, our families, and our 
ways of life. Our cultural heritage also helps us honor and uphold our 
values and teach those values to our community members, particularly 
our young people. So important are these items of cultural heritage 
that they belong to the community as a whole--as our shared inheritance 
and as our shared responsibility to honor and protect for present and 
future generations.
II. Support for the STOP Act to Close Gaps in Existing Federal Law
    AFN fully supports the passage of the STOP Act of 2019, S. 2165. 
Gaps in existing federal law have enabled dealers and collectors to 
operate in the shadows when it comes to items of tribal cultural 
heritage--especially once exported abroad. The STOP Act illuminates 
these dark corners.
    There is an already-existing international mechanism through which 
countries can request the return of cultural property from other 
countries. The Convention on the Means of Prohibiting and Preventing 
the Illicit Import, Export and Transfer of Ownership of Cultural 
Property is a 1970 international treaty that the United States signed. 
France, now a safe harbor for those seeking to sell federally protected 
tribal cultural heritage items, is also a signatory. When a signatory 
prohibits export of particular cultural patrimony items and introduces 
an accompanying export certificate, that signatory can call on other 
signatories to control imports of those items and help with 
repatriation. The United States has not explicitly prohibited export of 
tribal cultural heritage items otherwise protected under federal laws 
like the Native American Graves Protection and Repatriation Act 
(NAGPRA) and the Archaeological Resources Protection Act (ARPA). 
Instead, when we try to regain our sacred items from an auction block 
abroad, we are told these gaps in United States law prevent government 
action to facilitate return.
    The STOP Act places an emphasis on facilitating the return of 
protected cultural heritage items trafficked internationally. The STOP 
Act sets out to accomplish the two main goals of: (1) stopping the 
export and facilitating the international repatriation of tribal 
cultural heritage items already prohibited from being trafficked under 
federal law; and (2) facilitating coordination among federal agencies 
in protecting and repatriating such items and in aiding the voluntary 
return of tribal tangible cultural heritage more broadly.
    The STOP Act is designed to meet these very narrow goals. But NAGRA 
and ARPA have other serious limitations that make even their domestic 
implementation difficult, including restrictive provenance 
requirements. While the STOP Act works to prevent the export of items 
already protected under NAGPRA and ARPA and to secure their return, we 
hope to see larger changes to NAGPRA and ARPA in the future meant to 
resolve these other limitations.
    We understand the STOP Act has been developed with significant 
expert feedback, including from seasoned agency officials. We welcome 
this expert feedback to strengthen the STOP Act so that it best meets 
its goals.
    We need the STOP Act now. Without it, we will continue to see our 
tribal cultural heritage trafficked just out of our reach and in front 
of our very eyes. AFN urges you to act swiftly to enact the STOP Act 
into law.
                                 ______
                                 
    Prepared Statement of the Association on American Indian Affairs
    Thank you Chairman Hoeven, Vice Chairman Udall, and Members of the 
Committee for the opportunity to submit testimony on S. 2165, the 
Safeguard Tribal Objects of Patrimony (STOP) Act of 2019. The 
Association on American Indian Affairs strongly supports swift passage 
of the STOP Act. Please recognize, however, that the current 2019 
legislative draft does not go far enough to stop the long and sordid 
history of looting and trafficking--a history that has been supported 
by assimilationist federal law and policies against Indian Tribes--
which has emboldened dealers, collectors and institutions to traffic, 
commercialize and display our sensitive cultural heritage without our 
free, prior and informed consent.
    My name is Shannon O'Loughlin, I am a citizen of the Choctaw Nation 
of Oklahoma and the Executive Director and Attorney for the Association 
on American Indian Affairs. The Association is the oldest non-profit 
serving Indian Country protecting sovereignty, preserving culture, 
educating youth, and building capacity. Since its earliest beginnings 
assisting Pueblo Peoples defend their aboriginal lands and water rights 
in 1922, the Association was formed to change the destructive path of 
federal policy from assimilation, termination, and allotment-to 
sovereignty, self-determination, and self-sufficiency. For nearly 100 
years, the Association has worked tirelessly to protect Native American 
cultural sovereignty--the things that make us who we are as indigenous 
peoples--through Cultural Heritage Protection, Repatriation, and Sacred 
Sites initiatives, as well as ensuring the inter-generational 
transmission of culture through our Youth initiatives. As a vital part 
of our efforts, the Association works hand in hand with Tribes, Tribal 
organizations, museums, lawyers, academics, auction houses and the 
general public to secure the safe return of tangible cultural heritage 
such as our Ancestors, their burial items, sacred objects and cultural 
patrimony.
    The Association maintains data on foreign and domestic auctions, 
including how many potentially sensitive items are being advertised by 
auction houses for sale. Potentially sensitive items are ``cultural 
items'' as defined by the Native American Graves Protection and 
Repatriation Act, and ``archaeological resources'' defined by the 
Archaeological Resources and Protection Act. \1\ In 2019, the 
Association found that there were 3,721 potentially sensitive Native 
American cultural items \2\ that were being sold at auction 
domestically and internationally, affecting approximately 150 Tribal 
Nations and regions. Of these 3,721 sensitive items--there were 20 
foreign auctions in which 146 sensitive items had been included for 
auction.
---------------------------------------------------------------------------
    \1\ These definitions are found in NAGPRA at 25 U.S.C. sec. 3001, 
and in ARPA at 16 U.S.C. sec. 470bb. Auction houses provide very little 
information, or refuse to provide access to information, that may help 
Tribes and organizations like the Association determine whether any 
particular item has been trafficked pursuant to federal, state or 
Tribal laws. All we know is that an image and/or description provided 
by an auction house is similar to other ``cultural items'' and 
``archaeological resources'' that are protected under federal, state 
and Tribal laws. As part of what should be professional due diligence, 
foreign and domestic auction houses and dealers do not consult with 
Tribal Nations to determine whether an item has been trafficked--in 
line with their good faith responsibilities to purchasers.
    \2\ The numbers of sensitive items do not account for the total 
number of Native American items being sold that are legitimate 
commercial items, such as Native American made jewelry, arts and crafts 
that are created by Native American artists for a commercial market; we 
are only reporting on sensitive items.
---------------------------------------------------------------------------
    This year, because of the coronavirus pandemic, there has been an 
increase in sales through online auctions. The total number of 
potentially sensitive cultural items for sale in 2020 seems to have 
decreased for the first half of the year--499 sensitive items have been 
marketed for auction sale from January through June this year affecting 
approximately 143 Tribal Nations. However, the number of international 
auctions and the number of sensitive items for sale at those auctions 
this year has greatly increased: there have been 49 international 
auctions, that have sold or are selling 133 sensitive items. These 
numbers show an alarming increase in the sale of sensitive items 
internationally, and mark a change in the direction of foreign sales 
since the Government Accountability Office report from 2018 found that 
sales had been decreasing after 2016. It is likely this increase is 
occurring because dealers want to sell all they can before the STOP Act 
is passed; and unfortunately, dealers may be taking advantage of the 
fact that Tribes have not had the capacity to go after these sales as 
strong because their attention is being diverted to protecting the 
health and safety of their citizens from the coronavirus pandemic.
    Congress must pass the STOP Act immediately to stop this continued 
plundering of our sensitive and sacred objects. International markets 
continue to be a safe harbor for trafficking federally protected Tribal 
cultural heritage. The Association believes that foreign auctions and 
dealers (many of whom are connected to U.S. dealers and collectors) 
will continue to increase their sales of our heritage unless Congress 
enacts federal law to address this issue. We firmly believe the STOP 
Act will support a change in dealer and auction practices that will 
prevent the international trafficking of Tribal cultural heritage and 
secure their return home to their Tribal Nations.
    We also must alert you that the opposition to the STOP Act by 
antiquities dealers is misplaced and come from a very small set of 
antiquities dealers. The sale of ``antiquities'' and ``artifacts'' grew 
out of failed and abhorrent federal policies meant to dispossess Tribal 
Nations of their lands and their future, and assimilate them out of 
their traditional cultural and religious practices. Individuals 
profited off those federal policies by laying claim to stolen and 
looted Native American items. Today, Tribal Nations are still locating 
items that have been traded and sold, in which those Nations have 
retained stories and oral traditions as to how particular or groups of 
items left their hands. Sometimes, individual Tribal citizens sold the 
items under duress because they needed food or shelter. At other times, 
collectors creeped in at night to steal objects. These scenarios 
continue today.
    Tribal antiquities dealers want to continue to sell our stolen and 
looted cultural heritage without restriction--even when federal, state 
and Tribal law mandate otherwise. The international sale of these items 
is one method antiquities dealers have been able to use to skirt 
domestic law. The STOP Act will put the burden on the holder of an item 
to prove that the person who wishes to export it holds legitimate 
title, and provide information to Tribes and others to make sure that 
what the antiquities dealers are certifying is correct. After all, much 
of the information that is included with these sensitive items is 
created by the dealer to obtain a strong sale price; antiquities 
dealers and other private collectors do not consult with affiliated 
Tribal Nations to determine the true origin information of a sensitive 
item (seemingly in violation of the due diligence and good faith that 
consumers deserve).
    Please also note that though the STOP Act is designed to meet very 
narrow goals to prevent exportation to and allow return of sensitive 
items from foreign nations, current domestic law including NAGPRA and 
ARPA have other serious limitations that make even their domestic 
implementation difficult, including restrictive provenance 
requirements. The Association has found that if an object is not in 
violation of NAGPRA, no other state and federal laws are examined, nor 
are affiliated Tribes contacted to determine whether the item is 
legitimately held. The Association is working to develop changes to 
NAGPRA in the future meant to resolve these and other limitations.
    The U.S. government has allowed dealers and collectors to profit 
off the diminution of the sacred, cultural and human rights of Tribal 
Nations. The time is now to STOP dealers at our borders and return 
objects that have been improperly taken from Tribal Nations to foreign 
lands. The Association on American Indian Affairs urges you to act 
swiftly to enact the STOP Act into law.
                                 ______
                                 
     Prepared Statement of the Confederated Tribes of Warm Springs
    The Confederated Tribes of Warm Springs (``the Tribes'') would like 
to thank the Senate Committee on Indian Affairs for holding this 
legislative hearing on the Western Tribal Water Infrastructure Act 
(S.3044), sponsored by Senator Wyden and co-sponsored by Senator 
Merkley. The Tribes strongly support S.3044 and any effort to provide 
tribes with additional tools to meet the basic water needs of their 
members.
    Warm Springs provides water to approximately 4,500 people on the 
Warm Springs Reservation in Central Oregon. Our 640,00 acres 
reservation spans from snow-capped mountains to the salmon-bearing 
Deschutes River--with forests and high desert between. Most of our 
tribal population lives in an arid portion of Oregon's high desert.
    The vast majority of our tribal members live on the Reservation, 
where we are suffering from dramatically high unemployment--which 
exceeded 60 percent many times over the last several years. A recent 
study ranked the town of Warm Springs as having the second highest 
incidence of poverty in Oregon. Putting our people to work and 
providing basic social services -especially health care and education--
for our members is extremely challenging at Warm Springs. Possibly more 
challenging than anywhere in Indian Country, or the nation at large.
    The COVID-19 crisis has struck our reservation especially hard. As 
of last week, Warm Springs Health and Wellness Center has tested 852 
people. We have had 55 positive cases with 19 tests still pending and 
four people hospitalized.
    Many of our families are crowded into small dwelling units. Our 
water infrastructure deficiencies have exacerbated the COVID-19 
response--as both social distancing and access to clean, running water 
are very real challenges on our reservation.
    The Agency Water system consists of over 825 water service 
connections that serve both Commercial and Residential homes that has 
been severely impacted by the Shitike Creek Crossing and failed 
Pressure Reducing Valves.
    Water is produced and delivered via the following four community-
owned and operated water systems. Each of those systems has significant 
failures, as does the Tribes' water treatment facility. Water storage 
has also been a challenge for Warm Springs--so much so that we received 
a substantial grant from the Republic of Turkey in 2013 to help finance 
construction of a new water tower to service our elementary school.
    While there are many federal programs to assist tribes, they have 
not individually or collectively been able to meet the magnitude of 
infrastructure challenges on our reservation. Three of our four water 
delivery systems require major upgrades or replacement. The Tribes are 
facing a minimum cost of $5-6 million to simply maintain existing 
systems at status quo. To provide for future improvements to meet the 
growing population, the Tribes face a cost of $40-50 million for water 
infrastructure.
    Here is a summary of those needs:

  <bullet> Agency Water System (surface water system from the Deschutes 
        River at Dry Creek):

            --We are addressing upgrade/repair issues identified in an 
        EPA Administrative Order of Consent and Emergency Order (1414 
        and 1431). Funding for this resolution is funded at $900,000 to 
        remediate deficiencies. The current funding is adequate enough 
        to complete all of the issues identified in the EPA Orders and 
        will likely require funding of $20 million to complete all 
        deficiencies and necessary upgrades. The existing water plant 
        is 40 years old and is nearing its end of life cycle.

            --The distribution system is in need of upgrades and 
        replacements as well. Most recently, the tribe has experienced 
        a serious failure at the Shitike Creek crossing which required 
        an emergency repair with a line that is undersized. If this 
        issue is not mitigated, we will suffer immediate threats to 
        life and property during a fire disaster. IHS is working with 
        the tribe to develop plans to install a permanent solution with 
        a larger line to feed the reservoirs at the south end of the 
        agency community. The cost to install will likely exceed the 
        estimated $1.5M in current dollars by the time the engineered 
        plans are complete.

  <bullet> Sidwalter Water System: To bring the existing facility into 
        compliance with today's standards we estimate a low-end cost of 
        $300,000 to upgrade the electrical system and to repair 
        existing appurtenances (fire hydrants, isolation valves, etc.). 
        Since the Sidwalter water system was initially constructed in 
        1977 which was designed for 20 homes, there has been an 
        addition of 20 homes which requires an expansion of the current 
        distribution system. The estimated cost for the expansion is 
        $3.0 million. The expansion would provide a steady source of 
        potable water to all residents in the Sidwalter area and it 
        would provide much needed fire protection.

  <bullet> Simnasho/Schoolie Water System:

            --The water system feeding the Simnasho has been recently 
        upgraded in 2012 to decommission previous wells that had 
        unacceptable levels of Arsenic. The new wells are now located 
        an additional 5 miles away from the Simnasho area. The storage 
        capacity of the Simnasho system is inadequate (less than 
        100,000 gallons) and needs to be upgraded to a reservoir with 
        the capacity of at least 250,000 to 500,000 gallons. The cost 
        to upgrade the reservoir is estimated to be somewhere between 
        $750,000 to $1 million.

            --The Schoolie Flat water system was built and designed in 
        1971 for 20 residential homes is currently operating well below 
        minimum standards. The Schoolie water system currently has an 
        additional 40 homes and is going to need about $4 million to 
        upgrade the existing booster station to house vertical multi-
        stage pumps, a new reservoir with at least $250,000 gallons of 
        capacity and upgrading of the existing 3'' main line to at 
        least a 6'' main line. This system is currently the highest 
        need and it also requires an inordinate amount of staff time to 
        maintain.

    The Tribes are currently coordinating with BIA, HIA, HUD and EPA to 
cobble together funding for renewal of the water treatment facility. 
Our experience is that there must be a better way for Tribes in our 
circumstances to seek emergency assistance from the federal government 
to provide basic clean water to our members.
    We are grateful to Senators Wyden and Merkley for crafting 
legislation to give tribes like ours a lifeline. S.3044 would help Warm 
Springs get past the ``band-aid'' approach to our water infrastructure 
failings and help us make full repairs and replacements where needed.
    Particularly in light of the COVID-19 crisis in Indian Country, the 
Confederated Tribes of Warm Springs respectively urge the Committee to 
favorably review this legislation and support its swift enactment. We 
share the sentiment of those at the Navajo Reservation in saying that 
``you can't wash your hands without running water.''
                                 ______
                                 
  Prepared Statement of Susan Feller, President & CEO, Association of 
                 Tribal Archives, Libraries and Museums
    Thank you Chairman Hoeven, Vice Chairman Udall, and Members of the 
Committee for the opportunity to submit testimony on S. 2165, the 
Safeguard Tribal Objects of Patrimony (STOP) Act of 2019. The 
Association of Tribal Archives, Libraries, and Museums strongly 
supports swift passage of the STOP Act.
    My name is Susan Feller and I am the President & CEO of the 
Association of Tribal Archives, Libraries, and Museums. The struggle to 
protect tribal cultural heritage from illegal trafficking is a 
tragically common challenge for communities across Indian Country and 
impacts the tribal communities we serve. International markets have 
become a safe harbor for trafficking federally protected tribal 
cultural heritage items, and they will remain this way until Congress 
enacts federal law to address this issue. We firmly believe the STOP 
Act will make tremendous strides in preventing international 
trafficking of federally protected tribal cultural heritage items and 
securing their return home to their tribal communities.
I. The Association of Tribal Archives, Libraries, and Museums Has 
        Fought to Protect Our Tribal Cultural Heritage
    Items of tribal cultural heritage are as unique as the tribal 
nations to whom they belong. These items share the common 
characteristics of being of deep intangible and tangible significance 
to a tribal nation. Many people view our cultural heritage as beautiful 
works of art, as talismans of a past culture they would like to own, or 
as items to trade for profit. Whatever intrinsic beauty these items 
possess, that is not their intended purpose.
    Our items of cultural heritage have significant roles to play 
within our cultures, our traditional calendars, our families, and our 
ways of life. Our cultural heritage also helps us honor and uphold our 
values and teach those values to our community members, particularly 
our young people. So important are these items of cultural heritage 
that they belong to the community as a whole--as our shared inheritance 
and as our shared responsibility to honor and protect for present and 
future generations.
    The Association of Tribal Archives, Libraries, and Museums has 
first-hand experience in fighting to prevent the loss of our cultural 
heritage due to theft, trafficking, and illegal sales. For example, we 
currently are helping the Pawnee Nation of Oklahoma in its attempt to 
retrieve the human remains and regalia of White Fox, a Pawnee Scout who 
died in Sweden in the late 1800s. At the time of his death, the Swedish 
government refused to release the remains of White Fox to his brothers. 
Instead, it placed his remains in the Karolinska Institute where a 
plaster cast was made of his body, his skin was removed and replaced 
onto the torso. The remains were then on display for decades. The 
Institute has returned the skin to the Pawnee Nation but refuses to 
return the regalia, even though they do not have a right to them.
II. Support for the STOP Act to Close Gaps in Existing Federal Law
    The Association of Tribal Archives, Libraries, and Museums fully 
supports the passage of the Safeguard Tribal Objects of Patrimony 
(STOP) Act of 2019, S. 2165. Gaps in existing federal law have enabled 
dealers and collectors to operate in the shadows when it comes to items 
of tribal cultural heritage-especially once exported abroad. The STOP 
Act illuminates these dark corners.
    There is an already-existing international mechanism through which 
countries can request the return of cultural property from other 
countries. The Convention on the Means of Prohibiting and Preventing 
the Illicit Import, Export and Transfer of Ownership of Cultural 
Property is a 1970 international treaty that the United States signed. 
France, now a safe harbor for those seeking to sell federally protected 
tribal cultural heritage items, is also a signatory. When a signatory 
prohibits export of particular cultural patrimony items and introduces 
an accompanying export certificate, that signatory can call on other 
signatories to control imports of those items and help with 
repatriation. The United States has not explicitly prohibited export of 
tribal cultural heritage items otherwise protected under federal laws 
like the Native American Graves Protection and Repatriation Act 
(NAGPRA) and the Archaeological Resources Protection Act (ARPA). 
Instead, when we try to regain our sacred items from an auction block 
abroad, we are told these gaps in United States law prevent government 
action to facilitate return.
    The STOP Act places an emphasis on facilitating the return of 
protected cultural heritage items trafficked internationally. The STOP 
Act sets out to accomplish the two main goals of: (1) stopping the 
export and facilitating the international repatriation of tribal 
cultural heritage items already prohibited from being trafficked under 
federal law; and (2) facilitating coordination among federal agencies 
in protecting and repatriating such items and in aiding the voluntary 
return of tribal tangible cultural heritage more broadly.
    The STOP Act is designed to meet these very narrow goals. But NAGRA 
and ARPA have other serious limitations that make even their domestic 
implementation difficult, including restrictive provenance 
requirements. While the STOP Act works to prevent the export of items 
already protected under NAGPRA and ARPA and to secure their return, we 
hope to see larger changes to NAGPRA and ARPA in the future meant to 
resolve these other limitations.
    We understand the STOP Act has been developed with significant 
expert feedback, including from seasoned agency officials. We welcome 
this expert feedback to strengthen the STOP Act so that it best meets 
its goals.
    We need the STOP Act now. Without it, we will continue to see our 
tribal cultural heritage trafficked just out of our reach and in front 
of our very eyes. The Association of Tribal Archives, Libraries, and 
Museums urges you to act swiftly to enact the STOP Act into law.
                                 ______
                                 
  Prepared Statement of Hon. Robert A. Mora, Sr., Governor, Pueblo of 
                                Tesuque
    Thank you Chairman Hoeven, Vice Chairman Udall, and Members of the 
Committee for the opportunity to submit testimony on S. 2165, the 
Safeguard Tribal Objects of Patrimony (STOP) Act of 2019. The Pueblo 
ofTesuque strongly supports swift passage of the STOP Act.
    My name is Robert A. Mora, Sr. and I am the Governor of the Pueblo 
of Tesuque. The struggle to protect tribal cultural heritage from 
illegal trafficking is a tragically common challenge for communities 
across Indian Country. The Pueblo of Tesuque is no exception. 
International markets have become a safe harbor for trafficking 
federally protected tribal cultural heritage items, and they will 
remain this way until Congress enacts federal law to address this 
issue. We firmly believe the STOP Act will make tremendous strides in 
preventing international trafficking of federally protected tribal 
cultural heritage items and securing their return home to their tribal 
communities.
I. The Pueblo of Tesuque Has Fought to Protect Our Tribal Cultural 
        Heritage
    Items of tribal cultural heritage are as unique as the tribal 
nations to whom they belong. These items share the common 
characteristics of being of deep intangible and tangible significance 
to a tribal nation. Many people view our cultural heritage as beautiful 
works of art, as talismans of a past culture they would like to own, or 
as items to trade for profit. Whatever intrinsic beauty these items 
possess, that is not their intended purpose.
    Our items of cultural heritage have significant roles to play 
within our cultures, our traditional calendars, our families, and our 
ways of life. Our cultural heritage also helps us honor and uphold our 
values and teach those values to our community members, particularly 
our young people. So important are these items of cultural heritage 
that they belong to the community as a whole-as our shared inheritance 
and as our shared responsibility to honor and protect for present and 
future generations.
    The Pueblo of Tesuque has first-hand experience in fighting to 
prevent the loss of our cultural heritage due to theft, trafficking, 
and illegal sales. We have had the same experience as our sister 
Pueblo, the Pueblo of Acoma. We learned that one of our war shields was 
up for auction in France, however for us it was too late and the 
contact's we had directed us in a different direction or gave us the 
wrong information and therefore we missed out on getting this item 
back. We are slowly learning that there are more objects from the 
Pueblo abroad and these items are too sensitive to explain or write 
down.
II. Support for the STOP Act to Close Gaps in Existing Federal Law
    The Pueblo of Tesuque fully supports the passage of the Safeguard 
Tribal Objects of Patrimony (STOP) Act of 2019, S. 2165. Gaps in 
existing federal law have enabled dealers and collectors to operate in 
the shadows when it comes to items of tribal cultural heritage 
especially once exported abroad. The STOP Act illuminates these dark 
corners.
    There is an already-existing international mechanism through which 
countries can request the return of cultural property from other 
countries. The Convention on the Means of Prohibiting and Preventing 
the Illicit Import, Export and Transfer of Ownership of Cultural 
Property is a 1970 international treaty that the United States signed. 
France, now a safe harbor for those seeking to sell federally protected 
tribal cultural heritage items, is also a signatory. When a signatory 
prohibits export of cultural patrimony items and introduces an 
accompanying export certificate, that signatory can call on other 
signatories to control imports of those items and help with 
repatriation. The United States has not explicitly prohibited export of 
tribal cultural heritage items otherwise protected under federal laws 
like the Native American Graves Protection and Repatriation Act 
(NAGPRA) and the Archaeological Resources Protection Act (ARP A). 
Instead, when we try to regain our sacred items from an auction block 
abroad, we are told these gaps in United States law prevent government 
action to facilitate return.
    The STOP Act places an emphasis on facilitating the return of 
protected cultural heritage items trafficked internationally. The STOP 
Act sets out to accomplish the two main goals of: (1) stopping the 
export and facilitating the international repatriation of tribal 
cultural heritage items already prohibited from being trafficked under 
federal law; and (2) facilitating coordination among federal agencies 
in protecting and repatriating such items and in aiding the voluntary 
return of tribal tangible cultural heritage more broadly.
    The STOP Act is designed to meet these very narrow goals. But 
NAGPRA and ARPA have other serious limitations that make even their 
domestic implementation difficult, including restrictive provenance 
requirements. While the STOP Act works to prevent the export of items 
already protected under NAGPRA and ARP A and to secure their return, we 
hope to see larger changes to NAGPRA and ARP A in the future meant to 
resolve these other limitations.
    We understand the STOP Act has been developed with significant 
expert feedback, including from seasoned agency officials. We welcome 
this expert feedback to strengthen the STOP Act so that it best meets 
its goals.
    We need the STOP Act now. Without it, we will continue to see our 
tribal cultural heritage trafficked just out of our reach and in front 
of our very eyes. The Pueblo of Tesuque urges you to act swiftly to 
enact the STOP Act into law.
                                 ______
                                 
Prepared Statement of RADM Michael D. Weahkee, Director, Indian Health 
         Service, U.S. Department of Health and Human Services
                                s. 3099
    Chairman Hoeven, Vice-Chairman Udall, and Members of the Senate 
Committee on Indian Affairs. I am RADM Michael D. Weahkee, Director of 
the Indian Health Service (IHS). Thank you for the opportunity to 
provide a statement of the record on S. 3099, the Southeast Alaska 
Regional Health Consortium Land Transfer Act of 2019, a bill to provide 
for the conveyance of certain property to the Southeast Alaska Regional 
Health Consortium (SEARHC), aka the Consortium, located in Sitka, 
Alaska.
    The IHS mission is to raise the physical, mental, social, and 
spiritual health of American Indians and Alaska Natives (AIAN) to the 
highest level. This mission is partnership with the AIAN communities we 
serve. As an agency within the Department of Health and Human Services 
(HHS), the IHS provides comprehensive health service delivery to 
approximately 2.6 million AIAN across 37 states and through a network 
of over 605 Federal and tribal health facilities including hospitals, 
clinics and school health centers. In addition, the IHS contracts with 
41 Urban Indian Organizations that deliver health care services to AIAN 
urban populations.
    S. 3099 would provide conveyance by warranty deed of certain 
property to the SEARHC, a tribal organization that has provided IHS-
funded health care services since 1976 under the authority of the 
Indian Self-Determination and Education Assistance Act (ISDEAA). The 
federal property described in S. 3099 would be used in connection with 
existing health programs in Sitka, Alaska operated by the SEARHC aka 
the Consortium. Under S. 3099, the Consortium would not provide the 
Federal Government any consideration for the property and the Federal 
Government would not be able to impose any obligation, term, or 
condition on the Consortium with regard to the property. In addition, 
the Federal Government would not retain any reversionary interest in 
the property. It also would require completing the conveyance no later 
than two years from the date of enactment of the bill.
    S. 3099 would free the Consortium of any liability that it 
otherwise would have assumed for any environmental contamination that 
may have occurred on or before the date of the transfer, including the 
period prior to the date of the transfer during which the Consortium 
has been using, occupying and/or managing the property. S.3099 also 
specifies HHS would also not be liable for any contamination for the 
same period of time, thus making it unclear who would be liable.
    We have seen several bills of this sort move through Congress in 
recent years mandating transfer by warranty deed rather than by 
quitclaim deed, including S. 825, the Southeast Alaska Regional Health 
Consortium Land Transfer Act of 2017. As with previous bills, HHS is 
concerned about the details of S. 3099. Specifically, HHS does not 
prefer to make ISDEAA transfers by warranty deed as such deeds create 
the potential for liability if a competing property interest is 
subsequently discovered. In addition, barring retention of a 
reversionary interest (as is the standard practice with transfers of 
property for ISDEAA purposes) deprives HHS of a means to ensure that 
the property will continue to be used for health services in 
furtherance of the purposes of this bill.
    With respect to environmental liability, S. 3099 would protect HHS 
from liability for contamination that may have occurred subsequent to 
the time when administration of the facility was turned over to the 
Consortium, though the result of immunizing both the Consortium and the 
HHS from liability for contamination occurring during that period may 
be that anyone injured from such contamination would be without a 
remedy.
    With these concerns in mind, HHS supports the purposes of the bill 
to convey the property to the Consortium in order to facilitate 
providing improved health services to Alaska Natives. We would like to 
work with the committee on technical changes to address the issues 
raised above. We remain firmly committed to improving quality, safety, 
and access to health care for AIAN. We appreciate all your efforts in 
helping us provide the best possible health care services to the people 
we serve.
                                s. 3100
    Chairman Hoeven, Vice-Chairman Udall, and Members of the Senate 
Committee on Indian Affairs. I am RADM Michael D. Weahkee, Director of 
the Indian Health Service (IHS). Thank you for the opportunity to 
provide a statement for the record on S.3100, the Alaska Native Tribal 
Health Consortium Land Transfer Act, a bill to provide for the 
conveyance of certain property to the Alaska Native Tribal Health 
Consortium (ANTHC), aka the Consortium, located in Anchorage, Alaska.
    The IHS mission is to raise the physical, mental, social, and 
spiritual health of American Indians and Alaska Natives (AIAN) to the 
highest level. This mission is done in partnership with the AIAN 
communities we serve. As an agency within the Department of Health and 
Human Services (HHS), the IHS provides comprehensive health service 
delivery to approximately 2.6 million AIAN across 37 states and through 
a network of over 605 Federal and tribal health facilities including 
hospitals, clinics, and school health centers. In addition, the IHS 
contracts with 41 Urban Indian Organizations that deliver health care 
services to AIAN urban populations.
    S. 3100 would provide conveyance, by warranty deed, of certain 
property to the ANTHC, a tribal organization that has provided IHS-
funded health care services since 1999 under the authority of the 
Indian Self-Determination and Education Assistance Act (ISDEAA). The 
federal property described in S. 3100 would be used in connection with 
existing health programs in Anchorage, Alaska. Under S. 3100, the 
Consortium would not provide the Federal Government with any 
consideration for the property and the Federal Government would not be 
able to impose any obligation, term, or condition on the Consortium 
with regard to the property. In addition, the Federal Government would 
not retain any reversionary interest in the property. It also would 
require completing the conveyance no later than 180 days from enactment 
of the bill. HHS has determined this timeframe would not provide 
sufficient time to fully complete the transfer.
    S. 3100 would free the Consortium of any liability that it 
otherwise would have assumed for any environmental contamination that 
may have occurred on or before the date of the transfer. Notably, 
S.3100 does not address liability during the period that the Consortium 
was using, occupying and/or managing the property prior to conveyance.
    We have seen several bills of this sort move through Congress in 
recent years mandating transfer by warranty deed rather than by 
quitclaim deed, including S. 825, the Southeast Alaska Regional Health 
Consortium Land Transfer Act of 2017. As with previous bills, HHS is 
concerned about the details of S. 3100. Specifically, HHS does not 
prefer to make ISDEAA transfers by warranty deed as such deeds create 
the potential for liability if a competing property interest is 
subsequently discovered. In addition, barring retention of a 
reversionary interest (as is the standard practice with transfers of 
property for ISDEAA purposes) deprives HHS a means to ensure the 
property will continue to be used for health services in furtherance of 
the purposes of this bill.
    With respect to environmental liability, S. 3100 does not protect 
HHS from liability for contamination that may have occurred subsequent 
to the time when administration of the facility was turned over to the 
Consortium.
    With these concerns in mind, HHS supports the purposes of the bill 
to convey the property to the Consortium in order to facilitate 
providing improved health services to Alaska Natives. We would like to 
work with the committee on technical changes to the bill to address the 
issues raised above. We remain firmly committed to improving quality, 
safety, and access to health care for AIAN. We appreciate all your 
efforts in helping us provide the best possible health care services to 
the people we serve.
S.3100 Technical Comments
  <bullet> Section 2. Page 1, line 10: Drafters may want to consider 
        changing the deadline to complete the transfer of the property 
        as follows to ensure the requirement can be met:

          ``not later than two (2) years, after the date of enactment''

  <bullet> Section 2. Page 3, line 21: Drafters may want to consider 
        language immunizing IHS from any contamination which may have 
        occurred during the period the property has been used, occupied 
        and/or controlled by the Consortium.

          ``to the Consortium, except that the Secretary shall not be 
        liable for any contamination that occurred after the date the 
        Consortium controlled, occupied, and used the property.
                                 ______
                                 
  Prepared Statement of Aaron Payment, President, Midwest Alliance of 
                            Sovereign Tribes
    Thank you Chairman Hoeven, Vice Chairman Udall, and Members of the 
Committee for the opportunity to submit testimony on S. 2165, the 
Safeguard Tribal Objects of Patrimony (STOP) Act of 2019. The Midwest 
Alliance of Sovereign Tribes strongly supports swift passage of the 
STOP Act.
    My name is Chairperson Aaron payment and I am the President of the 
Midwest Alliance of Sovereign Tribes. The struggle to protect tribal 
cultural heritage from illegal trafficking is a tragically common 
challenge for communities across Indian Country. For the thirty five 
Midwest Tribes is no exception. International markets have become a 
safe harbor for trafficking federally protected tribal cultural 
heritage items, and they will remain this way until Congress enacts 
federal law to address this issue. We firmly believe the STOP Act will 
make tremendous strides in preventing international trafficking of 
federally protected tribal cultural heritage items and securing their 
return home to their tribal communities.
I. The Midwest Alliance of Sovereign Tribes Has Fought to Protect Our 
        Tribal Cultural Heritage
    Items of tribal cultural heritage are as unique as the tribal 
nations to whom they belong. These items share the common 
characteristics of being of deep intangible and tangible significance 
to a tribal nation. Many people view our cultural heritage as beautiful 
works of art, as talismans of a past culture they would like to own, or 
as items to trade for profit. Whatever intrinsic beauty these items 
possess, that is not their intended purpose.
    Our items of cultural heritage have significant roles to play 
within our cultures, our traditional calendars, our families, and our 
ways of life. Our cultural heritage also helps us honor and uphold our 
values and teach those values to our community members, particularly 
our young people. So important are these items of cultural heritage 
that they belong to the community as a whole--as our shared inheritance 
and as our shared responsibility to honor and protect for present and 
future generations.
    The Midwest Alliance of Sovereign Tribes has first-hand experience 
in fighting to prevent the loss of our cultural heritage due to theft, 
trafficking, grave robbing and illegal sales. Our Nations have lost 
sacred ceremonial pipes, head dresses, wampum belts, attire, prayer 
bundles, etc.
II. Support for the STOP Act to Close Gaps in Existing Federal Law
    The Midwest Alliance of Sovereign Tribes fully supports the passage 
of the Safeguard Tribal Objects of Patrimony (STOP) Act of 2019, S. 
2165. Gaps in existing federal law have enabled dealers and collectors 
to operate in the shadows when it comes to items of tribal cultural 
heritage-especially once exported abroad. The STOP Act illuminates 
these dark corners.
    There is an already-existing international mechanism through which 
countries can request the return of cultural property from other 
countries. The Convention on the Means of Prohibiting and Preventing 
the Illicit Import, Export and Transfer of Ownership of Cultural 
Property is a 1970 international treaty that the United States signed. 
France, now a safe harbor for those seeking to sell federally protected 
tribal cultural heritage items, is also a signatory. When a signatory 
prohibits export of particular cultural patrimony items and introduces 
an accompanying export certificate, that signatory can call on other 
signatories to control imports of those items and help with 
repatriation. The United States has not explicitly prohibited export of 
tribal cultural heritage items otherwise protected under federal laws 
like the Native American Graves Protection and Repatriation Act 
(NAGPRA) and the Archaeological Resources Protection Act (ARPA). 
Instead, when we try to regain our sacred items from an auction block 
abroad, we are told these gaps in United States law prevent government 
action to facilitate return.
    The STOP Act places an emphasis on facilitating the return of 
protected cultural heritage items trafficked internationally. The STOP 
Act sets out to accomplish the two main goals of: (1) stopping the 
export and facilitating the international repatriation of tribal 
cultural heritage items already prohibited from being trafficked under 
federal law; and (2) facilitating coordination among federal agencies 
in protecting and repatriating such items and in aiding the voluntary 
return of tribal tangible cultural heritage more broadly.
    The STOP Act is designed to meet these very narrow goals. But NAGRA 
and ARPA have other serious limitations that make even their domestic 
implementation difficult, including restrictive provenance 
requirements. While the STOP Act works to prevent the export of items 
already protected under NAGPRA and ARPA and to secure their return, we 
hope to see larger changes to NAGPRA and ARPA in the future meant to 
resolve these other limitations.
    We understand the STOP Act has been developed with significant 
expert feedback, including from seasoned agency officials. We welcome 
this expert feedback to strengthen the STOP Act so that it best meets 
its goals.
    We need the STOP Act now. Without it, we will continue to see our 
tribal cultural heritage trafficked just out of our reach and in front 
of our very eyes. The Midwest Alliance of Sovereign Tribes urges you to 
act swiftly to enact the STOP Act into law.
                                 ______
                                 
     Prepared Statement of the U.S. Environmental Protection Agency
    Chairman Hoeven, Vice Chairman Udall, and members of the Committee, 
this statement for the record summarizes the U.S. Environmental 
Protection Agency's (EPA) important work to improve access to safe 
drinking water on tribal lands, and provides EPA's technical assistance 
comments on S. 3044, the Western Tribal Water Infrastructure Act. The 
Administration does not have an official position on S. 3044.
EPA's Commitment to Improving Tribal Drinking Water Infrastructure
    Since passage of the Safe Drinking Water Act (SDWA) in 1974, EPA 
and our implementing partners, including tribes, have made tremendous 
progress in providing clean and safe water to our Nation's citizens. In 
the 1970s, more than 40 percent of our Nation's drinking water systems 
failed to meet even the most basic health standards. Today, over 93 
percent of community water systems meet all health-based standards, at 
all times. Congress passed SDWA to protect public health, including by 
regulating public water systems. SDWA requires EPA to establish and 
enforce standards that public drinking water systems must follow. EPA 
delegates primary enforcement responsibility (also called primacy) for 
public water systems to states and tribes if they meet certain 
requirements.
    EPA also has a critical role in helping to support investments in 
our nation's drinking water infrastructure. In particular, the Drinking 
Water State Revolving Loan Fund (DWSRF) was established by the 1996 
amendments to SDWA. The DWSRF is a financial assistance program to help 
water systems achieve the health protection objectives of SDWA. As 
described further below, specific funding for tribal projects is 
provided through a set-aside from the DWSRF.
    EPA has specifically identified drinking water compliance and 
drinking water infrastructure priorities within EPA's fiscal year (FY) 
2018-2022 strategic plan and associated long-term performance goals. In 
particular, EPA has set goals for reducing the number of community 
water systems out of compliance with health-based measures and for 
increasing the amount of non-federal dollars leveraged by EPA's water 
infrastructure finance programs. \1\
---------------------------------------------------------------------------
    \1\ See https://www.epa.gov/sites/production/files/2019-09/
documents/fy-2018-2022-epa-strategic-plan.pdf
---------------------------------------------------------------------------
Assessing Tribal Drinking Water Needs
    SDWA requires EPA to assess the nation's public water systems' 
infrastructure needs every four years and use the findings to allocate 
DWSRF capitalization grants to states and tribes. As part of this 
assessment, EPA documents the 20-year capital investment needs for 
tribes. The survey reports infrastructure needs that are required to 
protect public health. These include projects to ensure compliance with 
SDWA that are eligible for funding under the Drinking Water 
Infrastructure Grants
    Tribal Set-Aside Program (hereafter ``Tribal Set-Aside Program''), 
discussed in greater detail below. EPA's most recent drinking water 
infrastructure needs survey and assessment estimated the total 20-year 
need for tribal water systems to be $3.1 billion. \2\
---------------------------------------------------------------------------
    \2\ EPA's sixth Drinking Water Infrastructure Needs Survey and 
Assessment, available at https://www.epa.gov/sites/production/files/
2018-10/documents/
corrected_sixth_drinking_water_infrastructure_needs_survey_and_assessmen
t.pdf.
---------------------------------------------------------------------------
The Drinking Water Infrastructure Grants Tribal Set-Aside Program
    The Tribal Set-Aside Program helps address the unique challenges 
tribes face in providing reliable access to safe drinking water and 
provides annual funding for federally recognized tribes for public 
drinking water systems. \3\ The Tribal Set-Aside Program funds come 
from a 2 percent set-aside of the DWSRF program provided in EPA's 
annual appropriations. In FY 2020, Congress appropriated $22.52 million 
for the Tribal Set-Aside Program. Any federally recognized tribe is 
eligible to receive a grant.
---------------------------------------------------------------------------
    \3\ https://www.epa.gov/tribaldrinkingwater/drinking-water-
infrastructure-grants-tribal-set-aside-program
---------------------------------------------------------------------------
    Community water systems and non-profit, non-community water systems 
that serve a tribal population are eligible to have projects funded, in 
whole or in part, with Tribal Set-Aside Program funds. If the Indian 
Health Service (IHS) agrees, tribes may request that IHS receive the 
project funds to administer the project. Funds can be used for planning 
and construction expenditures at community or non-profit non-community 
drinking water systems that serve tribes. Furthermore, the SWDA states 
that funds must be used to address the most significant threats to 
public health. SDWA further directs that funds may be used only for 
projects that facilitate compliance with the National Primary Drinking 
Water Regulations or will further the health protection objectives of 
SDWA. These funds cannot be used for compliance monitoring, operation, 
or maintenance of a system.
    EPA Regions are responsible for working with the tribes and other 
federal agencies like IHS to identify, prioritize, and select projects 
to receive funding from the Region's share of the program funds. 
Projects are selected in close coordination with other federal agencies 
to most effectively leverage existing authorities and to ensure 
efficient use of resources. Prioritization of projects is especially 
important given the highly varied needs across tribal communities.
    Examples of projects funded by the Tribal Set-Aside Program are:

  <bullet> Rehabilitation or development of sources of drinking water;

  <bullet> Installation or upgrade of treatment facilities;

  <bullet> Installation or upgrade of storage facilities;

  <bullet> Installation or replacement of transmission or distribution 
        pipes; or

  <bullet> Replacement of aging water system infrastructure.

    Projects can also be funded to develop project engineering reports, 
engineering design work, and project administration. The 2016 Water 
Infrastructure Improvements for the Nation Act (WIIN Act) expanded the 
activities that are now eligible for Tribal Set-Aside Program funds to 
include training and operator certification programs. \4\
---------------------------------------------------------------------------
    \4\ https://www.epa.gov/tribaldrinkingwater/amendments-drinking-
water-infrastructure-grants-program-required-water
---------------------------------------------------------------------------
    EPA uses a formula to allocate Tribal Set-Aside Program funds to 
EPA Regions annually. The formula provides a base amount of 2 percent 
of the total annual set-aside to each Region. EPA Regions receive the 
remaining fund allocations based on their percentage share of the 
tribal drinking water system ``needs.'' The drinking water system 
``needs'' come from the most current statistics reported in two 
different surveys: EPA's Drinking Water Infrastructure Needs Survey and 
Assessment, described earlier, and IHS's Sanitation Deficiency System.
Additional EPA Funding Sources for Tribal Drinking Water Projects
    In addition to the Tribal Set-Aside Program, EPA has several other 
potential sources of funding for tribal water infrastructure projects.
Water Infrastructure Improvements for the Nation Act (WIIN Act) Grant 
        Programs
    The 2016 Water Infrastructure Improvements for the Nation Act (WIIN 
Act) addresses, supports, and improves America's drinking water 
infrastructure. Included in the WIIN Act are three new drinking water 
grants that promote public health and the protection of the 
environment. Within the WIIN Act section 2105 lead infrastructure grant 
program, EPA has set aside $3 million to fund tribal drinking water 
infrastructure projects using funding appropriated in FY2018-FY2020. 
\5\ EPA is also implementing a tribal grant program under section 2104 
of the WIIN Act that may include infrastructure investments necessary 
to comply with the SDWA. \6\
---------------------------------------------------------------------------
    \5\ More information is available at https://www.epa.gov/
tribaldrinkingwater/wiin-act-section-2105-reducing-lead-drinking-water-
tribal-grant-program.
    \6\ More information is available at https://www.epa.gov/
tribaldrinkingwater/wiin-act-section-2104-assistance-small-and-
disadvantaged-communities-tribal
---------------------------------------------------------------------------
The Water Infrastructure Finance and Innovation Act (WIFIA) Program
    The Water Infrastructure Finance and Innovation Act of 2014 (WIFIA) 
established the WIFIA program, a federal credit program administered by 
EPA for eligible water and wastewater infrastructure projects. The 
WIFIA program accelerates investment in our nation's water 
infrastructure by providing long-term, low-cost supplemental loans for 
regionally and nationally significant projects. Tribes are eligible 
borrowers under WIFIA and may apply for loans to finance projects of at 
least $5 million.
EPA drinking water infrastructure activities in the Columbia River 
        Basin
    From FY 2013 to FY 2019, the Tribal Set-Aside Program awarded $2.6 
million, through interagency agreements with IHS, to 6 different tribes 
for 11 drinking water infrastructure projects in the Columbia River 
Basin to provide water supply and storage, improve source water, 
support planning and design of infrastructure, and improve pumps and 
treatment.
Shoshone Bannock--Fort Hall Community Water System
    After the discovery that the aquifer that underlies the reservation 
was contaminated with ethylene dibromide and nitrate (both in excess of 
the national primary drinking water standards) in the early 1990s, EPA 
and other funding agencies helped pay for the construction of a large 
community water system that provides access to safe water to the 
residents of the reservation.
Simnasho Water System--Warm Springs
    After the revisions to the arsenic rule in 2000, the community 
needed treatment or a new source of drinking water. Through cooperative 
efforts with IHS, the Department of Housing and Urban Development (HUD) 
and the Tribe, EPA funded the construction of a new source (wells), a 
water treatment building and a water transmission main needed to 
deliver a safe water supply to the community. EPA funded 66.3 percent 
of the $3.37 million project which resulted in the elimination of a 
violation of a national primary drinking water standard (arsenic).
    EPA has been heavily engaged in providing technical assistance and 
compliance assistance to the Confederated Tribes of the Warm Springs, 
starting in November 2018. Through the Interagency Agreement for Public 
Water System Supervision, EPA funds IHS Utility Consultants. The 
utility consultant staff funded by IHS have spent multiple weeks onsite 
providing hands-on training, troubleshooting and technical assistance 
to Warm Springs' operators. Also, EPA has regularly participated in 
funding summits at Warm Springs (June 2019, September 2019 and February 
2020). The organization and event management of the first two meetings 
was supported by EPA at the request of the Tribe. The June and 
September 2019 meetings involved significant federal participation.
EPA drinking water infrastructure activities in the Upper Missouri 
        River Basin
    Over the last seven fiscal years, the Tribal Set-Aside Program 
awarded $17 million, through an interagency agreement with IHS, to 10 
different tribes for 30 drinking water infrastructure projects in the 
Upper Missouri River Basin to upgrade or install new drinking water 
storage tanks, replace or consolidate water mains and pipes (including 
lead service lines and intakes), and install new filters and treatment 
technology.
    In March 2020, EPA Region 8 convened a workgroup of multiple 
federal agency regional leaders to discuss Drinking Water/Wastewater/
Solid Waste issues in Indian country in Wyoming and Montana. Leaders 
from over 8 federal agencies and administrations began a collaborative, 
regional-level discussion to address the concerns regarding systemic 
violations of these systems, and to identify agency resources that may 
help address these continuous violations.
EPA drinking water infrastructure activities in the Upper Rio Grande 
        Basin
    In FY 2019 and FY 2020, the Tribal Set-Aside Program awarded $2.5 
million, through an interagency agreement with IHS, to 6 different 
tribes for 7 drinking water infrastructure projects in the Upper Rio 
Grande Basin to fix corrosion issues in water storage facilities, help 
meet drinking water standards for arsenic, fix operational problems by 
updating electronic control systems, and construct additional water 
supply facilities for reserve and backup capacity to meet design 
standards.
S. 3044--the Western Tribal Water Infrastructure Act
    In section 2001 of America's Water Infrastructure Act of 2018 
(AWIA), Congress authorized EPA to create an Indian Reservation 
Drinking Water Program that would fund projects to connect, expand, or 
repair existing public water systems on Indian reservations in the 
Upper Missouri River and Upper Rio Grande Basins. EPA has not received 
appropriations to carry out this program.
    S. 3044 would amend the Indian Reservation Drinking Water Program 
to include projects in the Columbia River Basin and make several 
additional technical changes. As noted earlier, EPA supports efforts to 
address drinking water challenges on tribal lands and is interested to 
work with the Committee on how to best target federal efforts toward 
this important goal. EPA has two technical comments on S. 3044:

  <bullet> EPA would need a specific appropriation from Congress to 
        carry out the Indian Reservation Drinking Water Program; and

  <bullet> S. 3044 describes a specific number of projects located in 
        specific watersheds. Based on the authorization of 
        appropriations in section (d) of $30 million, it would be 
        challenging for EPA to fund 10 projects in each of the three 
        Basins. Projects vary substantially by size and scope and this 
        framework may severely constrain EPA in making project 
        decisions.

Conclusion
    Thank you for the opportunity to submit this written statement for 
the record for today's hearing. EPA remains committed to its ongoing 
work to improve access to safe drinking water on tribal lands, and we 
appreciate Congress's attention to this important issue.
                                 ______
                                 
 Prepared Statement of Kim Martindale, President, Authentic Tribal Art 
                    Dealers Association (ATADA) \1\
---------------------------------------------------------------------------
    \1\ ATADA, the Authentic Tribal Art Dealers Association, 
www.atada.org. email <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="107479627573647f625071647174713e7f6277">[email&#160;protected]</a>, PO Box 45628, Rio Rancho, NM 
87174.
---------------------------------------------------------------------------
    The Safeguard Tribal Objects of Patrimony Act of 2019 (STOP Act), 
S. 2165 \2\
---------------------------------------------------------------------------
    \2\ This testimony also pertains to the current House version of 
the Safeguard Tribal Objects of Patrimony Act, S. H.R. 3846. 116th 
Cong. (2019)
---------------------------------------------------------------------------
    ATADA is a professional organization established in 1988 in order 
to set ethical and professional standards for the art trade. Its 
membership includes hundreds of antique and contemporary Native 
American and ethnographic art dealers and collectors, art appraisers, 
and a strong representation of museums and public charities across the 
U.S.
    ATADA is engaged in intensive community educational work to build 
understanding of Native American concerns over the loss of cultural 
heritage. In 2016 and 2017, ATADA adopted Bylaws forbidding trade in 
items in current ceremonial use, \3\ established Due Diligence 
Guidelines to protect buyers and sellers, \4\ and began public 
education programs \5\ working together with tribal representatives.
---------------------------------------------------------------------------
    \3\ ATADA Bylaws, Article X, Trade Practices, Ethics, And 
Guarantees. https://www.atada.org/bylaws-policies/
    \4\ ATADA Bylaws, Article XI, Due Diligence Guidelines. https://
www.atada.org/bylaws-policies/
    \5\ For example, the ATADA Symposium, Understanding Cultural 
Property: A Path to Healing Through Communication. May 22, 2017, Santa 
Fe, NM.
---------------------------------------------------------------------------
    ATADA has built a highly successful, community-based Voluntary 
Returns Program for lawfully owned ceremonial objects. The Voluntary 
Returns Program has brought several hundred important ceremonial items 
from art dealers \6\ and collectors to tribes at no cost since it began 
in 2016. \7\ The vast majority of sacred items that ATADA has returned 
to tribes have come from collections built 30-70 or more years ago, 
prior to passage of NAGPRA in 1990. NAGPRA was clearly a wake-up call 
to collectors and art dealers as well as for museums. It remains the 
most effective federal tool for ensuring that sacred items are returned 
to tribes.
---------------------------------------------------------------------------
    \6\ ATADA Bylaws, Article X, ATADA Guidelines Regarding the Trade 
in Sacred Communal Items of Cultural Patrimony. https://www.atada.org/
bylaws-policies/
    \7\ A Journey with Ceremonial Objects, https://
committeeforculturalpolicy.org/a-journey-with-ceremonial-objects/
---------------------------------------------------------------------------
    ATADA appreciates the opportunity to assist in promoting 
legislation that protects tribal ceremonial and sacred items, 
strengthens enforcement of existing laws consistent with citizens 
constitutional rights and facilitates legitimate trade in legal items. 
However, the Safeguard Tribal Objects of Patrimony Act of 2019 (STOP 
Act), S. 2165, fails on all these counts.
    This is the third version of STOP introduced since 2016. It 
replicates and even expands many provisions rejected in prior versions 
of the bill. Like earlier iterations of STOP, this bill will embargo 
lawfully owned Indian artifacts, will fail to provide notice to the 
public of what Indian objects are prohibited from export, will impose 
burdensome export requirements on very low value items, and allow 
seizure without constitutional due process.
    For all the reasons set forth below, ATADA believes that S. 2165, 
will not achieve its primary goal-the return of important cultural 
objects to Native American tribes and Native Hawaiian organizations. It 
is constitutionally, procedurally, and practically flawed.

    1. The STOP Act undermines constitutional protections guaranteed to 
American citizens, placing the burden of proof on the applicant, not 
the government, and reversing the American concept of innocent until 
proven guilty.

    The STOP Act does not require ``knowing'' wrongdoing for there to 
be a crime. It does not require proof of violation of NAGPRA, ARPA, or 
other U.S. law. Export restrictions can be placed on lawfully-owned 
objects.
    The STOP Act provides for criminal penalties of up to ten years' 
imprisonment for exporting lawfully owned items without a permit. 
Despite these heavy penalties, due process is absent. The STOP Act 
places the entire burden of proof on the exporter, even if the exporter 
is a tourist.
    STOP's tribal review process for issuing export permits is secret. 
It is not subject to Freedom of Information Act requests. Evidence from 
tribes on which seizure was based would be withheld, severely limiting 
opportunities to appeal seizures or refusal to export and denying 
future access to information for the future.

    2. The STOP Act potentially restricts commercially-made and legal 
items as tribal heritage.

    Native Americans have been making ceramics, carvings, jewelry, and 
weavings for commercial sale for literally hundreds of years. \8\ There 
are hundreds of thousands of Native American antique objects that have 
circulated in the market for decades, many of which are now said by 
tribes to have a ceremonial character or to be tribal ``cultural 
heritage.'' \9\ Even Indian art made for sale would be subject to 
restrictions and tribal review. A receipt from a Native American artist 
does not guarantee that an object is exempt from review and possible 
seizure.

    \8\ Native American artists created outstanding works of art for 
sale and trade even before the time of first contact, trading with 
indigenous American peoples in the Plains and the far West and sending 
goods to exchange for Mayan and Aztec products southward into present-
day Mexico. Contact with the Spanish conquistadors and the settlers 
that followed them led to development of many Indian arts. To give just 
one example, Navajo weaving is a traditional art, but it was not until 
the introduction of sheepherding after contact that there was a large 
scale expansion of trade in woven goods, blankets and mantas, made both 
for commercial and domestic use.
    \9\ For example, American auction houses have recently received 
`cultural heritage' claims for hand-carved and painted wooden kachinas 
originally sold by the tribal artist-makers in the 1990s on eBay.

    3. The STOP Act sets no time-limit for review and gives limitless 
---------------------------------------------------------------------------
scope to the objects that cannot be exported.

    The STOP Act has no time limit for tribal review. There is no list 
of forbidden items for export. STOP provides only for a general 
description of objects that may be unlawful to export. The 
documentation burden and delay of STOP's proposed tribal review system 
would be a de-facto export ban as the work would not be justified for 
low value items.
    Legitimate business relationships with international partners and 
art fairs will be curtailed due to concerns over unlimited delays. The 
lack of a clear definition of what may be exported without a permit 
will result in the seizure of objects exported in good faith.

    4. The STOP Act does not enable self-certification.

    A self-certification process under U.S. law would never be a free 
ride as a false statement would lead to imprisonment, a significant 
safeguard. ATADA endorses self-certification to ensure a paper trail 
for exports and to provide true accountability.

    5. The STOP Act will harm American small businesses exports, Native 
and non-Native alike.

    ATADA is committed to helping to build markets for Native and non-
Native American small businesses and Native craftspeople. The STOP 
Act's time-consuming and potentially expensive export process (for 
which an unstated fee will be assessed) will eliminate small scale 
exports and place an additional burden on Indian artisans as well as 
art dealers.
    Art and craft production is important in the economies of tribal 
nations across the U.S., including Native Alaskan sculptors, Northwest 
Coast weavers and carvers, California basketry-makers, Cherokee Nation 
beadworkers, and craft marketers from the Plains to the Penobscot 
people of Maine and others in the Northeast. These and many others are 
working to build local artist markets in their communities; they are 
also represented together with hundreds of Native Americans artists 
from Southwestern tribal nations in galleries and fairs in New Mexico.
    Travel restrictions have already decimated the hopes of thousands 
of Native artisans dependent on summer sales for the majority of their 
annual earnings. Imposing export barriers to businesses and tourists 
alike would threaten the ability rebuild sales venues for Indian art.

    6. The STOP Act will harm both U.S. and foreign tourism.

    The STOP Act requires tourists as well as commercial exporters to 
submit photos and forms and obtain permissions for exports as low as $1 
value. These requirements will be impossible for most tourists to meet 
and will taint the domestic market with concerns that buying Indian art 
is ``wrong.'' Too broad or too vague criteria would trap many foreign 
tourists, inevitably resulting in thousands of inadvertent, innocent 
violations and seizures for technical errors rather than criminal acts.
    To give just one example of STOP's potential for negative impact, 
the first international news article about seizure of an ordinary 
object from a tourist for failing to meet STOP's vague export 
permitting requirements would seriously harm international tourism to 
important tourist destinations, such as Santa Fe's almost 100-year-old 
Indian Market, which ordinarily draws about 100,000 tourists to New 
Mexico each year.

    7. Consumer confusion will further damage tribal markets.

    Public confusion about laws regulating trade can result in 
unintended harm. A case in point is the federal law banning trade in 
elephant ivory, which has seriously impacted Native Alaskan craftsmen 
who legally carve marine mammal ivory. \10\ Many Native artisans depend 
on sales of carved marine mammal ivory, particularly walrus, to pay for 
necessities like fuel oil through the winter. The federal elephant 
ivory ban has reduced Native carvers' earnings by as much as 40 
percent. As Native carver Dennis Pungowiyi explained to Arctic Today, 
negative perceptions have grown among his customers who believe that 
owning a walrus ivory sculpture might be illegal, even though it is 
legal under Alaskan and federal law. \11\
---------------------------------------------------------------------------
    \10\ Zachariah Hughes, Lower 48 ivory bans hit Alaska Native 
carvers, Alaska Public Media, November 7, 2016. https://
www.alaskapublic.org/2016/11/07/lower-48-ivory-bans-hit-alaska-native-
carvers/
    \11\ Yereth Rosen, Some U.S. state ivory bans affect Alaska Native 
carvers. A new federal bill aims to override them, Arctic Today, 
October 24, 2017, https://www.arctictoday.com/some-u-s-state-ivory-
bans-affect-alaska-nativecarvers-a-new-federal-bill-aims-to-override-
them/
---------------------------------------------------------------------------
    Several U.S. states have gone far beyond federal regulations and 
passed laws prohibiting trade in all ivories. The losses suffered by 
Native Alaskan craftspeople were so alarming that Alaskan Senators Dan 
Sullivan and Lisa Murkowski introduced the 2017 Allowing Alaska IVORY 
Act, \12\ S. 1965, to mitigate the harm. Unfortunately, S. 1965 was not 
passed, leaving many Native carvers in doubt whether their industry can 
survive.
---------------------------------------------------------------------------
    \12\ S. 1965, Allowing Alaska to Improve Vital Opportunities in the 
Rural Economy Act, https://www.congress.gov/bill/115th-congress/senate-
bill/1965/text.
---------------------------------------------------------------------------
    The STOP Act's overbroad, vague provisions would similarly taint 
other Native artworks with potential illegality and raise the concept 
that ownership of Native art was harmful to cultural integrity and 
public interest.

    8. The STOP Act provides no funding for a system of review, and no 
guidance as to how such a system should be organized.

    The STOP Act leaves the Department of the Interior to create and 
fund a system of tribal review from scratch. The system must cover 
virtunally all exported Indian art and artifacts (many of which cannot 
be idetified to specific tribes) from every federally recognized tribe 
and Hawaiian Native organization. Yet five years after first asking the 
federal government to establish this system, no tribe has come forward 
with a plan for coordinating or organizing it.

    9. STOP fails to utilize the existing U.S. Customs' AES export 
reporting system agreed to by tribes in 2018, sets no low-value 
threshold.

    The AES system used for all commercial exports of $2500.00 or more 
provides an adaptable online system for tracking exports. Using this 
$2500.00 threshold would already be far more restrictive than any 
import/export system for art and artifacts currently in use in market 
nations.
    To compare, in early 2019, the European Parliament enacted 
legislation requiring a certification system for art imports. Although 
the EU already has harmonized Customs systems, the European Parliament 
estimates that it will take 5 years to build a permitting system to 
manage this. The new EU system requires only a self-certification from 
importers for most types of artworks, including ethnographic objects 
such as Native American art. For these, it requires selfcertification 
only for objects over 200 years old AND over 18,000 euros in value. 
\13\ Even so, the burden on art businesses is expected to seriously 
damage the European market and harm international art fairs, an 
increasing segment of the art market. \14\
---------------------------------------------------------------------------
    \13\ EU Regulation Curtailing Import of Art & Antiquities Now Law, 
Cultural Property News, June 16, 2019, https://
culturalpropertynews.org/eu-regulation-curtailing-import-of-art-
antiquities-now-law/
    \14\ Id.
---------------------------------------------------------------------------
    How long would be needed for almost 600 tribes and the Department 
of the Interior to build an independent system for export permits? The 
only realistic approach is to utilize an already existing system and to 
limit the items covered as much as possible in order not to overburden 
it. ATADA hopes that tribes will join it in seeing the benefit of 
having a functional system that can start almost immediately rather 
than confront all the hurdles a new system would create.

    10. The STOP Act is bad public policy that will undermine NAGPRA 
and harm U.S. museums.

    U.S. museums and educational institutions that receive any federal 
funding are already subject to strict NAGPRA rules of compliance that 
enable tribes to claim museum-owned Native American objects. The STOP 
Act ignores NAGPRA criteria that an object be a ceremonial or sacred 
object at the time that it left tribal hands. The STOP Act treats 
NAGPRA's definition of ``cultural items'' as one category when NAGPRA 
has five separate categories of cultural items with separate statutory 
definitions.
    NAGPRA returns are dealt with in a case-by-case process between 
museums and tribes. Under STOP, tribes have no need to show affinity or 
substantiate that an object may be claimed.
    The STOP Act makes it illegal to export ``cultural items''--a term 
that includes items that are not subject to NAGPRA repatriation. Export 
by museums for loans or traveling exhibitions of items that were 
legally acquired decades ago could put museums in violation of the STOP 
Act. Objects not subject to NAGPRA could be seized if claimed by a 
tribe.

    11. STOP abandons earlier progress on finding working solutions to 
preserve heritage.

    During the last Congress, our efforts to produce a version of STOP 
that works led ATADA to work with the Acoma Pueblo and their 
representatives and produce legislation that banned the export and 
facilitated the return of illegal sacred and ceremonial items: H.R. 
7075, the ``Native American and Native Hawaiian Cultural Heritage 
Protection Act'' of 2018.
    H.R.7075 accomplished these objectives by grafting an export 
certification system for Native American items onto the existing 
Department of Commerce AES system and permitting selfcertification for 
lower value items, insuring speedy and effective implementation, 
operation, participation and enforcement of an export certification 
regime without infringing on individual's constitutional rights.
    Despite the burden that H.R. 7075 placed on American businesses, 
ATADA approved these restrictions in order to assist tribes to achieve 
their goal of preserving ceremonial and sacred items in the U.S. 
Regrettably, the STOP Act fails to incorporate compromises agreed to in 
H.R. 7075.

    12. Conclusion.

    The STOP Act represents the first time in the United States' entire 
history that it has sought to restrict export of art or cultural 
heritage. Restrictions on any U.S. cultural heritage contravenes long 
held principles that have emphasized the free trade of cultural 
property for the public good, and Congress should be wary of enacting 
such a major statutory change, especially one whose breadth and scope 
is unlimited and shorn of due process protections. \15\
---------------------------------------------------------------------------
    \15\ The U.S. has longstanding import policies encouraging the 
importation of modern and antique artworks, manuscripts, books, 
scientific, and other cultural objects by making such imports free of 
duty. The Educational, Scientific, and Cultural Materials Importation 
Act of 1966, Section 1(b) provides that ``The purpose of this Act is to 
enable the United States to give effect to the Agreement on the 
Importation of Educational, Scientific and Cultural Materials. with a 
view to contributing to the cause of peace through the freer exchange 
of ideas and knowledge across national boundaries.'' The Agreement on 
the Importation of Educational, Scientific and Cultural Materials was 
opened for signature at Lake Success, on November 22, 1950, 131 
U.N.T.S. 25 (1950); The Educational, Scientific, and Cultural Materials 
Importation Act of 1966, Pub. L. No. 89-651, 80 Stat. 897 (1966). Even 
earlier, in the U.S. Tariff Act of 1930, Congress exempted antiquities 
and art objects made before 1830 from duty in order to encourage the 
free flow of artistic and cultural materials into the U.S. The 
exemption from duty on antiques and archaeological materials is under 
the Harmonized Tariff Schedule of the United States Revision 7, ch. 97, 
  XXI (2019), (Works of Art, Collectors' Pieces and Antiques, 
Subheading 9705.00.00 to 9706.00.00).
---------------------------------------------------------------------------
    The problem of loss of tribal cultural heritage will not be solved 
by passing constitutionally suspect legislation or creating a new, 
unwieldy, and expensive federal bureaucracy. There are relatively few 
objects in private hands that actually meet the criteria set forth 
under NAGPRA or ARPA as objects unlawful to trade. Even fewer are ever 
exported. The GAO reports for previous versions of STOP counted the 
total overseas sales of Native American objects (sometimes twice) 
without identifying any items as actually sold in violation of ARPA, 
NAGPRA or other U.S. law.
    ATADA is strongly supportive of the goal of returning objects 
necessary for tribal spiritual activities, and of halting all illegal 
trade in the U.S. as well as abroad. ATADA's due diligence requirements 
for dealers, combined with the ATADA Voluntary Returns program, which 
has brought hundreds of important objects back within just a few years, 
are models for best business practices and for community-based return 
programs.
    ATADA supports taking steps now to safeguard objects for tribal 
use. These should include significant federal investment in programs 
located on tribal lands and the building of safe, secure chapter houses 
to ensure that cultural objects remain under the control of tribal 
governments or tribal elders.
    Any law passed limiting export should protect U.S. citizens from 
constitutional abuse by ensuring due process and enabling Freedom of 
Information Act requests. This requires:

  <bullet> Adopting clear definitions of what can and cannot be 
        exported.

  <bullet> Applying CAFRA provisions to protect unconstitutional and 
        unwarranted seizures.

  <bullet> Exclusions for low value items and tourist purchases.

  <bullet> Self-certification by business to create accountability and 
        enable tracking of exported items.

  <bullet> Limiting export prohibitions to items actually deemed 
        sacred.

    ATADA wishes to emphasize its willingness to work together with all 
interested parties to create legislation that will truly protect 
important sacred objects and return them to tribes.
    My thanks to the Committee for its attention to these important 
issues.
                                 ______
                                 
  Prepared Statement of Hon. Brian D. Vallo, Governor, Pueblo of Acoma
    On behalf of the Pueblo of Acoma (Pueblo), please accept this 
written testimony for the Senate Committee on Indian Affairs' 
legislative hearing on the Safeguard Tribal Objects of Patrimony (STOP) 
Act of 2019, S. 2165, and other bills.
    The Pueblo appreciates the opportunity to present on this important 
topic to the Committee and your staff. The Acoma people have a great 
deal of experience in both combating illegal trafficking of our 
protected tribal cultural heritage and in seeking repatriation of those 
items. From our own lived experiences, we have learned where the gaps 
in current federal law are that allow traffickers to continue to 
illegally export and sell federally protected tribal cultural heritage 
items abroad-the very gaps the STOP Act seeks to fill. The Pueblo is 
grateful for the opportunity to share this experience with you.
I. The Pueblo's Experience Prioritizing Protection of Tribal Cultural 
        Heritage and the Story of the Acoma Shield
    The Pueblo has developed expertise in the protection of tribal 
cultural heritage, especially across international borders. 
Unfortunately, this expertise came out of a necessity to protect our 
community and our cultural heritage, essential to our way of life. Many 
people view our cultural heritage as beautiful works of art or as 
talismans of a past culture they would like to own. Others seek to gain 
profit by trafficking in our sacred items, and they know that these 
items are extremely difficult to retrieve once they are exported 
abroad. A quick look at past auction catalogues of places where Pueblo 
cultural heritage has been sold reveals the sheer enormity of tribal 
cultural heritage that has left the country. \1\
---------------------------------------------------------------------------
    \1\ The French auction of tribal cultural heritage has been widely 
reported since at least 2013. See, e.g., Tom Mashberg, Secret Bid 
Guides Hopi Spirits Home, NY TIMES, (Dec. 16, 2013), https://
www.nytimes.com/2013/12/17/arts/design/secret-bids-guide-hopi-indians-
spirits-home.html; Tom Mashberg, Despite Legal Challenges, Sale of Hopi 
Religious Artifacts Continues in France, NY TIMES, (June 29, 2014), 
https://www.nytimes.com/2014/06/30/arts/design/sale-of-hopi-religious-
items-continues-despite-us-embassys-efforts.html; SeaAlaska Heritage 
Institute, Secret Bidder Saves Sacred Object from Auction for Alaska 
Natives, (Sept. 6, 2014), http://indiancountrytodaymedianetwork.com/
2014/09/06/annenberg-foundation-returns-sacred-object-alaska-natives-
156764; Navajos Reclaim Sacred Masks at Auction, CBS NEWS, (Dec. 16, 
2014), http://www.cbsnews.com/news/navajo-indians-buy-back-sacred-
masks-in-france-auction/; Hopi Sacred Masks Auction in Paris Despite 
Protests, REUTERS, (June 11, 2015), https://www.reuters.com/article/us-
france-auction-masks/hopi-sacred-masks-auctioned-in-paris-despite-
protests-idUSKBN0OR1DG20150611. The Government Accountability Office 
published a report recognizing the prevalence of this trafficking, 
discussed further below.
---------------------------------------------------------------------------
    Whatever intrinsic beauty these items possess and whatever value 
they may generate for traffickers, that is not their intended purpose. 
Our items of cultural heritage have significant roles to play within 
our culture, our traditional calendar, our societies, our families, and 
our way of life. Our cultural heritage also helps us honor and uphold 
our values and teach those values to our young people. So important are 
these items of cultural heritage that, under the Pueblo's traditional 
law, no one person may own them. Rather they belong to the community 
and are cared for by their caretakers, who cannot sell them or take 
these items from the Pueblo. We have prioritized protecting the 
Pueblo's items of cultural heritage because we believe that, without 
their presence, we cannot continue our way of life.
    The Pueblo has fought many instances of trafficking in our cultural 
heritage, including in New Mexico, across the country, and overseas. 
One well-known example was our fight to regain an important ceremonial 
shield (often referred to as ``the Acoma Shield''), which was set to be 
auctioned in Paris, France in 2015 and then again in May of 2016. The 
Acoma Shield was stolen from its caretaker in the 1970s and was 
eventually exported overseas. We engaged in intense, closely negotiated 
discussions with the auction house and the individual consigner who 
claimed to hold title--all with the help of our congressional 
delegation, federal agency officials and law enforcement, Indian 
Country, and the general public. Through these discussions and backed 
by litigation filed by the federal government that resulted in a 
warrant, we were able to halt the illegal sale of the Acoma Shield. 
Over 40 years after it was torn from our community, the Acoma Shield 
finally returned home in November of 2019.
    The joy of our Pueblo in welcoming the Acoma Shield home is without 
measure. A physical and spiritual absence in our community has been 
filled. Our people and the Acoma Shield upon reunion shared a deep 
contentedness impossible to put into words. The story of the Acoma 
Shield's return is illustrative of how cooperation, both 
internationally and domestically, can be effectively wielded to 
facilitate the protection and repatriation of tribal cultural heritage. 
It is a story of success--in federal-tribal partnership, in cooperative 
engagement, in redressing historic injustice, and in healing.
    And yet, the story of the Acoma Shield's return is also story of 
the shortcomings in existing federal law that continue to cause 
profound harm to tribal nations and which must be addressed to fully 
protect our tribal cultural heritage. Through our fight to regain the 
Acoma Shield, we were told time and again that current federal law fell 
short of providing the tools necessary to use the existing 
international framework through which countries regain their cultural 
patrimony from one another; this should not be so. And it is an uphill 
battle we and other tribal nations will be forced to fight again and 
again unless the STOP Act is enacted. The Acoma Shield was just one of 
hundreds of items of cultural heritage that have illegally left our 
community and been trafficked into various markets--countless items 
that have not, and may never, come home.
    The Acoma Shield is not the only time we have stepped forward to 
demand protection of our cultural heritage. Some of the earliest 
recorded incidents of the Pueblo's efforts to regain its cultural 
heritage involve federal criminal convictions handed down just after 
the 1990 passage of the Native American Graves Protection and 
Repatriation Act (NAGPRA), 25 U.S.C.     3001-3013, 18 U.S.C.   
1170. In United States v. Brian Garcia and Gerald Garcia, 92-515 JC 
(D.N.M. 1992), two Pueblo brothers pled guilty to illegally trafficking 
the Pueblo's cultural heritage in violation of NAGPRA. The Pueblo 
worked closely with the United States Attorney's Office to verify the 
provenance of the items sold. Later, in 1999, another example in United 
States v. Tidwell, 191 F.3d 976 (9th Cir. 1999), involved a set of 
historic Catholic priest robes cared for by the Pueblo, dating from the 
time of the Pueblo Revolt. They were recovered along with many Hopi 
items of cultural heritage. A Bureau of Indian Affairs (BIA) special 
agent who is also a member of Acoma investigated a non-Indian tribal 
art and antique dealer, leading to his conviction and the recovery of 
the items.
    Later, in the 2000s, as national and international auction houses 
began to expand and reach more collectors through the Internet, the 
Pueblo became significantly more involved in attempting to identify and 
recover its cultural heritage. In 2006, the Pueblo worked diligently 
with its legal counsel for the return of historic wooden beams and 
doors from the San Esteban del Rey Mission Church. \2\ A national 
auction house had possession of the wooden beams along with nearly 50 
other items of cultural heritage belonging to the Pueblo. The auction 
house, unlike the situation with the Acoma Shield, facilitated 
negotiations between the consignor and the Pueblo, and all items were 
returned without incident.
---------------------------------------------------------------------------
    \2\ The San Estevan del Rey Mission Church sits atop the mesa at 
the Pueblo. Founded in 1629, it is still cared for and maintained by 
the Pueblo's people. It was declared a National Landmark and also 
listed on the National Register of Historic Places in 1970.
---------------------------------------------------------------------------
    In 2015, the Pueblo began devoting more of its resources to 
addressing this issue, as it observed a disturbing number of its 
cultural heritage items for sale in a variety of contexts. They were 
being sold in locations locally, nationally, and internationally. The 
Pueblo continues to monitor auctions and other sales in which cultural 
heritage items may be trafficked. When the Pueblo identifies such an 
item, it seeks its return, but it is only sometimes successful. And we 
fear that our increased monitoring is driving the market underground, 
increasing black market activity hidden from the public eye. However, 
our biggest concern remains that, as these items travel from domestic 
to international markets, the ability for federal enforcement to 
intervene and opportunities for civil negotiation become almost nil.
II. How the Pueblo Combats Illegal Trafficking
Monitoring Market
    With the increased availability of auction house catalogues on the 
Internet, the Pueblo regularly attempts to monitor and respond to 
auctions involving its cultural heritage items. Subscriptions to a wide 
variety of auction catalogues, online gallery websites, and auction 
websites (like eBay) allow for scanned listings of sensitive items 
belonging to the Pueblo or our sister pueblos. The Pueblo also attempts 
to attend local antique or art conventions and to visit local galleries 
and pawnshops, where we often discover cultural heritage items for 
sale. Often it is through tips from our own members that we learn of an 
item of cultural heritage for sale. This was the case for the Acoma 
Shield, where an Acoma member forwarded an online auction listing to 
the Pueblo Governor's Office.
    The Pueblo has learned from its experience that, despite a myriad 
of individual domestic sellers, galleries, and auction houses, the U.S. 
Customs and Border Protection is likely the singular entity through 
which cultural heritage items are funneled for exportation. Therefore, 
the exportation restrictions and certification system in the STOP Act 
are critical for monitoring the attempted export of cultural heritage 
items that have been illegally removed from their communities.
System for Identifying Protected Items of Cultural Heritage
    It is important to understand that existing federal law protects 
only specific types of items associated with tribal nations. Most items 
are not protected. For example, NAGPRA and the Archaeological Resources 
Protection Act (ARPA), 16 U.S.C.     470aa-470m, have specific 
statutory standards for the items they protect. Generally, they must 
meet a threshold level of cultural significance and must have been 
taken from specific lands within specific time periods. Although tribal 
nations are involved in determining which items are protected, see 
United States v. Tidwell, 191 F.3d 976, 980 (9th Cir. 1999), they 
cannot claim items are federally protected if they do not meet these 
statutory standards. However, even when an item of tribal cultural 
heritage does not fall into the restrictive parameters of current 
federal law, individuals sometimes choose to voluntarily return the 
item.
    The Pueblo has a rich customary or common law tradition, which is 
often referred to as the Pueblo's ``traditional law.'' This traditional 
law is recognized in the Pueblo's written law, and the Pueblo's 
traditional law helps identify items of significant cultural value, 
which aids in establishing their protection and facilitating 
prosecution under federal law. \2\ Under the Pueblo's traditional laws, 
it is illegal for any member who may have these cultural heritage items 
in their care to sell or remove these items from the Pueblo. \3\ These 
cultural heritage items are often considered sacred, and many are used 
publicly and privately in ceremonies.
---------------------------------------------------------------------------
    \3\ See United States v. Brian Garcia and Gerald Garcia, 92-515 JC 
(D.N.M. 1992); United States v. Tidwell, 191 F.3d 976 (9th Cir. 1999).
    \4\ Different types of the Pueblo's cultural heritage may be 
stored, cared for, or used differently depending on what the item is. 
For example, some cultural heritage items may be cared for and stored 
by individuals or families in their homes. Other times, different 
cultural heritage items may be cared for and stored in communal 
buildings, called kivas, by specific societies or clan groups. Other 
times, these objects may be placed outside in the open at sacred sites. 
Some items are put in special places to be left there permanently, not 
unlike the San Ildefonso Pueblo object at issue in the case of Pueblo 
of San Ildefonso v. Ridlon, 103 F.3d 936 (10th Cir. 1996), or the 
repatriation of the Zuni War Gods in the late 1980s (a well known 
example of the removal of cultural objects from area shrines).
---------------------------------------------------------------------------
    The Pueblo also has in place a system that tribal representatives 
use for identifying whether an item is from the Pueblo and whether it 
qualifies as protected tribal cultural heritage. The Pueblo has 
appointed an Advisory Board for its Tribal Historic Preservation Office 
to assist and consult on cultural matters. The Advisory Board is 
staffed with knowledgeable cultural practitioners, many of whom are 
current or former religious leaders within the community.
    To pursue the Acoma Shield, federal agencies first needed 
information from the Pueblo to establish that it qualified as protected 
under existing federal law. When the Acoma Shield first came up for 
auction, Pueblo cultural practitioners identified it, recognizing its 
construction, iconography, and usage as a ceremonial and sacred item. 
Needing further information, the Pueblo worked with its community and 
cultural leaders to find out as much information as possible about how 
it left the Pueblo. While an object of cultural heritage need not be 
stolen to be protected by federal law, we learned that the Acoma Shield 
was stolen in the mid-1970s from a home in ``Sky City,'' our ancestral 
mesa-top village. \5\ We were extremely fortunate to locate an 
individual who had a living memory of the theft of the Acoma Shield and 
immediately recognized it.
---------------------------------------------------------------------------
    \5\ At the time, the Pueblo did not have an established police 
force, and it was unclear, but unlikely, whether the caretaker ever 
made any criminal report to BIA officials, who would have had 
jurisdiction over crimes in Indian Country.
---------------------------------------------------------------------------
    Working with Department of Justice and Bureau of Indian Affairs 
special agents, we obtained affidavits from tribal members to establish 
the facts surrounding the Acoma Shield's theft and information about 
its cultural significance. These affidavits were used to establish that 
the Acoma Shield qualified for protection under federal law.
    Many collectors have argued that these items were lawfully acquired 
and can be legally sold. This is a false statement and a 
mischaracterization of how Pueblo and federal law treats these items. 
Under Pueblo and federal law, the Pueblo itself effectively ``owns'' 
the items in question. \6\ They need not be stolen to qualify for 
protection. Instead, if they meet the statutory standards for 
protection under federal law--including NAGPRA or ARPA--their removal 
from tribal or federal land and trafficking is illegal.
---------------------------------------------------------------------------
    \6\ The clearest analogy to describe the Pueblo's law is the legal 
concept of property rights being that of a "bundle of sticks." For the 
Pueblo, some members may have rights of possession, but they do not 
have the right to sell an item of cultural heritage. In fact, 
traditional law dictates what is to happen to a cultural heritage item 
if a caretaker can no longer care for the item. The right to sell an 
item of cultural heritage, although not contemplated in the Pueblo's 
traditional law, would be exclusively reserved to the Pueblo itself. 
Certainly, the Pueblo has never exercised this right.
---------------------------------------------------------------------------
    Therefore, the Pueblo asks this Committee to not think of these 
sacred and ceremonial objects in property rights terms, like title and 
ownership. If you insist on viewing tribal cultural heritage in 
traditional property rights terms, the Pueblo has significant claims 
and arguments to make that its items of cultural heritage are forms of 
tribal governmental property. However, if these items are merely 
treated like other pieces of property, their true significance is lost. 
These are items so significant that they are federally-protected 
contraband in which no individual person has a legal right to hold 
title. In this way, it is important to move beyond the Western view of 
property rights and consider this issue as one of human and cultural 
rights.
Relationships with Federal Officials
    The Pueblo has also worked to create and maintain close 
relationships with federal officials who can help when a protected item 
of cultural heritage is identified as being trafficked domestically or 
abroad. We work closely with a Southwest Regional Enforcement Officer 
from the BIA's Office of Justice Services and have also made other 
contacts within the Department of State, Department of Justice, and 
Department of the Interior. In some instances, we have facilitated 
communication between these federal agencies, where their jurisdictions 
often overlap in the area of international repatriation in sometimes 
confusing ways. Thankfully, these federal officials have been 
instrumental in the Pueblo's efforts to regain its items of cultural 
heritage. They have been true advocates who have zealously fought to 
regain our protected tribal cultural heritage items.
    In the case of the Acoma Shield, the Pueblo was able to call on 
contacts in relevant federal agencies for help. The Department of the 
Interior and Department of State together urged the auction house to 
halt the auction and called on France to intervene. The Department of 
Justice and Department of the Interior worked to compile evidence. The 
Department of Justice thereafter filed litigation using the current 
patchwork of federal law that protects tribal cultural heritage, and it 
later facilitated negotiations between the auction house, consigner, 
and Pueblo that eventually resulted in return of the Acoma Shield. The 
Department of State utilized international mechanisms to formally 
request mutual legal assistance from France, and it eventually helped 
pave the way for the Acoma Shield's international trip home. Individual 
federal officials in each agency prioritized securing return of the 
Acoma Shield, and for that we will be forever grateful.
Voluntary Return
    Under federal law, like other governmental entities, tribal nations 
are treated as non-profit entities for tax purposes. The Pueblo has 
used this to our advantage in attempting to incentivize individuals who 
are considering returning an item of tribal cultural heritage. 
Paperwork and information are provided for these individuals to seek a 
tax deduction, and the returned item is treated as a donation to the 
Pueblo. Voluntary return may take place even for items not fitting into 
the restrictive limitations of current federal law.
    In the case of the Acoma Shield, current gaps in federal law 
prevented the United States from fully using the existing international 
mechanism under which France would have facilitated the return of the 
Acoma Shield. France said that, without an explicit export prohibition 
in United States law and an accompanying certification system, it would 
not facilitate return. For this reason, the Acoma Shield was eventually 
retrieved based on meaningful dialogue between the Pueblo and the 
consigner and an agreement that resolved the litigation from which a 
warrant for the Acoma Shield was obtained.
III. Cannot Access Existing International Mechanism for Repatriation
    There exists an international mechanism that has been in operation 
for decades through which countries can request the return of cultural 
property from one another. The Convention on the Means of Prohibiting 
and Preventing the Illicit Import, Export and Transfer of Ownership of 
Cultural Property is a 1970 international treaty to which the United 
States and France are both parties. When a state party prohibits export 
of particular cultural patrimony items and introduces an accompanying 
export certificate, the state party can call on other state parties to 
control imports of those items and otherwise facilitate repatriation.
    The United States enacted the Convention on Cultural Property 
Implementation Act, through which it returns cultural patrimony items 
to other countries. And France has enacted similar legislation, where 
France's legislation requires the requesting country to have put in 
place an explicit export prohibition and accompanying export 
certification system.
    The United States has not enacted such an explicit export 
prohibition and accompanying export certification system for the tribal 
cultural heritage items for which it prohibits trafficking 
domestically--namely, items protected under NAGPRA or ARPA. It is for 
this very reason that the Acoma Shield did not return home 
expeditiously but instead took years of less formal negotiations and 
eventually came home through voluntary return. The STOP Act would fill 
these gaps.
IV. Support for the STOP Act
    The Pueblo of Acoma fully supports the passage of the Safeguard 
Tribal Objects of Patrimony (STOP) Act of 2019, S. 2165. The STOP Act 
places an emphasis on facilitating the return of protected cultural 
heritage items trafficked internationally, where we have been the most 
powerless to gain their repatriation. The STOP Act sets out to 
accomplish the two main goals of: (1) stopping the export and 
facilitating the international repatriation of tribal cultural heritage 
items already prohibited from being trafficked under federal law; and 
(2) facilitating coordination among federal agencies in protecting and 
repatriating such items and in aiding the voluntary return of tribal 
tangible cultural heritage more broadly. \7\
---------------------------------------------------------------------------
    \7\ It should be noted that there are other very serious issues 
with the limitations of NAGPRA and ARPA as they function domestically, 
but the STOP Act does not seek to address those. Rather, the STOP Act 
only seeks to put the tools in place that are necessary to retrieve 
from abroad items that are already protected domestically.
---------------------------------------------------------------------------
    The STOP Act is the culmination of significant momentum towards 
addressing international trafficking in tribal cultural heritage. A 
2016 joint resolution entitled the Protection of the Right of Tribes to 
stop the Export of Cultural and Traditional (PROTECT) Patrimony 
Resolution, H. Con. Res. 122, supports congressional development of an 
explicit restriction on exportation. It calls for the implementation of 
several measures to protect against the export of tribal cultural 
heritage and to secure the repatriation of illegally exported items to 
their home communities. Additionally, at Congress's request, the 
Government Accountability Office released a research report in 2018 
citing the international trafficking in tribal cultural heritage as an 
ongoing problem. \8\ Passage of the STOP Act would, thus, turn past 
congressional intent into present congressional action in resolving the 
problem.
---------------------------------------------------------------------------
    \8\ Native American Cultural Property: Additional Agency Actions 
Needed to Assist Tribes with Repatriating Items from Oversees Auctions, 
Government Accountability Office (Aug. 6, 2018), https://www.gao.gov/
products/GAO-18-537.
---------------------------------------------------------------------------
    The STOP Act has been developed with significant expert feedback 
from agency officials, tribal representatives, art dealers, and others. 
The legislation currently has 10 bipartisan cosponsor Senators and 19 
bipartisan cosponsor Representatives. Over 40 tribes and national and 
regional tribal organizations as well as the Southwestern Association 
for Indian Arts and the Society for American Archeology have provided 
letters of support for the legislation. The Pueblo of Acoma has long 
advocated for the legislation.
    The STOP Act would allow the United States to use the existing 
international mechanism under which countries request the return of 
their cultural patrimony. The STOP Act would explicitly prohibit the 
export of tribal cultural heritage items whose trafficking is already 
prohibited under federal law: NAGPRA, ARPA, or the Antiquities Act. It 
would also create an export certification system where an exporter 
seeking to export an item that qualifies under NAGPRA, ARPA, or the 
Antiquities Act as a Native American cultural item, archaeological 
resource, or object of antiquity must apply for a certification. Only 
those items legally obtained--usually demonstrated through the 
exporter's self-attestation--are eligible to receive a certification 
and thereafter be exported. \9\ As discussed earlier, in the Pueblo's 
experience, preventing the exportation of prohibited items of cultural 
heritage initially largely increases the chances of their recovery. 
This export prohibition and accompanying export certification process 
would limit export of federally protected cultural heritage items and 
also put in place the tools necessary to secure their international 
repatriation.
---------------------------------------------------------------------------
    \9\ Many items that qualify as a Native American cultural item, 
archaeological resource, or object of antiquity are nonetheless legally 
held, in part due to the restrictive provenance requirements tied to 
the federal statutes.
---------------------------------------------------------------------------
    The STOP Act uses existing federal definitions and legal 
limitations that have been in place for decades--seeking only to 
control the export of items that are illegal contraband domestically 
and facilitate their international repatriation. Federal courts have 
long upheld the current federal framework for defining federally 
protected tribal cultural heritage. See, e.g., United States v. 
Tidwell, 191 F.3d 976 (9th Cir. 1999) (upholding NAGPRA); United States 
v. Carrow, 119 F.3d 796 (10th Cir. 1997) (upholding NAGPRA); see also 
United States v. Austin, 902 F.2d 743 (9th Cir. 1990) (upholding ARPA). 
Further, courts have stated that those engaging in the sale and 
trafficking of protected items are deemed to possess a certain level of 
knowledge of whether an item qualifies as protected. See, e.g., United 
States v. Tidwell, 191 F.3d 976, 980 (9th Cir. 1999); United States v. 
Carrow, 119 F.3d 796, 803-04 (10th Cir. 1997). Still, the STOP Act 
calls on the Department of the Interior in consultation with tribal 
nations to produce a federal register notice providing additional 
clarity and notice. It also encourages tribal nations to issue their 
Native artists receipts that they may use when selling their art in 
order to demonstrate their art is not federally protected tribal 
cultural heritage. Under no circumstance would an individual have an 
item forfeited or face criminal penalties if the cultural heritage item 
is legally held under federal law.
    The STOP Act would also pave the way for smoother dialogue to 
facilitate return. It would create a framework for the federal 
government to work with individuals and entities to facilitate the 
voluntary return of cultural heritage to tribal nations, regardless of 
whether those items are legally held or not. It would also create 
formal bodies through which federal agencies can interact with each 
other and through which tribal representatives can interact with those 
federal agencies on the complicated and cross-jurisdictional issue of 
repatriation. Additionally, it would increase penalties under NAGPRA to 
encourage deterrence and prosecution.
    We would also support incorporation of some changes to the STOP Act 
that would incorporate expert feedback received on the STOP Act as 
introduced. We understand--indeed we have lived--the complicated nature 
of international repatriation of tribal cultural heritage. We 
appreciate expert feedback, especially from seasoned federal officials, 
that will help ensure the STOP Act accomplishes its goals.
V. Conclusion
    The continued trafficking, theft, and illegal sale of items of 
tribal cultural heritage poses an existential threat to our Pueblo 
beliefs and identity. These items are imbued with and transmit core 
aspects of who we are as Pueblo people. The intimate relationship we 
share with these items can be found in other tribal communities across 
the country. For all of us, the loss of tribal cultural heritage items 
and their absence from our ceremonies and daily lives is a painful 
reality.
    We are encouraged, however, by the recent efforts and surge in 
interest around the protection of tribal cultural heritage, which has 
resulted in increased contact between the Pueblo and various collectors 
and dealers. The return of the Acoma Shield was a moment of 
unprecedented joy in our community--a happiness following over 40 years 
of sorrow that could have been avoided with export controls and other 
protections for tribal cultural heritage.
    We hope that no other tribal nation has to undertake such an 
arduous journey as ours in tracking, negotiating, and fighting for the 
return of the Acoma Shield. Regrettably, we know that far too many 
tribal nations have shared in similar experiences and will continue to 
do so as long as we have glaring gaps in our federal laws.
    Passage of the STOP Act would send the clear message that the 
United States both recognizes and actively treats the repatriation and 
protection of tribal cultural heritage as a national priority. The 
Pueblo of Acoma looks forward to working with the Committee on passage 
of the STOP Act to better protect tribal cultural heritage for 
generations to come.
    Da'wa'eh; Thank you.
                                 ______
                                 
    Prepared Statement of Lt. Col. Glenn Timm (USAF(ret), Polson, MT
    S. 3019, the Senators Daines/Tester farcically named ``The Montana 
Water Rights Protection Act,'' admittedly (I witnessed this admission 
during a conference call among Daines rep. , tribal legal department 
head and Lake County Commissioners) written by CSKT legal team; neither 
Daines nor Tester have any idea what's REALLY IN IT! It should be 
killed with prejudice before it goes any further.
    S. 3019 is based upon the illegally and unconstitutionally passed 
Montana Bill S. 262--that was passed with a plurality of the Montana 
Legislature. The Montana Constitution requires a ``super majority'' for 
such bills. Further, the bill was tabled and expired in 2019. Beyond 
that, it (and S. 3019) violates the terms of three treaties'--including 
the Boundary Line Treaty between the United States and Great Britain, 
as well as the Hellgate Treaty and Lame Bull Treaty--the latter two, 
expired completely in the 1950s. The Hellgate Treaty became mute in 
1909 following the settlement of Indian land allotments and there after 
the Dept. of Interior listed the Flathead Reservation as ``the former 
reservation.'' It was listed by Interiors' Forest Service maps as such. 
Further, members of the CSKTribes are citizens of the United States.
    S. 3019 double downs on Sen, Tester's tabled S. 3013 Bill. As 
others have noted, this is huge financial bailout to a corporate entity 
occupying a small village. It also gives away the National Bison 
Range--in which Nickels and Dimes from none-Indians on the former 
Flathead Indian Reservation originally financed. The land has been paid 
for. Further, it asserts tribal water rights that never existed in 
violation of the Boundary Line Treaty. It further gives this corporate 
entity control over the Flathead Irrigation Project and its reservoirs 
paid for by the Irrigators. All this to be traded for nebulous Federal 
Lands in Eastern Montana. And, it will effectively destroy the school 
system and lake County. Further, there doesn't appear to be any 
accountability for the 1.9 Billion dollars to be paid to this 
corporation. In addition, this corporate entity is an unaccountable 
``dark money'' for various politicians!
    This illegal and unconstitutional bill must be killed and never 
allowed to surface again!
        For the restoration of Liberty.
                                 ______
                                 
    Prepared Statement of Ray Swenson, Chairman, Mission Irrigation 
           District, Federal Flathead Irrigation and Power *
---------------------------------------------------------------------------
    *1AAttachments to this statement have been retained in the 
Committee files.
---------------------------------------------------------------------------
    The MWRPA is intended to be the implementing legislation for the 
Confederated Salish and Kootenai Tribes (CSKT) Compact (CSKT Compact), 
a Montana-based negotiated agreement that advanced to the federal level 
despite its questionable passage and many known but unresolved legal 
and constitutional problems. That document is incorporated by reference 
in the MWRPA but unfortunately will not be reviewed by this Committee 
as it is simply incorporated by reference. Importantly, the CSKT 
Compact document is at the heart of the serious problems in the MWRPA 
and without this information, we believe that the discussion of the 
MWRPA by this Committee will be dangerously incomplete.
    The significance of the MWRPA's omission of the CSKT Compact for 
the SCIA is that the MWRPA enacts fundamental changes to the Indian 
Reorganization Act (IRA), the Indian Self-Determination and Education 
Assistance Act (P.L. 93-638), and unlawfully expands Tribal 
jurisdiction over tens of thousands of non-Indians and state law-based 
water rights without those changes ever being examined by the state of 
Montana or federal agencies. The MWRPA also enacts major changes to 
federal reclamation law which is the foundation for the development, 
construction, and operation of the FIPP. The burden of transmitting 
this information to this Committee falls upon those of us most impacted 
by the MWRPA.
Overview of Testimony
    This report asserts that S. 3019 should be rejected by this 
Committee because it ignores the 112-year Congressional history, 
intent, and authorization of the federal irrigation project at the 
center of the MWRPA. The consequences of ignoring these federal 
obligations in the MWRPA include tangible injury to the property 
rights, land patents, and Constitutionally-guaranteed due process 
rights of thousands of Montanans who reside on private property within 
the exterior boundaries of the Flathead Indian Reservation (FIR). Thus, 
the presentation of the United States' liability contained in S. 3019 
as determined by the Department of the Interior vastly underestimates 
the costs to and implications of the MWRPA for the United States.
    Significantly for this Committee, the treatment of the federal 
irrigation project in the MWRPA as solely an Indian irrigation project 
violates the Indian Reorganization Act (IRA) \1\ and causes an 
unacceptable expansion of the Indian Self-Determination and Education 
Assistance Act (P.L. 93-638) beyond ``projects that are constructed for 
Indians because of their status as Indians.'' \2\ Alternatively, if 
Congress chooses to pass the MWRPA and abandon its obligations to 
citizens it invited to settle the open Flathead Reservation, or to 
drastically change federal Indian policy, such changes should be openly 
discussed and evaluated, not buried in or obscured by a bill like the 
MWRPA.
---------------------------------------------------------------------------
    \1\ Section 3 of IRA protects existing rights.
    \2\ Letter from DOI Solicitor to James Steel, CSKT Chair, denying 
638 application for Flathead Irrigation Project because it was not 
built for the Tribes (cite language). CSKT hcJve persistently been 
trying to change the language of PL 93-638 with respect to the Flathead 
Irrigation Project
---------------------------------------------------------------------------
    In addition to the issues above, the MWRPA renders a pending 
General Accounting Office (GAO) audit of the Bureau of Indian Affairs 
(BIA) distribution of power revenue in the FIPP moot. \3\ We requested 
the audit to understand whether that distribution complies with federal 
law, \4\ and further, wrote to your office requesting a delay of any 
hearing on the MWRPA until the audit is completed. \5\ However, 
specific provisions of the MWRPA simply rewrite or erase the law 
applicable to the FIPP. If passed, the MWRPA will likely prevent the 
recovery of potentially millions of dollars for the irrigation project 
as required by federal law, \6\ leaving a legacy of unresolved federal 
waste, fraud, and abuse with its attendant adverse effects on water 
rights, property values, the security of land patents, and the U.S. and 
private investment in the largest irrigation and power project in 
Montana.
---------------------------------------------------------------------------
    \3\ Letter to Senator John Hoeven from Montana state senators and 
representatives; Lake and Sanders County Commissioners, and the 
Mission-Jocko Joint Irrigation Districts, January 2020.
    \4\ letter to Senator Steve Daines requesting a GAO audit for the 
FIPP, May 2019.
    \5\ Letter to Senator John Hoeven, January 2020, from State Senator 
K. Regier and others; the MJJB; and Sanders and Lake County 
Commissioners regarding postponing any hearing on the MWRPA until after 
an audit is completed.
    \6\ cite.
---------------------------------------------------------------------------
    Within the context of these threshold issues, this testimony 
discusses the known but unresolved deficiencies in the MWRPA as they 
relate to the FIPP. The most significant issues in this context are:

  <bullet> Failure to consider the federal contract obligations to 
        project users in the Flathead Irrigation and Power Project 
        (FIPP), including federal turnover of project management and 
        operation$ to land owners

  <bullet> Waste, Fraud and Abuse of federal and private funds by the 
        Bureau of Indian Affairs (BIA) in the FIPP that will be buried 
        by provisions of the MWRPA

  <bullet> MWRPA violations and expansion of the Indian Reorganization 
        Act (IRA) and Indian Self Determination and Education 
        Assistance Act (ISDEAA), or P.L. 93-638 beyond their original 
        purposes

    Each of these provisions are substantive issues that should hc1ve 
been addressed before the MWRPA got this far, engendering our lengthy 
testimony, The MJJB asserts that the primary responsibility for the 
information deficiencies in the MWRPA lies with the Department of the 
Interior (Interior) inasmuch as it only represented the CSKT, not 
project users, and did not do its due diligence with regard to the 
liabilities of the United States beyond its trust obligations to the 
CSKT. We are confident that had such a comprehensive and independent 
review been completed by Interior, the document before you today would 
be completely different and not pose such drastic and damaging impacts 
to the Mission and Jocko irrigations districts or the FIPP.
    In the attachments (retained in the Committee files), we present 
our testimony in strong opposition to the MWRPA and attach three 
critical reference documents for the Committee's use. We hope these 
materials give the Committee a better understanding of how significant 
the MWRPA is for the livelihood (lf 3,500 families, for the viability 
of the largest irrigation project in Montana, and for the long-term 
direction of federal Indian policy.
                                 ______
                                 
                               BIG HOLE WATERSHED COMMITTEE
                                                          6/20/2020
Dear Senators and Committee Staff,

    We would like to express our unanimous support for the Montana 
Water Rights Protection Act (S.3019).
    For 25 years the Big Hole Watershed Committee has sought to bring 
together stakeholders in our 2 million-acre watershed in the search for 
reasonable, common ground approaches to natural resource management. In 
part because of this foundational social fabric and culture of coming 
together, we are a highly un-adjudicated watershed.
    We believe that this bill is the result of an admirable effort by 
all parties to reach a just compromise for all water users. The 
ranchers in our watershed want to see this passed in order to avoid 
costly legal proceedings to defend their legal water rights and their 
ability to continue stewarding our landscapes.
    The stability and predictability provided by this agreement will 
also help businesses in the watershed dependent on a burgeoning 
recreation economy. Passage of this legislation will generate economic 
activity for our watershed, save taxpayers money, and provide the 
foundation for us to continue our culture of grassroots collaboration, 
as opposed to costly legal battles over water.
    We encourage the Indian Affairs Committee to pass this landmark 
piece of legislation to protect the future of Montana's water 
resources. Thank you.

        Sincerely,
                         Pedro Marques, Executive Director,
                                  Randy Smith, Board Chair.
                                 ______
                                 
                  Montana Agricultural Business Association
                                                      June 18, 2020
Dear Chairman Hoven and Vice Chairman Udall:

    The Montana Agricultural Business Association (MABA) submits this 
letter to express our support of S. 3019, the Montana Water Rights 
Protection Act, introduced in the U.S. Senate by Senator Steve Daines 
and Senator Jon Tester. This bipartisan legislation which ratifies the 
CSKT Compact is very important for all citizens in the State of 
Montana.
    The Senior Water Rights Coalition is a coalition of senior water 
right holders including irrigators, stock MABA is a trade association 
that represents agricultural input wholesale and retail companies and 
facilities. We recognize that without the irrigation water that our 
growers use, and that is protected with ratification of the CSKT 
Compact, our businesses and the economy of Montana will be greatly 
impacted.
    S. 3019 ratifies a solution based and negotiated agreement that 
protects Montana citizen's property rights. We respectfully request 
that Congress pass S. 3018 and ratify the CSKT Compact as soon as 
possible.

        Respectfully,
                                   Luke Dighans, President.
                                 ______
                                 
            Montana Trout Unlimited, Snowy Mountain Chapter
                                                      June 24, 2020
To the Members of the Committee:

    On behalf of the members of the Snowy Mountain Chapter of Montana 
Trout Unlimited, I urge this committee to advance S. 3019, the Montana 
Water Rights Protection Act. As sportsmen and sportswomen who care 
deeply about the future of coldwater fisheries, we have been actively 
involved from the start in the process that crafted the Confederated 
Salish and Kootenai Tribes (CSKT) Water Compact. It's been a 
contentious issue through the years, and what you find before you now 
is the result of good debate from all the stakeholders. The resulting 
product has our full support.
    The CSKT Water Compact will result in significant investment in 
water infrastructure that will benefit the CSKT, irrigators, coldwater 
fisheries, anglers, and conservationists. This investment will likely 
not be realized if S. 3019 does not succeed. In that scenario, 
Montanans will face years of litigation over water rights and 
individuals could lose control over the water resources they now employ 
and fish could lose out.
    Our area is predominantly rural, but it is growing at an 
accelerating rate. The CSKT Water Compact will ensure that development 
is conducted the right way, and with legal certainty for those planning 
to make an investment in our community.
    The Montana Water Rights Protection Act is the result of compromise 
by the primary stakeholders and people across Montana. The resulting 
agreement will lead to increased cooperation in the objective of making 
water go further for more users. In a time of uncertainty about how our 
global climate may be changing, increasing the flexibility and 
resilience of our water resources is critical for both the future of 
agriculture, and the future of our coldwater fisheries.
    I urge the committee's support of this important issue for Montana.

        Sincerely,
                                Michael Chapman, President.
                                 ______
                                 
                                                 Polson, MT
    We are in favor of the Montana Water Right Protection Act, which 
includes management of the National Bison Range by CSKT.
    We have lived here for some 23 years, and have been very pleased 
with CSKT, Mission Valley Power, Salish Kootenai College and the 
associated nurses school.
        Sincerely,
                                              Olga Lincoln,
                                              Bob Bushnell.
                                 ______
                                 
                                      Finley Point, Montana
                                                          6-18-2020

                                           Subject: SB 3019

    We are OPPOSED to everything in this bill.
    We have heard that your committee will not hear any opposition. If 
true, what has happed to this country and democracy?
    Frank is 80 years old, a 4th. generation Montanan. Mary in her 70s. 
We have had this home on Finley Point since 1980. We have invested a 
lot of money and tons of hard work in it. It is about all we have. Four 
generations of our family enjoy it and love it. This bill may mean we 
will lose it or at least drastically reduce the value and force us out.
    Frank is a combat area Navy Viet Nam veteran and has served as a 
civilian in USDA and the State Department. Mary served in the State 
Department, heading up anti-drug programs. We have a small orchard, 
officially recognized as a veteran, first time farm by USDA. We and all 
other farmers in Lake County Montana need to keep our free water to 
survive.
    Is this our reward for serving the country?
    Water in the West, is essential in many ways. Taking it has always 
meant strong resistance. Just watch some old western movies-based on 
true history.
    Water goes with the land, it has never been awarded based on race. 
Right now we do not need more racial tension.
    The name of this bill is a lie. No way does it protect access to 
water for ALL Montanans. It is an illegal taking.
    The bill violates the Montana and US Constitutions. It does not 
consider them, it ignores them. You all took oaths to obey and uphold 
the Constitution, remember?
    This issue has never been subject to popular vote. It started in 
Montana, mostly in secret. We can have popular votes on marijuana or 
mill levies, but not on taking our water.
    It is NOT widely supported in Montana and as the truth about it 
gets out, it has less and less support.
    The Flathead Reservation about 2/3 of Lake County. Non tribal 
population of Lake County is 75.83 percent. This bill will bankrupt 
Lake County and we and the Tribes will lose much of our representation 
when the county is divided into adjoining counties.
    The reservation was opened to homesteading in 1910. Land titles 
were issued by the Federal Land Office. Water belongs to the state for 
the people of Montana and it goes with the land. The government gives 
and now takes away. It speaks with a forked tongue.
    No cost has been determined by the Congressional Budget Office. Why 
not? The cost is well over $2 Billion dollars including inflation, 
appraisal costs, and costs to the Federal Government for various 
services and even liability insurance. PLUS giving away the National 
Bison Range, worth about $1 Billion. None of these give aways are 
subject to audit or accountability. Very bad precedents. More federal 
debit. Borrowed from China? We are funding our own demise!
    It may rob the county of state trust lands including state parks 
and islands on Flathead Lake.
    This is part and parcel of the publicly announced and documented 
plans by the Tribe to smoothly and quietly force all whites off of the 
Reservation by taxation, reducing property values, buying them out-a 
provision in the bill-and by ``other means''. What are these other 
means? Down town Seattle perhaps? These measures also harm many tribal 
members who own deeded land, pay taxes on it and want to maintain 
property values in case they want to or need to sell.
    Proponents claim it settles potential lawsuits. Another lie. It 
settles nothing. There will be lawsuits against it no matter what.
    This issue should be returned to the state, this bill should be 
withdrawn by the sponsor/s who are facing political suicide. Time 
should be given for making it known to the public and be subject to 
popular vote. Then if the public wants it, so be it.
    Thank you for your consideration. Please do not rubber stamp this 
bill.

                              Frank and Mary Mutch, Polson.
                                 ______
                                 
  Subject: Support S. 3019 Montana Water Use Protection Act
Senate Committee on Indian Affairs:

    As a member of the Confederated Salish & Kootenai Tribes residing 
on the Flathead Indian Reservation I realize how important it is to 
reach a settlement on the CSKT water rights.
    Senate bill 3019, The Montana Water Use Protection Act is a 
bipartison effort both in the State of Montana and our Congressman, 
Senator Daines and Senator Tester.
    Thank you for your consideration.

                                            Richard LaRance
                                 ______
                                 
                                                 Charlo, MT
To the US Senate Committee on Indian Affairs:

    We are irrigators and non-Indian residents of the Flathead Indian 
Reservation, writing in support of the Montana Water Rights Protection 
Act, S. 3019.
    The basic facts have long been clear. This bill was the product of 
many years of negotiation and countless hearings and opportunities for 
public input. It passed the Montana legislature on a bipartisan basis. 
It will safeguard the rights of all parties and the resources that we 
all depend upon. It will guarantee water rights and provide for 
certainty and security. The alternative would be decades of legal 
fighting with no clear outcome, worsening divisions within our 
communities here, and certainly none of the benefits to the 
agricultural economy that are part of this agreement.
    At a time of too much rancor and division in our country, here is 
an example of people coming together in good faith and finding a 
practical, workable solution to a longstanding, difficult problem.
    Thank you for your consideration of our views and for finally 
giving this long overdue bill a hearing. We urge all members of the 
Senate Committee on Indian Affairs to give this bill your full support.
        Sincerely,
                         Thompson Smith and Karin Stallard.
                                 ______
                                 
Dear Chairman Hoven and Vice Chairman Udall:

    I submit this letter in strong support of S 3019, the Montana Water 
Rights Protection Act, introduced in the U.S. Senate by Senator Steve 
Daines and Senator Jon Tester.
    I work with hundreds of water right holders across Montana and 
actively engaged in advocating for the ratification of the CSKT 
Compact. The CSKT Compact recognizes a negotiated solution that 
protects existing water rights while still recognizing and providing 
for the CSKT in stream flow water rights necessary for the protection 
of fisheries. The CSKT Compact was negotiated in good faith and as 
water users we strongly support the negotiated agreement. Without this 
legislation Montana water users will be faced with lawsuits with the 
Confederated Salish and Kootenai Tribes and the Federal Government on 
behalf of the Tribe that could go for decades and cost Montana 
Agricultural Producers millions. Another important reason to finalize 
the adjudication of Montana Water rights is that questions on water 
rights cloud title and borrowing ability of those folks who own those 
rights.
    The CSKT Compact is a fair and equitable solution that is the 
result of collaboration and working together as good neighbors.
    I strongly support this bipartisan legislation and urge Congress to 
pass S 3019 without delay.
        Respectfully,
                                            John Youngberg.
                                 ______
                                 
                                                   Ronan MT
    Please know this compact took a great bi-partisan effort on 
Flathead Indian Reservation and the vast majority of the ranchers and 
farmers here are very much in favor of this water compact becoming law.
    Please get this done!!
        Thank you,
                                                Karen Ryan.
                                 ______
                                 
        THE ASSOCIATION OF GALLATIN AGRICULTURAL IRRIGATORS
                                                      June 12, 2020
Dear Chairman Hoeven and Vice Chairman Udall:

    On behalf of the Association of Gallatin Agricultural Irrigators 
(AGAI), I submit this letter in strong support of S 3019, the Montana 
Water Rights Protection Act, introduced in the U.S. Senate by Senator 
Steve Daines and Senator Jon Tester.
    AGAI represents over 20 ditch/canal companies and 250 individual 
water users in the Gallatin Valley in Western Montana. AGAI has been 
actively engaged in advocating for the ratification of the CSKT Compact 
since its introduction in the Montana Legislature in 2015. The CSKT 
Compact achieved a negotiated solution that protects existing water 
rights while still recognizing and providing for the CSKT in stream 
flow water rights necessary for the protection of fisheries. The CSKT 
Compact was negotiated in good faith and as water users we strongly 
support the negotiated agreement.
    It is important to recognize that absent this legislation Montana 
water users will be embroiled in lawsuits with the Confederated Salish 
and Kootenai Tribes and the Federal Government on behalf of the Tribe. 
In a Mccarren amendment compliant statewide water adjudication the 
Tribe's instream flow water right claims would be litigated in front of 
the Montana Water Court at great expense in time, resources, and money 
to all of those involved. The CSKT Compact is a fair and equitable 
solution that is the result of collaboration and working together as 
good neighbors.
    AGAI strongly supports this bipartisan legislation and we urge 
Congress to pass S. 3019 without delay.

        Respectfully,
                                     Walt Sales, President.
                                 ______
                                 
                         Hellgate Hunters and Anglers (HHA)
                                                      June 16, 2020
Dear Chairman Hoeven,
    Hellgate Hunters and Anglers (HHA) is an all-volunteer Rod and Gun 
Conservation club based in Missoula, Montana. Founded in 2005, our 
mission is ``to conserve Montana's wildlife, wild places, and fairchase 
hunting and fishing heritage.'' We represent over 400 members and 
suppmters. Our work has ranged from volunteer landowner fencing 
projects, to advocating for LWCF funding to weighing in on how big game 
species are managed by our state wildlife management agency. We write 
to you today to voice our support for S. 3019, Montana Water Rights 
Protection Act.
    HHA has long supported Tribal management of the National Bison 
Range. In 2007, HHA first wrote a letter of suppmt to Secretary 
Kempthome outlining our support for Tribal involvement in the 
management of the National Bison Range under a Tribal Self-Governance 
agreement with the U.S. Fish and Wildlife Service. While 
disappointingly this agreement never came fully to fruition and 
lawsuits prevailed, we are extremely pleased to see the National Bison 
Range management and ownership addressed in the Montana Water Rights 
Protection Act. Many of our members recreate, hunt and fish on 
Confederated Salish and Kootenai (CSKT) Tribal lands and have treasured 
the spotting oppo1tunities in the Flathead Valley. We have the full 
trust and confidence in the CSKT to assume ownership and management of 
the National Bison Range.
    In summary, this legislation will be good for the people of 
Montana. We also appreciate that our delegation members Senator Jon 
Tester and Senator Steve Daines, both of whom are on the Senate 
Committee on Indian Affairs, are co-sponsors of this legislation. Thank 
you for the opportunity to voice our support for this bipartisan 
legislation.
        Sincerely,
                                      Adam Shaw, President.
                                 ______
                                 
                                    Belgrade, Montana 59714
                                                      June 24, 2020
    Dear Committee Members,
    Please reconsider the wisdom of using a National Wildlife Refuge, 
as cash, to settle a Montana water rights issue. S. 3019 proposes to 
barter away 56,000 acres of Federal public land to remedy a state 
concern. The 18,800-acre National Bison Range (NBR) portion of the 
barter is an iconic parcel of the National Wildlife Refuge System 
(NWRS). It is the 10th most visited Refuge in the USA. This legislation 
should also be considered in the Committee on Environment and Public 
Works, a standard practice for the National Wildlife Refuge 
Administration Act and its amendments. S.3019 is in conflict with 
provisions of that Act. No portion of the NWRS shall be proposed for 
divesting without conducting appropriate National Environmental Policy 
Act (NEPA) analysis. If divestment proceeds then replacement is 
required elsewhere to keep the public land base and American Bison 
mission of the NWRS whole.
    The Senators from Montana are proposing the USA pay the 
Confederated Salish and Kootenai Tribes (CSKT) for past wrongs by the 
state and federal governments related to land and water. Disturbingly 
they propose to use Federal public lands for payment rather than 
General Funds. What a terrible precedent! Language in the bill would 
also repay Montana for divesting of state land within boundaries of the 
CSKT Reservation by giving them BLM lands elsewhere in Montana, then 
spending additional funds to buy other lands, to keep state land 
acreage whole. Loss of BLM land is unacceptable and they too must be 
replaced. There is hypocrisy in the Senate passing The Great American 
Outdoors Act one week and bartering away public land as cash the next.
    The current U.S. Fish and Wildlife Service (USFWS) leadership are 
not public land passionate. Most come from other-world careers, not 
public land manager careers. Those folks proposed this divestment. That 
fact is verified by CSKT statements and Freedom of Information Act 
(FOIA) documents. The American people don't know that USFWS is trying 
to exit NWRS participation in bison conservation. Do you think they 
would support such a divestment if they understood? Not likely! Public 
lands advocates were not at the table for negotiations nor have they 
been informed through procedures of NEPA analysis. Those in FWS, who 
are not passionate about public land, see the NBR as a headache and 
costly to limited wildlife budgets. Divesting of land legislatively is 
a work around that is disrespectful of American values.
    Those most in support of this divestment are USFWS leadership, CSKT 
and farmers/ranchers off Reservation who worry about CSKT claims on 
their water. None of those folks are public lands passionate nor do 
they care if the Wildlife Refuge system maintains its bison 
conservation mission.
    In the 1855 Hell Gate Treaty, the U.S. made commitments to the CSKT 
that weren't kept. Specifically, ``Montana'' convinced the U.S. 
Congress and President to open the Flathead Reservation to non-Indian 
settlement by 1904 Flathead Allotment Act. Now all Americans will be 
burdened with the financial cost. Negotiators trying to settle, 
determined damages to CSKT at $2.3 billion for payment by the U.S. 
Montana pays almost nothing. Senator Daines negotiated a lower cash 
settlement of $1.9 billion by offering public land to CSKT in lieu of 
cash. You should not, ``barter away'' Federal Land and a National 
Wildlife Refuge without public consent!
    The 1908 Act establishing the NBR had a special mission, saving our 
national mammal from extinction. Today conservation of bison genetics, 
habitat and native birds are its purpose. It's done an extraordinary 
job of accomplishing all for 112 years. For decades the U.S. Fish and 
Wildlife Service has considered those genetics the most important 
within the 150 million-acre NWRS. The herd is free of brucellosis, 
while Yellowstone Park bison are not, making them unusable for 
conservation without a 4-year quarantine at $1,000s per animal. NBR 
bison have more unique alleles and contain a larger proportion of the 
federal bison genome than any other federal herd.
    This divestment is a Trojan horse effort to set a precedent, that 
it is OK to sometimes pick citizen's pockets of their public land 
inheritance, the greatest concentration of undistributed wealth in the 
world, a remarkable legacy. They belong to all Americans, including 
Native Americans. They are not money to solve complex problems.
    Polished PR advertisements touting this legislation are running 
here in Montana. They smack of a philosophy descended from 19th century 
robber barons and copper kings who ran Montana and despoiled it. That 
philosophy would privatize public lands wherever convenient for the 
already wealthy and politically connected. Please don't start selling 
cherished portions of America when there is high value to special 
interests. If divestment language is not removed, or mitigated, our 
cultural loyalty to and appreciation of Western public lands will have 
fundamentally changed, for the worse.
    Please consider removing public lands from the bill.
        Yours,
William L. West, USFWS recently Retired, 35+ years managing 
                                 NWRs, 31 years in Montana.
                                 ______
                                 
                                                   Ronan MT
                                                      June 23, 2020
    I am a rancher in the Flathead Indian Reservation. I am writing in 
strong support of S. 3019. The Act is a reasonable basis for settling 
on good terms the important matter of the use of water in Montana.
    I strongly encourage you to vote in favor of it tomorrow.

        Best regards,
                                        Giles Conway-Gordon
                                 ______
                                 
                                            Trout Creek, MT
                                                      June 23, 2020
G'day,

    As a rancher in Sanders County, I strongly support the MT Water 
Rights Protection Act. We use the surface water for livestock and 
domestic use and cannot afford to lose the water right.
    Also, I have respectable friends who farm on Flathead Reservation 
and they cannot afford to be without this Act.

        Thank you,
                                     Bill and Helen Meadows
                                 ______
                                 
                                              June 23, 2020
    I am writing to you to express my strong support for the Montana 
Water Rights Protection Act.
    As a Montana citizen, I understand that our state's tourism, 
agricultural, and real estate economy depends on a clear right to 
water. From irrigators to sportsmen, and municipalities to commercial 
users, Montanans need water right certainty.
    I, along with thousands of water users across our state, agree that 
the Montana Water Rights Protection Act is a sensible solution that 
will benefit all Montanans.
    The Montana Water Rights Protection Act will support Montana's $4 
billion agricultural economy, prevent years of costly litigation, and 
permanently protect the water rights of all Montanans.
    I urge you to take swift action to ratify the Montana Water Compact 
and pass the Montana Water Rights Protection Act NOW!

        Roger Starkel
                                 ______
                                 
                                         Greenough, Montana
                                                      June 23, 2020
To whom it may concern:

    I wish to strongly urge passage of the Montana Water Rights 
Protection Act.
    I have been a long term resident of the Blackfoot Valley and as 
well a long time agricultural irrigator. I have participated in 
numerous meetings on this matter over the past several years and heard 
the same arguments for and against the compact on numerous occasions. I 
am convinced, based on the the thoughtful case presented by the tribes 
and the majority of non tribal irrigators, that passage will settle 
existing claims by the tribes without years of costly litigation and 
uncertainty. The settlement of this issue is obviously long overdue. I 
welcome bipartisan support for passage of this bill by Senators Daines 
and Tester, and look forward to additional collaboration across party 
lines in the interests of all residents of Montana in the future.
                                          Land M. Lindbergh
                                 ______
                                 
                  The Ruby Valley Strategic Alliance (RVSA)
    The Ruby Valley Strategic Alliance (RVSA) is writing to express our 
support for the Montana Water Rights Protection Act (S. 3019), 
introduced by Senator Steve Daines and co-sponsored by Senator John 
Tester.
    The RVSA represents a diverse group of individuals and 
organizations that have been convening over the last four years to 
advance shared values around conserving public and private lands in the 
Ruby Valley in southwest Montana. We are committed to working 
collaboratively to address the most urgent threats to the people and 
nature that we cherish here. Our alliance is broad, including members 
from agriculture and conservation organizations, as well as several 
individual landowners, water users, and community members. Senate bill 
3019 is a bi-partisan piece of legislation that would have direct 
benefits for members of our group and the organizations and 
constituencies we represent.
    The RVSA's shared values are in part dependent on the viability of 
working ranches. Without the CSKT Water Compact, existing water rights 
across Montana will remain legally uncertain and threaten working 
ranches like those found in and around the Ruby watershed. We believe 
that the CKST water rights settlement is the best path forward for 
water users across the state to secure certainty and avoid decades of 
legal battles. Implementation of the agreement will produce new and 
productive partnerships that will focus on the common objective of 
making water go farther for more uses--an important objective in the 
face of rapidly shifting land use trends and unpredictable water supply 
availability.
    The CSKT Water Compact successfully quantifies the Tribe's water 
claims and secures critical water resources for all Montanans on and 
off the Reservation. The Compact protects existing rights and ensures 
new sources of water for irrigators, businesses, farmers, ranchers, 
conservation, and the Tribes. Most importantly, the Compact provides 
Montanans security in their existing water rights and allows the Water 
Court to facilitate completion of the statewide general stream 
adjudication, providing water users with legal certainty and allowing 
for economic development both on and off the Reservation. Finally, the 
Compact is fiscally responsible and strikes a thoughtful balance 
between all water users in Montana.
    We appreciate the effort and commitment to a robust public process 
that has been demonstrated by the delegation, the Tribes and diverse 
bi-partisan partners in getting to this point, and we encourage the 
Senate Indian Affairs Committee to ensure the legislation's speedy 
passage.

        Respectfully,
                  Dan Allhands, Madison County Commissioner
                             John Anderson, Ruby Dell Ranch
            Neil Bamosky, Ledford Creek Grazing Association
            Emily Cleveland, Montana Wilderness Association
                   Chris Edgington, Montana Trout Unlimited
                                 ______
                                 
To Whom it May Concern,

    My wife and I are Ranchers and lrrigators' on the Flathead Indian 
Reservation. We are asking for your support of the Montana Water rights 
protection Act (S.3019). Passage of this bill would bring stability and 
ensure our water for irrigation and livestock, and we could continue 
with farming and ranching and producing Beef.
    If it does not pass, our ranch and many others would be in 
jeopardy. The litigation that would ensue would probably break us. The 
entire livestock industry in Montana would be devastated.
    Please support the Montana Water Rights Protection Act.
        Thank you,
                                      Glen & Karen Raisland
                                 ______
                                 
                                                  Ronan, MT
                                                      June 23, 2020
Good Afternoon,

    I am writing this letter in support of S. 3019, The Montana Water 
Rights Protection Act. This act will define the federally reserved 
water rights of the Confederated Salish & Kootenai Tribes and settle 
the legal claims of the Tribes against the federal government.
    As a farmer/rancher on the Flathead Indian Reservation, I am very 
concerned with the cost of protecting my existing water rights through 
the court system. This water compact was negotiated for decades with 
different ideas coming together. The different sides involved in the 
negotiations each agreed to set aside differences to enable a water 
compact acceptable to all users.
    I encourage the members of the Indian Affairs Committee to pass 
this landmark piece of legislation to protect the future of Montana's 
water resources.
        Respectfully submitted,
                                            Joan M. Sherman
                                 ______
                                 
                                          Charlo-Moiese, MT
    I write to express my strong support for the Montana Water Rights 
Protection Act, due to be considered during tomorrow's hearing. I would 
ask that you please enter my comments into the record as a part of 
public testimony, since I am unable to travel to Washington, D.C., for 
the hearing.
    My husband and I live on the Flathead Indian Reservation and have a 
domestic well, whose legal status is uncertain as it relates to water 
rights. For this and other reasons, we strongly support the bipartisan 
Montana Water Rights Protection Act (S. 3019). The bill would give us 
certainty over our right to water, without having to resort to 
uncertain and costly litigation. This bill offers a much-needed 
settlement to the long and sometimes divisive dispute over water rights 
on the Flathead Indian Reservation and beyond.
    Thank you for considering my comments.

        Sincerely,
                                          Joanna R. Shelton
                                 ______
                                 
To Whom It May Concern:

    I am a citizen and registered voter in western Montana. I am 
writing to thank you for your hearings on the Montana Water Rights 
Protection Act (S. 3019) and your willingness to hear from your 
constituents in the Treasure state. I am a registered voter in Missoula 
County and own agricultural land in Moiese, Montana in southern Lake 
County on the Flathead Indian Reservation. I irrigate my fields and 
depend on our water district for maintenance and support.
    I am writing in support of passage of the Montana Water Rights 
Protection Act (S. 3019). After much consideration, I believe this is 
the right compact for water users throughout our part of the state. It 
is a good thing for the state and the nation. The compact honors 
traditional usage, respects all parties, brings much-needed funds for 
infrastructure repairs, and prevents future needless lawsuits.
    I am grateful for the good things our Federal government can 
accomplish and I urge passage this legislation.

        Sincerely,
                                           H. Rafael Chacon
                                 ______
                                 
Chairman Hoeven, Members of the Committee

    I have lived my entire life on the Flathead Indian Reservation and 
have farmed there for over forty years.
    I am respectfully asking your support of the Montana Water Rights 
Protection Act (S. 3019) It has been a decades long effort to resolve 
the CSKT water rights. The compact was debated and passed by the 
Montana Legislature.
    It was a good faith effort of all parties and I believe it is a 
fair resolution to a complicated issue. In my opinion it is better to 
negotiate a settlement of this complicated issue than to rely on 
attorneys and courts to mandate conditions to those involved.
    Thank you for all you do for our country.
                                             Barry A. Baker
                                 ______
                                 
                                               Belgrade, MT
    Please help pass the Montana Water rights Protection Act (S.3019.) 
This landmark piece oflegislation will protect the future of Montana's 
water resources as it will define the federally reserved water rights 
of the Confederated Salish and Kootenai Tribes and settle the legal 
claims of the Tribes against the federal government. As a Montana 
citizen using Montana Irrigation water rights, I will appreciate being 
protected by this act introduced by Senator Daines and co-sponsored by 
Senator Tester.
    This legislation has received broad bi-partisan support from every 
major agriculture and water use group in Montana, as well as we 
individual irrigators. Our local businesses and governments also 
support S. 3019.
    The passage of S.3019 will protect those of us farming and ranching 
in Montana from being forced into costly legal proceedings to defend 
our water rights. It will save taxpayers $400 million compared to 
alternative settlement proposals.

        Thank you,
                                                Ilene Casey
                                 ______
                                 
                                                      June 23, 2020
    I am writing to you to express my strong support for the Montana 
Water Rights Protection Act.
    As a Montana citizen, I understand that our state's tourism, 
agricultural, and real estate economy depends on a clear right to 
water. From irrigators to sportsmen, and municipalities to commercial 
users, Montanans need water right certainty.
    I, along with thousands of water users across our state, agree that 
the Montana Water Rights Protection Act is a sensible solution that 
will benefit all Montanans.
    The Montana Water Rights Protection Act will support Montana's $4 
billion agricultural economy, prevent years of costly litigation, and 
permanently protect the water rights of all Montanans.
    I urge you to take swift action to ratify the Montana Water Compact 
and pass the Montana Water Rights Protection Act NOW!
                                               Kathy Starke
                                 ______
                                 
                                                      June 19, 2020
Chairman Hoven and Vice Chairman Udall,

    I am writing to you today in strong support of S. 3019, the Montana 
Water Rights Protection Act, introduced by Senator Steve Daines and 
Senator Jon Tester.
    I am a strong advocate for agriculture and the water users involved 
in it, along with many other kinds of water users. The need for a clear 
right to water is something that all water users depend on--from the 
agricultural users to the hydro power facilities and more.
    The ratification of the CSKT Water Compact will be accomplished by 
S. 3019 is also extremely important and valuable to Montana water 
users. To have this ratified by a negotiated agreement is another 
benefit from S. 3019 so that water users can avoid hefty litigation 
fees.
    This bill will help aid water users, protect the $4 billion 
agricultural economy as well as the farmers and ranchers behind it.
    I encourage the members of this committee to pass this bi-partisan 
supported legislation to ensure the protection of Montana water-users.

        Regards,
                                                Rachel Cone
                                 ______
                                 
                                                      June 22, 2020
    I am a third generation irrigated farmer within the exterior 
boundary of the flathead irrigation project. I SUPPORT ratification of 
the CSKT/MT water compact.
                                      David and Lorrie Lake
                                 ______
                                 
    I am writing today in support of the Montana Water Rights 
Protection Act (S. 3019). I am a cattle rancher, land owner and water 
user in Southwestern Montana. The Montana Water Protection Act will 
define the federally reserved water rights of the Confederated Salish & 
Kootenai Tribes and settle the legal claims of the Tribes against the 
federal government. It will also settle any outlying claims in my 
watershed and give my family certainty for generations to come. We 
recently completed the long and complex process of adjudicating our 
water claims and without the passage of the Montana Water Protection 
Act we may have to revisit many parts of this costly and time consuming 
process again. This Act will protect Montana farmers and ranchers from 
being forced into costly legal proceedings to defend their water 
rights. This Act represents reasonable, common ground that will protect 
Montana's $4 billion Agricultural Economy.
        Sincerely,
     John M. (JM) Peck, P.E., Manager, Trapper Creek Ranch 
   Montana Farm Bureau; Young Farmer and Rancher Committee 
                                                  Chairman.
                                 ______
                                 
                                                      June 22, 2020
Greetings,

    I am stating my support of S. 3019. The Montana Water Protection 
Act will define the federally reserved water rights of
    the Confederated Salish and Kootenai Tribes and settle the legal 
claims of the Tribes against the federal government. It
    will provide protection to existing water right holders in Montana 
and protect Montana farmers and ranchers from
    being forced to protect their water rights through costly legal 
proceedings.
    I support the passage of S. 3019.
     Allen Martinell, Pres., Water Users Irrigation Company
                                 ______
                                 
                                                Bozeman, MT
                                                      June 19, 2020
Dear U.S. Senate Committee on Indian Affairs,

    I am writing to ask for bipartisan support of the Montana Water 
Protection Act (S. 3019).
    I am a water rights holder and irrigator in the Gallatin Valley. As 
you know the CSKT Compact is critical to the protection of Montana's 
water right owners and will eliminate years of litigation and millions 
of dollars in attorneys fees.
    I appreciate your support on this matter.

        Thank you,
                                            George Alberda.
                                 ______
                                 
                                                      June 20, 2020
    I write this to support SB 3019, as a farmer and irrigator on the 
Flathead Indian Reservation. If this does not pass, this will destroy 
agriculture as we know it on this reservation.
                                            Mary Stranahan.
                                 ______
                                 
                        Montana Water Resources Association
                                                      June 19, 2020
Dear Chairman Hoeven and Vice Chairman Udall:

    Montana Water Resources Association supports passage of the Montana 
Water Rights Protection Act, S. 3019, introduced by Senator Steve 
Daines and co-sponsored by Senator Jon Tester. The settlement 
legislation is a very important step in the long process of ratifying a 
negotiated settlement of Confederated Salish-Kootenai Tribes (CSKT) 
claims, including reserved water right claims.
    In Montana, our State Legislature recognized the benefit of 
negotiation and determined that it was appropriate to negotiate 
separate tribal reserved water right compacts and respective 
Congressional settlements with each of our state's federally recognized 
tribes. In 2015 the Legislature passed the negotiated CSKT water right 
compact, approving the last of seven tribal compacts in Montana.
    The Montana Water Rights Protection Act provides for settlement of 
CSKT water right claims, prevents costly litigation, and protects 
Montana water rights. Additionally, S. 3019 provides for economic 
development and jobs as well as crucial funding for infrastructure 
rehabilitation and water efficiency improvements within the Flathead 
Irrigation Project, and very importantly, recognizes and protects 
Montana's primacy over our water resources.
    We extend appreciation to our Montana Congressional Delegation for 
their support and encourage your support for and passage of the Montana 
Water Rights Protection Act.

        Sincerely,
                     Michael E. Murphy, Executive Director.
                                 ______
                                 
                                       MONTANA STATE SENATE
                                                      June 22, 2020
Good morning,

    I would like to express my strong support for SB 3019. I have a 
long history with this issue. I have lived in the heart of the Mission 
Valley and the Flathead Indian Reservation for over 60 years on a 600-
acre irrigated dairy farm. I have represented this area in the Montana 
Legislature for 10 years. I served on the Montana Reserved Water Rights 
Compact Commission and was involved in the negotiations for the 
agreement between the CSKT, the State of Montana and the Federal 
interests. I helped champion SB 262 through the Montana Legislature in 
2015.
    Agriculture is the lifeblood of the Mission Valley and the Flathead 
Reservation. This negotiated agreement allows for robust fisheries and 
the opportunity for the Flathead Indian Irrigation Project (FIIP) to 
revitalize. Instream flows will be increased as efficiencies are met 
within the repairs and maintenance of FIIP. This will benefit everyone 
from sportsman to farmers and ranchers.
    This agreement brings some clarity to the water rights of tens of 
thousands of Montanans. The compact (SB 262) and the settlement 
agreement (SB 3019) will bring the CSKT Federal Reserve Rights to the 
tribe for ratification and then to the Montana Water Court to be 
adjudicated. If this doesn't happen, the CSKT rights go into effect and 
the Water Court must go back and reopen the process anywhere there is a 
claim by the CSKT. These claims involve well over half of the state and 
would very likely take multiple decades and affect tens of thousands of 
individuals, business owners, cities and towns etc.
    There is an allocation of 90,000-acre feet of water under federal 
control that can be utilized from Hungry Horse Reservoir. This will be 
leased water that can only be utilized in Montana. It has the potential 
to be the new water that Western Montana will need for many decades.
    The Compact (SB 262) is a true negotiated agreement where all 
parties worked together to reach a consensus. It has survived both 
constitutional and fact challenges. I believe SB 3019 is very similar 
legislation. It has taken many turns and incredible dedication and 
effort by all parties involved to get to the hearing process. I again 
strongly support this legislation.

        Sincerely,
                 Dan Salomon--Senator, Montana District #47
                                 ______
                                 
                           Montana Stockgrowers Association
                                                      June 19, 2020
Dear Chairman Hoeven and Vice Chairman Udall:

    On behalf of the Montana Stockgrowers Association (MSGA), we are 
submitting this letter in support of S 3019, the Montana Water Rights 
Protection Act, introduced by Senator Steve Daines and Senator Jon 
Tester.
    For more than 130 years, MSGA has been dedicated to influencing 
public policy improving the profitability of Montana's ranching 
families and protecting their private property rights. Our members have 
determined this legislation meets the needs of the water right holders 
and will eliminate decades of litigation. The Montana Water Rights 
Protection Act will ensure that historical water use by all water users 
on and off the reservation are protected.
    The success of Montana's agriculture industry is dependent upon 
water and water right certainty. It is easily the single most important 
resource for people across Montana, which is why MSGA has long 
supported an agreement such as the Montana Water Rights Protection Act. 
This legislation will permanently eliminate 97 percent of all CSKT's 
water rights claims across Montana, which will save taxpayers over $400 
million and protect the water rights of all Montanans. It will prevent 
years of costly litigation for Montana water users and provide much 
needed certainty for all parties involved.
    MSGA would like to the thank the committee for your consideration 
passing this important legislation.

        Sincerely,
                                     Fred Wacker, President
                                 ______
                                 
United South and Eastern Tribes Sovereignty Protection Fund
                                                      June 22, 2020
Dear Chairman Hoeven and Vice-Chairman Udall,

    On behalf of United South and Eastern Tribes Sovereignty Protection 
Fund (USET SPF), we write to express our strong support for S.2165, the 
Safeguard Tribal Objects of Patrimony (STOP) Act. Since 2016, USET SPF 
has supported the STOP Act in order to help ensure the protection of 
our sacred items, which are often illegally obtained then sold abroad. 
Provisions within the STOP Act would not only make it more difficult to 
export cultural items, but also provide mechanisms for the U.S. and 
Tribal Nations to regain our cultural heritage from abroad and return 
it to our communities.
    USET SPF is a non-profit, inter-Tribal organization advocating on 
behalf of thirty (30) federally recognized Tribal Nations from the 
Northeastern Woodlands to the Everglades and across the Gulf of Mexico. 
\1\ USET SPF is dedicated to promoting, protecting, and advancing the 
inherent sovereign rights and authorities of Tribal Nations and in 
assisting its membership in dealing effectively with public policy 
issues.
---------------------------------------------------------------------------
    \1\ USET SPF member Tribal Nations include: Alabama-Coushatta Tribe 
of Texas (TX), Aroostook Band of Micmac Indians (ME), Catawba Indian 
Nation (SC), Cayuga Nation (NY), Chickahominy Indian Tribe (VA), 
Chickahominy Indian Tribe-Eastern Division (VA), Chitimacha Tribe of 
Louisiana (LA), Coushatta Tribe of Louisiana (LA), Eastern Band of 
Cherokee Indians (NC), Houlton Band of Maliseet Indians (ME), Jena Band 
of Choctaw Indians (LA), Mashantucket Pequot Indian Tribe (CT), Mashpee 
Wampanoag Tribe (MA), Miccosukee Tribe of Indians of Florida (FL), 
Mississippi Band of Choctaw Indians (MS), Mohegan Tribe of Indians of 
Connecticut (CT), Narragansett Indian Tribe (RI), Oneida Indian Nation 
(NY), Pamunkey Indian Tribe (VA), Passamaquoddy Tribe at Indian 
Township (ME), Passamaquoddy Tribe al Pleasant Point (ME), Penobscot 
Indian Nation (ME), Poarch Band of Creek Indians (AL), Rappahannock 
Tribe (VA), Saint Regis Mohawk Tribe (NY), Seminole Tribe of Florida 
(FL), Seneca Nation of Indians (NY), Shinnecock Indian Nation (NY), 
Tunica-Biloxi Tribe of Louisiana (LA), and the Wampanoag Tribe of Gay 
Head (Aquinnah) (MA).
---------------------------------------------------------------------------
    Despite protections in current law, the illicit trade in the items 
of cultural heritage for Tribal Nations continues to pose a grave 
threat to our cultural survival. Our sacred and cultural items continue 
to be illegally taken from our communities, threatening the maintenance 
of our cultures and traditions, and depriving us of the legacy we seek 
to leave our future generations. Meanwhile, a lucrative black market 
for our cultural heritage thrives, and without explicit export 
restrictions, many of our sacred and cultural items end up abroad. Once 
abroad, it is exceedingly difficult to bring them home. The STOP Act 
creates an explicit prohibition on exporting cultural heritage obtained 
in violation of existing law \2\ and it puts in place an export 
certification system to accompany the prohibition. These measures would 
make it possible for Tribal Nations to access other countries' domestic 
laws and law enforcement mechanisms to regain our cultural heritage. 
For instance, certain countries, such as France, restrict import of 
cultural heritage illegally exported from a country that provides 
export certificates. The STOP Act confirms the President's authority to 
enter into agreements under a 1970 international treaty in order to 
request return of a Tribal Nations' cultural heritage from other 
countries. Lastly, the legislation includes important provisions that 
would facilitate more internal coordination with the federal government 
and coordination with Tribal Nations in facilitating the return of 
cultural heritage items.
---------------------------------------------------------------------------
    \2\ Native American Graves Protection and Repatriation Act, the 
Archaeological Resources Protection Act, and the Antiquities Act.
---------------------------------------------------------------------------
    The STOP Act is the product of significant expertise provided by 
Tribal leaders, Tribal organizations, federal agencies, archaeologists, 
art dealers, and others. USET SPF underscores that the STOP Act does 
not extend federal protections to cultural heritage that is not already 
protected, and thus it does not criminalize any currently legal 
domestic activity. Instead, it merely increases the deterrent effect of 
current law by imposing heightened penalties and provides that 
traffickers may not export their contraband.
    USET SPF strongly supports this important legislation that will 
help to protect the cultural heritage of Tribal Nations and facilitate 
the return of sacred items.
    We call upon Congress for its immediate passage.

        Sincerely,
                                    Kirk Francis, President
                      Kitcki A. Carroll, Executive Director
                                 ______
                                 
                              Senior Water Rights Coalition
                                                      June 18, 2020
Dear Chairman Hoeven and Vice Chairman Udall:

    The Senior Water Rights Coalition submits this letter in strong 
support of S. 3019, the Montana Water Rights Protection Act, introduced 
in the U.S. Senate by Senator Steve Daines and Senator Jon Tester.
    The Senior Water Rights Coalition is a coalition of senior water 
right holders including irrigators, stock water users, and hydropower 
facilities. The Senior Water Rights Coalition works to protect the 
property rights of senior water right holders in Montana.
    Ratification of the CSKT Compact which is accomplished via S. 3019 
is extremely important for Montana water users. Having the CSKT water 
rights quantified through a negotiated agreement rather than through 
years of costly litigation is a great example of the results that can 
be achieved through public involvement, collaboration, communication, 
and negotiation. Montana's communities, agricultural users, hydropower 
utilities, and others cannot afford another 50 years of litigation to 
complete our statewide adjudication. Simply put, this settlement saves 
time, money, and resources for all parties including the federal 
government.
    The Senior Water Rights Coalition strongly supports ratification of 
the CSKT Compact and urges Congress to pass S. 3019 as soon as 
possible.
                                 ______
                                 
                        University of Montana School of Law
                                                      June 17, 2020
    Dear Committee Members:
    I write to urge your endorsement of the Montana Water Rights 
Protection Act (S. 3019), \1\ which represents the culmination of an 
extraordinary effort on the part of Montanans, the Confederated Salish 
& Kootenai Tribes, and the federal government to successfully resolve 
complex water issues in the Flathead Valley of Montana.
---------------------------------------------------------------------------
    \1\ The views contained in this letter are mine alone and do not 
represent an official position of the University of Montana or the 
Montana University System.
---------------------------------------------------------------------------
    As the professor of water law at the University of Montana School 
of Law for over a decade, I have followed and am intimately familiar 
with the MT-CSKT Compact. I am also a fourth-generation Montanan, 
having grown up in the same area as my great grandparents' original 
homestead, where my family still raises alfalfa, wheat, and black angus 
cattle on a landscape dependent on state water rights.
    The Montana Water Rights Protection Act is a win for us all, as it 
protects non-Indian agricultural operators as well as tribal members 
and invests in the critical infrastructure that makes this equitable 
sharing of water possible. Having observed the many public proceedings 
and extensive data gathering that went into the Compact, it is clear 
why it enjoys bipartisan support from the State Legislature, the 
Governor and Attorney General, as well as numerous ranchers and 
irrigators. It is based on sound science, reflects applicable law, and 
adopts reasoned compromises hard-earned through negotiations with the 
state Reserved Water Rights Compact Commission.
    Without this legislation, hundreds of Montana agricultural 
operators, both on- and off-reservation, along with the state, tribal, 
and federal government, would be forced into expensive litigation that 
would likely last decades and come nowhere near the comprehensive, 
forward-thinking solutions achieved in the Compact. Because the CSKT 
holds off-reservation claims throughout a significant portion of the 
state, there is also great risk to Montana appropriators should such 
litigation occur. As it stands, the Compact memorializes major tribal 
concessions that relinquish many of these off-reservation claims and 
extend tribal priority dates to non-Indian residents on the 
reservation. These are concessions that everyday Montanans can ill 
afford to lose.
    As a cautionary tale, we need look no further than our neighbors to 
the south, where the State of Wyoming, the Tribes, and the federal 
government became embroiled in the Big Horn adjudication for thirty-
seven years. Judges began and ended lengthy careers before its 
completion. And after countless dollars and hours, prolonged acrimony 
among users, and innumerable documents that now fill an entire storage 
room, the parties finally have a decree that does nothing more than 
describe everyone's water rights on paper. They have no mechanism for 
administration, nor a properly functioning infrastructure to coordinate 
water delivery for actual use on the ground. Meanwhile, functional 
water governance remains an illusion, stymied by an ongoing rift in the 
relations of the parties.
    We in Montana are fortunate to have chosen a different path-one 
with a remarkable vision that far eclipses what any one party could 
achieve in litigation, where a state and tribal government have created 
a unique system of joint administration, where they have planned a 
mutual response to address times of shortage, where they will undertake 
the work of improving infrastructure, and where a community can take a 
step toward healing, building a more positive future around a shared 
resource. Thank you for wisely advancing this legislation.

        Yours very truly,
                           Michelle Bryan, Professor of Law
                                 ______
                                 
                    National Parks Conservation Association
                                                       June 8, 2020
Dear Senators Hoeven and Udall,

    Since 1919, the National Parks Conservation Association (NPCA) has 
been the leading voice of the American people in protecting and 
enhancing our National Park System. On behalf of our more than 1.4 
million members and supporters, I write to express support for S. 3019, 
the Montana Water Rights Protection Act. The Act equitably resolves 
multiple longstanding issues, including tribal water rights claims and 
management of the National Bison Range (NBR).
    This legislation restores ownership of the National Bison Range to 
the federal government in trust for the Tribes of the Flathead Indian 
Reservation, and ratifies and implements the water compact negotiated 
between the state of Montana and the Confederated Salish and Kootenai 
Tribes.
    Specifically, this legislation seeks to restore the lands of the 
National Bison Range to federal trust ownership for the Confederated 
Salish and Kootenai Tribes, and clearly states that the lands restored 
shall be managed by the Tribes ``solely for the care and maintenance of 
bison, wildlife and other natural resources.'' This legislation also 
requires that the Tribes shall ``provide public access and educational 
opportunities,'' and shall ``at all times, have a publicly-available 
management plan for the land, bison and natural resources.''
    These values and outcomes reflect NPCA's position of ensuring both 
conservation and public access, and we recognize the Confederated 
Salish and Kootenai Tribes' (CSKT) long and highly successful history 
of wildlife protection and wildland access. It is time to restore the 
National Bison Range to federal trust ownership for the Salish, 
Kootenai and Pend d'Oreille.
    Congress and President Theodore Roosevelt established the National 
Bison Range (NBR) in 1908. The land was taken in what the U.S. Court of 
Claims, in a 1971 decision, held to be an unconstitutional taking due 
to lack of tribal consent to its acquisition, and failure of the 
federal government to pay the Tribes fair market value for the land. 
Although the court ordered the United States to pay the Tribes what it 
should have at the time of acquiring the Bison Range, the fact remains 
that the Tribes never consented to the taking of the land.
    Located wholly within the boundaries of the Flathead Indian 
Reservation (home of the CSKT), the purpose of the NBR was to conserve 
bison at a time when that species was threatened with extinction. The 
National Bison Range's unique history, location and narrow mission 
means the restoration of management to CSKT will in no way establish a 
precedent regarding the disposition of other federal lands, a fact made 
explicit in the legislation.
    Since Roosevelt created the NBR, the initial herd of 40 bison has 
grown and thrived; today, the NBR is managed as home to between 350 and 
500 bison. Throughout the intervening years, the CSKT have established 
world-class wildland, wildlife and recreation programs. This includes, 
but is by no means limited to: protection and restoration of species 
such as grizzly bears, trumpeter swans, peregrine falcons, northern 
leopard frogs and bighorn sheep; establishment of the Mission Mountain 
Tribal Wilderness (the first Tribal Wilderness in North America); co-
management of recreational and commercial fisheries in Flathead Lake 
(the largest lake west of the Mississippi); and protection and 
restoration of critical watersheds, including streams, rivers, lakes 
and waterfowl production areas.
    In addition to this proven expertise, the geographic location of 
the NBR--within the boundaries of the Flathead Indian Reservation--
argues strongly for restoration of management authority to CSKT. Also 
important is the profound historic and cultural connections of CSKT to 
bison; in fact, CSKT members played a critical role in preserving the 
original bison herd at the NBR, more than a century ago. In short, this 
legislation represents good Tribal policy, good wildlife policy and 
good land-use policy. It has the support of many land- and wildlife-
oriented organizations (locally, regionally and nationally), and the US 
Fish and Wildlife Service has been supportive of the idea.
    While we understand there are efforts by some to transfer public 
lands out of federal ownership and into state ownership, restoration of 
the National Bison Range is an entirely different matter. 
Fundamentally, the National Bison Range would remain in federal 
ownership, but would once again be held in trust for CSKf. In addition, 
the National Bison Range was originally Tribal Reservation land taken 
without Tribal consent--a fact that distinguishes it from virtually any 
other situation. Finally, as mentioned above, the very bison for which 
the NBR was created descend from a herd that was started and managed by 
CSKT members at a time when the plains bison was under a very real 
threat of extinction.
    NPCA supports this legislation, including ratification of the CSKT-
MT water compact as well as provisions to ensure the NBR will be 
managed for both conservation and public access, just as Theodore 
Roosevelt envisioned when establishing the NBR. Restoration of 
management authority of the NBR to the CSKT honors the historic and 
cultural ties of Tribes to both the land and to the bison, and 
recognizes the many groundbreaking successes of the CSKT wildlife and 
wildland programs.

        Sincerely,
                   Michael Jamison, Glacier Program Manager
                                 ______
                                 
                             Montana Farm Bureau Federation
                                                      June 19, 2020
Dear Chairman Hoeven and Vice Chairman Udall:

    On behalf of the more than 20,000 member families of the Montana 
Farm Bureau Federation, I am reaching out to share our support for S. 
3019, the Montana Water Rights Protection Act, which is sponsored by 
Senator Steve Daines and Senator Jon Tester of the great state of 
Montana. Our farmer and rancher members raise a variety of commodities 
on irrigated and non-irrigated land all across our vast state. Many of 
them will be impacted directly by the passage of this incredibly 
important piece of legislation.
    Our organization was very active in the passage of the CSKT Water 
Compact during the 2015 Montana Legislative Session. Our farmer and 
rancher members supported this negotiated agreement and recognize the 
years of work and compromise that went into coming up with a product 
that satisfied the needs of irrigators and water right holders on and 
off the reservation, as well as the demands of the Tribe. We appreciate 
the bipartisan support that has gotten the Compact this far, and ask 
for your support of S. 3019 to get it even closer to completion.
    It is important to note that without passage of this important bill 
and completion of the Compact, our farmer and rancher members in 
approximately two-thirds of the state, will be subject to years of 
expensive litigation with regard to their water rights. Many have 
already gone through the adjudication process or spent a good deal of 
time and money settling the rights they currently hold. Without their 
water rights, many farms and ranches in Montana would be in severe 
jeopardy. Also, given that Montana is a headwaters state, our members 
believe the finalizing our adjudication process statewide is incredibly 
important. The sooner we are able to finalize this chapter in water 
rights history, the sooner we will be able to achieve the task of final 
adjudication.

        Thank you for your time and consideration,
                                  Hans McPherson, President
                                 ______
                                 
   Former Commissioners, Flathead Indian Irrigation Project
                                                   February 6, 2019
    As former commissioners on the three irrigation districts that 
represent irrigators on the Flathead Indian Irrigation Project (FIIP), 
we encourage you to take every opportunity to promote funding, passage 
and enactment of the CSKT Water Compact this year.
    The FIIP delivers water to over 800 irrigators on 128,000 acres. 
Project water makes it possible to grow a wide range of crops including 
alfalfa, grass hay, barley, oats, wheat and corn and also grow pasture 
for goats, sheep, horses and especially cattle. The project also 
delivers water to many families growing organic vegetables for local 
markets.
    As former commissioners, we know how much time and effort the 
Compact Commission and our tribal, state and federal governments 
devoted over many years to reach a negotiated agreement. We can 
personally attest to the fact that the negotiators kept our three 
irrigation boards informed and provided opportunities for us to comment 
and contribute. We also can personally attest to the large number of 
Compact negotiating sessions that were open for participation from 
individual irrigators, representatives of the irrigation boards and 
representatives from other groups with an interest in irrigation water.
    We support the Compact because it is the best way of maintaining 
historical deliveries of irrigation water to farms and ranches and, 
through its funding of project rehabilitation, increasing instream 
flows to achieve tribal fishery objectives.
    For many reasons, the so-called ``People's Compact'' is not an 
alternative to the CSKT Compact. It is an attempt to delay and defeat 
the CSKT Compact at the federal level.
    If the Compact fails, Montana's Water Court will need to adjudicate 
competing claims. Based on what we know of the Water Court process, 
farmers and ranchers would face major uncertainties about the ultimate 
outcome and incur significant litigation costs. In contrast to the 
Compact, the Water Court also would not be able to fund project 
rehabilitation to improve water management and reduce water loss.
    Thus, we strongly urge you to lend your active support to achieving 
passage and enactment of the Compact this year.
                                              Trent Coleman
                                                Kerry Doney
                                                   Dick Erb
                                               Steve Hughes
                                             Paul Hunsucker
                                              Jerry Johnson
                                                 Leroy Lake
                                                Walt Schock
                                             Paul Wadsworth
                                 ______
                                 
                                              Lewistown, MT
Honorable Committee members,

    I am writing today to ask you to pass, S. 3019 The Montana Water 
Protection Act. This landmark legislation will protect Montana's water 
resources into the future.
    Passage of the Confederated Salish & Kootenai Tribe water compact, 
addressed within S.3019, is critical to the protection of Montana's 
water right owners. The Montana Water Protection Act will define the 
federally reserved water rights of the Confederated Salish & Kootenai 
Tribes and settle legal claims of the Tribes against the federal 
government.
    As part of a ranching family, I understand how important this 
legislation is to our water rights in Central Montana. As an active 
member of Montana Farm Bureau, I saw how much time, energy and thought 
went into drafting this legislation. Key stakeholders, including 
agriculture, irrigators, the tribes, Montana legislators and our US 
Congressmen all came to the table to draft legislation that will 
protect water rights across the state.
    S. 3019 has broad bi-partisan support from every major agriculture 
and water user group in the State. Key stakeholders, including those 
listed above, support of S. 3019 is because they understand the 
importance of protecting Montana's water resources and individual water 
rights.
    Without the passage of this legislation, water rights on our ranch, 
and many across the state of Montana could be in jeopardy. Passage of 
this legislation will give Montanans security that costly legal 
proceedings to defend their water rights can be avoided.
    This legislation represents reasonable, common ground. I encourage 
the members of the Senate Indian Affairs Committee to pass this 
landmark legislation to protect the future of Montana's water 
resources.

        Sincerely,
                                         Kris Descheemaeker
                                 ______
                                 
                                             Ronan, Montana
                                                      June 23, 2020
Dear Chairman Hoeven and Members of the Committee:

    I am a lifelong resident of the Flathead Reservation, raised in 
Arlee on a ranch and for 40 years have lived in the Polson/Ronan area. 
I currently live on a small (47 irrigated acres) ranch property that is 
two miles south of Ronan. I am currently a Real Estate Broker.
    I am now 70 years old. Over the years I have witnessed many issues 
between the Confederated Salish and Kootenai Tribes and the majority of 
non-members that share the beautiful Flathead Reservation. Most of 
those issues have been resolved. All but water rights. Passage of S. 
3019 will solve that problem. A problem that none of us created over 
100 years ago is now to be resolved for the benefit of all. S. 3019 is 
the culmination of nearly 20 years of negotiation, debate and study. It 
is not popular with everyone, but I believe it will benefit all 30,000 
residents when it is passed. I encourage your support in making it Law. 
Live will improve once this contentious issue is behind us. If you have 
any questions, please notify me.

        Sincerely,
                                            Robert Gauthier
                                 ______
                                 
                                             Ronan, Montana
                                                      June 23, 2020
Dear Chairman Hoeven and Members of the Committee:

    I am a lifelong resident of the Flathead Reservation, I was raised 
in Pablo, Montana. My father worked at the Plum Creek Mill there for 
nearly 30 years. I currently live on a small (47 irrigated acres) ranch 
property operated by my family.
    Over the years I have witnessed many issues between the 
Confederated Salish and Kootenai Tribes and the majority of non-members 
that share the beautiful Flathead Reservation. Most of those issues 
have been resolved. All but water rights. Passage of S. 3019 will solve 
that problem. A problem that none of us created over 100 years ago is 
now to be resolved for the benefit of all. S. 3019 is the culmination 
of nearly 20 years of negotiation, debate and study. It is not popular 
with everyone, but I believe it will benefit all 30,000 residents when 
it is passed. I encourage your support in making it Law. live will 
improve once this contentious issue is behind us. If you have any 
questions, please notify me.

        Sincerely,
                                             Myrna Gauthier
                                 ______
                                 
                              Centennial Valley Association
                                                    June 24th, 2020
Dear Senate Committee on Indian Affairs,
    My name is Kara Maplethorpe and I am the Executive Coordinator for 
the Centennial Valley Association (CVA). The CVA is a local, landowner 
driven organization that strives to preserve traditional ranching as a 
way of life in the Centennial Valley, and maintain quality open space, 
wildlife habitat, water quality and wildlife migration corridors as 
they exist today for future generations.
    The Centennial Valley is a 400,000+ acre wildlife corridor in the 
Greater Yellowstone of Montana, which an abundance of wildlife, 
including elk, sage-grouse, moose, grizzly bear, and wolves, call home. 
The Centennial Valley is also a working landscape, with multi-
generational ranch families that strive to preserve the landscape for 
future generations of ranchers and wildlife, which thrive together on a 
shared landscape.
    Water is ever important in these changing climate conditions, for 
all of Montana's water users. The Water Rights Protection Act (S. 3019) 
has received bipartisan support from agricultural and water user 
groups, irrigators, businesses, and local governments. It will not only 
define the federally reserved water rights of the Confederated Salish 
and Kootenai Tribes, but will also protect Montana's $4 billion 
agricultural economy, protect Montana farmers and ranchers from costly 
legal proceedings defending their water rights, and will save taxpayers 
$400 million compared to other settlement proposals. The Water Rights 
Protection Act will protect the way of life for future generations of 
ranchers, farmers, and local communities, which are the heart of 
Montana's culture and economy.
    Please vote in support of the Montana Water Rights Protection Act 
(S.3019). Your vote will protect the future of Montana's water 
resources. Thank you for your time and consideration.

        Sincerely,
                    Kara Maplethorpe, Executive Coordinator
                                 ______
                                 
                               National Wildlife Federation
                                                      June 24, 2020
Dear Chairman Hoeven and Vice Chairman Udall:

    On behalf of the National Wildlife Federation, we write in support 
of S. 3019, the Montana Water Rights Protection Act, jointly introduced 
by Montana Senators Steve Daines and Jon Tester. This legislation will 
provide Congressional approval for the water compact negotiated between 
the State of Montana and the Confederated Salish and Kootenai Tribes 
(CSKT) and transfer the National Bison Range from the U.S. Fish and 
Wildlife Service to CSKT. The National Wildlife Federation (NWF) 
strongly endorses both of these objectives.
    The water compact is the result of years of negotiations between 
the State of Montana, the Salish and Kootenai Tribes, and the 
Department of the Interior, and it was ratified by the Montana 
Legislature in 2015. In agreeing to the compact, the Tribes 
relinquished considerable legal rights in order to accommodate water 
uses that have developed subsequent to the Hellgate Treaty of 1855-and 
to ensure productive, cooperative management of waters throughout 
western Montana.
    The National Wildlife Federation supports the negotiated agreement 
not only because it reflects a collaborative solution to often 
contentious water use issues, but also because of its innovative 
approach to habitat restoration and protection, water conservation, and 
instream flows that are essential to fish and wildlife populations on 
and off the Flathead Reservation. The Compact agreement reflects a 
positive, forward-looking approach to water management, community 
development, and ecosystem recovery.
    The National Wildlife Federation has also long supported efforts by 
the Salish and Kootenai Tribes to assume greater management 
responsibility for the National Bison Range. As the bill recognizes, 
bison have tremendous social and cultural importance that for Salish 
and Kootenai and the Tribes played a pivotal role in saving bison from 
extinction in the late 1800s. Given these facts, it was always wrong to 
exclude the Tribes from a management role in the National Bison Range, 
and S. 3019 corrects this by transferring the range to the Tribes for 
bison conservation purposes.
    Having worked closely with the Salish and Kootenai Tribes for many 
years, the National Wildlife Federation looks forward to their 
stewardship of the National Bison Range and the important tribal 
perspectives that they will bring to both management and interpretation 
for the thousands of people that annually visit the Bison Range.
    The National Wildlife Federation works closely with many tribes in 
both the U.S. and Canada who join together to conserve and restore 
buffalo on both tribal and non-tribal lands. On behalf of these 
partners, we would like to draw your attention to the attached 2016 
resolution supporting transfer of the National Bison Range to the CSKT.
    We appreciate the Committee holding this important hearing, and we 
ask that this letter and the attached Buffalo Treaty Tribes Resolution 
* be entered into the hearing record for S. 3019.
---------------------------------------------------------------------------
    * The information referred to has been retained in the Committee 
files.

        Sincerely,
                    Tom France, Regional Executive Director
    Garrit Voggesser, Director, Tribal Partnerships Program
                                 ______
                                 
                                                Cole Ag LLC
                                                          6/24/2020
    We are writing on behalf of our family and our farm in support of 
the Montana Water Rights Protection Act.
    We are a 5th generation farm and hope to pass this wonderful and 
rare way of life on to our kids. In order to do this, we must have 
water to grow our crops. Not only do we love our life here on the farm, 
we provide people with quality food and we help maintain the 
environment by using the best farming practices we can.
    It is imperative that we have water and in order to protect that, 
we urge you to support the Montana Water Rights Protection Act.
    Keep Montana families in ag!

        Thank you for your time,
                                  Travis and Melissa Stuber
                                 ______
                                 
                           Lake Farms, Inc., Ronan, Montana
                                                      Wed 6/17/2020
Senate Committee on Indian Affairs:

    I am writing in support of The Montana Water Rights Protection Act.
    Our family has lived on the Flathead Indian Reservation since the 
1930s. My dad served on the Flathead Joint Board of Control 
representing irrigators for over 20 years. In that time they spent 
millions of irrigators dollars fighting with the tribes over water. 
They never prevailed. They finally sat down with the tribe and created 
a cooperative entity to operate the irrigation system. That was 
destroyed when another group who wanted to settle things in court took 
control of the irrigation project. They too wasted millions of dollars 
of irrigator dollars in litigation.
    We need this final settlement that protects the tribes water rights 
and the state based water rights in a fair and equitable manner.
    The Montana Water Rights Protection Act is the result of a good 
faith negotiation of all parties.

        I respectfully ask for your support,
                                                  Jack Lake
                                 ______
                                 
                                            Polson, Montana
                                                          6/20/2020
Chairman Hoeven, Members of the Committee

    I have lived my entire life on the Flathead Indian Reservation and 
my parents farm there. I am respectfully asking your support of the 
Montana Water Rights Protection Act (S. 3019). It has been a decades 
long effort to resolve the CSKT water rights. It was a good faith 
effort of all parties and I believe it is a fair resolution to a 
complicated issue.

        Thank you for all you do for our country,
                                                Katie Samel
                                 ______
                                 
                                                  6/17/2020
    Our family has been putting the waters of the Big Hole River to 
beneficial use since the 1870's. The passage of the Montana Water 
Rights Protection Act (S. 3019) co-sponsored by Senator Testor and 
Senator Dsines is paramount for the water users and the water rights 
within the State of Montana. This legislation will finally define the 
federally reserved water rights of the Confederated Salish & Kootenai 
Tribes and settle their claims against the federal government.
    As an existing water right holder in Montana this act will provide 
protection against the filed aboriginal rights of the tribe. The 
Montana Department of Resources and Conservation estimates the negative 
impact of no Compact to Montana water rights and irrigators is 
summarized below:

  <bullet> of the estimated 2.5 million irrigated acres in the State, 
        73 percent (1.85 million acres ) of all irrigated acres (state-
        based rights) in Montana could be subject to call by the 
        tribes' non-compact claims

            --(23 percent west of divide, 77 percent east of divide)

  <bullet> Number of state-based irrigation water right owners subject 
        to call by the tribes' non-compact claims is--10,127

  <bullet> state-based irrigation rights subject to call by the tribes' 
        non-compact claims exist in 41 of Montana's 56 counties

  <bullet> state-based irrigation rights subject to call by the tribes' 
        non-compact claims--45,485 (made up of 75 percent surface water 
        rights, 25 percent groundwater)

    S. 3019 will alleviate the impact described above and has broad bi-
partisan support of the majority of water users in Montana. It will 
protect our family from individually having to object to the Tribes' 
claims and enter into costly legal battles against the Tribe and the 
Federal Government with little chance of prevailing. If this 
legislation does not pass, the Tribes claims on the Big hole River 
would require our loss of irrigation waters in mid-July on average 
which would devastate our agricultural family operation,
    S. 3019 represents a settlement that will protect Montana's $4 
Billion agricultural economy, generate $52.9 billion in annual economic 
activity and over 6000 jobs and will save taxpayers $400 million 
compared to alternative settlement proposals.
    Passage of S. 3019 is important to the Tribe, the water right 
system in Montana, the water users of this state and the survival of 
our family and many family ag operations in Montana. Please encourage 
the members of the Indian Affairs Committee to pass this landmark 
legislation to protect and enhance Montana's water resources.

        Sincerely,
                                             Jim Hagenbarth
                                 ______
                                 
                                                  6/20/2020
Good Day,

    The Montana Water Rights protection Act (S. 3019) goes deeper than 
just irrigation water. The process, the time, the money , and the 
outcome is the result of a diverse group. Not only the people who 
played a role to create the Compact, but the wildlife, the bugs, the 
bees, the birds are all integral components.
    Everyone and everything wins with the passage of this legislation. 
My irrigation of cropland spreads and feeds the most amazing symphony 
of other critters. For over thirty years I have grown with the Flathead 
Indian Irrigation Project near Arlee, Montana. I can look out over the 
Jocko Valley and observe awesome fields of pollinator plants.
    This act will benefit the country, the state of Montana, Lake 
County, the Jocko Valley, my neighbors, my home, and every stalk of 
grass and alfalfa that it feeds.
    Please pass this legislation, S.3019, ASAP!

        Thank you,
                                           Merrill Bradshaw
                                 ______
                                 
                                       Grande Ranch Company
                                                      June 23, 2020
Dear Senators:

    I would like to express my strong support for S. 3019, the Montana 
Water Rights Protection Act. My family has been ranching in Montana 
since 1877, and thus have very senior water rights. However, the 
priority of these rights pales next to the ``time immemorial'' rights 
of the Confederated Salish Kootenai Tribes. The CSKT actually have 
rights filed on two streams from which we irrigate (250 miles from the 
reservation) and therefore our ability to irrigate and even water 
cattle would be severely impacted if this legislation does not pass. 
Many other farmers and rancher in Montana are in the same situation.
    The state of Montana has been in the process of attempting to 
adjudicate all water rights for forty years. Passage of this 
legislation will be a huge step forward in achieving this goal.
    Some may recoil at the price tag on this legislation. As a fiscal 
conservative I understand this concern. However, these costs will 
benefit fisheries and irrigators, have been studied as within the 
liability that the United States Government' owes the CSKT, and most 
importantly, pale next to the costs of decades of litigation that will 
undoubtedly occur if these rights are not settled by this legislation. 
There are several states that serve as examples of the harmful effects 
on economies when tribal water rights are not cooperatively resolved.
    I respectfully urge you to vote yes on S. 3019 to protect our water 
rights and define these rights once and for all to avoid the economic 
costs of future uncertainty.

        Sincerely,
                                             John A. Grande
                                 ______
                                 
                                              June 24, 2020
Dear Committee Members:

    We, the undersigned current Montana legislators, are opposed to S. 
3019 that is being heard in the Indian Affairs Committee. The original 
Confederated Salish Kootenai Tribe (CSKT) Water Compact was 
unconstitutional when it was passed out of the MT Legislature. It 
granted state immunity which constitutionally required a two-thirds 
majority that it didn't receive. It remains a very controversial and 
divisive issue in MT.
    S. 3019 retains much of the original CSKT Water Compact. It puts 
private non-reservation land owners under a water authority heavily 
influenced by the CSKT tribe. Control of the water that farmers and 
ranchers depend on is a taking.
    There are many other reasons to oppose the CSKT Water Compact that 
have been addressed in other documentation to this committee. We will 
not expand on those in this letter. We wish to express our desire for a 
water compact; not this one. Montana has passed several other tribal 
water compacts that have been reasonable and well serve the state and 
the specific tribes. The question that is not answered in S. 3019 or 
the original CSKT Water Compact is, ``What is the purpose of the 
reservation and how much water is needed to achieve that purpose?'' It 
is evident in the Hellgate Treaty of 1855 that the intent was to 
develop an agrarian life style for the CSKT. A water compact should 
provide for those agricultural needs and for any future development.
    We urge this committee to table S. 3019. Let us work on a water 
compact that benefits all citizens and include a Committee on Indian 
Affairs field hearing in Montana.

        Sincerely,
                                 Senator Keith Regier, SD#3
                                 Representative Mark Noland
                                 Representative John Fuller
                                  Representative Carl Glimm
                                          Senator Dee Brown
                              Representative Matthew Regier
                                       Senator Mark Blasdel
                                         Senator Bob Keenan
                                 Representative Derek Skees
                                   Senator Jennifer Fielder
                                Representative Brad Tschida
                                    Senator Steve Hinebauch
                                       Senator David Howard
                                         Senator Cary Smith
                                         Senator Roger Webb
                                  Representative Dan Bartel
                             Representative Steve Gunderson
                       Representative Lola Sheldon-Galloway
                                 Representative Barry Usher
                                  Representative Peggy Webb
                                    Representative Joe Read
                            Representative Theresa Manzella
                                 ______
                                 
                                                Bozeman, MT
                                                          6/16/2020
    I am writing all of you to voice my support for the passage of S. 
3019, the Montana Water Right Protection Act sponsored by Senator 
Daines and Senator Tester. As an attorney who represents clients in 
water right matters, I support this legislation because it will protect 
Montana farmers and ranchers from being forced unnecessarily into 
costly legal proceedings to defend their existing water rights from 
potential tribal claims.
                                            David L. Weaver
                                 ______
                                 
                     Montana Potato Improvement Association
                                                      June 22, 2020
Dear Chairman Hoeven and Members of the Committee:

    On behalf the Montana Potato Improvement Association, we would like 
to register our support of the Montana Water Rights Protection Act (S. 
3019).
    The potato industry depends on secure water rights. Should this 
water rights issue not be resolved, it puts \2/3\s of Montana's water 
rights in jeopardy and will cost the agricultural industry untold 
millions of dollars in litigation.
    Thank you for your consideration of important bill.

        Sincerely,
                                   Tim Venhuizen, President
                                 ______
                                 
                                             The Hopi Tribe
                                                    August 28, 2019
Dear Chairman Hoeven and Vice Chairman Udall,

    On behalf of the Hopi Tribe (``Tribe''), I am writing to express 
our support for S. 2165, the Safeguard Tribal Objects of Patrimony 
(STOP) Act and encourage the Committee to advance the bill. I would 
like to begin by extending our thanks to Senator Heinrich for 
introducing this important piece of legislation, as well as our Arizona 
Senators-Senator McSally and Senator Sinerna-for cosponsoring the bill.
    As you know from our previous letters of support for the STOP Act, 
Hopi people trace our history back thousands of years, making Hopi one 
of the oldest living cultures in the world. Today, Hopi Continues to be 
a vibrant, living culture. Hopi people, Hopisinom, continue to perform 
our ceremonial and traditional responsibilities in our ancient 
language.
    According to Hopi tribal law, the presence of a sacred Hopi object 
outside of the Tribe's care is sufficient evidence that it has been 
stolen, because such an item is considered inalienable and communal 
property. Therefore, when we see our sacred objects appear in auction 
houses, it is both deeply offensive and a violation of Hopi law.
    Over the last several years alone, dozens of sacred Hopi items have 
appeared in auction houses. For instance, in April 2013, 70 sacred Hopi 
objects were included in a high-price auction in Paris, France. Despite 
our best efforts to prevent these objects from being auctioned, the 
highlycoveted items ultimately sold for over $1 million.
    Existing laws, the court system, and diplomacy have generally 
proven unsuccessful for the Hopi Tribe. As a result, enactment of the 
STOP Act is desperately needed. The STOP Act would confirm the 
President's authority to enter into agreements to request the return of 
sacred tribal objects from other countries; prohibit the export of 
cultural items obtained in violation of current laws; increase 
penalties under current law; and establish interagency and tribal 
working groups. These would have been valuable tools in our prior 
efforts to have sacred objects returned.
    In closing, the Hopi Tribe thanks the Committee for approving the 
STOP Act last Congress. The Tribe encourages the Committee to once 
again pass the STOP Act and help advance it through the full Senate. 
Enactment of the STOP Act would help end the illegal trafficking of 
sacred objects and create avenues for such objects to be returned to 
their rightful place. *
---------------------------------------------------------------------------
    * The attachments: Hopi Tribal letters dated June 16, 2017, July 
20, 2017 and November 6, 2017 have been retained in the Committee 
files.
---------------------------------------------------------------------------
        Respectfully,
                        Clark W. Tenakhongva, Vice Chairman
                                 ______
                                 
                                                  6/24/2020
    I am a resident of the Flathead Indian Reservation and live on 
Flathead Lake in Polson, Montana. I have a water well. S. 3019 will 
protect farmers, ranchers, and myself ( a widow) from expensive legal 
proceedings to defend
    our water rights. It will also protect Montana's $ 4 billion 
agricultural economy. The Water Compact has received bi-partisan 
support from every major agriculture and water use group in the state 
as well as irrigators, businesses, and local governments. The Compact 
was passed by our state legislature in 2016.
    Please pass this legislation to protect Montana's water resources 
for the future. It is the right thing to do!!
                                            Linda Greenwood
                                 ______
                                 
                                              Ronan Montana
                                                          6/24/2020
Dear Sirs:

    As an irrigator on the Flathead reservation in Lake County Montana 
I would like to express my support for Senate Bill 3019. It is critical 
for my business and my future that we resolve the water issues on the 
Reservation and this action will go along ways toward addressing water 
rights and availability in Lake County and much of the rest of Montana.
                                               Jan Niemeyer
                                 ______
                                 
                                                  6/19/2020
    My name is Ken McAlpin. I live in Ronan Montana, farming in the 
Mission Valley with my wife Gina McAlpin almost 2000 acres of wheat, 
corn and hay. Water rights and water resources are a concern of ours.
    The Montana Water Protection Act (S. 3019) which was introduced by 
Senator Daines and subsequently co-sponsored by Senator Testor will 
define the federally reserved water rights of the Confederated Salish & 
Kootenai Tribes and settle the legal claims of the Tribes against the 
federal government and will provide protections for existing water 
users across Montana.
    S. 3019 has received broad bi-partisan support from every major 
agriculture and water use group in the state, as well as irrigators, 
businesses, and local governments. It will also protect Montana farmers 
farmers and ranchers from being forced into costly legal proceedings to 
defend their water rights.
    S. 3019 will generate $52.9 million in annual economic activity and 
6,330 jobs in Montana and will save taxpayers $400 million compared to 
alternative settlement proposals.
    Encourage the members of the Indian Affairs Committee to pass this 
landmark piece of legislation to protect the future of Montana's water 
resources.

        Regards,
                                                Ken McAlpin
                                 ______
                                 
                                                 Polson, MT
                                                          6/24/2020
    Considerations:

        Real, long term impact and cost.

        Affected loss of tax base.

        Huge impact on our county infrastructure and resources for all 
        communities.

        Ambiguities need clearer language.

        Changes from the Compact and new additions.

        Changed scope of easements.

        Long term effects of land trades and water use.

    I am a senior citizen already struggling with the increase in 
property taxes and living expenses but love my Montana home. I work as 
a Paraprofessional at Polson High School and care about what impacts 
the future of our tribal and non tribal community; we are here 
together.
    PLEASE DO NOT SUPPORT PASSAGE OF S. 3019!
                                          RoseAnne Detterer
                                 ______
                                 
                                                  6/23/2020
Good Evening My Fellow Montanan's:

    Please join all Montanans in supporting the passage of S. 3019--The 
Montana Water Rights Protection Act.
    My wife is a 6th generation Montanan born and raised in the Mission 
Valley, my children were born and raised in the Mission Valley and I am 
the product of multiple generations of fellow Montanans. I personally 
spent years working alongside my friends, family and fellow business 
leaders to see this legislation passed in Helena. We now reside in 
Corvallis, Oregon due to the fallout surrounding the Great Recession, 
but our hearts will always be in Montana. My wife and I continue to be 
proud Montana taxpayers and property owners in the Mission Valley. You 
can take the girl out of Montana, but no one will ever take Montana out 
of the girl.
    As Senators Tester and Daines can attest to, I remain committed to 
the Great State of Montana and the strong bipartisan work both Senators 
continue to provide for its Citizens.
    Passage of this Act will finally secure these water rights, 
assuring continued prosperity for future generations of Montanans. Its 
been an honor to see this Bill finally reach the US Senate, and I 
implore you to use all efforts to secure its passage. Montanans as well 
as multiple states across the Pacific Northwest depend on it.
    Thank you Senator Tester, Senator Daines and all Staff that have 
worked untold hours to get the Bill to this point. Let's get it across 
the finish line. Our future depends on it.

        Best regards (And Go Griz),
                                           Gordon Zimmerman
                                 ______
                                 
                                     The Wilderness Society
                                                      June 23, 2020
Dear Chairman Hoeven and Ranking Member Udall:

    On behalf of The Wilderness Society and our more than one million 
members and supporters, we write to offer our views on S. 2165, the 
Safeguard Tribal Objects of Patrimony Act, and S. 3019, the Montana 
Water Rights Protection Act, and S. 2192, the Blackwater Trading Post 
Land Transfer Act.
S. 2165--Safeguard Tribal Objects of Patrimony Act--SUPPORT
    TWS supports S. 2165, the Safeguard Tribal Object of Patrimony Act, 
by Senators Heinrich and Murkowski. This important, bipartisan 
legislation will prevent the illegal export of sacred Native American 
items and increase penalties for stealing and illegally trafficking 
cultural patrimony.
    The legislation is necessary to help safeguard Native American 
heritage, including the art, cultural patrimony, and other objects that 
are sacred to Native people. For too long, looting and theft have 
destroyed sacred Native American art and culture. The legislation will 
help prevent the continued theft and desecration of Native American 
culture, while empowering the United States to ensure that foreign 
governments honor Native American cultural heritage. For these reasons, 
we support S. 2165, and urge the committee to advance this important 
legislation.
S. 3019--Montana Water Rights Protection Act--SUPPORT
    TWS supports S. 3019, the Montana Water Rights Protection Act, by 
Senators Daines and Tester. This legislation is necessary to fulfill 
the United States' treaty and trust obligations to the Confederated 
Salish and Kootenai Tribes. The legislation will end the decades of 
uncertainty over water use in northwest Montana, settle damages to the 
Confederated Salish and Kootenai Tribes, prevent costly litigation, and 
facilitate tribal economic development.
    Importantly, the legislation will take into trust the 18,500-acre 
National Bison Range for the benefit of the Confederated Salish and 
Kootenai Tribes. This land is in the center of the treaty--reserved 
Flathead Indian Reservation, and was illegally taken by the United 
States. Restoring the land to trust status for the benefit of the 
tribes rights a historical wrong while supporting tribal sovereignty. 
The proposal does not transfer public lands out of the public estate. 
Instead, it returns ancestral lands to the Confederated Salish and 
Kootenai Tribes while maintaining the United States' trust 
responsibilities as well as public access. Based on the unique 
circumstances of the establishment of the National Bison Range, the 
transfer into trust will not set precedent for other public lands.
    For these reasons, we support S. 3019 and urge the committee to 
advance it.
S. 2912--Blackwater Trading Post Land Transfer Act--SUPPORT
    TWS supports S. 2192, the Blackwater Trading Post Land Transfer 
Act, by Senators McSally and Sinema. This bill would authorize the 
Secretary of the Interior to place approximately 55.3 acres of land in 
Pinal County, Arizona into trust status for the Gila River Indian 
Community. Due to the Arizona Water Settlements Act, taking any lands 
outside the existing reservation boundaries into trust status requires 
Congressional action. The Blackwater Trading Post has long been a 
community center for the Gila River Indian Community and the Community 
purchased this land in 2010, recognizing the cultural and historical 
significance of the Trading Post and the land it sits on. Since 2012, 
the Community has been trying to have this land taken into trust status 
so that it will effectively be part of the reservation and preserved as 
a place of cultural significance. For these reasons, we support S. 2192 
and urge the committee to advance it.
    Thank you for considering our views.

        Sincerely,
                Paul Spitler, Director of Wilderness Policy
                                 ______
                                 
                                             Ronan, Montana
                                                      June 17, 2020
Chairman Hoeven, Vice Chairman Udall, Committee Members:

    Thank you for taking up this important legislation.
    I am writing in support of Senate Bill 3019, The Montana Water 
Rights Protection Act. It truly does just that.
    Our family has farmed on the Flathead Indian Reservation since 
1934. We raise potatoes, grain, hay, cattle and grand kids here on a 
thousand acres. This is a beautiful place and the Montana Water Rights 
Protection Act protects this place, the heritage and the economic 
viability of this place many of us call home.
    The act gives us the certainty that we can continue to farm while 
respecting the natural resources and rights of the tribe.
    The bill is the culmination of decades of negotiations between the 
Confederated Salish & Kootenai Tribes, the United States Government and 
the State of Montana.
    It is my sincere hope that this bill will finish this great work.
                                                 Susan Lake
                                 ______
                                 
                                       Martinsdale, Montana
                                                      June 23, 2020
Dear Senators:

    I wholeheartedly thank Senators Daines and Tester for sponsoring 
the landmark legislation, The Montana Water Protection Act, S. 3019. As 
a rancher's daughter, a rancher's wife, a member of the Montana Farm 
Bureau, as an attorney practicing in the area of property and water 
rights, and a long-time advocate for farmers and ranchers on policy 
issues on local, state and national levels, I strongly support 
immediate passage of S. 3019.

        Sincerely,
                                             Hertha L. Lund
                                 ______
                                 
                   OFFICE OF THE GOVERNOR, STATE OF MONTANA
                                                       July 6, 2020
Dear Chairman Hoeven and Vice Chairman Udall:

    I write today in support of the Montana Water Rights Protection Act 
(bill) to ratify the Confederated Salish and Kootenai Tribes-Montana 
water rights compact (Compact). I appreciate the excellent hearing that 
was held on the bill last week and urge the Committee to expeditiously 
mark up the bill along the lines discussed at the hearing, pass the 
amended bill from Committee, and support its passage in the full 
Senate.
    This biapartisan and equitable bill will provide vital certainty to 
all Montana water rights holders, avoid expensive and protracted 
litigation, and authorize necessary funding to ensure that critical 
water infrastructure in western Montana is rehabilitated and modernized 
to meet the current and future needs of all water users.
    The Compact is the result of more than two decades of negotiations 
between the Confederated Salish and Kootenai Tribes, the State of 
Montana, and the United States to resolve the Tribes' water rights 
claims within Montana. For more than a decade I have suppmied this 
settlement in my role as Attorney General and Governor. In my first 
term we successfully passed the water rights compact. Since then my 
office has strongly supported federal settlement and I am pleased that 
settlement will occur before my term ends. S. 3019 commits the federal 
government to fulfill it's nation to nation responsibilities and 
respects federal, state and tribal nation interests as co-sovereigns.
    The state has committed $55 million toward the rehabilitation of 
the Flathead Indian Irrigation Project, which serves both tribal and 
non-tribal irrigators on the Flathead Indian Reservation-the largest 
such settlement ever approved by the Montana Legislature. Following 
legislative approval, I signed the Compact into Montana law in 2015.
    I appreciate the massive effort it takes to get a bill of this size 
negotiated and moved. I look forward to continuing to work with the 
Committee, the full Congress, and the Administration to assure that 
Montana's interests are protected.

        Sincerely,
                               Hon. Steve Bullock, Governor
                                 ______
                                 
                                                 Polson, MT
                                                           7/3/2020
To whom it may concern

    I support strongly the return of the Bison Range, near my home, to 
tribal management. I have had many inter actions with tribal members 
over decades and the overwhelming majority have been very positive. And 
the land was taken from them illegally, albeit it is a complex issue. I 
have every indication that they would be excellent stewards.
                               Dr. Charles Hall (Ecologist)
                                 ______
                                 
                                                   7/3/2020
Dear Committee:
    All we hear about the injustice and racism is this: ``It happened 
yesterday. Get over it.'' ``You being a victim. Quit whining around. 
``You are a race-baiter (unknown to me what that is)''. ``I don't owe 
you anything as I wasn't the one who took it from you.'' The illegal 
taking of the Bison Range from the Salish-Kootenai Confederated Tribes 
is prime example that it isn't ``yesterday'', ``there is no getting 
over being robbed'', ``that claiming this is playing victim'', that the 
ones profiting from it are benefiting from the larceny. Why is it that 
when any Native claims his/her/tribal property of any kind, we 
portrayed as playing the victim yet when a non-Native goes after their 
property they have a legal claim, a right to have their property 
returned and that whoever took it must pay restitution. You have an 
opportunity to help right a wrong taking, an illegal act, and to 
restore the property to the rightful owners. I hope you that do just 
that and return the land, the Bison Range, to the Salish-Kootenai 
Confederated Tribe which is made up of fine individuals who want 
nothing more than justice. Thank you for listening,
                                            Steve Yapuncich
                                 ______
                                 
                                                   7/7/2020
    It is my belief that The Bison Range should be turned over to The 
People who first lived as One with Bison. I trust The People who have 
lived with Bison for thousands of years are best qualified to care for 
both The Bison and the public best interests.
                                              Dale Broszeit
                                 ______
                                 
                                                   7/4/2020
Hello,

    My name is Clarence Sanders, and I reside in Bozeman, MT.
    I write to emphatically support return of the National Bison Range 
to the Confederated Salish and Kootenai Tribes.
    The U.S. Claims Court ruled the land was improperly taken, and per 
that ruling should be returned to jurisdiction and authority of the 
Tribes.
    Please adopt that measure as part of S. 3109, The Montana Water 
Rights Protection Act.

        Thank you,
                                           Clarence Sanders
                                 ______
                                 
                                                Bozeman, MT
                                                           7/7/2020
    I am not against The Confederated Salish Kootenai Tribe but I am 
against relinquishing Federal land to private entities. I oppose 
transferring the National Bison Range which is currently publicly owned 
land managed for the public by the US Fish and Wildlife Service. I 
believe the US Fish and Wildlife Service is the appropriate agency to 
manage the National Bison Range because it is a wildlife refuge. I 
believe the National Bison Range should remain in public ownership.
    I am worried that in the future the National Bison Range may not be 
managed properly to protect its wildlife habitat, bison preservation 
and public use mandates if management and ownership of the land is 
transferred to a tribe. I am sure that the tribe currently intends and 
would for a time manage in accordance with these mandates however there 
is no guarantee that the tribe's priorities and personnel will continue 
this management into the future.
    I have visited the Bison Range and it is a rare jewel of accessible 
prime habitat that is an important place for the public to view 
wildlife and learn about the history of wildlife management. Not only 
are bison readily visible but magnificent elk, mule deer, pronghorn and 
bighorn sheep are easily viewed in the wild and in their native 
habitat. This is because the area is currently closed to hunting. I am 
concerned about hunting being allowed in the Range and/or poaching 
occurring. I am also concerned about the land being sold in the future. 
Currently the Flathead Reservation is majority owned by whites because 
tribal members sold off large areas of their historical reservation for 
private profit.
    If the Fish and Wildlife Service wants to incorporate tribal 
members in management that is fine but the land should remain in 
permanent public ownership and under management by an agency 
responsible to the American public.

        Thank you for considering my comment.
                                               Nike Stevens
                                 ______
                                 
                                               Missoula, MT
                                                           7/3/2020
    I support the wildlife management programs of the Tribes on the 
Flathead Reservation and Tribes' ability to manage the Refuge both for 
preservation of the bison and for continued public access. I believe 
the wrongful taking should be righted by returning the land.
                                               Bruce Bender
                                 ______
                                 
                              Gallatin Wildlife Association
                                                       July 4, 2020
    Dear Committee Members,
    The Gallatin Wildlife Association (GWA) has been following the 
actions and proposed threats to the National Bison Range (NBR) for 
several years now. We were shocked and dismayed to learn of the 
attempts by the Montana Congressional Delegation, specifically those by 
Senators Daines and Tester, to secretly propose a land transfer of 
public lands managed by the U.S. Fish and Wildlife Service over to the 
Confederated Salish and Kootenai Tribes (CSKT) of Montana. All of this 
done without approval, permission or widespread knowledge of the people 
of Montana, let alone the country. We use the word ``secret'' because 
other than perhaps one meeting in Missoula, there have been no 
hearings, no presentations, no announcements before the public. Not 
even staff people of Sen. Daines' office in Bozeman, MT knew of this 
issue when GWA visited with them. This in and of itself sets bad 
precedent.
    GWA would like to comment further on this proposal. We should first 
define who we are. We are a local, all volunteer wildlife conservation 
organization which is dedicated to the preservation of wildlife and 
wildlife habitat in Southwest Montana. We are a nonprofit 501(c)(3) 
organization which has been in existence since 1976 representing 
hunters, anglers, and other wildlife advocates with the mission to 
protect habitat and conserve fish and wildlife populations on a 
sustainable basis for our children and future generations. This issue 
very much becomes our issue by its potential repercussions on native 
wildlife, but also on the future of public lands. We want to make 
clear; we are only commenting on the inclusion of the NBR in Senate 
Bill 3019.
    S. 3019 is a water-rights compact issue, a state issue. Section 2 
of the bill lists the four purposes of the Act as follows:

         1. to achieve a fair, equitable, and final settlement of 
        claims to water rights in the State of Montana, and in 
        recognition of article I, and section 3 of article IX, of the 
        Montana State Constitution for-

           (A) the Confederated Salish and Kootenai Tribes of the 
        Flathead Indian Reservation; and

           (B) the United States, for the benefit of the Tribes and 
        allottees;

         2. to authorize, ratify, and confirm the water rights compact 
        entered into by the Tribes and the State, to the extent that 
        the Compact is consistent with this Act;

         3. to authorize and direct the Secretary of the Interior-

           (A) to execute the Compact; and

           (B) to take any other action necessary to carry out the 
        Compact in accordance with this Act;

         4. to authorize funds necessary for the implementation of-

           (A) the Compact; and

           (B) this Act.

    As the committee can see, nowhere in the designated design purpose 
is there a statement about a resolution of the NBR. Nowhere does the 
purpose deal with wildlife, bison, or public lands. The only reason the 
NBR is even part of this legislation is to help provide payment to the 
CSKT. The only purpose in mentioning the NBR is to explain what the NBR 
is in that function for payment; payment by the way which was not done 
in accordance with the approval of the citizens of Montana, the country 
or done in conjunction with conducting a National Environmental Policy 
Act (NEPA) analysis, which is law. The people of the United States 
should have a say in such a land reallocation. It is the 10th most 
popular visited park within the National Wildlife Refuge System. Not 
only does it set bad precedent to try and hide public land transfers 
from the public, but it is also setting bad precedent to take land or 
funds from the federal trust to pay a state's debt. What is the 
legality of such action? The people of Montana are being represented 
very poorly in this action by Senator Daines, the sponsor of this bill.
    There are other problems and/or questions GWA has with the 
legalities or processes of this legislation. Under Standing Rules of 
the Senate, Rule XXV, 1(h)(1), there is this statement:

         ``Committee on Environment and Public Works, to which 
        committee shall be referred all proposed legislation, messages, 
        petitions, memorials, and other matters relating to the 
        following subjects.''

    Of those numerous subjects listed, several apply, stating that this 
legislation should be considered by this particular committee. Those 
which apply, but which are not limited to, are: ``Environmental policy, 
Environmental research and development, Fisheries and wildlife, and 
Public buildings and improved grounds of the United States generally, 
including Federal buildings in the District of Columbia.''

    Why has this legislation not been introduced into this committee, 
one where it is mandated?

    On another front, GWA questions whether or not the U.S. Fish and 
Wildlife Service (USFWS) has been adhering to the original intent of 
the National Wildlife Refuge System Administration Act (NWRSAA) of 1966 
or the National Wildlife Refuge System Improvement Act of 1997. That 
may get us into a broader issue other than to say perhaps that problem 
gave rise and justification for the Senators and the CSKT to push the 
idea of this land transfer. If the USFWS had managed the NBR in recent 
years in the way they're mandated to do so, perhaps the NBR would not 
have been included in this bill.
    There's recent history over the fact the NBR has had a 
mismanagement problem, and that raises a serious question. If the NBR 
is not getting the necessary oversight, protection and fulfillment of 
the NWRS mission, how are they going to get those assurances within the 
CSKT? Meaning no disrespect to the CSKT, but they are a tribal entity 
with a different purpose and existence. They are an entity which does 
not provide or possess those national protections, an entity outside 
the jurisdiction of the American people and its government, and an 
entity where there are no guarantees of fulfilling that national 
mission. How are they going to improve the condition?
    On to the NBR and its specifics. The NBR contains 18,800 acres of 
federal public land, land that was designated to be set aside as a 
refuge for bison in 1908 by President Theodore Roosevelt. This is a 
public trust which has had an iconic presence within the National 
Wildlife Refuge System for 112 years with a specific mission to protect 
our most recent National Mammal from extinction. That mission still 
holds true today in spite of the fact there are plenty of bison herds 
across the country, privately and federally owned on tracts of private 
and public land. It is sad to think that some feel the NBR is a victim 
of its own success, but it is not. What is being ignored is the fight 
for the enduring protection of the purity of bison genetics. Through 
those 112 years, the USFWS has done a remarkable job in preserving 
bison alleles, the genetics which have their founding before the 
private herds of Allard, and the selling of that herd to the Conrads in 
1901-02. It is that stock which was used in the original founding herd 
of the NBR. The purity of those alleles is intact. In quoting DOI Bison 
Report, ``Looking Forward'', Natural Resource Report NPS/NRSS/BRMD/NRR-
2014/821, it states this on page 38:

         Recent science has established that the Yellowstone and NBR 
        herds are closely related and both have high genetic diversity 
        (Dratch and Gogan 2010). Like Yellowstone, NBR bison represent 
        one of the four primary genetic lineages of extant conservation 
        herds.

    There has been 112 years of investment by the American people and 
their tax dollars into the preservation and management of the NBR. The 
American people have a right to know the purpose for the potential loss 
at stake. The federal mission has not changed. The only thing that has 
changed is the willingness of specific interests and tribal groups to 
use the NBR as an easy way out of correcting some wrongful deeds by 
state and federal governments. Speaking of which, there needs to be a 
historical consensus and agreement as to what occurred at the turn of 
the 20th century. By not correcting the NBR historical record as stated 
in this legislation, it further stains the justification and premise of 
this Act. It is a sad state of affairs when a federal piece of 
legislation could become law when based upon such a controversial 
recollection of history. There should be an effort to get this right 
before the American people.
    Finally, to conclude on the premise in which we started, we feel 
this legislation is dangerously precedent setting in one other way. 
Contrary to what is stated in Sec. 13. of S. 3019 entitled National 
Bison Range Restoration, line item (k) (No Precedent), GWA believes we 
cannot depend upon the provided denial that these provisions are not 
precedent setting. There are no guarantees, even in law. As we have 
stated in prior public comments, there are 68 National Parks and 34 
National Wildlife Refuges listed in policy under Section 403(c) of the 
Tribal Self-Governance Act of 1994. Who's to say those lands can't or 
won't be subject to the same threat. As we have learned, laws can be 
over turned or amended. Just because it's stated in Sec. 13 of this 
legislation, doesn't make it so. There is a steep irony here. S3019 
opens that door wide, launching a precedent setting change, robbing 
Americans of their public land. The CSKT and other First Nation people 
are well aware of that feeling.
    GWA also wants to clarify that we are not against reparations to 
Native American Indigenous tribes. We believe there are many 
justifications for such action, but reparations can come in many forms. 
If the purpose of this action is for reparations, then we should have 
that discussion, but this is not the forum that it should take place. 
GWA's sole purpose is to protect America's wildlife and their 
respective habitat. We are against taking lands out of the public 
domain and the federal trust for that purpose unless there are lands of 
equal or greater value that can restore those lost acreages and protect 
our natural heritage. With that in mind, GWA urges the Senate Committee 
on Indian Affairs to remove the inclusion of the National Bison Range 
from S.3019.
    We want to thank you for receiving our comments and for any 
thoughtful consideration you can provide pertaining to this issue. The 
American people have a right to know how their government is working or 
not on their behalf.

        Respectfully,
                                   Clinton Nagel, President
                                 ______
                                 
                                     Santa Cruz, California
                                                           7/5/2020
Dear Senate Committee on Indian Affairs,

    You have a valuable opportunity to help right a wrong in Montana 
Indian Country. I urge you to do the right thing.
    The Montana Water Rights Protection Act (S. 3019) would return the 
lands of the National Bison Range to the Confederated Salish and 
Kootenai Tribes to continue preservation of the bison and provide 
public access and educational opportunities.
    The land that is now called the National Bison Range was acquired 
by the United States without the Tribes' consent in what was later held 
by a Federal Claims Court to be a taking.
    Returning the land to federal trust ownership for the benefit of 
the Tribes is a small but very important step towards strengthening 
sovereignty and repairing the harms of colonialism. It will make a key 
difference in the lives of many CSKT Tribal members.
    Please do everything you can to pass S. 3019.

        With gratitude and good wishes,
                                          Natascha Bruckner
                                 ______
                                 
                                                Bozeman, MT
                                                           7/6/2020
    Absolutely return the National Bison Range to the Native American 
tribes it belongs, to correct the stealing of their lands in the 
Flathead Indian Reservation. They love the bison and will treat them 
humanely and allow access to the public. I've visited the Bison Range 
and enjoyed seeing the bison peacefully graze. I've lived in Montana 
for 41 years and it is outrageous the federal and state governments 
have never recovered the native Montana bison to public lands. This is 
the US's national mammal. This species should be managed by Native 
Americans as they are who lived side by side the bison and then ``white 
men'' ruined their entire cultures and murdered almost every single 
bison for greed, power and control. Our country has stolen many Native 
American lands and broken many treaties--this would be one small step 
to correct this travesty by the US Government. Thank you.
                                                Pat Simmons
                                 ______
                                 
                                               Missoula, MT
                                                           7/5/2020
Honorable members of the Senate Committee,

    I am a citizen of Montana and I would like to record my support for 
tribal management of the National Bison Range. I live near to the 
Flathead reservation and have visited and enjoyed the Bison Range on 
many occasions, often bringing family and visitors to enjoy the unique, 
informative and scenic environment. I am familiar with the history of 
the bison and land that make up the range and share what I know with my 
guests. It is almost unanimous that my guests find the tribe's lack of 
involvement in the creation and management of the bison range as a rude 
injustice, an injustice that continues today as part of a legacy of 
regrettable acts by the U.S. government against the Native American 
peoples of Montana. These regrettable acts separated tribal members 
from the land and bison that sustained and nourished them, 
economically, culturally and spiritually. Putting management of the 
National Bison Range into tribal hands is a way to right some of these 
wrongs.
    I trust tribal management. As a student of environmental sciences 
at the University of Montana, I became familiar with the approaches and 
successes of the CSKT in managing the natural resources of the Flathead 
reservation. As a recreationalist, I've enjoyed the benefits of that 
management in the lakes, streams and wilderness of the reservation. The 
CSKT are skilled and able managers of natural resources, which should 
be no surprise, as their knowledge of this landscape and the species 
that inhabit it run deep. I am confident that the tribe will manage the 
Bison Range skillfully and in the interest of the public.
    It is time to return the land and bison to the care of the CSKT. 
Please support tribal management of the National Bison Range.

        Respectfully,
                                            Yvonne Sorovacu
                                 ______
                                 
                                Native American Rights Fund
                                                       July 6, 2020
Dear Chairman Hoeven and Senator Udall,

    The Native American Rights Fund writes in support of Senate Bill 
3019, the Montana Water Rights Protection Act, jointly introduced by 
Montana Senators Steve Daines and Jon Tester. NARF has a long history 
of supporting the settlement of Indian water rights claims for our 
tribal clients and other tribes, and of securing congressional approval 
of the settlements. For nearly four decades, we've partnered with the 
Western Governors Association and the Western States Water Council in 
these efforts, recognizing that we all live in the same river basins 
and watersheds and have to work together to share in the benefits of 
these vital natural resources.
    This legislation will provide congressional approval for the water 
compact negotiated between the State of Montana and the Confederated 
Salish and Kootenai Tribes (CSKT) pursuant to the State's water 
compacting process. Several other Montana tribes as well as federal 
agencies have successfully settled their water rights and secured 
congressional approvals. CSKT will be the last Montana Tribal compact 
to receive congressional approval. S. 3019 is also noteworthy in that 
it transfers the National Bison Range located on the Flathead 
Reservation from the U.S. Fish and Wildlife Service to CSKT. NARF 
strongly endorses the legislation and these purposes.
    The water compact is the result of years of negotiations between 
the CSKT, the State of Montana, water users in the Flathead Valley, and 
the Department of Interior. It was ratified by the Montana Legislature 
in 2015. This, like all Indian water settlements ultimately approved by 
Congress, was not a one sided deal. The Tribes relinquished 
considerable legal rights in order to accommodate water uses that have 
developed subsequent to the Hellgate Treaty of 1855. The compact was 
derived from long and intense negotiations. Importantly, it will bring 
a new structure and process to water management in western Montana, for 
the benefit of all water users as well and the water and fisheries 
resources of the region. Its innovative approach to habitat restoration 
and protection, water conservation, and instream flows is essential to 
fish and wildlife populations on and off the Flathead Reservation.
    The National Bison Range sits within the CSKT Reservation and the 
Tribes, as sovereigns, are very well situated to take over management 
of the Range. Bison have tremendous social and cultural significance to 
the Salish and Kootenai peoples. It is much more than a symbolic 
gesture to restore the Range and its resources to the rightful 
management of the Tribes. Their integration of tribal culture into 
bison management will benefit the animal, as it enriches the experience 
of the thousands of people that annually visit the Bison Range.

        Very truly yours,
                       John E. Echohawk, Executive Director
                                 ______
                                 
          Flathead Reservation Human Rights Coalition, Inc.
                                                          6/28/2020
    As the President of FRHRC and a 40 year resident on the Flathead 
Reservation, I have seen many attempts and actions against the 
sovereignty of the Flathead Nation (the Confederated Salish and 
Kootenai Tribes).
    It is evident that not only is sovereignty not understood, but by 
some it is met with resistance as evidenced by the talk of dismantling 
the reservation because it is open, meaning all land is not owned by 
the tribe and its members, fighting against concurrent jurisdiction 
oflaw enforcement, continual complaints by non-Indian residents over 
purchasing hunting and fishing permits from the Tribe, etc.
    This history is important to understand the resistance to Tribal 
Bison Range management I have witnessed co-management of the National 
Bison Range and the institutional racism and undermining of that brief 
period by some of the non-indigenous Bison Range employees and others 
that perpetuate the fear of Tribal management.
    I have witnessed excellent tribal management ofland and natural 
resources thru traditional burning and clearing of brush to help reduce 
impact of wildfires. The air quality we enjoy is rated as pristine and 
is managed by the tribe. The efforts to minimize further negative 
impact oflake trout in Flathead lake, the water quality is managed by 
the Tribe, as is the wonderful wilderness of the Mission Mountains kept 
clear of buildings and roads. The Tribe also does a great job of 
running Mission Valley Power and the Sel,lis Ksanka Qlispel, (formerly 
Kerr Dam).
    The Tribe is a good neighbor and supports local fire departments 
and helps with search and rescue operations, MMIP task force, and most 
lately the Tribe and Lake County formed the Unified Command Center for 
COVID and CSKT offered free COVID testing to keep all reservation 
residents informed and safe!
    The tribe managed buffalo since the 1800's and provided some of the 
stock to start the bison range to begin with. This type of wildlife 
management is well within the scope historically and presently of the 
Flathead Nation. This move will also still provide visitation to the 
NBR by the public, together with added opportunities to learn about 
Bison from a tribal perspective. The Salish Kootenai College provides 
degrees in Forestry Forest Management, Forestry Wild land fire 
management, Hydrology, Wildlife and Fisheries not to mention Tribal 
History Preservation. All of these programs help to maintain the 
knowledge base to thrive as the stewards of the National Bison Range.
    We support The MT Water Rights Protection Act and the transfer of 
the National Bison Range to the CSKT Tribe within the Bill.
                                     Tammy Miller President
                                 ______
                                 
                      National Congress of American Indians
                                                      July 14, 2020
Chairman Hoeven and Vice Chairman Udall:

    On behalf of the National Congress of American Indians (NCAI), the 
oldest, largest, and most representative national organization 
comprised of tribal nations and their citizens, I write to express 
NCAI's support for S. 3019, the Montana Water Rights Protection Act.
    Permanent and reliable access to water creates significant health, 
cultural, and economic development benefits for tribal nations and 
surrounding communities. Securing this resource through water rights 
settlements meets these conditions by resolving past conflicts, 
providing future certainty, and ensuring ``wet'' water reaches tribal 
lands. For these reasons, NCAI membership codified its support for 
Congressional approval of the water rights compact negotiated between 
the state of Montana and the Confederated Salish and Kootenai Tribes 
(CSKT) by passing NCAI Resolution #MSP-15-038, Support for the Water 
Rights Compact between the Confederated Salish and Kootenai Tribes, the 
State of Montana, and the United States of America.
    Additionally, tribal communities are often place-based and their 
relationship to their homelands extends from time immemorial and is 
rooted in tribal eco-cultural practices developed over millennia. When 
tribal nations have the ability to make culturally appropriate 
management decisions about their lands and natural resources they bring 
health and cultural and economic development benefits to their citizens 
and surrounding communities. In this regard, NCAI Resolution #SPO-16-
006, Support Legislation to Return the Land and Resources of the 
National Bison Range to Federal Trust for the Confederated Salish and 
Kootenai Tribes, formalizes NCAI's strong support for restoration of 
the bison range to CSKT and for their eco-cultural management approach 
to the care and continuity of the bison heard and the National Bison 
Range.
    The Montana Water Rights Protection Act, S. 3019, would provide 
water security and certainty to future generations of citizens of CSKT, 
surrounding communities, and the state of Montana. With regard to the 
management of the National Bison Range, S. 3019 represents an 
appropriate management solution to the unique situation and history of 
the National Bison Range and CSKT's relationship with the bison, 
wildlife, natural resources, and land. For these reasons, NCAI supports 
passage of S. 3019, the Montana Water Rights Protection Act.

        Sincerely,
                                        Kevin J. Allis, CEO
                                 ______
                                 
                      National Congress of American Indians
                                                      July 14, 2020
Chairman Hoeven and Vice Chairman Udall:

    On behalf of the National Congress of American Indians (NCAI), the 
oldest, largest, and most representative national organization 
comprised of tribal nations and their citizens, I write to thank you 
for holding a hearing to consider S. 2165, the Safeguard Tribal Objects 
of Patrimony Act of 2019 (STOP Act), and to express NCAI's strong 
support for this bill.
    Core to NCAI's mission is the protection and preservation of Native 
cultures and ways of life for future generations. NCAI's membership has 
repeatedly expressed the importance of protecting from dispossession 
unique, irreplaceable, and indispensable items of cultural and 
religious importance. \1\ Most recently, NCAI codified this commitment 
in Resolution #REN-19-003, Supporting Legislation to Facilitate 
International Repatriation of Tribal Nations' Tangible Cultural 
Heritage and Coordination among Federal Agencies. This resolution 
requests Congress enact legislation to prevent the illegal export and 
facilitate the international repatriation of items of tribal cultural 
heritage.
---------------------------------------------------------------------------
    \1\ See generally, NCAI Resolution #SAC-12-008, Support for 
International Repatriation; Resolution #ATL-14-032, Calling for the 
Protection of Native Peoples' Sacred Places, Sacred Objects, and 
Ancestors under United States, Native Nations and International Law, 
Policy, and Practice.
---------------------------------------------------------------------------
    To this end, the STOP Act is significant legislation that addresses 
deep and long-standing harms suffered by Native people and their 
cultures through the dispossession of cultural items from their 
homelands and cultural contexts to foreign countries and markets. To do 
this the STOP Act would, (1) increase Native American Graves Protection 
and Repatriation Act (NAGPRA) penalties; (2) prohibit the export of 
cultural items held in violation of existing domestic law and establish 
a certification system to facilitate lawful export; and (3) establish 
working groups to promote coordination among federal agencies and 
assist with the voluntary return of cultural items.
    The STOP Act is an important piece of legislation that draws on the 
strengths and successes of existing cultural heritage laws and 
addresses a limitation in them--the lack of an explicit prohibition 
against the export of items otherwise protected under federal law. 
Cultural heritage laws like NAGPRA and the Antiquities Act were passed 
to protect the cultural heritage of tribal nations. In preventing 
international export of these items, the STOP Act builds on the purpose 
of these laws and recognizes the sanctity of tribal cultural items to 
tribal nations and their citizens. For these reasons, NCAI strongly 
supports the passage of S. 2165, the STOP Act.

        Sincerely,
                                        Kevin J. Allis, CEO
                                 ______
                                 
                                                 Bozeman MT
                                                           7/2/2020
    Respectfully, I oppose the privatization of public lands whether 
done in a massive step or whether step by step. If reparations are 
appropriate for some past deed, pay, but don't privatize public lands. 
Public land stewardship has proven the most effective conservation in 
the history of this nation, not perfect, usually requiring public 
pressure to do better, but the most effective. Wilderness designation 
is the gold standard of conservation. The National Park Service have 
done a good job, particularly given inadequate funding, population 
pressures, and political interference. The National Bison Range is a 
tiny piece of land in the context of public lands, but it has every 
privatization advocate strongly behind it as it would open the door to 
privatization of public lands in general. I oppose giving, 
transferring, selling, exchanging, leasing, and other euphemisms as 
well as the act of privatizing public lands. Public lands are not a 
political favor to be granted to any special interest, whether the 
interest is defined by wealth, ethnicity, race, religion, political 
ideology, etc. Keep public lands public!

        Sincerely,
                         Anne Millbrooke, Public Land Owner
                                 ______
                                 
                                              Kalispell, MT
                                                           7/3/2020
    Please return the National Bison Range to the Confederated Salish 
and Kootenai Tribes. This is their heritage. They have the right to 
regain all land illegally and forcefully taken from them by the US 
Government. The US Government needs to make amends for its genocide of 
Native Americans and past racist agenda towards Native Americans.
                                              Norman Mellin
                                 ______
                                 
                                              Kalispell, MT
                                                           7/7/2020
    I would very much like to see the National Bison Range return back 
to the care and keeping of the Confederated Salish and Kootenai Tribes. 
From a moral perspective, I believe it is one step toward amending so 
many past wrongs done to the Native Americans. From an ecological 
perspective, I have seen lands flourish under the management of Tribes. 
The deep, connected relationship that Tribes have with the earth puts 
me at ease knowing that they will truly care for these lands in the 
highest and best way possible.

        Most sincerely,
                                            Lindsay Minnich
                                 ______
                                 
                                                       Missoula, MT
                                                           7/6/2020
    I write to express my strong support for both the water rights 
compact/settlement and National Bison Range restoration to the 
Confederated Salish and Kootenai Tribe (CSKT--comprising the Salish, 
Kootenai and Pend Oreille people) elements of Senate Bill 3109.
    The water rights settlement portion of the bill reflects a measured 
compromise between the sovereign CSKT Nation and the State of Montana. 
The provisions of this bill relating to the water compact agreement 
embody the efforts of the both state and tribal authorities to reach a 
settlement of the pre-eminent rights of the CSKT to water under their 
Treaty of 1855. It provides for the welfare of the tribe and those that 
depend on the water affected by the agreement. It has passed the 
Montana Legislature, which gave the agreement substantial attention in 
legislative sessions before approving it. The US Senate should applaud 
and support the terms of that agreement that make a fair and equitable 
division of water availability for all.
    The National Bison Range restoration part of the bill is a long 
overdue acknowledgement of the rights, culture and spiritual attachment 
of the CSKT people to bison and the land on which the NBR is found. The 
preamble of the bill recites an accurate and telling history 
surrounding the NBR and the bison found on it. Indeed, the actions of 
the Salish people were among the first moves to conserve bison from 
extinction. The connection of CSKT confederated tribes to bison is 
strong and spiritual. The NBR lies wholly within the CSKT reservation 
boundaries and was taken without tribal consent by the federal 
government, a fact established by judicial review. It is only just to 
acknowledge this connection and correct the mistakes of the past.
    Such a transfer to federal trust ownership of the NBR does not set 
a precedent for other public lands. The unique history of the situation 
and the connection of the CSKT to the place and the species for which 
it is managed distinguish this transfer from proposed transfers to 
state or private ownership. Moreover, public access is preserved by the 
express terms of the bill.
    Finally, the CSKT Resource Management staff is top-notch and a 
recognized leader in natural resource management in Montana and the 
nation. The care and effectiveness that they have shown managing 
grizzly bear and bull trout, two other species that suffered sharp 
declines, speaks loudly to the CSKT leadership in wildlife management. 
Bison, a spiritual being for the CSKT, can only be expected to flourish 
under CSKT management.
    In sum, there is every reason to restore the NBR to the CSKT. It 
would serve as a meaningful step to restore essential cultural 
connections of native people. In these times, it is an essential step 
to address past injustice.
                                                Len Broberg
                                 ______
                                 
                                                 Polson, MT
                                                           7/4/2020
    In regard to my personal introduction, I am a retired cattle 
rancher in the Polson, Montana, area, having lived here for over fifty-
nine years. I am a 50+ year member of the Society for Range Management 
(SRM), served on the SRM Board of Directors and received the highest 
award SRM gives for excellence in land stewardship. I served four years 
on a National Academy of Sciences committee that evaluated various 
means of defining rangeland condition. On the State level I served ten 
years on the Montana Noxious Weed Trust Fund advisory committee. On the 
local level, I served on the Lake County Weed District Board. I feel I 
am well qualified to pass judgment on the Confederated Salish and 
Kootenai Tribes (CSKT) ability to manage rangeland.
    One provision of SB 3019 is the transfer of the National Bison 
Range (NBR) to the CSKT. First of all, this portion of SB 3019 has 
nothing to do with the ratification of the Flathead Water Compact, 
which I have supported. Therefore, the transfer of the NBR should be 
stricken from the Bill.
    My second point is that the CSKT has already been paid twice for 
the land that encompasses the NBR. This ill conceived legislation would 
not only give the CSKT the land but also the bison themselves, 
considerable range improvements like fences, water developments, bison 
handling facilities, and access roads, as well a numerous buildings, 
all paid for by American taxpayers.
    My third point is the CSKT's lack of ability to properly manage 
rangelands. The primary goal of managing the NBR is to properly manage 
the health of the rangeland. Bison and other wildlife depend upon 
healthy, robust rangeland. Based on my almost sixty years of living in 
Lake County and being involved in range management, it is my 
observation that the CSKT has not exhibited good stewardship on the 
rangelands that they manage, especially their grazing leases. They may 
have established wilderness areas, etc., but these areas do not require 
the annual, hands-on management that rangelands require, like weed 
control, fencing, water development, rotation grazing and proper 
stocking rate.
    Based on my observations of both Tribal rangeland management and 
the U.S. Fish and Wildlife Service management of the NBR, I believe it 
would be in the best interest in the health of the land and of the 
American people that the NBR be retained under its current ownership 
status.
    I, therefore, urge you to delete this provision in SB 3019.
                                              Chuck Jarecki
                                 ______
                                 
                                                   7/4/2020
    I am a Montana Resident and fully support the return of the Nt. 
Bison Range to the ownership and management of the Confederated Salish 
and Kootenai Tribes. In fact the original preservation of the bison in 
the Flathead Valley in 1884 was due to the efforts of two men, Michel 
Pablo and Charles Allard, both of whom had Native American mothers.
                                                 Mark Miles
                                 ______
                                 
                                               Missoula, MT
                                                           7/6/2020
To whom it may concern;

    I am writing to support the passage of The Montana Water Rights 
Protection Act (S 3019). The National Bison range lands should be 
returned to the Confederated Salish and Kootenai Tribes. These tribes 
will work to preserve the animals and their habitat forever. They are 
committed to maintaining public access and education. I have enjoyed 
this historic place for over 40 years and look forward to many more.
    Thank you for your consideration.
                                                 Beth Ikeda
                                 ______
                                 
                                            Helena, Montana
                                                           7/7/2020
    The Montana Water Rights Protection Act, if passed, will return the 
lands of the National Bison Range to the Confederated Salish and 
Kootenai Tribes. The land upon which the National Bison Range is 
located was acquired by the U. S. without the Tribes' consent. That 
action has been held by a Federal Claims Court to be a taking. 
Returning the land to federal trust ownership for the benefit of the 
Tribes is the right thing to do as it is a step in repairing the 
historical harms Indian Tribes have suffered from the U. S. government.
    The Confederated Salish Kootenai Tribes have a history of excellent 
management of their lands and of the wildlife on their lands. The 
National Bison Range lies wholly within the Flathead Indian 
Reservation. The National Bison Range is one of Montana's gems. I have 
confidence that the Confederated Tribes would manage the Bison Range 
well for the preservation of the bison and for continued public access.
    Thank you for this opportunity to comment.

        Sincerely,
                                         Marylis Filipovich
                                 ______
                                 
                                               Missoula, MT
                                                           7/2/2020
    I am a retired physician and lifetime Sierra Club member living in 
Missoula, MT. My passion is nature photography. One of the most magical 
places in our beautiful state is the National Bison Range. For years 
now, I have gone several times each year to observe and photograph the 
many wild creatures who live there, not just the magnificent bison 
herds, but also pronghorns, bighorn sheep, bear, elk, deer, and others. 
It has been my pleasure to take many family members and visitors there 
as well. It's high time that we returned the management and ownership 
of this special place to their rightful owners, the Flathead Indian 
Reservation. The land was taken from their reservation illegally years 
ago, and it's only just and appropriate that they own and control it 
now for the benefit of all the people of this country and other 
countries as well. The tribes of the Flathead Indian Reservation have 
amply shown by the creation of their own wilderness area in the Mission 
Mountains, unique in the nation, how much they value and wish to 
protect the natural beauty and the creatures that surround them. Thank 
you for considering my thoughts about this important matter.
                                        Jerome Walker, M.D.
                                 ______
                                 
                              Wildlife Conservation Society
                                                      June 30, 2020
To Whom it May Concern,

    The Wildlife Conservation Society (WCS) is writing to offer this 
letter for the hearing record in support of S. 3019, The Montana Water 
Rights Protection Act, which was heard by the Senate Committee on 
Indian Affairs on June 24th, 2020. WCS stands in strong support of the 
Confederated Salish and Kootenai Tribes (CSKT) and their efforts to 
bring closure to and resolve longstanding resource issues addressed in 
S. 3019, and particularly Section 13 of the bill which addresses 
restoration of the National Bison Range.
    WCS was founded as a science-based conservation organization in 
1895 in large part to help support the conservation of species like the 
American Bison. Today WCS works in over 60 countries to help conserve 
wildlife and wild places through science, conservation action, 
education, and inspiring people to value nature. WCS's own 
organizational history is deeply intertwined with efforts in the late 
19th and early 20th centuries to help prevent American Bison from 
becoming extinct. WCS helped to found the American Bison Society in 
1905 and was intimately involved in the establishment of the National 
Bison Range in 1908, including providing animals from WCS's Bronx Zoo 
for reintroduction.
    Today, 112 years later, WCS recognizes the sovereign rights of the 
Confederated Salish and Kootenai Tribes and stands in solidarity with 
CSKT and the provisions of this bill in: (1) acknowledging the history, 
culture, and ecological stewardship of the Tribes of these lands, 
natural resources, and bison; (2) ensuring the protection and 
enhancement of these lands, resources, and bison; (3) continuing access 
and educational opportunities; and (4) a smooth transition and 
restoration of the stewardship of these lands, resources, and bison to 
CSKT, which is recognized as an international leader in wildlife 
conservation.
    Part and parcel of this restoration is a reconciliation with the 
past and the wrongful taking of the Tribes' lands, a recognition of the 
Tribes' use of these lands and resources since time immemorial, the 
Tribes' reservation of these lands through the Treaty of Hell Gate on 
July 16, 1855 (12 Stat. 975), and their protection under Federal law.
    WCS is proud to support this bill and its efforts to restore the 
National Bison Range, bison herds, and property and resources 
associated with these lands to the rightful stewardship of CSKT. It is 
long overdue.
    We wish to thank Chairman Hoeven and Vice-chairman Udall and 
Members of the Committee for hearing this bill, and sponsors Senator 
Daines and Senator Tester for their leadership in carrying this 
critical piece of legislation. There is a no more timely moment than 
the present to advance this piece of legislation and WCS looks forward 
to its hopeful adoption this year. Thank you for the opportunity to 
comment. Should you have any further questions or concerns, please do 
not hesitate to be in contact.

        Our sincerest thanks,
                              Cristina Mormorunni, Director
                                 ______
                                 
                                                  Arlee, MT
                                                           7/7/2020
    My name is Susan Lindbergh Miller and I have lived in Arlee, 
Montana since 1994. My husband's name is Elon Hamilton Gilbert. We are 
writing you to express our confidence in the proposal included in the 
Montana Water Rights Protection Act for the Confederated Salish and 
Kootenai Tribes to Manage the National Bison Range in Moiese, Montana, 
on the Flathead Indian Reservation.
    Over the years we have watched and appreciated the efforts made by 
the Confederated Salish and Kootenai Tribes to manage the natural 
resources of this reservation. The environmental and cultural education 
for local students has been exceptionally interesting and deeply rooted 
in centuries' old practices of honoring the land, water and air of this 
reservation. This ensures that in the future there will be a 
continuation of an understanding, reverence for, and ability to manage 
its resources.
    The Tribes have written a series of books and stories (some, maybe 
all, translated into the Salish Language) for youth that teach and 
explore their native legacy of caring for this planet and in particular 
the land within the reservation.
    The restoration of the Jocko River to support the survival of the 
Native Bull Trout as well as the health of the river is another example 
of how the tribes are honoring their sacred land. The River Honoring 
ceremony held every year on the Flathead River for school children in 
the area, including our grandchildren, is another example of honoring 
the past, teaching in the present, and looking towards a multilayered 
and deep understanding for the future of this beautiful area we call 
home.
    We live adjacent to the Tribal Trust Forest land, portions of which 
are generously open for recreation to those of us who live here but are 
not tribal members if we purchase an annual permit. We walk there 
almost every day and have been grateful for the Tribes' management 
practices.
    We have visited the National Bison Range, love it, and can the 
think of no better future for its management than to be in the hands of 
the local Confederated Salish and Kootenai Tribes. It is their land, 
their heritage, and if ever there were an appropriate time to honor 
their rightful heritage it is now.
    Thank you for standing behind the Tribes in their desire and their 
right to manage this important place on the planet. And thank you for 
allowing us to enter into the decisionmaking process.

        Sincerely,
                         Susan L Miller and Elon H. Gilbert
                                 ______
                                 
                             Water Policy Interim Committee
                                                      July 14, 2020
Dear Sen. Hoeven,

    The Water Policy Interim Committee (WPIC) urges the Senate Indian 
Affairs Committee to pass S.3019 (Montana Water Rights Protection Act) 
at its earliest convenience. Doing so will begin to secure the future 
of the Confederate Salish and Kootenai Tribes (CSKT)-and that of 
thousands of farmers, ranchers, and water users across Montana.
    In the arid West, water is a fundamental element for Montana's 
cities and towns, farms and ranches, industries and natural wonders. 
Legendary, one-armed geologist and explorer John Wesley Powell forecast 
a struggle for water in the American West, observing that ``there is 
not sufficient water to supply these lands.'' Today, Montana's legal 
system relies on a clear delineation of one's water rights-not only to 
protect private property rights, but for maximum benefit of all uses.
    After decades of negotiation, the Montana Legislature passed the 
CSKT compact and associated federal settlement in 2015. The compact 
will not only quantify and protect Indian and non-Indian water rights, 
but will rehabilitate an aging irrigation project feeding some of the 
state's most productive lands, conserve the water resources for 
riparian habitat, and drive economic development in western Montana 
through access to unallocated reservoir water.
    Without approval of the compact, the tribe may be forced to 
litigate thousands of claims to protect their ``first in time'' rights, 
casting a shadow over tens of thousands of others' water rights.
    The WPIC firmly believes that approval of S.3019 by the Senate 
Indian Affairs Committee will start the legislation on a path to 
approval by Congress and the President.
    Thank you for your consideration.

        Sincerely,
               Rep. Zach Brown, committee presiding officer
                                 ______
                                 
                          Montana Public Service Commission
                                                      June 30, 2020
Chairman Hoeven,

    We are writing to you to voice our support of the request made by 
Republican members of the Montana State Legislature to hold at least 
one field hearing on the Montana Water Rights Protection Act. Your 
Committee's work on this issue will be precedent-setting and spends 
nearly $2 billion in taxpayer money--making this request both 
reasonable and prudent.
    Together, we represent more than 320,000 of the nearly 1.1 million 
Montana residents and 25 of Montana's 56 counties. We would like to 
stress the importance of ensuring that field hearings are conducted at 
times which would allow for as many constituents as possible to attend 
and participate in the Committee's proceedings.
    Thank you for your consideration, and we look forward to welcoming 
you, and your Committee members, to the Treasure State.

        Respectfully,
                                Brad Johnson, Vice Chairman
                                Randy Pinocci, Commissioner
                                 ______
                                 
                                               Missoula, MT
                                                          6/27/2020
Dear All Committee Members of the Senate Committee on Indian Affairs 
and My Senator Steve Daines of Montana,

    My comments are in response to the June 24 hearing that took place 
in Washington, D.C. with all members of the U.S. Senate Committee on 
Indian Affairs. The public and media were blocked from attending this 
hearing and as I understand it, only one person from the U.S. Dept. of 
Interior was invited to speak to the committee even though many other 
expert witnesses requested the opportunity to speak.
    I'll make this real simple. Water rights that belong to an 
individual, business, city, state or any other water holder must 
maintain their water rights and one water right holder, namely the CSKT 
or Fort Belknap Indian Reservation governments, do not own any other 
water rights except their own. Private landowners pay for their own 
water rights and government agencies such as the State of Montana and 
county governments pay for their own water rights through taxpayers 
that foot the bill. The CSKT and Fort Belknap Indian Reservation 
governments have no right to anyone else's water rights as much as 
others do not have water rights belonging to the CSKT or Fort Belknap 
Indian Reservation governments. These sovereign Indian governments 
should not be paid billions of dollars of U.S. taxpayer money for water 
rights that belong to other people and governments. Period.
    Secondly, no federal land mass including the National Bison Range, 
a NATIONAL wildlife refuge, and Grinnell Notch, a large recreational 
area under the Bureau of Land Management, belong to ALL Americans, not 
just a certain portion of Americans that also have the advantage of 
sovereign control over their reservations as a separate nation within 
the United States of America. State parks named in S. 3019 and S. 3113 
don't belong to a sovereign Indian government but to all taxpayers and 
citizens in Montana.
    The fact that S. 3019 and S. 3113 give away land that belongs to 
all Americans totally disgusts me.
    I am sad that Senator Daines, who is right now advertising that he 
supports national parks and public lands through other legislation has 
decided to give away state parks and a very popular national wildlife 
refuge to the CSKT without any input from the very taxpayers that 
bought and paid for these lands. All you advertising to support S. 3019 
only talks about water rights and doesn't mention that state and 
federal public lands are being given to the CSKT PLUS billions of 
dollars all out of the pockets of taxpayers.
    I am totally disgusted with this whole secret process that never 
even allowed such groups as Lake County Commissioners or Blue Goose 
Alliance to speak at the Senate hearing that was closed to the public.
    Since when are the activities of the Senate held in secret?
    All Republicans and Democrats on this committee disappoint me with 
the two bills because there is no respect for all Americans that paid 
for the public lands you generously give away to two sovereign 
governments that do not have to follow ANY federal or state law and 
will likely ignore any water right restrictions on them because they 
can.
    The wildlife and the habitat of the state and federal lands need to 
remain with the Montana Fish, Wildlife and Parks for the state parks 
and the BLM and U.S. Fish and Wildlife Service for the federal lands 
you give away without any ability of Americans who love these 
properties to speak up at a Senate hearing or at hearings around 
Montana.
    You all should be ashamed of yourselves. Republicans that joined 
with liberal Democrats to give away water rights and public lands to 
two sovereign Indian governments should be ashamed of themselves. You 
aren't helping farmers, ranchers, landowners, and businesses, not to 
mention sportsmen, that normally vote for you as Republicans. Really 
stupid.

        Sincerely,
                                      Susan Campbell Reneau
                                 ______
                                 
                                               Missoula, MT
                                                           7/8/2020
    Dear Folks. At this time of new awareness of our White Priveledge 
and the racist if unconscious system we all are living in today, I feel 
compelled to speak out in support of returning control of the National 
Bison Range to the Original Americans who for thousands of years 
operated in balance with nature and helped maintain the planet we are 
currently destroying . It is the height of hypocracy to assume we 
``whites'' are better positioned to `` manage'' this little plot of 
God's earth when we have done such a poor job up to this point. Why not 
try something different and see if the Original Americans with their 
proven long term success in maintaining a healthy productive 
diversified ecosystem might just show us a better way! I know this 
sounds harsh but our `` ethno centrism `` is just too much in today's 
reality. Our `` Great Whute Father'' is a fool without any clothes! 
Wake up and smell the coffee before it is too late!

        Sincerely,
                                             Steve McArthur
                                 ______
                                 
               Citizen and Resident of the State of Montana
                                                     July 8th, 2020
Dear Members of the United States Senate Committee on Indian Affairs:
    I fully support the Montana Water Rights Protection Act (S. 3019), 
especially the Act's provisions regarding the National Bison Range 
restoration (SEC. 13). Restoring the National Bison Range as part of 
the Flathead Indian Reservation under the management of the 
Confederated Salish and Kootenai Tribes (CSKT) is an important step in 
reconciling the wrongful appropriation of the refuge by the United 
States Federal Government, and would restore and uphold CSKT's rights 
and sovereignty as guaranteed by the Hellgate Treaty.
    The restoration will not only fulfill the Federal Government's 
legal obligation to CSKT--it will also reduce the financial burden on 
taxpayers by transferring the refuge's management and costs to CSKT. 
CSKT's demonstrated record of sound and effective environmental 
management makes it clear that their management and protection of the 
refuge ``solely for the care and maintenance of bison, wildlife, and 
other natural resources'' will be nothing short of exemplary.
    The cultural resources, history, and perspectives that will be 
added by CSKT's management of the refuge will further enrich and 
enhance the educational opportunities provided to the public. The Act's 
provision also provides legal assurance for continued public access to 
the refuge, guaranteeing the continued enjoyment of the refuge for 
present and future generations of CSKT Tribal Members, Montanans, and 
Americans. Restoring the National Bison Range will be a powerful action 
as we work towards righting what was a wrongful acquisition of the 
refuge's bison, wildlife, and other natural resources, while upholding 
a shared commitment to respecting the Tribes' cultural and historical 
connection with bison and the landscape.
    Finally, these provisions along with the Act's other provisions 
will help to save millions of dollars in litigation costs that would 
otherwise go on to taxpayers, while assuring the protection of hundreds 
of Montanan's water rights across the state. This act is good for 
Montanans and the American Public, and I give it my full support.

        Sincerely,
                                           Travis D. Anklam
                                 ______
                                 
                                               Missoula, MT
                                                           7/7/2020
    I am writing to express strong support for returning the lands of 
the National Bison Range to the Confederated Salish and Kootenai 
Tribes.
    As a resident of nearby Missoula, the National Bison Range is a 
unique place and a matter of pride for all in Western Montana. But the 
fact that the range is not currently under the management of the very 
people who have stewarded this land for countless generations is 
unconscionable, and is an embarrassment for our state. Returning the 
National Bison Range to the CSKT tribes is an opportunity for our 
community, and nation, to learn from the wisdom of generations as we 
seek more resilient and sustainable ways of living on this planet for 
the years to come.

        Sincerely,
                                             Abigail Huseth
                                 ______
                                 
                                                Bozeman, MT
                                                           7/7/2020
To the Senate Committee on Indian Affairs,

    I strongly support Section 13 of the Montana Water Rights 
Protection Act that returns the lands of the National Bison Range to 
the Confederated Salish and Kootenai Tribes. This is an opportunity to 
right a terrible wrong done to a Tribal government by the United States 
of America. The land that is now called the National Bison Range lies 
wholly within the Flathead Indian Reservation and was acquired by the 
United States without the Tribes' consent in what was later held by a 
Federal Claims Court to be a taking. The Tribes will respect and manage 
the land well and ensure continued public access for non-Tribal 
individuals. Montanans can only benefit through this arrangement. I 
urge you to give S. 3019 your strongest support, and if it does not 
pass, please continue to fight for Section 13 in other legislation.

        Thank you,
                                               Bree Cummins
                                 ______
                                 
                    George Grant Chapter of Trout Unlimited
                                                      June 29, 2020
Senators Hoeven and Udall,

    On behalf of the George Grant Chapter of Trout Unlimited, I write 
in support of Senate Bill 3019, the Montana Water Rights Protection Act 
(WRPA). This bi-partisan legislation introduced by Senators Steve 
Daines and Jon Tester will provide federal approval for the water 
Compact negotiated between the State of Montana and the Confederated 
Salish and Kootenai Tribes. (CSKT)
    The George Grant Chapter of Trout Unlimited (GGTU) is based in 
Butte, Montana and represents the interests of over 300 conservation 
minded anglers in southwest Montana. Our group has been actively 
involved in conservation issues on the upper Clark Fork for over 25 
years and we are acutely aware of the water supply challenges in the 
Clark Fork Basin.
    The water rights Compact approved by the WRPA is the result of 
decades of negotiations between the Confederated Salish and Kootenai 
Tribes, the State of Montana and the federal government. The Compact, 
which was ratified by the Montana Legislature in 2015, equitably and 
permanently resolves disputes over the Tribes' water rights, saving 
water users the considerable time, expense and resources associated 
with years of litigation. When implemented, the Compact will ensure 
productive, cooperative management of waters throughout western 
Montana.
    Most importantly, GGTU supports the Compact because it contains key 
protections for fish and wildlife in the Clark Fork watershed. 
Specifically, it includes enhanced streamflow protections for the upper 
Clark Fork River (a river that faces chronic dewatering issues). 
Approval and implementation of the Compact will produce new and 
productive partnerships between the Tribes, federal agencies and state/
local partners that will focus on the common objective of conserving 
Montana's water resources.
    Congressional approval for the water compact has been debated over 
the course of several Congresses. Please act now to approve the WRPA.

        Sincerely,
                                   Mark Thompson, President
                                 ______
                                 
                                  MONTANA STATE LEGISLATURE
                                                      June 30, 2020
Chairman Hoeven,

    We would like to request that the Senate Committee on Indian 
Affairs hold a field hearing in Kalispell, Flathead County, Montana on 
S. 3019, the Montana Water Rights Protection Act. The combined 
populations of Flathead, Lake, and Sanders Counties is roughly 13 
percent of the state population, making it an ideal location for a 
hearing. Furthermore, we ask that at least one such hearing be held at 
a time of day that would permit as many Montanans as possible to 
participate and have their voices heard. If a second hearing can be 
accommodated, we would suggest Great Falls, Cascade County, Montana as 
it is east of the continental divide.
    Along with the two-thirds of Montanans that could be negatively 
impacted by passage of this legislation, we believe it is imperative 
that your committee members have the opportunity to hear from those who 
stand to lose so much. Signed nearly 165 years ago, the original 
Hellgate Treaty has no mention of water rights for the Confederated 
Salish and Kootenai Tribes of the Flathead Indian Reservation. If 
passed, this legislation will set a precedent for tribes across the 
nation, and perhaps into Canada as well, looking to pursue similar 
action--making it all the more prudent to hold a field hearing in 
Montana's Flathead Valley. During your committee's hearing on June 24, 
2020, comments by multiple senators, such as Maria Cantwell, indicate 
that this will be a model for other tribes going forward.
    We appreciate your consideration and look forward to working with 
you to ensure that this proposed field hearing is a success.

        Respectfully,
                            Sen. Mark Blasdel CR-Kalispell)
                               Sen. Cary Smith CR-Billings)
                            Sen. Dee Brown CR-Hungry Horse)
                        Sen. Al Olszewski, MD CR-Kalispell)
                               Sen. Roger Webb CR-Billings)
                   Sen. Jennifer Fielder CR-Thompson Falls)
                            Sen. Keith Regier CR-Kalispell)
                            Sen. David Howard CR-Park City)
                                   Sen. Mike Lang CR-Malta)
                         Sen. Kenneth Bogner CR-Miles City)
                                Sen. Bob Keenan CR-Bigfork)
                             Rep. Brad Tschida CR-Missoula)
                                   Rep. Carl Glimm CR-Kila)
                          Rep. Alan Redfield CR-Livingston)
                             Rep. John Fuller CR-Kalispell)
                               Rep. Mark Noland (R-Bigfork)
                       Rep. Forrest Mandeville (R-Columbus)
                              Rep. Dan Bartel (R-Lewistown)
                         Rep. Wendy McKamey (R-Great Falls)
                         Rep. Theresa Manzella (R-Hamilton)
                             Rep. Matt Regier (R-Kalispell)
                          Rep. Bob Brown (R-Thompson Falls)
                             Rep. Derek Skees (R-Kalispell)
                               Rep. Peggy Webb (R-Billings)
                               Rep. Tom Burnett (R-Bozeman)
                      Rep. Greg De Vries (R-Jefferson City)
                 Rep. Lola Sheldon Galloway (R-Great Falls)
                                 ______
                                 
                                                  7/16/2020
To the Honorable Senator Steve Daines,

    I am writing today to ask for your support for S. 3019, the Montana 
Water Rights Protection Act. This act, introduced by Senator Steve 
Daines (R-MT) and subsequently cosponsored by Senator Jon Tester (D-
MT), has broad bipartisan support from each of Montana's major 
agricultural organizations, our state's business community, and our 
counties and municipalities.
    S. 3019 is necessitated by the lawful requirement to quantify the 
Confederated Salish and Kootenai Tribe's Indian reserved water right. 
There is a rich history of judicial action that supports and secures 
Indian reserved water rights and this settlement accurately follows in 
the footsteps of historical jurisprudence.
    The quantification process inevitably uncovers many thousands of 
competing water rights claims that then must be settled. Settlement can 
occur either through negotiation or through litigation. This act, by 
including the CSKT water compact, replaces expensive and time consuming 
litigation with the product of a fair and thoughtful negotiated 
settlement.
    Montana's agricultural economy, our fisheries and tourism economy, 
and our local governments are all dependent on clearly defined access 
to water. This act provides a clear and lawful definition and, by doing 
so, it provides long term water security to our state's water users.
    Again, I am asking for your support of S. 3019, the Montana Water 
Rights Protection Act. This settlement represents Montana's final 
required Indian reserved water rights legislation and its passage is 
necessary to protect the future well being of the engines of Montana's 
economy.

        Respectfully,
                                  Representative Llew Jones
                                 ______
                                 
                       U.S. Department of Homeland Security
                                                      July 23, 2020
Dear Chairman Hoeven and Vice Chairman Udall:

    Set out herein are the Department of Homeland Security's views on 
S. 2165, the ``Safeguard Tribal Objects of Patrimony Act of 2019.''
    In brief, the Department of Homeland Security supports the 
Committee's efforts to deter the illicit exportation of Native American 
cultural items, Native American archaeological resources, and Native 
American objects of antiquity. To that end, the Department of Homeland 
Security supports the intent of S. 2165. The Department of Homeland 
Security, however, notes that the section 3 text and the section 5(b) 
text do not wholly comport with current customs law and practice, and 
the Department of Homeland Security fears that these variances could 
adversely affect the measure's intended efficacy. The Department of 
Homeland Security recommends that the Committee adopt a slight, yet 
significant change in terminology so that the U.S. Customs and Border 
Protection is able to implement the export controls effectively and 
efficiently.
    Enclosed is draft legislative text that the Department of Homeland 
Security proffers for the Committee's consideration. *
---------------------------------------------------------------------------
    * The information referred to has been retained in the Committee 
files.
---------------------------------------------------------------------------
    The Office of Management and Budget advises that, from the 
viewpoint of the President's program, there is no objection to the 
presentation of this letter to the Committee.

        Respectfully,
   BETH SPIVEY, Assistant Secretary for Legislative Affairs
                                 ______
                                 
                               FIVE VALLEYS AUDUBON SOCIETY
                                                   January 23, 2017
Dear Chairman Finley,

    The Board of the Five Valleys Audubon Society, Missoula, MT has 
reviewed the Draft Legislation to Restore the National Bison Range to 
the Confederated Salish and Kootenai Tribes, and has voted unanimously 
to support this proposal. We recognize the Tribes' cultural and 
historical connection to bison and to the lands of the Bison Range-
which are wholly located within the Flathead Reservation. We also 
acknowledge the expertise the Tribes' have demonstrated in wildlife 
management and endangered and threatened species recovery.
    Our Chapter appreciates the varied habitats, wildlife, and bird 
species supported on Tribal lands. We annually visit these areas during 
field trips, to help others enjoy the wildlife and appreciate the rich 
natural resources of the Mission Valley. In addition, our Chapter has 
deep ties cooperating with local refuge management, and in fact we 
participated in the `adopt a refuge program' at Ninepipe Refuge during 
the 1980s. We also have helped secure past Land Water and Conservation 
funding for nearby Waterfowl Production Areas. In that spirit, our 
Chapter would like to offer our continued volunteer support, if that 
would be helpful, in such activities as bird surveys or winter raptor 
counts, for example.
    We are pleased that the transfer stipulates continued public access 
at the Bison Range, and that the transfer in no way could be construed 
as setting a president for relinquishing management other federal 
lands.
    Thank you for your continued commitment to science-based wildlife 
and habitat management.

        With kindest regards,
                               Rosemary H. Leach, President
                                 ______
                                 
            Habitat Protection, Last Chance Audubon Society
                                                           7/9/2020
    I am writing to comment on the Montana Water Rights Protection Act 
(S.3019), which the Senate Indian Affairs Committee heard on June 24th. 
I support this bill. It is a moderate, bipartisan solution that will 
preserve water claims for current users in western Montana while giving 
long-overdue recognition to the Confederated Salish and Kootenai 
Tribes' unceded water rights and empowering the tribe to continue their 
leadership in wildlife conservation.
    A small but vocal minority of Montanans have voiced concern that 
the Confederated Salish and Kootenai Tribes (CSKT) would be incapable 
of assuming management of the National Bison Range, as proposed in 
S.3019. In fact, the CSKT has a robust history of successful and 
innovative partnerships to manage and restore wildlife habitat. One of 
several excellent examples is their highly successful Trumpeter Swan 
reintroduction program--which has brought a population up from total 
extirpation to almost 200 thriving swans. Ironically, the National 
Bison Range actually lies on treaty-protected tribal lands, stolen by 
the federal government without consultation in the early 1900s. In a 
further irony, tribal members (including Michel Pablo and Charles 
Allard) had already undertaken restoration of bison to the Mission 
Valley--prior to the confiscation of tribal lands for the National 
Bison Range. Indeed, the liquidation of the Pablo herd was a result of 
allotments policy in the early 1900s--a federally orchestrated program 
that once again violated treaties and the U.S. government's trust 
responsibility, drastically shrinking Native reservation lands and 
eroding community governance systems. It is only fitting to restore the 
responsibility for bison management to the CSKT--along with the 
proposed portion of the tribes' water rights, which have a ``priority 
date'' that is hundreds if not thousands of years before the first 
Euro-American settlers.
    I am a citizen of Helena, Montana, where I live on the traditional 
territories of the Salish, Kootenai, and Blackfeet people. The Montana 
Water Rights Protection Act will be a step forward for all Montanans as 
we acknowledge our indigenous communities and leadership, past and 
present, and work together with tribes to provide for all of our 
existing communities and for our rich wildlife heritage. Please feel 
free to contact me if you have any questions.

        Sincerely,
                                         Shane Sater, Chair
                                 ______
                                 
                                           St. Ignatius, MT
                                                       July 7, 2020
Dear U.S. Senate Indian Affairs Committee:

    I am a non-Tribal resident of the Flathead Indian Reservation. I am 
a middle school teacher at the Two Eagle River Tribal school in Pablo, 
Montana. I teach Tribal children and participate in Tribal events.
    I support the Montana Water Rights Protection Act (S.3019) because 
Montana and the United State need to settle the legitimate water right 
claims of the Confederated Salish and Kootenai Tribes and because the 
National Bison Range property needs to be returned to its rightful 
owner, the Tribes. S. 3019 finally settles these claims and the return 
of Tribal lands in a fair manner, including providing funding for 
Flathead Irrigation Project upgrades and modernization so important to 
conserving water for all users, including the Tribes, irrigators and 
fish and wildlife as Climate Change advances.
    There are some loud people on the reservation and off who oppose 
this important legislation. I think it's instructive that these voices 
are a small minority who seem to think that litigating each Tribal 
water right claim somehow makes sense. S.3019 charts a more intelligent 
way forward by modernizing the irrigation system and thus ensuring that 
no one will lose their water allocation. It also will avoid costly, 
divisive litigation.
    There is absolutely no argument that Tribal rights precede all 
other rights. It is fully appropriate that Tribal claims get recognized 
and settled. This legislation arose out of years and years of 
negotiations, Montana legislative deliberation and vote, revision and 
final agreement.
    We would also note the support for this legislation from the 
Tribes, the Trump Administration, the U.S. Attorney General, and the 
Montana Congressional Delegation.
    Please pass this important legislation out of committee.

        Sincerely,
                                           Jaimie Stevenson
                                 ______
                                 
                                               Kalispell Mt
                                                      July 16, 2020
Senator Tester

    I would like to voice my support for the Water rights protection 
act. I am a large irrigator in Northwest Montana. I also was a State 
Senator and voted for the CSKT water compact in the 2015 session. The 
negotiated CSKT compact is a win for both the CSKT tribe and the other 
citizens of Montana. I have read the complete text and have a good 
understanding of the CSKT compact.
                       Bruce Tutvedt, Montana State Senator
                                 ______
                                 
                                                  Helena MT
                                                           7/2/2020
    I am writing to voice support for passage of the Montana Water 
Rights Protection Act (S. 3019). This bill would ratify the water 
compact reached some years ago between the Confederated Salish and 
Kootenai Tribes and the state of Montana, as well as restore management 
of the National Bison Range to the Tribes. This important legislation 
would provide federal approval of the state's efforts to reach 
agreement with the Tribes, while protecting non-Indian water rights as 
well. Further, the Tribes have shown they are capable and competent 
managers of natural resources, meriting the restoration of their 
management of the bison range.
                                                Curt Larsen
                                 ______
                                 
                                                   7/9/2020
    I am in solid and appreciative support of the Montana Water Rights 
Protection Act (S. 3019), heard before the Senate Indian Affairs 
Committee on June 24. I am so pleased that both our Montana senators 
are behind this.
    I understand that this Act would honor current water claims for 
users in western Montana, but at the same time recognizes the unceded 
water rights of the Confederated Salish and Kootenai Tribes and gives 
the tribe jurisdiction to manage the National Bison Range. This is 
consistent with ethics and justice, and additionally recognizes work 
that tribal members (including Michel Pablo and Charles Allard) had 
already begun (restoring bison to the Mission Valley) BEFORE our 
federal government violated treaty agreements and stole tribal lands 
for the National Bison Range in the early 1900's. In addition to 
returning significant treaty rights and honoring the history and legacy 
of stewardship & wildlife conservation of the Salish & Kootenai 
peoples, we can also point to successes like their robust 
reintroduction of Trumpeter Swans. The swans were nearly wiped out, and 
the tribes' careful work has restored a thriving population that now 
numbers almost 200.
    I applaud such federal action in Montana as this bill proposes with 
no hesitation--it is reparation for past wrongs that we can make with 
pride!
    With legislation like this, we are beginning to set right some of 
the illegal and unethical actions of our forebears. This is so long 
overdue. That instead of being embarrassed & ashamed, here is this 
smart, balanced, bipartisan plan Montanans can get behind that repairs 
and offsets some good part of the damage done by our having stolen 
lands, water rights & environmental/ecosystem stewardship, and 
dishonorably breaking treaties. Bravo.
    I am a citizen of Missoula, traditional Salish lands.
    Thank you SO MUCH and please enter my strong supportive voice in 
this conversation.

        Appreciatively,
                                          Ms. Carol Wilburn
                                 ______
                                 
                                                   7/7/2020
    In a time when racial injustice is at the surface, visible and 
visceral, to the world, there is an opportunity to help right a wrong 
in Montana Indian Country. The Montana Water Rights Protection Act (S. 
3019) would return the lands of the National Bison Range to the 
Confederated Salish and Kootenai Tribes to continue preservation of the 
bison and provide public access and educational opportunities. The land 
that is now called the National Bison Range was acquired by the United 
States without the Tribes' consent in what was later held by a Federal 
Claims Court to be a taking.
    Returning the land to federal trust ownership for the benefit of 
the Tribes may be one small step towards strengthening sovereignty and 
repairing the harms of colonialism, but it will make a significant 
difference in the lives of many CSKT Tribal members.
    I feel very strongly that NOW is the time to make at least this one 
small gesture towards understanding and reparation for one of many many 
insensitive and unjust actions on the part of the US government against 
Native American peoples.
    Please include my comments in the June 24, 2020 hearing record for 
S. 3019, the Montana Water Rights Protection Act.
    Thank you.
 Kerry L. Krebill, Artistic Director, Musikanten (Bethesda 
 MD) and Musikanten Montana (Helena MT); General Director, 
        Helena Choral Week and Montana Early Music Festival
                                 ______
                                 
                                              Billings, Mt.
                                                           7/7/2020
    Please return the land taken from reservation land belonging to the 
tribes for the purpose of the National Buffalo Management and care. 
This land belonged to the tribes and was wrongly taken from them! U.S. 
Govt has got to STAND FOR SOMETHING, and STAND BEHIND ITS AGREEMENTS 
with Native people. It's time to right this wrong.
    Please vote to restore the Water Rights Protection Act S. 3019 and 
include my remarks in the hearing.
    Thank you!
                                            Bonnie Eldredge
                                 ______
                                 
        Pat Barnes Missouri River Chapter of Montana Trout 
                                                  Unlimited
                                                      June 28, 2020
Dear Members,

    The Pat Barnes Missouri River Chapter of Montana Trout Unlimited 
wishes to express our strong support of the Montana Water Rights 
Protection Act, S. 3019, the legislation to federally ratify the 
Confederated Salish and Kootenai Tribes (CSKT) Water Compact.
    We support this legislation for a number of reasons, chief among 
them the coldwater fisheries conservation aspects of the agreement that 
were reached between the CSKT, stakeholders, and the state of Montana. 
Further, the Compact under your consideration includes increased 
instream flow measurements that will allow for more water resources 
being available for wild and native fish.
    The state of Montana has a Constitutional duty to ensure a clean 
and healthful environment for and trust obligation for the future 
health of Montana's fish and wildlife resources, and this Compact 
certainly helps meet that objective. This is not only good for native 
fish, but good for the sportsmen and women who spend millions every 
year in the Montana economy and our communities.
    At the same time, the Compact strengthens Montana's $4 billion 
agriculture economy and will lead to new water infrastructure projects 
and provide certainty on water rights for both tribal and non-tribal 
water users. Without enactment of this compact, individual water users, 
especially irrigators and property developers, face incredible risk 
with the prospect of decades litigation to sort out water rights. We 
are concerned that our coldwater fisheries will lose out in that 
battle.
    We are very proud of the leaders who brought people together to 
produce an agreement that all can benefit from. Senator Daines and 
Senator Tester deserve much of the credit for getting this Compact to 
the position it is currently in. We urge you to join us in supporting 
the Montana Water Rights Protection Act (S. 3019)
        Sincerely,

                                 Shalon Hastings, President
                                 ______
                                 
                                          Missoula, Montana
                                                           7/8/2020
Greetings,

    This legislation would return the lands of the National Bison Range 
to the Confederated Salish Kootenai tribes and would be one step toward 
righting a great wrong against the people who originally populated this 
region. I strongly urge members of the Senate, including Montana 
Senators Jon Tester and Steve Daines, to support this legislation.
    Learning the history of these lands is helpful in understanding how 
great the injustice was. In the 1870s, a tribal member (Atatice) 
brought herds of bison to the area from east of the Continental Divide. 
Other tribal members (Michel Pablo and Charles Allard) continued to 
increase the size of the herd, which then roamed freely in the area. 
This effort to return bison to a people who had traditionally depended 
on them ended with the Allotment Act of 1904, by which reservation land 
was divided into parcels suitable for farming by white settlers--a 
clear violation of the previous US government dedication of the land as 
a reservation for the tribes in perpetuity. The Allotment Act removed 
60 percent of the reservation land base, thus impacting the lives and 
well-being of tribal members in numerous and devastating ways. Allowing 
the bison to roam freely was no longer an option, and the present 
National Bison Range, a much smaller and fenced area, was dedicated as 
a home for bison that were not sold off. The Bison Range is now under 
the jurisdiction of the National Fish & Wildlife Service.
    The CSK tribes seek to have the responsibility for managing the 
Bison Range transferred from the US Department of Fish & Wildlife to 
them. It lies completely on Reservation land and is a rightful part of 
their heritage. CSK tribes currently manage other resources through 
their departments of Tribal Lands, Tribal Forestry, and Natural 
Resources and will manage this resource in a manner that reflects their 
dedication to the land and the bison that have been integral to their 
history for generations.
    I request that the Committee include my comments in the June 24, 
2020, hearing record for S. 3019, the Montana Water Rights Protection 
Act.

        Sincerely,
                                  Suzanne Sherman Aboulfadl
                                 ______
                                 
                                                Stockett MT
                                                           7/8/2020
    I am writing to ask your support for S. 3019, the Montana Water 
Rights Protection Act, to return control of the National Bison Range to 
the Salish-Kootenai tribes, to preserve the bison along with the water, 
land and life on the Flathead. There is no better way to protect this 
area, and no more positive action that could be taken in this time of 
uncertainty for people and the planet. As a Montana resident, I know 
firsthand the importance of water rights, and believe that S. 3019 is 
the best possible path to a good future for the bison and the people of 
Flathead country.
    Thank you for your work.
                                             Lauran Emerson
                                 ______
                                 
                                                   7/8/2020
Dear Committee Members:

    I understand that you are deliberating on The Montana Water Rights 
Protection Act (S. 3019). I have been a resident of Montana for over 37 
years. During this time I have visited The National Bison Range in 
every season and I have taken friends and family to visit this grand 
landscape on many occasions. I will never forget the time several years 
ago when management of the Range was temporarily in the hands of the 
Confederated Salish and Kootenai Tribes as an experiment, as I recall. 
When I went to pay my admission fee in the visitor center I said to the 
Native woman at the counter, "I'm so glad to see you back in charge of 
your land." She was shocked that I understood the history of the 
removal of this land from tribal control and that I appreciated her 
historical relationship to bison and all the other creatures that make 
the Refuge their home.
    I am strongly in favor of correcting this longstanding injustice. I 
want CSKT people to be able to manage their own land in the ways they 
see fit while insuring public access to Mission Creek, the prairie and 
mountain trails. CSKT land managers have proven their ability to 
restore the adjacent Jocko River, including youth in the process, to 
manage fire and deal with the weed problems we all face. In an era of 
great racial injustice, let's right the wrong and restore management of 
the Range to the people who have the longest history with it.

        Sincerely,
                                               Gary W. Hawk
                                 ______
                                 
                                                   6/7/2020
    I am writing in support of the Montana Water Rights Protection Act. 
I was born and grew up in Montana. Our family often took visitors to 
the Bison Range, but as a child, I didn't understand the significance 
of the bison for the tribes and their members.
    Now as an adult, I am acutely aware of that significance, and 
support returning the Range to the Salish and Kootenai Tribes.Please 
include my comments in the hearing record for Senate Bill 53019

        Thank you,
                                             Susan Barmeyer
                                 ______
                                 
         Montana Legislative Water Policy Interim Committee
Dear Chairman Hoeven and Vice Chairman Udall:

    As Chairman and Vice Chairman of the Montana Legislative Water 
Policy Interim Committee (WPIC), we submit this letter in strong 
support of S 3019, the Montana Water Rights Protection Act, introduced 
in the U.S. Senate by Senator Steve Daines and Senator Jon Tester.
    The Water Policy Interim Committee has worked to protect state-
based water rights and recognize the importance of a McCarren Amendment 
compliant statewide water adjudication in quantifying the CSKT's water 
rights. In 2018, the Committee sent a letter to the Department of 
Interior urging the administration to move forward with Federal 
Ratification. The CSKT Compact is a negotiated solution that is fair 
and reasonable for all water users in Montana.
    S. 3019 is a bipartisan solution that provides important cost 
savings to Montana and her citizens as well as creating thousands of 
jobs. The CSKT Compact is a fair and equitable solution that is the 
result of collaboration and working together as good neighbors.
    We strongly urge Congress to ratify the CSKT Compact and pass this 
bipartisan legislation without delay.

        Respectfully,
                        Representative Zach Brown, Chairman
                        Senator Jeff Welborn, Vice Chairman
                                 ______
                                 
                             Montana Wilderness Association
                                                       July 1, 2020
Dear Chairman Hoeven and Vice Chairman Udall:

    On behalf of Montana Wilderness Association, we write to support 
Senate Bill 3019, the Montana Water Rights Protection Act, jointly 
introduced by Montana Senators Steve Daines and Jon Tester. The 
legislation would resolve more than a century of federal mismanagement 
of Tribes' water resources, contribute to tribal economic development, 
and provide security to water users on and off the reservation.
    The legislation also restores federal trust ownership of the 
National Bison Range for the benefit of the Confederated Salish and 
Kootenai Tribes, which we also strongly support. Given the historical 
circumstances surrounding these lands, we believe this restoration is 
just and supports tribal sovereignty. As described in the bill, the 
lands that currently compose the National Bison Range were taken from 
the Tribes without consent. The bill is explicit in requiring continued 
conservation of the land and wildlife as well as public access. The 
Tribes have consistently demonstrated their commitment to conservation 
over the years, establishing the nation's first Tribal Wilderness in 
the Mission Mountains and restoring threatened and endangered species 
to their lands. This restoration of lands into federal trust is in 
response to a very unique set of historical circumstances, and will not 
set a precedent for any other federal lands.
    For these reasons, Montana Wilderness supports S. 3019 and urges 
the committee to advance it.
    Thank you for your consideration.

        Sincerely,
                            Ben Gabriel, Executive Director
                                 ______
                                 
                                               Superior, MT
                                                           7/8/2020
    I urge you to support the return of the National Bison Range to its 
rightful owners, the Salish and Kootenai Tribes. Buffalo are a part of 
Native culture and they, in fact, were responsible for establishing 
this herd of buffalo in the first place. The tribes have the capacity 
not only to manage the facility successfully, but would also 
incorporate valuable elements of Indian history into the site.

        Thank you,
                                            Diane L. Magone
                                 ______
                                 
                                                   7/7/2020
    I have lived in Montana for 17 years, and grew up in Northern 
Idaho, traveling past the National Bison Range many times. I am fully 
in favor of returning the lands to the Confederated Salish and Kootenai 
Tribes. I have no doubts that the tribes will manage the bison range 
responsibly, and it will remain open to the public so that Montanans 
and others can appreciate the landscape and the animals.
    Returning the lands to the tribes would also help to right the 
wrong that was done when the United States took the land without 
consent. It will make a great difference to tribal members, and help 
towards healing between the tribes and the US government. This will 
benefit everyone involved.
                                            Kristin Harbuck
                                 ______
                                 
                                               Missoula, MT
                                                           7/7/2020
Dear US Senators:

    I urge you to pass the Montana Water Rights Protection Act (S. 
3019). Returning the lands of the National Bison range to the 
Confederated Salish and Kootenai Tribes would take a necessary step 
towards righting the grievous wrong committed when the United States 
took that land from the tribes in an action held by a Federal Claims 
Court to be an unlawful taking.Returning the land to federal trust 
ownership for the benefit of the Tribes may be one small step towards 
strengthening sovereignty and repairing the harms of colonialism, but 
it will make a significant difference in the lives of many CSKT Tribal 
members who have a historic, ancestral connection to the range and the 
bison.
    So please: do the right thing and pass S. 3019.
                                            Salim Matt Gras
                                 ______
                                 
                                                   7/7/2020
    Please return the National Bison Range to the tribe from which it 
was taken. I trust them to manage it well.
    In returning it, you can right one of the many wrongs that our 
government inflicted on America's native peoples.

        Thank you,
                                          Janice L. Roberts
                                 ______
                                 
                                                   7/7/2020
    I am writing to express my strong support for the return of the 
National Bison Range to the tribes. I am a resident of the Flathead 
Reservation and have seen the responsible leadership provided by the 
tribes and believe they would and should do the best job possible for 
the bison and public. This is their land and it should be returned to 
them to manage at the very least. Please include my comments in the 
June 24, 2020 hearing record for S. 3019, the Montana Water Rights 
Protection Act.

        Sincerely,
                                              Linda S. Veum
                                 ______
                                 
                                             Arlee, Montana
                                                           7/7/2020
    I am a tribal member from the Fort Peck Reservation, where my dad 
was a wheat farmer, but I have now lived most of my life on the 
Flathead Reservation. I practiced Indian law for 31 years in Montana 
and am generally familiar with most of the tribal governments. Early in 
my legal career, I was an in-house attorney for the Confederated Salish 
and Kootenai Tribes (CSKT) for a decade, and specialized for many of 
those years on issues surrounding the Flathead Indian Irrigation 
Project (FIIP). A FIIP irrigation ditch now crosses on our land in the 
Jocko Valley, and I have neighbors on both sides of this issue.
    I find it noteworthy that some of the principle irrigator opponents 
to the CSKT back in the late 1980s are now some of the strongest 
supporters of this water compact and S. 3019. How did that happen? It 
happened because both sides came to know each other better and realized 
that there is more to be gained by working in partnership than endless 
litigation. In my opinion, the single most important Indian legislation 
to come before and pass the Montana Legislature in the last 50 years 
was the CSKT Water Compact. I drove over to listen to the final 
argument on the House floor.
    I am aware of compromises the CSKT made to accommodate the concerns 
of the State of Montana and reservation irrigators. The State of 
Montana and irrigators can point to their compromises as well. That's 
how agreements work. The successful ones. What the water compact 
agreement delivers is certainty and stability for everyone: a solid 
economic foundation for the Flathead Reservation and certainty for 
Montana agriculture in uncertain times. (My brother now operates the 
wheat farm, and uncertain times is an understatement of the challenges 
facing farmers, for those whose family farms have managed to survive.) 
The aging FIIP will get badly needed improvements and improved water 
management practices overseen by joint management. And the CSKT's 
involvement will ensure that impacts on reservation fish and wildlife 
are fully considered and mitigated in project management. I am 
confident that thirty years from now, when others look back on S. 3019, 
it will be viewed as one of the most successful and important tribal 
water settlements in the West.
    Last, I support the transfer of the National Bison Range to the 
CSKT, another historic accomplishment. While Teddy Roosevelt and 
William Hornaday are heroes of mine for their efforts at the end of the 
19th Century to speak out and try to save the last of the wild bison, 
confiscating the CSKT's lands to do it was not right. Just as the time 
has come for the Smithsonian's Natural History Museum in New York to 
remove the statute of Teddy Roosevelt on a horse, with a slave and an 
Indian at his feet in tow, the time has come to restore the bison range 
lands to their rightful owner, the CSKT, whose tribal members played 
such a critical role in bison restoration through what became the 
Pablo-Allard herd. The legislation has safeguards assuring continued 
management exclusively for bison and wildlife purposes, as well as 
public access, and I personally look forward to witnessing their 
contributions to the management of the bison range in this new chapter 
of its history.

        Thank you for letting me comment,
                                                  Pat Smith
                                 ______
                                 
                                               Missoula, MT
                                                           7/8/2020
Dear Senate Committee on Indian Affairs,

    I have visited the Bison Range on multiple occasions for bird 
watching, with cultural archeologists, and for spirit restoring days on 
a piece of native Montana land. I believe Tribe management of the Bison 
Range would further its preservation while allowing visitors to deepen 
their knowledge and connection to the Indian Country and its peoples.
    Since the land that is now called the National Bison Range was 
acquired by the United States without the Tribes' consent it's an 
opportune time to return it to its rightful and capable owners via the 
Montana Water Rights Protection Act.

        Sincerely,
                                         Jean Claire Duncan
                                 ______
                                 
                                                   7/2/2020
    As a Montanan who lives near the the National Bison Range I support 
the Montana Water Rights Protection Act. The land currently called the 
National Bison Range was acquired by the USA without the local tribes 
consent. Returning the land to federal trust ownership for the benefit 
of the Tribes will be a small step in the right direction. The CSKT has 
a cultural and historical connection to bison and to the land of the 
bison range. I trust that they will effectively manage the refuge both 
for preservation of the bison and for continued public access. The 
taking of the land from the Tribes was an injustice that needs to be 
corrected.

        Thanks,
                                                 Mary Owens
                                 ______
                                 
                     Margery Hunter Brown Indian Law Clinic
                                                           7/8/2020
Dear Chairman Hoeven, Vice-Chairman Udall, and Members of the 
Committee:

    The Margery Hunter Brown Indian Law Clinic (MHBILC) at the 
Alexander Blewett III School of Law at the University of Montana 
appreciates the opportunity to submit these comments to be entered in 
the record of the hearing on Senate Bill 3019 (S. 3019), which took 
place on June 24, 2020.
    The MHBILC was established in 1980 to provide law students with the 
opportunity to gain practical experience regarding Indian law issues 
and generally focuses on projects affecting tribal governments, their 
citizens, and the rights of both. Although the MHBILC often works with 
and represents tribes and tribal members, these comments are not 
submitted on behalf on any tribe or tribal interest and do not advocate 
for a particular outcome or decision. Instead, consistent with the 
commitment to public service on behalf of both the MHBILC and its home 
institution, the MHBILC developed these comments with the intent of 
assisting in the consideration of important Indian law-related issues 
in the context of this bill.
    As discussed at the Committee's hearing, S.3019, co-sponsored by 
Montana Senators Steve Daines and Jon Tester, will ratify the water 
compact negotiated between the Confederated Salish and Kootenai Tribes 
(CSKT) and the State of Montana and transfer the management of the 
National Bison Range from the U.S. Fish and Wildlife Service to the 
Tribes. The compact would settle tribal claims to water rights across 
what is now Montana and, in light of these longstanding issues, S. 3019 
and the water compact it seeks to ratify is best understood within the 
historical and legal contexts in which they arise.
    For over a century, the United States Supreme Court has recognized 
the importance and nature of water rights reserved by tribes through 
treaties and the creation of Indian reservations. See United States v. 
Winans, 198 U.S. 371 (1905); Winters v. United States, 207 U.S. 564 
(1908). Despite those rulings, however, tribal rights have not been 
protected. In 1973, for example, the National Water Commission reported 
to the President and Congress on the state of water and water rights in 
the nation at the time and noted that, ``[i]n the history of the United 
States Government's treatment of Indian tribes, its failure to protect 
Indian water rights for use on the Reservations it set aside for them 
is one of the sorrier chapters.'' National Water Comm'n, Water Policies 
for the Future-Final Report to the President and to the Congress of the 
United States 475 (1973), available at https://www.epw.senate.gov/
public/--cache/files/0/9/09fa2cfd-e480-40e6-bdf6-fc9fc8b5b0e3/
6A20EC2999F0441563294B9DFFCFDD6E.water-policies-for-the-future-final-
report-1973.pdf.
    Like Indian tribes across the country, the CSKT have historically 
been deprived of the full extent and use of water rights reserved by 
and for the Tribes in the Hellgate Treaty of 1855. The water compact to 
be ratified by S. 3019 would enable the Tribes to take advantage of the 
rights guaranteed to them by the Treaty and the U.S. Supreme Court by 
confirming the CSKT's water rights, returning the management of the 
water on the sovereign CSKT nation to the Tribes, and establishing a 
collaborative and innovative management plan for water resources with 
the state of Montana. While the use of water and water rights in 
Montana have certainly evolved since the Hellgate Treaty of 1855, the 
compact and S. 3019 take these adaptations into account, and, like the 
application of many principles of federal Indian law in modern times, 
the CSKT and the State of Montana have negotiated the compact to 
balance the Tribes' legal rights with the development of an equitable 
and effective management plan.
    In addition to the historic, treaty-based nature of the rights that 
the compact and S. 3019 seek to resolve, more recent history is also 
relevant to consider. The compact was developed through a 
collaborative, negotiated process designed to resolve reserved rights 
across the State of Montana. The Montana Reserved Water Rights Compact 
Commission (RWRCC), specifically. The RWRCC was established by the 1979 
Montana Legislature ``to conclude compacts for the equitable division 
and apportionment of waters between the state, its people, and the 
several Indian tribes and the federal government claiming reserved 
water rights within the state. Section 85-2-701, MCA''. Since its 
foundation, the RWRCC has helped to negotiate eighteen compacts, 
including those settling the reserved water rights of the Indian tribes 
in Montana.
    The compact to be ratified and authorized by the Montana Water 
Rights Protection Act was negotiated by the RWRCC, which noted in a 
recent report in support of the bill's ratification that the approval 
of S. 3019 will result in ``significant benefits to Montanans.'' The 
RWRCC's deliberations on Montana's behalf, in the context of past 
compacts, have taken into account public consideration, cooperation, 
and ``common-sense solutions to water use problems'' (dnrc.mt.gov). The 
compacts that the commission has supported in the past have been 
forward-thinking and collaborative; the Montana Water Rights Protection 
Act does not stray from these principles. The RWRCC's support of S. 
3019 serves as yet another example of the benefits and the widespread 
support of this legislation.
    Finally, though technically separate from the legal status of the 
CSKT's reserved rights to water and the negotiation of the compact 
through the RWRCC, the transfer of the National Bison Range to the 
Tribes is a viable conservation decision that, like the Tribes' water 
rights, should be viewed through the lens of history. The CSKT have a 
cultural imperative to ensure the preservation and well-being of bison, 
as has been demonstrated in the Salish and Kootenai's integral role in 
saving the animal from extinction in the 1800s. See https://
bisonrange.org/. S. 3019 would restore the National Bison Range to the 
federal trust ownership for the benefit of the CSKT, which would again 
ensure the lands are reserved for the Tribes benefit as set forth in 
the Hellgate Treaty of 1855.
    The restoration of the National Bison Range to the CSKT is not only 
a wise decision for the continued health and longevity of the National 
Bison Range, but would also serve as some measure of justice for the 
long-standing injury caused by the unconstitutional taking of the land 
that became the National Bison Range from the Tribes without their 
consent. See, e.g., Confederated Salish and Kootenai Tribes v. United 
States, 437 F.2d 458 (Ct. Cl.1971). Like the compact's innovative 
approach to the management of historically reserved water rights, S. 
3019's inclusion of the return of the National Bison Range to the 
CSKT's oversight presents a workable, modern approach to a century-old 
legal issue.
    These historical and legal matters are relevant to the 
consideration of S. 3019 and the water compact that it proposes to 
ratify and we hope this letter is helpful in that process.

        Sincerely,
                Monte Mills, Associate Professor & Director
                                 ______
                                 
                                       Western Native Voice
                                                           7/7/2020
Dear Chairman Hoeven, Vice-Chairman Udall:

    On behalf of Western Native Voice, we write in support of S. 3019, 
the Montana Water Rights Protection Act, jointly introduced by Senators 
Steve Daines and Jon Tester of Montana. This legislation will provide 
Congressional approval for the water compact negotiated between the 
Confederated Salish and Kootenai Tribes (CSKT) and the State of 
Montana, and it also transfers the National Bison Range from the U.S. 
Fish and Wildlife Service to the CSKT. We strongly support both 
objectives.
    Western Native voice is a non-Partisan, Native-led, nonprofit 
organization, based in Billings, that works on all of Montana's lndian 
reservations and key urban centers to increase Native involvement in 
civic affairs, especially voting. We supponed the CSKT Compact when it 
was approved by the 2O15 Legislature. It is wonderful to see bi-
partisan support for this historic legislation. The ompact represents 
more than a decade of negotiations and has been the subject of dozens 
of public meetings and hearings. It has been fully vetted.
    Passage of this legislation will settle the CSKT's water rights and 
also claims regarding mismanagement of the tribes' water resources. 
Importantly, by settling the CSKT water claims, it avoids decades of 
water rights litigation by hundreds of Montana farmers and irrigators 
who would be forced to litigate their rights. That is precisely why 
Montana's major agricultural organizations are also in support of this 
legislation. The legislation also provides for rehabilitation of an 
aging irrigation project. This will improve overall water efficiency 
for the future benefitting all water users, including for fish and 
wildlife.
    We also strongly upport the provision of the bill that restores 
tribal ownership of the National Bison Range to the CSKT. The courts 
have ruled that the unilateral taking of the CSKT's lands for the bison 
rang was unconstitutional. The CSKT were leaders in bison preservation 
long before their lands were taken for the bison range, and so it is 
just and right that these lands be restored to tribal ownership 
especially where, as here, the lands are right in the middle of the 
Flathead Reservation. The CSKT are recognized as national leaders in 
conservation and fish and wildlife management. Time and time again they 
have demonstrated they are fully capable of managing tribal natural 
resources, resulting in extensive fish and wildlife restoration on 
their lands, and strong collaborative relationships with federal, state 
and other fish and wildlife managers. The legislation requires that the 
bison range lands continue to be managed exclusively for bison and 
wildlife purposes, as well as for public access.
    We appreciate th Committee holding this impo1iant hearing.
                    Pat Smith, Chairman, Board of Directors
                                 ______
                                 
                                                   Kila, MT
                                                           7/7/2020
    ``We respect the Tribes' cultural and historical connection to 
bison and that the National Bison Range (NBR) lies wholly within the 
Flathead Indian Reservation, on lands appropriated from the Tribes by 
the U.S. Government with minimal compensation.''
    I believe returning the land to federal trust ownership for the 
benefit of the Tribes may be one small step towards strengthening 
sovereignty and repairing the harms of colonialism. This action will 
make a significant difference in the lives of many CSKT Tribal members 
like Shane Morigeau.
    ``Shane and other Tribal members see the opportunity to revitalize 
and strengthen the Tribes' connection to the bison and that land 
through restoration of the range to the Tribes. He sees the chance to 
connect tribal youth more deeply with their culture and language, a 
language that is relational and depends on cultural experiences like 
interacting with bison. He sees it as one step in righting a wrong for 
a Tribe that was once slated for termination, and on a reservation that 
was sliced up by extensive allocation to non-Indians for 
homesteading.''
    I believe we have over homesteaded Native American land for 
interests that are not sustainable for the land as well as damaging to 
the land and area. I believe returning the land to the tribes is the 
answer for better management as well as enriching tribes cultural 
connection and livelihood to their historical rights and roots.
    I support that hopeful vision Shane shared by submitting my 
comments in support of the Tribes' right to have the National Bison 
Range returned to them.
    What is true for me:

        I have witnessed the effective wildlife management programs of 
        the Tribes on the Flathead Reservation;

        I have confidence in the Tribes' ability to manage the Refuge 
        both for preservation of the bison and for continued public 
        access;

        I believe the wrongful taking should be righted by returning 
        the land.

        Thank you for your time,
           Nancy Horne, TBT Master Practitioner, MMCP, CEMP
                                 ______
                                 
                        The Board of Flathead Wildlife Inc.
                                                           6/9/2020
Dear Senator Daines,

    Flathead Wildlife Inc. (FWI) has been in existence for 64 years and 
is the largest sportsmen and women club in northwest Montana. We are 
opposed to the transfer of the National Bison Range (NBR) into federal 
trust status for the Confederated Salish and Kootenai Tribes (CSKT) as 
proposed in S. 3019, the Montana Water Rights Protection Act. Through 
the years FWI has commented a number of times on management of the NBR. 
FWI and other groups have always advocated for keeping NBR under the 
proven, successful management of the US Fish and Wildlife Service as 
have the majority of public comments. FWI is also concerned about the 
potential net loss of 36,808 acres of public land as proposed in an 
exchange of federal lands to replace in-reservation state lands 
transferred to CSKT. Maintaining public access to public lands is a top 
FWI priority. Although CSKT allows non-tribal use of most of their 
lands, there is nothing to guarantee that continued use.
    Water right laws are complex and FWI does not claim to understand 
all the ramifications of the water rights settlement. FWI sees value in 
ending the uncertainty over water rights but that should be a stand-
alone resolution. Turning over public lands does nothing to address the 
quantity, quality and location of water available to CSKT. The National 
Bison Range and state lands have nothing to do with mitigating water 
rights, they are inappropriately being offered in lieu of cash 
compensation for surrendering water rights. Something as important as 
the transfer of the National Bison Range should be done as a stand-
alone bill, not attached to a complex water rights settlement. FWI 
applauds the efforts by you and Senator Tester to permanently authorize 
and fund the Land and Water Conservation Fund (LWCF) which has provided 
tremendous dividends to Montana's public lands. We see S. 3019 as a 
step backwards.
    The FWI Board met with Mr. Ron Catlett of your Kalispell office and 
Ms. Smith Works of Senator Tester's Kalispell office. Mr. Catlett was 
well versed in the details of S. 3019 and provided a good deal of 
information beyond the simple bill language which we appreciated. It 
was apparent that S. 3019 was the result of extended negotiations and 
therein lies part of the problem. CSKT, as a sovereign nation, often 
insists on secret negotiations. In some past negotiations on the NBR 
the US Fish and Wildlife Service wasn't even privy to details. While 
that may be CSKT's right, it prevents US citizens from knowledgeable 
participation in discussions of land and resource management. In FWI's 
past comments to USFWS on NBR management our testimony was displayed 
along with comments by other groups and individuals so we could see how 
public testimony shaped decisions. CSKT has often not been held to that 
standard.
    Ironically, the US Fish and Wildlife Service just completed a 
rigorous planning process on management of the NBR that included 
extensive public comment and FWI recently received a copy of the NBR 
Comprehensive Management Plan. The S. 3019 proposal would place the NBR 
under federal tribal trust status, therefore the CSK Tribal council 
would direct decisions related to uses including fees and restrictions 
of public use, development, management practices and goals. Accessing 
and commenting to the CSK Tribal Council is a daunting task. Further, 
CSKT's Damage Assessment relative to water rights is not available for 
public review. Therefore, FWI, the general public, and affected 
agencies and entities cannot review how damages were calculated or how 
the value of government lands offered as compensation were determined.
    FWI recognizes the significance of bison to CSKT culture. Bison 
also have a significance for the American people as demonstrated by 
designation of the bison as our official national mammal. FWI 
recognizes the role of Michel Pablo and Charles Allard Sr. in 
establishing a privately owned bison herd on the Flathead Reservation. 
However, Mr. Allard's heirs sold their bison in 1901, years before 
passage of the Allotment Act, and Mr. Pablo later sold his portion of 
the herd to Canada.
    The American Bison Society and US Congress established the National 
Bison Range and populated it with bison purchased with private citizen 
donations, including bison from the Conrad herd which originated from 
the Allard herd. FWI recommends you read the history of the NBR as 
compiled by retired FWS employee William C. Reffalt. Without the 
efforts of the American Bison Society and the US Congress, the lands 
that now comprise the NBR likely would have been homesteaded and this 
discussion would have been moot. The bison remaining on the Reservation 
after the Pablo herd roundup were scattered, hunted and otherwise taken 
outside of state law within a year or two.
    Establishment of the NBR in 1908-09 was a separate process from the 
Allotment/homesteading action of 1904 for the explicit purpose of the 
conservation of the bison. The CSKT were paid twice by the US 
Government to settle a fair price dispute for establishing the NBR and 
all lands removed from the Reservation under the Allotment Act. If the 
NBR is ultimately given back to CSKT, will CSKT repay those payments 
with interest? Through the years millions of dollars have been spent in 
developing the NBR and facilities. Will those investments be paid back?
    CSKT states that if they take over management of the NBR, it will 
remain open to the public. The NBR is in the top ten most visited 
refuges in the US and currently has a management budget of around $1 
million which is about half historic levels. Although the CSKT 
government is well run and well-funded, that is a significant financial 
burden. CSKT says it will develop a budget with visitor fees to defray 
costs. Currently, visitor fees are subsidized by the entire federal 
refuge system to remain affordable and citizens can complain to the US 
Fish and Wildlife Service and Congress if fees are not acceptable. Will 
CSKT be made to justify future visitor fee increases and what standing 
and process will US citizens have to complain to the CSK Tribal Council 
if fees become unreasonable? Could entrance fees be raised to the point 
where, although the NBR is technically open to the public, most average 
citizens cannot afford entrance? CSKT were given 30 bison in the 1980s, 
which they soon sold due to costs of maintaining a bison herd. S. 3019 
would relinquish control of the bison to CSKT and has only general 
statements about managing bison, wildlife, providing public access and 
controlling noxious weeds. What will happen if NBR management becomes 
too burdensome?
    S. 3019 only addresses transfer of the National Bison Range. 
However, the NBR is part of a Fish and Wildlife properties complex in 
the area including the Ninepipes National Wildlife Refuge (NWR), Pablo 
NWR and the Northwest Montana Wetlands Management District (Lake 
County). Will there be demands to return those other lands to CSKT 
management also? If the US Fish and Wildlife Service retains management 
of the remaining parcels, it would be challenging to maintain staff and 
resources to continue to manage those parcels minus the NBR since they 
are far removed from other NWR properties in northwest Montana.
    Population genetics prescribe that the bison herd should number 
1000 or more to maintain genetic integrity. The size of the NBR does 
not allow that herd size. The FWS has established a ``metapopulation'' 
comprised of all six of its bison herds on separate refuges with 
regular interchange of bison. The NBR bison are a vital component of 
the metapopulation, they contain the purest genetics of any of the 
herds and NBR bison are used to improve other herds. Removal of the NBR 
and its bison from that effort will severely threaten the success of 
the bison metapopulation and its goal of maintaining genetic integrity 
among all herds. Flathead Wildlife, Inc. believes there is a better 
solution by retaining the NBR under US Fish and Wildlife Service 
management but providing funding to CSKT to develop their own bison 
range. CSKT has extensive land holdings containing similar habitats in 
the area. Bison could be donated by the FWS to populate a new CSKT 
bison range. CSKT would be free to provide whatever level of cultural 
interpretation and public access they desire. CSKT has stated they 
would not hunt on the NBR other than management hunts. CSKT would be 
free to provide any level of hunting they wanted on their own bison 
range to recapture that part of their heritage. A CSKT bison herd could 
contribute to metapopulation management. By maintaining two herds in 
the Mission valley and doing periodic exchanges of bison, the genetics 
for each herd could be maintained at the currently high level.
    S. 3019 also proposes to grant 36,808 acres of Montana state trust 
land to CSKT. In exchange, Montana would be given a similar amount and 
value of federal land. State lands within the Flathead Reservation 
include valuable lands such as Elmo Fishing Access Site which was 
previously leased by Montana Fish, Wildlife and Parks and is now leased 
by Lake County. Many of the state lands have lessees who would be 
displaced. Any trades will result in a transfer of government lands now 
owned by Montana citizens to a sovereign nation with no guarantee of 
continued public access and a net loss of up to 36,808 acres of public 
land. If not all state lands can be traded, S. 3019 commits that 
federal lands elsewhere in Montana will be traded for private lands 
within the reservation to make up the difference. FWI believes a better 
option than trading for federal lands would be to purchase parcels of 
land in northwest Montana recently purchased by Southern Pines 
Plantation (SPP) from Weyerhauser. Those SPP parcels could then be 
deeded to Montana DNRC in exchange for deeding state trust lands to 
CSKT. In this manner there would be no net loss of public lands and the 
SPP lands traded to DNRC would remain available for timber management, 
wildlife habitat and public access and recreation.
    S. 3019 states that the proposed NBR transfer in no way should be 
considered precedent setting. However, there are other indigenous 
claims on federal lands under similar circumstances. It would be folly 
to claim lawyers and courts won't point at a NBR transfer as 
justification to pursue similar claims. The Blackfeet Nation makes 
basically the same claim to the east side of Glacier National Park. The 
Fort Belknap Indian Community is making similar demands for state and 
federal lands and water rights adjacent to their reservation. There are 
other indigenous claims across the nation. Stating lack of precedence 
in the S. 3019 will not settle or prevent those claims.

        Sincerely,
                                      Jim Vashro, President
                                 ______
                                 
                                               Belgrade, MT
                                                      June 27, 2020
Dear Montana Congressman,

    I am writing to you as a Professional Fly Fishing Guide in the 
state of Montana. I guide in southwest Montana and educate and 
entertain fishermen from all over the world on the Madison, Jefferson 
Gallatin and Yellowstone rivers among others. As a water user that is 
dependent on the resource as a source of income, I believe that passage 
of the CSKT Water Compact is critical. I am writing to express my 
strong support for S 3019, Th Montana Water Protection Act.
    In Montana, water is our most valuable resource. As someone who 
both enjoys the water for recreation, it also provides my family with 
an income that is essential. I believe that our cold water fisheries 
need to be cared for and respected, not only for the fish but for all 
of Montana's water users. This legislation will not only protect the 
fish and wildlife that depend on the resource for habitat, but will 
also support the economies across our state who rely on the resource 
for their success.
    The Montana Water Protection Act will allow for improving our 
fisheries by:

  <bullet> Ensuring instream flows for fisheries

  <bullet> Providing water for future development across western 
        Montana

  <bullet> Investing in critical irrigation infrastructure upgrades

  <bullet> Restoring habitats of native westslope cutthroat trout and 
        bull trout in western Montana

    I, along with many professional fishing guides around our state 
would agree that the Montana Water Rights Protection Act will benefit 
all Montanans. This bill will help ensure the health of the resource 
that the almost 900 guides in Montana depend on as part of the $917 
million dollar guided Fishing related economy. This revenue is part of 
the much bigger, nearly $8B/year outdoor recreation economy that 
healthy streams and rivers help make possible . In addition, It will 
provide jobs and opportunities for many other business owners and keep 
our cold water fisheries safe and productive.
    I encourage you gentlemen to act to preserve our resource so that 
myself and others who rely on it as an income, may maintain and 
continue to thrive on it for many years to come and for future 
generations.
    Ratify the Montana Water Protection Act!!

        Thank You,
                                             Jeffrey E Grom
                                 ______
                                 
                                                Bozeman, MT
                                                           7/8/2020
Greetings,

    My name is Graham Cummins, and I am a US citizen living in Bozeman, 
MT. I am writing to express support for S.3019, the Montana Water 
Rights Protection Act. Particularly, I support the settlement fund 
described by sections 8 and 9 and the national bison range restoration 
provisions in section 13.
    In addition to their hereditary rights, the Salish and Kootenai 
tribes have shown their commitment to natural resource management and 
their enduring love for this land. I can think of no better stewards. 
Restoration of the bison range to the tribes will benefit the land 
itself and all nearby residents and visitors.
    I would like my comment to be included as a public comment on the 
June 24, 2020 hearing record for S. 3019.
    Thank you for your time and public service.
                                             Graham Cummins
                                 ______
                                 
                                               Missoula, MT
                                                           7/8/2020
    I support return of management of the National Bison Range to the 
Confederated Salish and Kootenai Tribes.I have been impressed with 
their ethical & scientific management of wildlife, land and water 
resources.
    I think they would focus on preservation of the bison species and 
on providing public access and educational opportunities to the benefit 
of all.

        Thank you.
                                              Vicki Watson,
                                 ______
                                 
                                            Polson, Montana
                                                       July 6, 2020
Dear Senator Hoeven and Committee on Indian Affairs,

    This testimony specifically addresses Senator Daines and Senator 
Tester's statements regarding S.3019, the Montana Water Rights 
Protection Act (MWRPA). I would like this testimony entered into the 
record of the Indian Affairs Committee. I provide my testimony as 
allowed and requested following the 24 June 2020 hearing on a variety 
of issues before the committee.
    I will make this letter short since many of us from Lake County 
Montana have been writing letters and supplying extensive documentation 
concerning S.3019 for months--all of which appears to have been tossed 
into the nearest trash receptacle. It is clear to many of us that our 
State Senators do not care one whit about our concerns regarding the 
settlement portion of Montana Senate Bill 262--the enabling federal 
legislation referred to as the MWRPA. Neither of our State Senators 
have had the courage to come and discuss this issue in a public forum 
here in Lake County and have instead hidden behind the tribal skirts 
and cash of the Confederated Salish and Kootenai Tribes (CSKT). The 
people of Lake County concerned with the non-negotiated MWRPA are 
certain this agreement will be dictated to us and that our input means 
absolutely nothing within the DC beltway. Nonetheless, I will try one 
more time to bring the MWRPA into the democratic processes for which 
our Republic is known so that perhaps those we have elected will do 
what they were put in office for and represent not just the wealth of 
the CSKT, but also the majority non-tribal American citizen population 
that calls this region home.
    I will discuss only a few points of concern though there are many, 
many more.

  <bullet> Field Hearings should be held before this bill is considered 
        any further. Senator Daines stated that the MWRPA was 
        ``negotiated'' by him with the people and county commissioners 
        of this region. That is a lie. Senator Daines' staff has 
        admitted to me that the commissioners had nothing more than 
        ``input,'' which is a far cry from participating in 
        ``negotiations''. I personally spoke with all three Lake County 
        commissioners and they will verify to anyone concerned that 
        they took part in no such ``negotiations.'' These commissioners 
        will have to deal with the wreckage wrought by S3019 and have 
        offered to testify before your committee and were, of course, 
        denied the opportunity. Many of the non-tribal majority 
        population of Lake County feel completely abandoned by all of 
        our representatives. To avoid undue hostility and further 
        impediments to this compact, the best way forward would be for 
        the MWRPA to come back to Montana and be addressed in multiple 
        public forums to include field hearings. It is not asking too 
        much that the people affected by this settlement be a part of 
        the negotiations, but that has not happened. The Montana Senate 
        Bill 262 went through Montana's legislative process. The 
        settlement portion--S. 3019--has not. Those are the facts, and 
        both Senators Tester and Daines have dodged the people of Lake 
        County and turned a deaf ear to everyone here--everyone except 
        the CSKT. The CSKT, of course, has very deep pockets and 
        suspicion abounds.

  <bullet> The MWRPA creates new law, bypasses existing doctrine and 
        Congressional legislation, and does so without any effective 
        oversight. Based on nothing more than internal agency policy, 
        the MWRPA reinterprets Congressional intent and creates new 
        water rights within the Winters Doctrine and McCarran 
        Amendment. Senator Daines asked the wrong question when he 
        inquired of the Department of Interior whether the MWRPA 
        satisfies the Winters Doctrine. Winters requires the 
        reservation be given the water required to satisfy the purposes 
        for which the reservation was created. Since the MWRPA gives 
        more water to the CSKT than all other tribal water settlements 
        negotiated in the United States combined, it is impossible for 
        the settlement to not satisfy Winters! The real question is 
        whether this is an equitable settlement for everyone else who 
        must have water. Is this a fair settlement or a complete 
        capitulation to the CSKT? This is an action that-like it or 
        not--will establish a precedent all the other tribes will try 
        to use to control water throughout the entire United States.

  <bullet> SB262 was errant in its very first statement, and this 
        established a falsehood in need of correction. This same error 
        is repeated in the MWRPA and made worse since it writes this 
        mistake into federal law. The faulty assumptions stems from the 
        error regarding whether the federal government or Tribe 
        reserved the Flathead Indian Reservation. In fact, the 1855 
        Hellgate Treaty saw all lands ceded to the United States, and 
        then the United States set apart a region for the reservation 
        from those ceded lands. Failing to recognize this fact leads to 
        the erroneous creation of new ``tribal reserved water rights'' 
        outside the Winters Doctrine, and these ``rights'' extend off 
        the reservation and across western and eastern Montana. This 
        fatal error expands Tribal jurisdiction and disrupts the 
        property rights of federal patent-holding non-tribal citizens, 
        and lays the groundwork for future hostilities.

  <bullet> The inside-the-beltway agencies and elected officials on the 
        Indian Affairs Committee see themselves as agents working only 
        for the benefit of the Tribes. One size does not fit all, and 
        the CSKT reservation is vastly different than even the other 
        reservations within Montana. The MWRPA seeks to satisfy the 
        CSKT to such an extent it tries to pretend the 1904 Allotments 
        Act did not occur--but it did. The majority of the populace 
        here are non-tribal, and about 30 percent of the reservation 
        was diminished by the allotment process, with the lands now 
        held by non-tribal American citizens. While the CSKT and the DC 
        agencies may wish to rewrite the history of the allotment sale 
        and settlement of surplus Flathead Reservation lands, as well 
        as the construction of an integrated irrigation and power 
        project statutorily authorized to serve all citizens, the 
        people here are not going to let that happen. It was clear from 
        watching the hearings that no one is standing up for the non-
        tribal American citizens who moved here by invitation. This is 
        an ``open reservation'' where tribal and non-tribal members 
        have lived in harmony for decades. However, that harmony is 
        rapidly deteriorating due to the CSKT's open hostility and 
        desire to roll back history to an imaginary time no one living 
        today remembers. The bias and predilection of the entire DC 
        establishment to pre-judging outcomes in favor of the tribes 
        and placing tribal interests above those of the other American 
        citizens they are supposed to represent is obvious. If the 
        people here feel they are not being fairly and justly 
        represented, they will have no more respect for the decrees 
        coming out of DC than our forefathers had for those coming out 
        of the Parliament in London, and no one should expect 
        otherwise. The MRWPA diminishes the rights of other citizens 
        with whom the United States has contractual and Constitutional 
        obligations, and that's not lost on any of us out here in Lake 
        County.

    I could go on and on about how this bill could be improved to a 
level that would make it acceptable to all parties concerned. If our 
elected leadership were interested in achieving an equitable solution 
instead of kowtowing to every whim of the CSKT, such a solution could 
be found. What we have seen here in Lake County, however, is a complete 
unwillingness to even consider such an outcome, and instead a desire to 
dictate terms straight from the tribes' lawyers. Hostility here has 
become the order of the day and you in Congress are responsible for it. 
Given the anarchy evident throughout our nation, what makes our 
Congressional representatives so sure something equally ugly couldn't 
happen out here? Locally, displaying an America flag or a ``Trump'' 
bumper sticker can get you thrown out of tribal-run business, and on 
the fourth of July here in Polson, an 18 year old girl was punched in 
the face ``for being white.'' Does it sound like things are going well?
    You in Congress are responsible for what happens here, and you are 
not taking your responsibility seriously. You have ignored our letters; 
ignored the extensive factual documentation I know you have received 
from other groups well versed in water rights; you have dictated terms 
and hidden from our public forums. Many inside the beltway agencies 
have accepted the notion that the tribes will win in court no matter 
what while ignoring the fact the CSKT is bound by whatever the Congress 
decides--not the courts. All the Tribes have learned to exploit the 
grievance industry, but you have the power to mandate an equitable 
solution to the water issue on behalf of all American citizens. It 
would have a very positive effect if you would have public field 
hearings where you could become better educated on what is happening, 
and we could all come to a fair compromise solution. That is not what 
is happening now.
    The MWRPA in its current form is fatally flawed. You should be in 
search of a salvageable and workable solution. One is out there, but it 
won't be found if the only place you look is in the deep pockets of the 
CSKT.

        Sincerely,
                                         Mr. Tracy A. Sharp
                                 ______
                                 
                                                  Charlo MT
                                                           7/7/2020
    I fully and unequivocally support the Indian water rights bill 
Senate bill 3019 which includes the return of the National Bison Range 
to the management of tribes of the Flathead Indian reservation. It's 
time to right a historically grievous wrong-no more waiting!
                                              Deborah Tomas
                                 ______
                                 
                                              Corvallis, MT
                                                           7/8/2020
    I support the Native Tribes of Montana and salute them in their 
efforts to regain some of the lands and rights that have been illegally 
taken from them.
    The Montana Water Rights Protection Act (S. 3019) would return the 
lands of the National Bison Range to the Confederated Salish and 
Kootenai Tribes to continue preservation of the bison and provide 
public access and educational opportunities. The land that is now 
called the National Bison Range was acquired by the United States 
without the Tribes' consent in what was later held by a Federal Claims 
Court to be a taking.
    Returning the land to federal trust ownership for the benefit of 
the Tribes may be one small step towards strengthening sovereignty and 
repairing the harms of colonialism, but it will make a significant 
difference in the lives of many CSKT Tribal members.

        Sincerely,
                                             Toddy Perryman
                                 ______
                                 
                                                Sierra Club
                                                      June 23, 2020
Dear Chairman Hoevan and Vice Chairman Udall:

    On behalf of Sierra Club's more than 4 million members and 
supporters, I am writing to expresses our strong support for The 
Montana Water Rights Protection Act, S. 3019. In addition to settling 
Tribal water rights, the Act would authorize, and pay for, remediation 
and restoration projects for damaged waterways and riparian habitats on 
the Flathead Indian Reservation. It will also improve in-stream flows 
for fish. Finally, these projects will create jobs, all the more 
important in the current economic landscape.
    The Sierra Club has a long-standing history of working with the 
Confederated Salish and Kootenai Tribes (CSKT) on wildlife and 
conservation issues. We respect the Tribes' cultural and historical 
connection to bison and that the National Bison Range (NBR) lies wholly 
within the Flathead Indian Reservation, on lands appropriated from the 
Tribes by the U.S. Government with minimal compensation.
    Given the history of these lands, the Sierra Club affirms the 
restoration of The National Bison Range and its bison to the 
Confederated Salish and Kootenai Tribes for the purpose of bison 
conservation and ensuring the long-term health of the NBR bison.
    Although Sierra Club vehemently opposes the transfer of federal 
public lands to states, this provision is uniquely suited to restore 
the wrongfully acquired land and bison of the CSKT back to the Flathead 
Indian Reservation and affirms the cultural and historical connections 
to the bison and the relationship to wildlife and the land which was 
held in time in memoriam. The support for the CSKT and the National 
Bison Range will not be interpreted as a precedent for any other 
suggested land transfer, property, or facility but will be recognized 
as a restoration of lands and wildlife under the care of the Flathead 
Indian Reservation and the Confederated Salish and Kootenai Tribes.
    The Sierra Club offers our full support in restoring the land and 
bison to its rightful caretakers and stewards, the Confederated Salish 
and Kootenai Tribes and the Flathead Indian Reservation, as outlined in 
this legislation. We look forward to working with the committee to help 
advance the legislation forward.

        Sincerely,
     Kirin Kennedy, Deputy Legislative Director, Lands and 
                                                   Wildlife
                                 ______
                                 
                          RESOLUTION #2020--23
    We, the members of the Affiliated Tribes of Northwest Indians of 
the United States, invoking the divine blessing of the Creator upon our 
efforts and purposes, in order to preserve for ourselves and our 
descendants rights secured under Indian Treaties, Executive Orders, and 
benefits to which we are entitled under the laws and constitution of 
the United States and several states, to enlighten the public toward a 
better understanding of the Indian people, to preserve Indian cultural 
values, and otherwise to promote the welfare of the Indian people, do 
hereby establish and submit the following resolution:
    WHEREAS, the Affiliated Tribes of Northwest Indians (ATNI) are 
representatives of and advocates for national, regional, and specific 
tribal concerns; and
    WHEREAS, ATNI is a regional organization comprised of American 
Indians/Alaska Natives (AI/AN) and tribes in the states of Washington, 
Idaho, Oregon, Montana, Nevada, Northern California, and Alaska; and
    WHEREAS, the health, safety, welfare, education, economic and 
employment opportunity, and preservation of cultural and natural 
resources are primary goals and objectives of the ATNI; and
    WHEREAS, water is among the most sacred substances to the 
Confederated Salish and Kootenai Tribes (``CSKT'' or ``Tribes''), and 
the tribes utilized water in their aboriginal territory that stretched 
from Canada to Wyoming, and from Washington to Montana, for religious, 
hunting and fishing, and sustenance purposes; and
    WHEREAS, federally-reserved water rights sufficient for the Tribes' 
perpetual existence on the Flathead Indian Reservation were secured at 
the signing of the Hellgate Treaty in 1855, and moreover the Tribes' 
aboriginal rights were confirmed by the express rights of the CSKT to 
hunt, fish, and gather throughout their aboriginal territory; and
    WHEREAS, the United States illegally opened up the Flathead Indian 
Reservation for non-Indian settlement, and created the Flathead Indian 
Irrigation Project that dramatically altered natural waterways and 
irreparably damaged fish and wildlife habitat of the Reservation by 
creating a network of over 1,300 miles of ditches and canals filled 
with irrigation structures that now serve over 1,800 irrigators, 90 
percent of which are non-Indian, and would have made prior 
appropriation of water rights nearly impossible to implement; and
    WHEREAS, the State of Montana has pursued a state-wide adjudication 
of water rights, including Indian water rights pursuant to the McCarren 
Amendment as found applicable to Indian water rights in Colorado River 
Water Conservation District v. United States, 424 U.S 800 (1976), and 
simultaneously pursued negotiations between tribes; and
    WHEREAS, the Tribes negotiated with the State of Montana and the 
United States for over 15 years to quantify the Tribes' reserved and 
aboriginal water rights, with the Tribes making many concessions and 
compromises in an effort to find an amicable resolution, which resulted 
in the Water Rights Compact Entered Into by the Confederated Salish and 
Kootenai Tribes, the State of Montana, and the United States of America 
(``Compact''); and
    WHEREAS, the Compact benefits the Tribes by quantifying water for 
the CSKT people, as was promised by the U.S. upon the signing of the 
Hellgate Treaty, and benefits the State by protecting water rights for 
its citizens and its wildlife, thus creating a benefit for the whole 
region; and
    WHEREAS, the Compact requires passage by the Tribes, the State, and 
the U.S. to be implemented; and
    WHEREAS, the Montana legislature approved the Compact, and on April 
24, 2015, Montana State Governor Steve Bullock signed the Compact into 
State law; and
    WHEREAS, the Compact now must be approved by the U.S. Congress; and
    WHEREAS, Montana Water Rights Protection Act, is bi-partisan 
legislation that was introduced by Senator Daines and Senator Tester in 
June 2020; and
    WHEREAS, the Montana Water Rights Protection Act is the CSKT water 
settlement, which authorizes, ratifies, and confirms the Compact; and
    WHEREAS, the CSKT has always had a deep relationship with bison, 
and the Montana Water Rights Protection Act also includes provisions 
that would restore the National Bison Range to federal trust ownership 
for CSKT and would require continued management for bison conservation 
purposes and public access; and
    WHEREAS, the Montana Water Rights Protection Act authorizes federal 
funding to CSKT to settle damages, rehabilitate the Flathead Indian 
Irrigation Project, restore the National Bison Range to tribal trust 
ownership, among other provisions; now
    THEREFORE BE IT RESOLVED, that ATNI supports the rights of all 
tribes to negotiate agreements and compacts to settle damages and 
restore and exercise their water rights; and
    BE IT FURTHER RESOLVED, that ATNI supports the Confederated Salish 
and Kootenai Tribes efforts to settle their water rights through--
Montana Water Rights Protection Act to promote the sovereignty of the 
Tribes for future generations; provide certainty for the State of 
Montana; and benefit all people and wildlife in the region, and 
therefore asks that the U.S. Congress approve--Montana Water Rights 
Protection Act.
    CERTIFICATION
    The foregoing resolution was adopted at the 2020 Virtual Mid-Year 
Convention of the Affiliated Tribes of Northwest Indians, Portland, 
Oregon, on June 30--July 2, 2020, with a quorum present.
                                 Leonard Forsman, President
                                Norma Jean Louie, Secretary
                                 ______
                                 
   Rocky Mountain Tribal Leaders Council Resolution #07--July 1, 2020
    A Resolution to Support S. 3019- Mont1111a Water Rights Protection 
Act, the Confederated Salish and Kootenai Tribes Water Settlement 
Legislation
    WHEREAS, we, the Executive Board Members of the Rocky Mountain 
Tribal Leaders Council of the United States (RMTLC), invoking the 
divine blessing of the Creator upon our efforts and purposes, in order 
to preserve for ourselves and our descendants the inherent sovereign 
rights of our Indian nations, rights secured under Indian treaties and 
agreements with the United States, and all other rights and benefits to 
which we are entitled under the laws and Constitution of the United 
States, to enlighten the public toward a better understanding of the 
Indian people, to preserve Indian cultural values, and otherwise 
promote the health, safety and welfare of the Indian people, do hereby 
establish and submit the following resolution; and
    WHEREAS, the RMTLC has been created for the express purpose of 
providing its member Tribes with a unified voice and a collective 
organization to address issues of concern to the Tribes and Indian 
people; and
    WHEREAS, the Board of Directors of the RMTLC consists of duly 
elected Tribal Chairs, Presidents and Council Members who are fully 
authorized to represent their respective Tribes; and
    WHEREAS, as a manifestation of their solemn duty, the Tribal 
governments actively engage in policy formation on any matters that 
affect the Tribes and reservations; and
    WHEREAS, the governments of the various Native American nations 
have exercised full sovereign authority since time immemorial, 
including over their separate territories, lands, sacred grounds, and 
natural resources, including clean and fresh water; and
    WHEREAS, the RMTLC's mission is to preserve our homelands, defend 
rights of the Indian Treaties with the United States, speak in a 
unified voice, offer support to our people, offer a forum in which to 
consult each other and enlighten each other about our peoples, and to 
otherwise promote the common welfare of all of the Indian Peoples of 
Montana, Wyoming and Idaho; and
    WHEREAS, the vision of the RMTLC is a healthy, prosperous and 
strong Tribal communities for our Tribal people living in Montana, 
Wyoming and Idaho; and
    WHEREAS, the goal of the RMTLC is to create an environment 
conducive to change within our communities by cultivating positive 
collaborative efforts with a sense of purpose by building strong, 
healthy societies where respect and honor is a way of life.
    WHEREAS, the values of the RMTLC are based on unity, mutual 
respect, community, strong work ethic, accountability, kindness, 
tradition, giving, pride, leadership, personal growth, gratitude, and 
justice; and
    WHEREAS, water is among the most sacred substances to the 
Confederated Salish and Kootenai Tribes (``CSK'r or ``Tribes''), and 
the tribes utilized water in their aboriginal territory that stretched 
from Canada to Wyoming, and from Washington to Montana, for religious, 
hunting and fishing, and sustenance purposes; and
    WHEREAS, federally-reserved water rights sufficient for the Tribes' 
perpetual existence on the Flathead Indian Reservation were secured at 
the signing of the Hellgate Treaty in 1855, and moreover the Tribes' 
aboriginal rights were confinned by the express rights of the CSKT to 
hunt, fish, and gather throughout their aboriginal territory; and
    WHEREAS, the United States illegally opened up the Flathead Indian 
Reservation for non-Indian settlement, and created the Flathead Indian 
Irrigation Project that dramatically altered natural waterways and 
irreparably damaged fish and wildlife habitat of the Reservation by 
creating a network of over 1,300 miles of ditches and canals filled 
with irrigation structures that now serve over 1,800 irrigators, 90 
percent of which are non-Indian, and would have made prior 
appropriation of water rights nearly impossible to implement; and
    WHEREAS, the State of Montana has pursued a state-wide adjudication 
of water rights, including Indian water rights pursuant to the McCarren 
Amendment as found applicable to Indian water rights in Colorado River 
Water Conservation District v. United States, 424 U.S 800 (1976), and 
simultaneously pursued negotiations between tribes; and
    WHEREAS, the Tribes negotiated with the Stat.e of Montana and the 
United States for over 15 years to quantify the Tribes' reserved and 
aboriginal water rights, with the Tribes making many concessions and 
compromises in an effort to find an amicable resolution, which resulted 
in the Water Rights Compact Entered Into by the Confederated Salish and 
Kootenai Tribes, the State of Montana, and the United States of America 
(``Compact''); and
    WHEREAS, the Compact benefits the Tribes by quantifying water for 
the CSKT people, as was promised by the U.S. upon the signing of the 
Hellgate Treaty, and benefits the State by protecting water rights for 
its citizens and its wildlife, thus creating a benefit for the whole 
region; and
    WHEREAS, the Compact requires passage by the Tribes, the State, and 
the U.S. to be implemented; and
    WHEREAS, the Montana legislature approved the Compact, and on April 
24, 2015, Montana State Governor Steve Bullock signed the Compact into 
State Jaw; and
    WHEREAS, the Compact now must be approved by the U.S. Congress; and
    WHEREAS, the Montana Water Rights Protection Act is the CSKT water 
settlement, which authorizes, ratifies, and confirms the Compact; and
    WHEREAS, the Montana Water Rights Protection Act authorizes federal 
funding to CSKT to settle damages, rehabilitate the Flathead Indian 
Irrigation Project, restore the National Bison Range to tribal trust 
ownership, among other provisions; and
    NOW THEREFORE BE IT RESOLVED, RMTLC supports the rights of all 
tribes to negotiate agreements and compacts to settle damages and 
restore and exercise their water rights; and
    BE IT FURTHER RESOLVED, that RMTLC supports the Confederated Salish 
and Kootenai Tribes efforts to settle their water rights through S. 
3019--Montana Water Rights Protection Act to promote the sovereignty of 
the Tribes for future generations; provide certainty for the State of 
Montana; and benefit all people and wildlife in the region, and 
therefore asks that the U.S. Congress to pass S. 3019--Montana Water 
Rights Protection Act into law; and
    BE IT FINALLY RESOLVED, that this resolution shall be the policy of 
RMTLC until it is withdrawn or modified by subsequent resolution.
    CERTIFICATION

    We, the undersigned, as the Chair and Secretary of the Tribal 
Leaders Council, do hereby certify that the foregoing Resolution was 
duly presented and approved by majority vote at an official Emergency 
Board Meeting of the Rocky Mountain Tribal Leaders Council, which was 
held on July 8, 2020 with 6 member Tribes present to constitute a 
Quorum of the Rocky Mountain Tribal Leaders Council.
                                      Gerald Gray, Chairman
                                   Jestin Dupree, Secretary
                                 ______
                                 
                          Natural Resources Defense Council
                                                      June 22, 2020
Dear Chairman Hoeven and Ranking Member Udall,

    On behalf of the Natural Resources Defense Council and its three 
million members and online activists nationwide, I write in support of 
The Montana Water Rights Protection Act, S. 3019. This legislation is 
the product of over a decade of negotiations between the Confederated 
Salish and Kootenai Tribes (CSKT), the State of Montana, and the United 
States. The CSKT-Montana Water Compact was the subject of dozens of 
public meetings and has bipartisan support from the Montana State 
Legislature, Montana Governor, and Montana Attorney General, as well as 
farmers and irrigators.
    By passing S. 3019, Congress will confirm and ratify water rights 
for the Confederated Salish and Kootenai Tribes, as well as settle 
Tribal claims stemming from federal mismanagement of the Tribes' water 
resources. In the process, the Act protects the water rights of many 
non-Indians on the Reservation and throughout the western two-thirds of 
Montana who would otherwise have to defend their water rights in 
litigation. The Act will authorize and fund numerous remediation and 
restoration projects for waterways and riparian habitats on the 
Flathead Indian Reservation, as well as improve in-stream flows for 
fish while creating jobs for people to implement the projects.
    In addition, by passing S. 3019, Congress will transfer the 
management of the National Bison Range from the U.S. Fish and Wildlife 
Service to the CSKT. For over a century, the Tribes have sought to be 
reunited with this land and its bison, and to once again participate in 
their management. S. 3019 returns the lands in trust for the CSKT to 
manage the lands for bison and other wildlife, education, and public 
access. The legislation recognizes that exceptional circumstances led 
to the creation of the National Bison Range, the transfer into trust 
will not set precedent for other public lands, and it is now time for 
Congress to act to return the land to the CSKT.
    S. 3019 honors the Tribes' long conservation legacy and provides 
them the opportunity to share their rich heritage and history with all 
who visit the bison reserve in the future. The CSKT are well positioned 
to steward the bison range--for thousands of years the Tribes have had 
a cultural and spiritual relationship with bison and the Mission Valley 
landscape. And, the Tribes have a wildlife and land conservation legacy 
that demonstrates their commitment and knowledge of land and wildlife 
stewardship. Their achievements include:

  <bullet> Protecting, through designated management areas, thirty 
        percent, or 400,000 acres, of the Flathead Reservation for 
        fish, wildlife, and cultural conservation.

  <bullet> Creating the 92,000-acre Mission Mountains Tribal 
        Wilderness, the first activelymanaged, tribal-designated 
        Wilderness area in the United States, and then establishing a 
        23,000-acre wilderness buffer zone to support it and the 
        wildlife who depend on it.

  <bullet> Reintroducing trumpeter swans, peregrine falcons, northern 
        leopard frogs, and Columbian sharp-tailed grouse to the Mission 
        Valley.

  <bullet> Restoring the meandering bends of the Jocko River that 
        provide habitat for westslope cutthroat trout, bull trout, and 
        countless other species that depend on the revived riparian 
        areas.

  <bullet> Redesigning and building-in partnership with state and 
        federal highway managers--U.S. Highway 93 to include 43 
        wildlife crossing structures-- including an overpass, 
        underpasses, and extensive fencing. Called ``The People's 
        Way,'' the improvements along this stretch of highway have 
        resulted in the preservation of human life and property and 
        reduced the number of wildlife that perish on the highway.

    Thank you for considering S. 3019. The Natural Resources Defense 
Council encourages you to support this bill and pass it out of Senate 
Indian Affairs Committee so it can be voted upon by the entire Senate. 
We appreciate you considering our views.

        Respectfully,
                    Amy McNamara, Northern Rockies Director
                                 ______
                                 
                                Montana Conservation Voters
                                                      June 10, 2020
Dear Chairman Hoeven and Vice Chairman Udall:

    On behalf of the members of Montana Conservation Voters (MCV), a 
statewide not-for-profit advocacy organization, we submit this letter 
in strong support of S. 3019, the Montana Water Rights Protection Act, 
introduced in the U.S. Senate by Senators Steve Daines and Jon Tester.
    MCV's members have been tracking the progress of this critical 
legislation which, at long last, codifies the Confederated Salish and 
Kootenai Tribes's (CSKT) final settlement of claims to water rights, 
and transfers the National Bison Range (NBR) to the Tribes's 
management. The Montana Water Rights Protection Act is an important 
step toward course-correcting decades of injustices experienced by the 
Tribes, and MCV proudly supports any such effort.
    The 2015 Montana Legislature ratified the CSKT' s water compact 
with bipartisan support because it was negotiated in good faith. 
Montana legislators don't often agree on much, but this plan earned 
support from elected leaders across the Big Sky State. That speaks 
volumes about the quality of this proposal. We see no reason that the 
federal component of this compact--this legislation--should face any 
insurmountable political hurdles in the weeks and months ahead.
    The Confederated Salish and Kootenai Tribes have a strong record of 
sound resource management, and the capacity to continue doing so 
following the finalization of this compact. It is also worth noting 
that this legislation will permanently protect water rights for many 
users on the Flathead Reservation, reducing uncertainty that often 
leads to litigation.
    As for the National Bison Range, which sits entirely within the 
boundaries of the Flathead Reservation, S. 3019 finally and fairly 
resolves a long and painful dispute for the Confederated Salish and 
Kootenai Tribes. Under this legislation, the NBR will continue to be 
open and accessible to the general public. The Tribes have used the 
lands and the resources within what is now the NBR since time 
immemorial--for thousands of years before the U.S. government drew its 
own political boundaries within the sovereign tribal land, without 
tribal consent. S. 3019 provides a hopeful conclusion to this chapter 
of injustice.
    S. 3019 has earned bipartisan support. It is the product of 
government-to-government collaboration that falls directly in line with 
this organization's (and most Montanans') commitment to finding and 
supporting fair and equitable solutions for sovereign tribal 
governments and their lands, for our shared public lands, for bison and 
other wildlife, and for the precious resource of water. Section 13 of 
S. 3019 does exactly that.
    MCV's mission includes ``striving for racial justice, equity and 
inclusion, and learning from each other in an environment that does not 
perpetuate or tolerate injustice of any kind.'' The decades-long 
political process that culminated in the introduction of S. 3019 
experienced a similar journey. Our members strongly support this 
bipartisan legislation and we urge all in Congress to pass it quickly 
and without delay.

        Respectfully,
                           Aaron Murphy, Executive Director
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                      Hon. Timothy R. Petty, Ph.D.
    Question 1. Your testimony noted, ``[w]e have reached agreement 
with the Confederated Salish and Kootenai Tribes (Tribes) on a redline 
amendment for the underlying bill. If that language were to be adopted, 
the Department could support the bill''. The use of the word ``could'' 
suggests there may be additional caveats that would preclude the 
Administration from supporting the redline amendment. To clarify, does 
the Administration support the redline amendment?
    Answer. The Administration supports the redline amendment.

    Question 2. During the hearing you were asked, ``would the 
Reclamation Water Settlement Fund be a useful resource to fund Indian 
water rights settlements, and why would extending the fund benefit all 
water users?'' Your response was:

         I think the Indian Water Rights at Department of Interior is a 
        set structure, because it is a partnership for so many of the 
        different bureaus within the Department of Interior. Just as I 
        am here with a colleague from Interior, within the Bureau of 
        Indian Affairs, it is a partnership with the Bureau of Indian 
        Affairs, with Fish and Wildlife Service, with even obviously 
        Bureau of Reclamation. We have different aspects with the 
        Bureau of Land Management, and even Park Service components. 
        So, having it within that Indian Water Rights Settlement would 
        really be a useful tool for the Secretary to utilize with the 
        different bureaus who have those specific interests with how 
        that gets engaged.

    Please clarify whether the Reclamation Water Settlement Fund, as 
enacted, is a useful resource to fund Indian water rights settlements 
and whether extending the fund would benefit all water users.
    Answer. The Reclamation Water Settlement Fund as enacted is proving 
to be a useful resource to the Department of the Interior in budgeting 
the funds necessary to implement Indian water rights settlements. The 
Department's views on extending the Fund are set forth in the attached 
testimony dated July 18, 2018, on S.3168 and April 4, 2019, on H.R. 
1904.

    Question 3. I am concerned about the Department of the Interior's 
reluctance to provide Congress with a better understanding of what 
activities of enacted Indian water rights settlements are eligible for 
the Reclamation Water Settlement Fund, beyond the priority settlements 
listed in section 1050l(c)(3) of P.L. 111-11.
    On March 11, 2019, Bureau of Reclamation Commissioner Brenda Burman 
appeared before the Senate Committee on Appropriations, Subcommittee on 
Water and Power to discuss the President's budget request. The 
following exchange took place:

         Senator Udall: Can you explain whether there are sufficient 
        authorized activities to use the entire reclamation water 
        settlement fund, and will you commit to work with us to provide 
        that information to Congress so that we can unlock the 
        settlement fund for future settlements?

         Commissioner Burman: Senator, Reclamation believes there are 
        more than enough activities to use the entire fund, as 
        currently laid out. We would be happy to work with you and with 
        the committee to clarify any questions or to bring information.

    In follow-up questions for the record, I requested the Bureau of 
Reclamation provide information on how there ``are more than enough 
activities to use the entire fund''. Yet in the Department's response, 
it indicated it was unwilling to provide Congress with the details on 
how it arrived at this conclusion. This is critical information for our 
Committee to consider in authorizing future Indian water rights 
settlements.
    Please provide a list of enacted Indian water rights settlements 
that are eligible for funding under the Reclamation Water Settlement 
Fund and specify how much funding would be available for each.
    Answer. As noted, P.L. 111-11 Section 10503 (c)(3) established 
tiered funding priorities for seven Indian water rights settlements. 
Under current law, the Reclamation Water Settlement Fund is expected to 
receive deposits of up to $120 million per year for 10 years, or $1.2 
billion. The priority for each settlement is conditioned on Congress 
enacting legislation authorizing the settlement by December 31, 2019. 
The list of the five enacted water rights settlements specified as 
priorities that are eligible to receive this funding, per PL 111-11, is 
as follows:

  <bullet> Navajo-Gallup Water Supply Project ($500 million).

  <bullet> Other New Mexico Settlements, which includes both the Aamodt 
        adjudication and the Abeyta (Taos) adjudication ($250 million).

  <bullet> Montana Settlements, which includes the Blackfeet Tribe and 
        Crow Tribe ($350 million).

    Two settlements designated as priorities in P.L. 111-11--Gros 
Ventre and Assiniboine Tribes of the Fort Belknap Reservation (Montana) 
and the Navajo Nation Lower Colorado (Arizona)--were not enacted by 
December 31, 2019. Therefore, these two settlements no longer retain 
the priority designation.
    The decision on the allocation of funds from the Reclamation Water 
Settlements Fund is made annually based on the priorities in P .L. 111-
11, funding requirements for each of the settlements, and circumstances 
at the time. Most of the settlements designated in P .L. 111-11 have 
settlement deadlines in FY 2024 through FY 2025 and will require the 
full amounts available in the Reclamation Water Settlements Fund for at 
least the first five years.
    In addition to funding settlements designated as priorities in P 
.L. 111-11, if funds are available from the Reclamation Water 
Settlements Fund--after ensuring there are sufficient funds for the 
priorities establish in P .L.111-11--there are a number of other 
enacted water rights settlements that could be considered. This could 
include funds to implement the Gila River Indian Community Water Rights 
Settlement, San Carlos Apache Water Right Settlement, Southern Arizona 
Water Rights Settlement, White Mountain Apache Tribe Water Rights 
Quantification, or Ak-Chin Water Rights Settlement in Arizona; and Nez 
Perce in Idaho.

    Question 4. Describe the financial impacts on Lake and Sanders 
Counties that would stem from conveying the National Bison Range to the 
United States to be held in trust for the benefit of the Tribes, along 
with estimated costs per activity.
    Answer. There would be no negative financial impacts on Lake and 
Sanders Counties as a result of the legislation restoring the National 
Bison Range to federal trust ownership for the Tribes. Section 
12(k)(l)(A) of S. 3019, as introduced, would continue the existing 
level of payments that the Counties receive from the U.S. Fish & 
Wildlife Service under the Refuge Revenue Sharing fund. Section 
12(k)(2) requires those payments to be equal to the amount the Counties 
would have received if the legislation had not been enacted. For 
amounts of such funding, see response to question #6.

    Question 5. Please provide a list of authorized Indian water rights 
settlements that have included a direct payment to surrounding 
communities, along with citations, to compensate for impacts associated 
with a settlement.
    Answer. It is unusual, but not unprecedented, for Indian water 
rights settlement to include direct payments to surrounding 
communities. Section 5(b) of the Snake River Water Rights Settlement 
Act of 2004, P.L. 108-447; Div. J; Title X, 118 Stat. 3431, 3433, 
provides:

        (b) MITIGATION FOR CHANGE OF USE OF WATER.--

         (1) AUTHORIZATION OF APPROPRIATIONS.--There is authorized to 
        be appropriated to the Secretary $2,000,000 for a 1- time 
        payment to local governments to mitigate for the change of use 
        of water acquired by the Bureau of Reclamation under section 
        111.C.6 of the Agreement.

         (2) DISTRIBUTION OF FUNDS.--Funds made available under 
        paragraph (1) shall be distributed by the Secretary to local 
        governments in accordance with a plan provided to the Secretary 
        by the State.

         (3) PAYMENTS.--Payments by the Secretary shall be made on a 
        pro rata basis as water rights are acquired by the Bureau of 
        Reclamation.

    Question 6. What are the amounts and sources of payments that Lake 
and Sanders Counties ``would have received'' if Section 12(k) were not 
enacted? How was that figure calculated?
    Answer. Under the Refuge Revenue Sharing Act (16 U.S.C.  715s), 
the U.S. Fish and Wildlife Service (USFWS) makes annual payments to 
counties for true-exempt USFWS-managed lands to offset true losses. The 
funding is derived from net income the USFWS receives from the sale of 
products or privileges on refuges, such as from timber sales and 
grazing leases, and direct Congressional appropriations. Per the Refuge 
Revenue Sharing Act, the calculations for payments to counties and 
other units of local government for land purchased by or donated to 
USFWS is based on the greater of: (a) 3/4 of 1 percent of the market 
value; (b) 25 percent of the net receipts; (c) 75 cents per acre. 
Historically, the payments for National Bison Range lands have been 
based on the market value calculation.
    When there is not enough revenue funding to cover the payments, 
Congress is authorized to appropriate money to make up the difference. 
If the amount Congress appropriates is not enough, the payments the 
Service distributes to counties and other local governments is based on 
a pro-rata share.
    The amount varies each year; in FY 2020, for lands associated with 
the National Bison Range, Lake County received $9,652 and Sanders 
County received $11,257.

    Question 7. What are the estimated number of jobs that would be 
created in Lake and Sanders Counties if the settlement were enacted and 
fully implemented?
    Answer. In the Department's testimony before the Senate Committee 
on Indian Affairs, Assistant Secretary Petty highlighted that funding 
authorized under S. 3019 would create significant economic activity in 
the region on and near the Reservation, which includes Lake and Sanders 
Counties. The Department's analysis concluded that the economic 
activity would support direct, indirect, and induced jobs in the 
region, including approximately 520 permanent jobs ( of which 
approximately half are seasonal), and approximately 4,650 temporary 
construction and restorationjobs through rehabilitating and modernizing 
FIIP and restoring natural resources damaged by FHP operations.

    Question 8. Senator Daines noted that decommissioning the Flathead 
Indian Irrigation Project ``would devastate the economies of Lake and 
Sanders Counties''. What are the economic impacts to Lake and Sanders 
Counties if this settlement was not authorized and the Flathead Indian 
Irrigation Project were to be decommissioned? What are the benefits?
    Answer. The Department has not analyzed the economic impacts of the 
potential decommissioning of FHP on Lake and Sanders Counties 
specifically. However, the Department has analyzed the effects on total 
economic activity in the State of Montana if the United States and 
Tribes were to succeed on their instream flow claims, and a range of 
irrigated agriculture acreage was converted to dry land farming. 
Depending on the amount of irrigation water supply curtailed, the 
effects on total State of Montana economic activity are estimated to 
range from a reduction in labor income of$12.9 million to $34.7 million 
per year and a reduction in employment of between 110 to 310 jobs. The 
majority of the income effect and at least half of the employment 
effect would likely be felt in Lake and Sanders Counties. (All direct 
impacts to farm income and farm jobs would be in Lake and Sanders 
Counties.) Given that over two thirds of Lake County's lands lie within 
the Flathead Reservation, it is reasonable to expect that the majority 
of On-Reservation impacts would be felt by Lake County residents. The 
impacts would likely be less in Sanders County. Apart from benefits 
related to instream flows and fish habitat, the Department has not 
identified any economic benefits to Lake and Sanders Counties if FIIP 
were to be decommissioned.

    Question 9. Section 9106 of P.L. 111-11 required the Secretary to 
submit a report to Congress no later than March 30, 2011, to conduct a 
study of Pueblo irrigation infrastructure and develop a list of 
projects that are recommended to be implemented to repair, 
rehabilitate, or reconstruct Pueblo irrigation infrastructure. Please 
provide an update to the Committee on the status of the report.
    Answer. The Department has completed a draft Study Report pursuant 
to Section 9106 of P .L. 111-11 that includes surveys of the existing 
irrigation infrastructure at each Pueblo, a list of Pueblo irrigation 
improvement projects recommended for implementation, as well as the 
other items provided for in subsection (c)(4). The draft is currently 
being edited to address reviewer comments.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Steve Daines to 
                      Hon. Timothy R. Petty, Ph.D.
    Question 1. Where in the CSKT Compact are the damages to be paid to 
the 3500 irrigators who lost their irrigation rights to the tribe and 
had their traditional amount of irrigation water cut in half?
    Answer. This question was answered in the attached letter from 
David L. Bernhardt, Secretary, Dep't of the Interior, to the Honorable 
Steve Daines, Senator, United States Congress, Section B.2 (Nov. 18, 
2019).
    Question 2. How do you avoid the Winters Doctrine which established 
compacts and the procedure to get water to meet the purpose of the 
reservations to make them productive?
    Answer. This question was answered in the attached letter from 
David L. Bernhardt, Secretary, Dep't of the Interior, to the Honorable 
Steve Daines, Senator, United States Congress, Section B.2 (Nov. 18, 
2019).

    Question 3. Why is the Tribe given the authority to manage all of 
the water on the open CSKT Reservation when the Montana Department of 
Natural Resources DNRC was formed to treat everyone the same?
    Answer. This question was answered in the attached letter from 
David L. Bernhardt, Secretary, Dep't of the Interior, to the Honorable 
Steve Daines, Senator, United States Congress, Section B.2 (Nov. 18, 
2019).

    Question 4. Why is the Hell gate Treaty and Federal and state 
constitutions avoided in issues of land and water, off the CSKT 
Reservation?
    Answer. This question was answered in the attached letter from 
David L. Bernhardt, Secretary, Dep't of the Interior, to the Honorable 
Steve Daines, Senator, United States Congress, Section B.2 (Nov. 18, 
2019).

    Question 5. Why are the required studies not made available such as 
legal, economic, and environmental?
    Answer. The relevant legal, economic, and environmental studies 
undertaken in the development of the Compact were provided to and 
considered by all parties.

    Question 6. Would you provide examples of how you intend to 
implement this legislation, when it's in clear violation of Fifth 
Amendment ``taking'' clause?
    Answer. The legislation will be implemented as provided in the 
legislation and the Compact consistent with the Fifth Amendment of the 
United States Constitution. See Letter from David L. Bernhardt, 
Secretary, Dep't of the Interior, to the Honorable Steve Daines, 
Senator, United States Congress (Nov. 18, 2019).

    Questions 7 and 8. Would you provide examples of how you intend to 
implement this legislation, when it's in clear violation of Fourteenth 
Amendment Equal Protection clause?
    Answer. The legislation will be implemented as provided in the 
legislation and the Compact consistent with the Fourteenth Amendment of 
the United States Constitution. See Letter from David L. Bernhardt, 
Secretary, Dep't of the Interior, to the Honorable Steve Daines, 
Senator, United States Congress (Nov. 18, 2019).

    Question 9. Why do you need such a drastic change in centuries of 
water law in America?
    Answer. This settlement is consistent with established water law in 
America. See Letter from David L. Bernhardt, Secretary, Dep't of the 
Interior, to the Honorable Steve Daines, Senator, United States 
Congress, Sections A & B.l (Nov. 18, 2019).

    Question 10. Do you have a plan to deal with every tribe in America 
who will then want what only this tribe has if you pass this: off 
reservation water right, with a time immemorial seniority date on any 
area they may have once ever fished?
    Answer. Every settlement of federal Indian reserved water rights is 
based on the unique circumstances, history, and claims of the Tribe or 
Tribes involved.

    Question 11. How will you then be able to violate all those State 
constitutions, as you will have done to Montana?
    Answer. This settlement is consistent with the Constitution of the 
United States and the State of Montana's constitution. See Letter from 
David L. Bernhardt, Secretary, Dep't of the Interior, to the Honorable 
Steve Daines, Senator, United States Congress (Nov. 18, 2019).
    Attachment

The Honorable Steve Daines,
United States Senate,
Washington, DC.

Dear Senator Daines:

    I have received your correspondence regarding the proposed 
settlement of the reserved water right claims of the Confederated 
Salish and Kootenai Tribes (CSKT or Tribes). Although I did not 
participate in the negotiation of this proposed settlement, I have 
evaluated the matter. In sharing my perspective, it may be useful to 
know that I have been involved with the negotiation and approval of 
other water rights settlements over the last two and a half decades.
    I understand that following nearly a decade of negotiations, 
negotiators for the Tribes, the State of Montana (State), and the 
United States submitted to their respective principals a proposed 
settlement of the Tribes' reserved water right claims known as the CSKT 
Water Rights Compact or CSKT Compact. The Compact, approved by the 
Montana legislature in 2015, is cun-ently proceeding through the 
appropriate Federal review and approval processes.
    As a general policy matter, for more than 30 years, the United 
States has supported resolving Indian reserved water right claims 
through negotiations rather than protracted and divisive litigation. I 
am informed that during the course of negotiating and reviewing the 
CSKT Compact, concerns and objections were raised about whether 
proposed Compact terms appropriately resolved the Tribes' claims and 
about the perceived impacts that the Compact could have on non-Indian 
water right holders. These concerns are important, and it is my 
understanding that these concerns were considered and evaluated during 
the negotiations, in the context of potential risks and liabilities 
resulting from non-settlement.
    Given your commitment to resolving longstanding issues and avoiding 
needless litigation, you have asked for the Department of the 
Interior's (Department) views on these concerns. I would like to 
provide our perspective at this time on how I understand that these 
concerns have been addressed.
A. Background on the CSKT Reserved Water Right Claims
    Historically, the Federal Government, when called upon to file 
reserved water right claims as trustee for a Tribe and its members, 
files claims that it determines are legally justified under Federal 
law, including under the Tribe's treaty or other documents creating the 
Tribe's reservation, and that are consistent with State and Federal 
court decisions interpreting the Winters reserved water rights 
doctrine. These initial filings by the United States tend to be broad 
in scope, based on credible claims that can be supported with competent 
expert testimony.
    In 2015, using this framework, the United States and CSKT filed in 
the Montana Water Court several categories of reserved right claims, 
including these that relate to the concerns discussed below:

  <bullet> Instream flows to support the fisheries, both on- and off-
        Reservation, based on language in the CSKT Hellgate Treaty 
        expressly reserving Tribal fishing rights.

  <bullet> The irrigation water supply for the Bureau of Indian Affairs 
        (BIA) Flathead Indian Irrigation Project (FIIP or Project) to 
        serve all lands within the Project, both Indian and non-Indian.

  <bullet> Future irrigation water for the CSKT, consistent with U.S. 
        Supreme Court precedent.

    When parties propose settlement of a Tribe's reserved claims, the 
United States traditionally evaluates the agreement from various 
perspectives, including:

  <bullet> Does the proposed settlement secure adequate Tribal water 
        resources to meet the purposes of the reservation?

  <bullet> Are the Tribe's water rights legally protected and 
        enforceable?

  <bullet> Would the settlement resolve all of the Tribe's reserved 
        water right claims?

  <bullet> If a BIA irrigation project is involved, are the water 
        rights for the project properly resolved?

  <bullet> Are proposals to address how water rights on the reservation 
        would be administered and enforced acceptable?

B. Discussion of CSKT Compact Concerns
    It is my understanding that the primary concerns about the Compact 
raised to date tend to fall into three main themes:

  <bullet> Objections to the inclusion ofreserved rights for off-
        Reservation instream flows.

  <bullet> Objections to how the Compact resolves the water rights for 
        FIIP in conjunction with the CSKT reserved rights for on-
        Reservation instream flows.

  <bullet> Assertions that the Compact's approach to administering and 
        enforcing water rights on the Reservation is unconstitutional, 
        primarily under Montana law.

    I address each of these three themes below.
1. Reserved Rights for Off-Reservation Instream Flows
    Concerns have been raised about whether there is a legal basis for 
the off-Reservation flow rights CSKT would obtain under the Compact. 
These concerns are understandable. Although there is extensive 
experience with reserved off-reservation flow claims elsewhere in the 
Northwest, fewer such claims have been addressed in Montana. That said, 
similar claims were confirmed in the legislation approving the 
Blackfeet Water Rights Compact. The CSKT Compact, however, is the first 
time that claims based on a treaty reserving off-Reservation fishing 
rights have been addressed in Montana.
    The United States and CSKT filed off-Reservation reserved instream 
flow claims premised on the Hellgate Treaty and its promise in article 
III that Tribal members may fish off the Reservation at ``all usual and 
accustomed places, in common with citizens of the Territory.'' These 
claims are intended to protect Tribal members' ability to fish in the 
rivers and streams where Tribal members fished at the time of the 
Treaty in order to provide a meaningful fishery. This language is 
virtually the same as clauses found in several Indian treaties in the 
Pacific Northwest known as ``Stevens Treaties,'' which were negotiated 
in 1854-55 with Washington Territory Governor Isaac Stevens. Generally, 
the legal premise is that in the Stevens Treaties, when Tribes 
expressly reserved off-Reservation fishing rights, they impliedly 
reserved the water rights necessary to support the fishing purpose. 
This theory follows the holdings in Winters and Winans that Tribes may 
reserve aboriginal rights when entering into treaties establishing 
reservations. (See Winters v. United States, 207 U.S. 564 (1908); 
United States v. Winans, 198 U.S. 371 (1905).)
    To illustrate, Federal and State courts have considered the water 
rights of the Yakama Nation, a Stevens Treaty Tribe with treaty 
language equivalent to the Hellgate Treaty language. Federal courts 
have ordered that water be released from a Federal reservoir to protect 
spawning flows needed to support the Yakama Nation's off-Reservation 
fishing right more than 50 miles upstream of the Yakama Reservation. 
(Kittitas Reclamation District v. Sunnyside Valley Irrigation District, 
763 F.2d 1032, 1033-35 (9th Cir. 1985).) Washington trial and appellate 
State courts also have made extensive rulings finding and clarifying 
the Nation's rights to off-Reservation flows for fisheries throughout 
the Yakima River basin. The Yakama Nation's adjudicated water rights 
extend throughout the Yakima basin, even though the Reservation only 
occupies the southwestern portion of the basin. Further, courts have 
found that these rights have a priority date of time immemorial.
    Another illustrative case is United States v. Adair, where the 
Federal courts concluded that the Klamath Tribes' treaty recognized the 
Tribes' aboriginal title in the reservation lands and natural resources 
and confirmed to the Tribes ``a continued water right to support its 
hunting and fishing lifestyle on the Klamath Reservation.'' (723 F.2d. 
1394, 1413-14 (9th Cir. 1984).) These courts held that the Klamath 
Tribes therefore enjoyed water rights sufficient to support their 
treaty fishing, hunting, and gathering rights with a ``time 
immemorial'' priority. The Adair decision also defined how to quantify 
the Klamath Tribes' instream rights, recognizing the Tribes' water 
right included the right to prevent other appropriators from depleting 
the streams' waters below a protected level in any area where the non-
consumptive right applies. Subsequently, Phase I of the State of 
Oregon's Klamath Basin Adjudication resulted in a Final Order of 
Dete1mination issued in 2013 that quantified the Tribes' instream flow 
right.
    The Department determined that the case law, the history of the 
Tribes, and the Hellgate Treaty supported off-Reservation flow claims 
for CSKT in the Montana adjudication. It found that it was appropriate 
to address these claims as pait of the Compact. These reserved rights 
are Tribal property rights, but they do not provide for Tribal 
jurisdiction off the Reservation. Resolution of the Nez Perce Tribe's 
reserved water right claims for flows in the Snake River Basin 
Adjudication in Idaho does not change our conclusion. In that case, a 
State trial judge found the Nez Perce Tribe (which has a Stevens 
Treaty) was not entitled to off-Reservation instream flows. However, 
the State trial court's decision is not binding, and, in any event, the 
Tribe agreed in that litigation to settle its off-Reservation flow 
claims for extensive instream flow protections under State law that 
they can enforce. As with the CSKT claims, the Federal Government found 
these settlement proposals to be an appropriate resolution to the 
Indian reserved claims at issue.
2. Resolution of the Water Rights for FIIP in Conjunction with the CSKT 
        Reserved Rights for On-Reservation Instream Flows
    I understand that a central concern is that the Compact may deprive 
water users served by FIIP of their entitlements to Project water. In 
fact, it appears that one of the most contentious issues during the 
negotiation was how to address the FIIP irrigation water right claims. 
Further, because the FIIP water rights and the Tribes' on-Reservation 
reserved flow rights often compete for the same water supply, 
addressing in tandem these two rights was critical for reaching a 
successful settlement.
    The United States filed comprehensive water right claims for the 
entire FIIP irrigation water supply to serve all lands in the project, 
both Indian and non-Indian. It appears that one of the Department's 
primary goals during the negotiations was to preserve the historical 
irrigation water use on lands served by FIIP. This position comports 
with the Federal Government's past practice in general stream 
adjudications to claim the entire water supply of Federal irrigation 
projects. Also, as detailed below, Federal courts have confirmed the 
Tribes' entitlement to on-Reservation reserved instream flow right and 
these rights have a priority date of time immemorial and thus are 
senior to the FIIP water rights. (See Joint Board of Control v. United 
States, 832 F.2d 1127 (9th Cir. 1987); Joint Bd. of Control of the 
Flathead, Mission & Jocko Irrigation Dists. v. United States, 862 F.2d 
195 (9th Cir. 1988).) The Federal courts left to the Montana Water 
Court the job of quantifying the amount of flow required to satisfy 
these rights; if these claims cannot be settled, the Water Court will 
proceed with that task.
    Concerns remain that the Compact would permanently reduce the FIIP 
water supply. I understand that this concern was a central one in the 
negotiations, and the Compact protects the net FHP water supplies 
needed to inigate crops. Tribal, State and Federal negotiators employed 
technical studies to determine that historical net inigation supplies 
could be maintained and protected while project improvements were made 
to save water for instream flows. To this end, diversions under the 
Compact initially remain the same as historical amounts. As FIIP 
improvements and water conservation measures are implemented, the saved 
water is left instream to help meet flow rights. In turn, FIIP 
diversions would be reduced by a commensurate amount while ensuring 
that net crop demands continue to be met. As a safeguard, the Compact 
provides that, during implementation, irrigation diversions ``shall be 
evaluated to ensure their adequacy to meet Historic Farm Deliveries.'' 
(Compact, Article IV.D.1.e.) If water in excess of those deliveries is 
needed, it will be provided by increasing water pumped from Flathead 
Lake. (Compact, Article IV.D. l .e.ii.)
    There are additional terms that would further safeguard FIIP water 
use. The CSKT and the State committed in the Compact to seek Federal 
legislation to provide funds from power revenues on the Reservation to 
improve FIIP operations and water supplies. (Compact, Article IV.H.3.) 
They also agreed to several provisions in the Compact that protect the 
FIIP water supply in times of shortage, including sharing between 
instream flows and irrigation diversions. In dry years when ``water 
supplies are inadequate to simultaneously satisfy'' instream flows and 
irrigation diversions, the Compact sets out several measures that can 
be taken to augment irrigation water. (Compact, Atticle IV.E.1.3.)
    The negotiators also addressed assertions that the Compact takes 
legal title to the FIIP water rights away from landowners served by 
FIIP and places it with CSKT. There is little precedent, however, 
supporting third-party party claims to legal title to BIA project water 
rights held in trust for Tribes. In contrast, Indian settlements in 
Montana and Idaho placed title to BIA irrigation project water rights 
in the name of the United States in trust for the Tribe, even for BIA 
projects that serve both Indian and non-Indian irrigators on a 
reservation. We also note that Washington State courts adjudicated the 
water rights for the BIA irrigation project on the Yakama Reservation, 
which serves extensive non-Indian lands, to be properly held by the 
United States in trust for the Yakama Nation.
    However, the Depaitment also recognizes that all landowners served 
by a BIA irrigation project, whether Indian or non-Indian, are entitled 
to continue to receive project irrigation water to the extent the water 
is physically and legally available and assessments have been paid. The 
CSKT Compact includes protections for FIIP water users' entitlements to 
Project water. (See Compact, Article III.C.1.a ( expansive definition 
of FIIP service area); Compact, Article IV.D.2 (recognition of 
entitlement through a ``delivery entitlement statement'').)
    Finally, I note the obvious risks that FIIP water users would face 
if the quantification of CSKT' s on-Reservation instream flow rights 
cannot be settled. As noted above, Federal courts in the 1980s 
recognized CSKT's entitlement to on-Reservation instream flow rights 
throughout the Reservation with a time-immemorial priority date that is 
senior to FIIP. Under this legal precedent, water would not be shared 
between FIIP and the instream flows; rather, instream flows would be 
met first to the full extent of their legal entitlement. The one 
question that the Federal comts left for the Montana courts was the 
quantification of CSKT's on-Reservation flow rights. Currently, Federal 
claims seek instream flow rights for the majority of water even in 
wetter years; if the courts were to confirm this claim, water for FIIP 
diversions would be available only in the wetter years and only to the 
extent not needed to meet the instream flow right. Even if the Water 
Court were to quantify the right at a lower median range, the 
Department's assessments show a likelihood that insufficient water will 
remain for viable FIIP irrigation diversions. Some objectors to the 
Compact argue that the ``interim instream flows'' established by BIA in 
the late 1980s should be the permanent quantification of the Tribes' 
flow rights. In my view, this position faces significant risk because 
the interim flows are not quantified and they do not appear 
biologically sufficient. The Compact, in contrast, ensures water for 
FIIP that otherwise might not be available if these claims were 
litigated.
    For these reasons, the Department concluded that the Compact would 
appropriately resolve both the FIIP itTigation and the CSKT flow 
rights.
3. Administration of Water Rights on the Flathead Reservation under the 
        Compact
    Concerns have been raised about the Compact's terms for on-
Reservation administration and enforcement of water rights after entry 
of a decree. This is set fo1th in the ``Unjtary Administration and 
Management Ordinance'' (UMO), and administered by the joint State-
Tribal ``Flathead Reservation Water Management Board'' (Board) of water 
rights post-decree. Montana State government entities are best 
positioned to respond to assertions that these terms violate the 
Montana Constitution. The State-under the auspices of the Montana 
Reserved Rights Commission, the Attorney General's Office, and legal 
counsel for the Montana legislature--has analyzed the matter and 
concluded that the UMO is constitutional. The Montana Supreme Court has 
also confirmed that the legislature's approval of the Compact, 
including the UMO, complied with State law.
    As noted above, it is my experience that, during the entirety of my 
professional career, the Federal Government has consistently supported 
efforts in Tribal water right negotiations to address how water rights 
on the reservation will be administered and enforced once a settlement 
is reached. In this negotiation, given the vast number of commingled 
Tribal and non-Tribal water uses on the Reservation, the parties 
explored proposals to create a single Tribal-State administrative body 
to administer on-Reservation rights, rather than a system of dual 
administration by the State and the Tribes. The single administrative 
body, the Board, consists of five voting members. CSKT and Montana 
would each appoint two board members. A fifth board member is then to 
be selected by the four appointees, or, if they cannot agree, 
alternative provisions exist for the appointment of the fifth board 
member. There are also provisions for local county commissioners' 
involvement in the selection of the State representatives. (Compact, 
Article IV.1.1.2.) The jurisdiction of the Board is limited to 
approving new rights, authorizing changes in use, and enforcing 
existing rights as set forth by the Compact. (Compact, Article IV.1.4.)
    The Department did an extensive review of the UMO and concluded 
that, while the administration of on-Reservation rights through a 
single management board is novel, the te1ms of the Compact establish a 
workable and appropriate administration regime, provided that the Board 
and UMO are authorized by the State legislature, the Tribes, and 
Congress.
    The Depai1ment's review of the UMO focused on whether the UMO 
properly recognized and protected the water entitlements of the Tribes 
and Indian allottees on the Flathead Reservation; improperly placed the 
management and administration of the water rights of non-Indian 
residents on the Reservation under Tribal jurisdiction; and provided 
basic due process protections to all water rights holders. First, with 
respect to the Federal reserved water rights of the Tribes and Indian 
allottees, which fall within Congress' restrictions against alienation 
and the unique protections for allottee water rights, the Depai1ment 
concluded that the Board, as governed by the UMO and the Compact, 
provided ample protections. Second, the State concluded that the UMO 
did not place non-Indian residents on the Reservation under Tribal 
jurisdiction. The Depai1ment concurs in that conclusion. The Board has 
been approved by the Montana legislature (as well as by the Tribes and 
the United States). Therefore, the Board's activities with regard to 
non-Indians constitute an exercise of State jurisdiction.
    Finally, the UMO accords those appearing before the Board the same 
substantive standards and procedures available to others in the State. 
The Compact makes clear that the Board lacks the authority to amend the 
UMO, preventing changes to these procedures. (Compact, Article IV.J.) 
(``No amendment by the Tribes or the State of the Law of Administration 
shall be effective unless and until the other makes an analogous 
amendment.'') The Compact further provides the opportunity for judicial 
review of decisions made by the Board in a court of competent 
jurisdiction. (Compact, Article IV.1.6.) Although patties may argue 
whether that review lies in State or Federal court, nothing in the 
Compact extends Tribal court jurisdiction over non-Indian water rights 
holders. The Department ultimately agreed with the State's conclusion 
that the UMO procedures that govern the Board in conjunction with the 
opportunity to seek judicial review of the Board's decision protect the 
due process rights of both non-Indian and Indian water rights holders.
C. Conclusion
    Through its negotiation team, the Federal Government actively 
participated in the CSKT reserved water right negotiations. Once 
negotiations were completed, the Federal team brought the proposed CSKT 
Compact to the Interior and Justice Departments for review and 
consideration whether to support the Compact. The Department of the 
Interior has evaluated the core concerns and criticisms that have been 
raised with respect to the Compact and found that these concerns were 
addressed in the negotiations.
    I look forward to working with you as you work to resolve this 
important issue in Congress.
                                 ______
                                 

    *RESPONSES TO THE FOLLOWING QUESTIONS FAILED TO BE 
SUBMITTED AT THE TIME THIS HEARING WENT TO PRINT*

            Written Questions Submitted by Hon. Tom Udall to
                  U.S. Environmental Protection Agency
    Question 1. Please provide the Committee with a list of Indian 
tribes in the portion of the Columbia River Basin that is south of the 
Columbia River, below the Grand Coulee Dam, or is in an adjacent 
coastal basin, which would be eligible under  2(1)(D) of S. 3044.

    Question 2. Please provide a list of Indian tribes located in the 
Columbia River Basin that have been terminated and subsequently 
restored, which would be eligible under  2(3)(B) of S. 3044.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
